<html>
<title> - NASA'S RESPONSE TO THE COLUMBIA REPORT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                           NASA'S RESPONSE TO
                          THE COLUMBIA REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2003

                               __________

                           Serial No. 108-28

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


89-217              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                           September 10, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     5
    Written Statement............................................     6

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....     7
    Written Statement............................................     8

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    10

Prepared Statement by Representative Nick Smith, Chairman, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    12

Prepared Statement by Representative Rob Bishop, Member, 
  Committee on Science, U.S. House of Representatives............    12

Prepared Statement by Representative Tom Feeney, Member, 
  Committee on Science, U.S. House of Representatives............    13

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    13

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    14

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    14

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    15

Prepared Statement by Representative Jim Matheson, Member, 
  Committee on Science, U.S. House of Representatives............    16

                               Witnesses:

The Honorable Sean O'Keefe, Administrator, National Aeronautics 
  and Space Administration (NASA)
    Oral Statement...............................................    17
    Written Statement............................................    17

Admiral Harold Gehman (retired), Chairman, Columbia Accident 
  Investigation Board
    Oral Statement...............................................    22

Discussion
  Schedule Pressure..............................................    22
  One-Year Look-Back.............................................    23
  Operating Plan Changes.........................................    24
  Crew Escape....................................................    25
  Foam...........................................................    26
  Vision and the Interagency Review..............................    28
  The Independent Technical Authority............................    31
  Management Communication Regarding Schedule....................    33
  Countermeasures to Schedule Pressure...........................    34
  Shuttle Safety and Risk........................................    35
  Vision Formulation and the Interagency Process.................    38
  External Tank Foam and the Use of Freon........................    40
  RTF Workforce..................................................    42
  Schedule Effects on Workforce..................................    43
  NASA/Navy Benchmark............................................    44
  Accountability.................................................    46
  Vision.........................................................    50
  Shuttle Upgrades...............................................    53
  OMB Passbacks..................................................    55
  Independent Technical Engineering Authority....................    56
  Stafford/Covey.................................................    59
  Attitude/Culture...............................................    61
  OSP and ISS....................................................    64
  ASAP...........................................................    68
  Effects of the Proposed $200 Million Cut to Human Space Flight.    69
  Political Appointees and Bonuses...............................    69
  Budget Cuts....................................................    72
  Supplemental Request...........................................    72
  Manned vs. Unmanned Space Flight...............................    74
  RTF Costs and Schedule.........................................    76
  Hubble.........................................................    77
  Schedule Pressure..............................................    77
  Hubble.........................................................    79
  Stafford/Covey.................................................    80
  Alternative Access to Station..................................    81
  Interagency Working Group Participants.........................    82
  OSP............................................................    85
  Accountability.................................................    87
  ISS Safety.....................................................    87

             Appendix 1: Answers to Post-Hearing Questions

The Honorable Sean O'Keefe, Administrator, National Aeronautics 
  and Space Administration (NASA)................................    92

Admiral Harold Gehman (retired), Chairman, Columbia Accident 
  Investigation Board............................................   110

             Appendix 2: Additional Material for the Record

NASA's Implementation Plan for Return-to-Flight and Beyond, 
  September 8, 2003..............................................   114

Letter to Chairman Sherwood Boehlert from Sean O'Keefe, 
  Administrator, NASA, dated July 23, 2003.......................   264

Return-to-Flight Task Group Charter..............................   265

Stafford-Covey Task Group Biographies............................   268

Stafford-Covey Task Group Members................................   272

Implementation Plan, NASA Engineering & Safety Center, Langley 
  Research Center, August 15, 2003...............................   284

Management Plan, NASA Engineering & Safety Center, Revision A....   291

Letter to The Honorable Ted Stevens, Chairman, Committee on 
  Appropriations, from Douglas Holtz-Eakin, Director, 
  Congressional Budget Office, dated July 29, 2003...............   304

NASA's Space Flight Operations Contract and Other Technologically 
  Complex Government Activities Conducted by Contractors, July 
  29, 2003, Congressional Budget Office..........................   306

Not Culture But Perhaps a Cult, Op. Ed. on NASA and the Shuttle 
  by Homer Hickam, Wall Street Journal, August 30, 2003..........   333

Convert the Shuttle, article by Robert Zubrin, SpaceNews, 
  September 8, 2003..............................................   335

 
                 NASA'S RESPONSE TO THE COLUMBIA REPORT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                           NASA's Response to

                          the Columbia Report

                     wednesday, september 10, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, September 10th at 10:00 a.m., the Science Committee 
will hold a Full Committee hearing on the National Aeronautics and 
Space Administration's (NASA) response to the Columbia Accident 
Investigation Board Report. The Committee will receive testimony from 
NASA Administrator Sean O'Keefe and retired Navy Admiral Harold Gehman, 
Chairman of the Columbia Accident Investigation Board (CAIB).
    The hearing will examine NASA's just released plan, ``NASA's 
Implementation Plan for Return-to-Flight and Beyond,'' which is NASA's 
response to the CAIB report. Issues for the hearing include whether the 
plan fully complies with the CAIB recommendations; the cost and 
schedule associated with implementing the plan; whether the task group 
(led by the two former astronauts Thomas Stafford and Richard Covey) 
that NASA has appointed to oversee return-to-flight provides the best 
mechanism to assess NASA's implementation; and the criteria used to 
determine when the Shuttle is ready to return to flight. The hearing 
will also review the impact a significant delay in return-to-flight 
might have on the International Space Station, the Hubble Space 
Telescope, and the proposed Orbital Space Plane.

2. Background

    On Monday, September 8, 2003, NASA released its response to the 
CAIB report, ``NASA's Implementation Plan for Return-to-Flight and 
Beyond.'' (See Attachment.) In the plan, NASA states that it accepts 
the findings of the CAIB, will comply with the recommendations, and 
embraces the entire report. The plan outlines NASA's response to each 
recommendation made by the CAIB, along with the current status and a 
schedule of milestones. In addition to the CAIB recommendations, NASA 
has developed 10 additional corrective actions to address other areas 
of concern. Two of these actions (SSP-1 and SSP-2) coincide with 
``observations'' in the CAIB report. (The CAIB labeled as 
``observations'' several recommendations for changes at NASA that did 
not relate directly to the Columbia accident.)
    NASA describes the implementation plan as a ``living document'' 
that will be periodically updated as plans are refined and progress is 
made in making technical, management, cultural, and safety changes. 
NASA Administrator O'Keefe has stated that the Shuttle will not return 
to flight until it is ``fit to fly.'' However for planning purposes, 
NASA continues to work toward a March 11, 2004 date for return-to-
flight.
    NASA has a poor record of fully implementing recommendations from 
previous reports, particularly non-technical recommendations. 
Therefore, a key issue is whether NASA will fully satisfy the CAIB 
recommendations. The return-to-flight plan says little at this point 
about how NASA will implement the central organizational 
recommendations of the CAIB, such as creating an independent technical 
authority. NASA officials say they are still figuring out how to 
respond to those recommendations, and implementation plans for 
reorganization will be added to the return-to-flight plan later. (The 
CAIB required only that NASA have a detailed plan for reorganizing in 
place before flights resume; CAIB said the plan could be implemented 
after return-to-flight.)
    Since the CAIB only laid out criteria for reorganization, rather 
than providing a detailed plan of its own, the Committee will have to 
review NASA's plans carefully against the CAIB criteria. For example, 
in July, NASA created a new safety center at the Langley Research 
Center in Virginia. NASA at first described the center as being in step 
with the CAIB recommendations, but reversed itself once the CAIB 
publicly disagreed with that description. NASA is now in the process of 
reviewing how the new safety center at Langley will operate.
    Several months ago, NASA Administrator O'Keefe appointed a Return-
to-Flight Task Group, headed by former astronauts Richard Covey and Tom 
Stafford and including 26 other members, to independently assess NASA's 
implementation of the CAIB recommendations, but only insofar as they 
relate to the readiness of the next Shuttle launch, STS-114. The 
Stafford-Covey Task Group was created under the auspices of the NASA 
Advisory Council and is subject to the Federal Advisory Committee Act. 
The Task Group will formally and publicly report its results. The Task 
Group is not to second-guess the CAIB recommendations, but is only to 
report on NASA's progress on meeting the intent of the CAIB.
    This differs from the approach taken after the Challenger accident 
in 1986 when the National Academy of Sciences was tasked to form a 
special independent technical oversight team to evaluate NASA's return-
to-flight actions. Unlike the Stafford-Covey Task Group, which 
apparently can only advise NASA, the Academy team had the authority to 
reject technical changes proposed by NASA. In fact, the Academy 
rejected the first two concepts proposed by NASA for fixing the ``O-
ring'' joint of the Solid Rocket Booster. Earlier this year, the 
Academy offered to provide NASA a similar service, but NASA apparently 
rejected the offer. Administrator O'Keefe is reluctant to give ``sign 
off'' for return-to-flight to anyone outside the NASA structure for 
fear that doing so would cloud his message that NASA managers are 
responsible and accountable for flight safety.
    NASA plans to review the more than 3,000 waivers that exist to the 
Shuttle's technical specifications--a move that goes even beyond the 
CAIB's recommendations, but a step that was taken after the Challenger 
explosion. Such waivers allowed the Shuttle to continue flying, for 
example, without NASA fixing the foam problem even though the design 
requirements stipulate that no foam debris be allowed to strike the 
Shuttle's delicate thermal insulation. The CAIB reported that more than 
a third of the Shuttle's waivers had not been reviewed in over 10 
years.
    NASA's plans to have the Shuttle program review the waivers by next 
January. (The CAIB did not mention reviewing the waivers explicitly, 
but assumed that the new, independent technical organization it 
recommended would review all specifications and waivers after return-
to-flight.) NASA's plans raise questions about how such a review can be 
accomplished so quickly and about what process and structure NASA will 
use to carry out the review to ensure that it is independent and 
thorough. Since the specifications and waivers were created by the 
Shuttle program; the CAIB was skeptical of the program's ability to 
take a hard look at them itself.

3. Witnesses

The Honorable Sean O'Keefe, Administrator, National Aeronautics and 
Space Administration. Mr. O'Keefe was sworn in as the 10th 
Administrator of NASA on December 21, 2001. Prior to NASA, O'Keefe 
served as the Deputy Director of the Office of Management and Budget. 
Prior to joining the Bush Administration, he was a Professor at the 
Syracuse University Maxwell School of Citizenship and Public Affairs 
and previously at Pennsylvania State University. O'Keefe has served as 
Secretary of the Navy and Comptroller and Chief Financial Officer of 
the Department of Defense during the first Bush Administration. Before 
joining the Defense Department, he served as Staff Director of the 
Senate Defense Appropriations Subcommittee. His public service began in 
1978 upon selection as a Presidential Management Intern.

Admiral Harold Gehman (retired), Chairman, Columbia Accident 
Investigation Board. Formerly Co-Chairman of the Department of Defense 
review of the attack on the U.S.S. Cole. Before retiring, Gehman served 
as the NATO Supreme Allied Commander, Atlantic, Commander in Chief of 
the U.S. Joint Forces Command, and Vice Chief of Naval Operations for 
the U.S. Navy. Gehman earned a B.S. in Industrial Engineering from Penn 
State University and is a retired four star Admiral.

Attachment

    NASA's Implementation Plan on Return-to-Flight and Beyond, dated 
September 8, 2003, appears in Appendix 2: Additional Material for the 
Record.
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone here this morning for the second 
of our hearings on the report of the Columbia Accident 
Investigation Board, and the first of our hearings on ``NASA's 
Implementation Plan on Return-to-Flight and Beyond.''
    I think Administrator O'Keefe and NASA are to be 
congratulated for their wholesale embrace of the CAIB report 
and for moving so swiftly to put together a detailed, specific 
plan in response. But while the wholesale embrace is 
comforting, what happens at the ``retail'' level is what will 
matter in the end. We need to ensure that, after this report, 
reforms are put into effect that will truly change NASA 
behavior up and down the chain of command.
    The current iteration of the NASA Implementation Plan is a 
useful start, but as I am sure Administrator O'Keefe will be 
the first to acknowledge, it is only a start. It is a work in 
progress. At this point, for example, the report is still 
pretty much silent on how NASA will implement the CAIB's 
recommendation to establish an independent technical authority, 
one of the essential reforms sought by the CAIB.
    And yet, at the same time, the Plan says that NASA will go 
beyond the CAIB recommendations and review all waivers before 
return-to-flight. Such a review is undoubtedly a useful 
additional step, but it raises questions about who will conduct 
such a review and whether enough time is being allowed for it 
to occur thoroughly.
    Indeed, timing remains a critical question for NASA and 
this committee. Administrator O'Keefe has made clear in his 
recent statement, and I am sure he will again today, that there 
is no fixed date for return-to-flight and that the target date 
of March 11 is a ``no earlier than'' date.
    That said, I am still concerned that the target is 
exceedingly ambitious and could skew NASA's efforts to return-
to-flight. We also need to hear more about how NASA will 
schedule launches after return-to-flight to avoid the excessive 
schedule pressure related to the construction of the 
International Space Station, pressure that was discussed in 
great detail in the CAIB report, and pressure that Admiral 
Gehman has cited as an area in which NASA leadership created a 
cultural problem.
    So we have many questions about the Implementation Plan, 
but they are just that, questions. This report has been 
available for less than a week, and it is, as I said earlier, a 
work in progress. It is far too early for us to comment 
definitively on it. All we can really say now is that we will 
monitor the Implementation Plan and how it is carried out as 
closely as humanly possible, even as we deal with larger 
questions about the future of the human space flight program as 
a whole.
    I should add that NASA personnel, including the 
Administrator, have been extremely accessible to both the 
Members and the staff of this committee in recent weeks, which 
should enable our oversight of return-to-flight to go more 
smoothly. I am sure Administrator O'Keefe will continue to be 
helpful to us this morning.
    Let me also thank Admiral Gehman for appearing before us 
again today.
    I want to make clear that Admiral Gehman is not here to 
comment on the Implementation Plan itself; he has only had a 
week or two to look at it, and he isn't authorized to speak on 
this subject on behalf of his Board, which has officially 
dissolved now.
    The reason we have asked Admiral Gehman back is to ensure 
that no one mischaracterizes the findings or recommendations of 
the Board at today's hearing even inadvertently. The last thing 
we need is for a misinterpretation to originate here and for it 
then to be perpetuated as NASA plans for its future. So Admiral 
Gehman will have a circumscribed, but vital role today, keeping 
us on the straight and narrow, and I want to thank him for 
doing that.
    Mr. Hall.
    [Statement of Chairman Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I want to welcome everyone here this morning for the second of our 
hearings on the report of the Columbia Accident Investigation Board 
(CAIB)--and the first of our hearings on ``NASA's Implementation Plan 
on Return-to-Flight and Beyond.''
    I think Administrator O'Keefe and NASA are to be congratulated for 
their wholesale embrace of the CAIB report and for moving so swiftly to 
put together a detailed, specific plan in response. But while the 
wholesale embrace is comforting, what happens at the ``retail'' level 
is what will matter in the end. We need to ensure that, after this 
report, reforms are put into effect that will truly change NASA 
behavior up and down the chain of command.
    The current iteration of the NASA Implementation Plan is a useful 
start, but--as I'm sure Administrator O'Keefe will be the first to 
acknowledge--it is only a start. At this point, for example, the report 
is still pretty much silent on how NASA will implement the CAIB's 
recommendation to establish an independent technical authority--one of 
the essential reforms sought by the CAIB.
    And yet, at the same time, the Plan says that NASA will go beyond 
the CAIB recommendations and review all waivers before return-to-
flight. Such a review is undoubtedly a useful additional step, but it 
raises questions about who will conduct such a review and whether 
enough time is being allowed for it to occur thoroughly.
    Indeed, timing remains a critical question for NASA and this 
committee. Administrator O'Keefe has made clear in his recent 
statements, and I'm sure he will again today, that there is no fixed 
date for return-to-flight and that the target date of March 11 is a 
(quote) ``no earlier than'' date.
    That said, I'm still concerned that the target is exceedingly 
ambitious and could skew NASA's efforts to return-to-flight. We also 
need to hear more about how NASA will schedule launches after return-
to-flight to avoid the excessive schedule pressure related to the 
construction of the International Space Station--pressure that was 
discussed in great detail in the CAIB report, and pressure that Admiral 
Gehman has cited as an area in which NASA leadership created a cultural 
problem.
    So we have many questions about the Implementation Plan--but they 
are just that--questions. This report has been available for less than 
a week, and it is a work in progress. It is far too early for us to 
comment definitively on it. All we can really say now is that we will 
monitor the Implementation Plan and how it is carried out as closely as 
is humanly possible, even as we deal with larger questions about the 
future of the human space flight program as a whole.
    I should add that NASA personnel, including the Administrator, have 
been extremely accessible to both the Members and staff of this 
committee in recent weeks, which should enable our oversight of return-
to-flight to go more smoothly. I'm sure Administrator O'Keefe will 
continue to be helpful to us this morning.
    Let me also thank Admiral Gehman for appearing before us again 
today.
    I want to make clear that Admiral Gehman is not here to comment on 
the Implementation Plan itself--he's only had a day or so to look at 
it, and he isn't authorized to speak on this subject on behalf of his 
Board, which has officially dissolved now.
    The reason we've asked Admiral Gehman back is to ensure that no one 
mischaracterizes the findings or recommendations of the CAIB at today's 
hearing even inadvertently. The last thing we need is for a 
misinterpretation to originate here and for it then to be perpetuated 
as NASA plans for its future. So Admiral Gehman will have a 
circumscribed, but vital role today, keeping us on the straight and 
narrow, and I want to thank him for doing that.
    Mr. Hall.

    Mr. Hall. Mr. Chairman, good morning. I thank you for the 
capability that you have brought and the responsibility and the 
flexibility you have practiced and the availability that you 
have given to us. By golly, you have been available here and 
there, so I have attended almost every meeting we have had with 
the families and you have both performed admirably. And I 
respect and I thank you.
    These hearings are some of the most important that this 
committee will hold during this Congress, and I think they are 
arguably probably the most important we have held in the last 
10 years on the subject matter that we are talking about here 
today. We are examining the causes of the terrible accident 
that took the lives of seven brave astronauts and resulted in 
the loss of the Space Shuttle Columbia. We are looking for 
solutions to the problems that were uncovered by the Columbia 
Accident Investigation Board to ensure that we do all that we 
can do to avoid any type of Shuttle problems in the future.
    Admiral Gehman and his colleagues gave very helpful 
testimony last week. We thank you for that. We appreciate their 
insights and constructive criticisms. Now it is your turn, Mr. 
O'Keefe. This Committee is interested in hearing your response 
to the CAIB report, what you agree with, what you may disagree 
with, and what you intend to do with the report's 
recommendations.
    We are talking about the future of the Nation's human space 
flight program. All of us are going to have to work together to 
address the issues raised by the Columbia tragedy. I intend to 
work with you, Mr. Administrator, with the White House, and 
with my colleagues in Congress to get past this setback and to 
continue the exploration of space.
    We are dealing with gentlemen and capable men and leaders 
of this country, two of the finest leaders we have in this 
country. And I look forward to working with you and working 
toward making the Shuttle work and getting back into space and 
continuing the progress that we have made. Mr. Administrator, I 
intend to work with you and with the White House and with my 
colleagues in Congress. And I intend, Admiral, to keep in touch 
with you. And I know your interest is not going to wind up with 
the day that your jurisdiction ceases or is slowed down.
    As part of that effort, I intend to devote myself to an 
examination of how we can best protect the lives of the Shuttle 
astronauts. All of us have that hope and that desire. We may 
not have another Shuttle accident for many, many years. I hope 
we never have another one, but God forbid, we may have one a 
lot sooner than that. However, if an accident does ever happen 
again, I just want to know that we did all we could to develop 
a crew escape system for the Shuttle, if it is feasible, if it 
is workable. And we have to know that, but we have to start on 
that route. And we have to get on that route. And we have to 
get underway with doing that. I don't know how much money ought 
to be put up. I am not sure where the money ought to come from, 
but I know that that ought to be everyone's goal is to have a 
way out. If we guess wrong on the type of Shuttle to put up 
there, the type of protection we put in there, they need to 
have an alternative or a way out if we have all guessed wrong 
or if we guess wrong in the future. And we are capable of it, 
because we have guessed wrong in the past.
    Last week, I asked one of the distinguished Board members, 
Dr. Sheila Widnall, MIT professor and former Secretary of the 
Air Force, if she thought it made sense to at least start down 
the trail of looking seriously at Shuttle crew escape systems. 
And she, as of record, agreed with us saying ``it is a 
completely reasonable path to take.''
    Well, I will not take any more of your time to discuss 
these issues in my opening statement. I think we all want to 
hear from the witnesses. And I think we all want to know that 
those youngsters that we send up there--we want to know that 
they have the safest vehicle, the safest circumstances, and if 
we don't give them those safer circumstances or if they don't 
turn out to be the safest, that they have an alternative and an 
opportunity to live. That is my whole--that is what I will be 
working toward, but I plan to work with you, Mr. Chairman, with 
the President, and with you, Mr. Administrator, and with every 
Member of Congress.
    I yield back my time.
    [Statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Good morning. I want to join the Chairman in welcoming NASA 
Administrator O'Keefe to our hearing, as well as welcoming Admiral 
Gehman back for some further discussion.
    These hearings are some of the most important that this committee 
will hold during this Congress, and they are arguably some of the most 
important we have held over the last 10 years. We are examining the 
causes of the terrible accident that took the lives of seven brave 
astronauts and resulted in the loss of the Space Shuttle Columbia. And 
we are looking for solutions to the problems uncovered by the Columbia 
Accident Investigation Board (CAIB)--to ensure that we do all we can to 
avoid another Shuttle accident in the future.
    Admiral Gehman and his colleagues gave very helpful testimony last 
week, and we appreciate their insights and constructive criticisms. 
Now, it is your turn, Mr. O'Keefe. This committee is interested in 
hearing your response to the CAIB report--what you agree with, what you 
may disagree with, and what you intend to do with the report's 
recommendations.
    We are talking about the future of the Nation's human space flight 
program. All of us are going to have to work together to address the 
issues raised by the Columbia tragedy. I intend to work with you, Mr. 
Administrator, with the White House, and with my colleagues in Congress 
to get past this setback and to continue the exploration of space.
    As part of that effort, I intend to devote myself to an examination 
of how we can best protect the lives of the Shuttle astronauts for as 
long as we continue to fly the Shuttle fleet. We may not have another 
Shuttle accident for another 17 years. God forbid, we might have one 
much sooner than that. However, if an accident ever does happen again, 
I want to know that we did all we could to develop a crew escape system 
for the Shuttle if it is feasible. We need to at least start down that 
road.
    Last week, I asked one of the distinguished CAIB members, Dr. 
Sheila Widnal--MIT professor and former Secretary of the Air Force--if 
she thought it made sense to at least start down the path of looking 
seriously at Shuttle crew escape systems. She agreed with me, saying 
``it is a completely reasonable path to take.''
    Well, I will not take any more time to discuss these issues in my 
opening statement. I know we all want to hear from the witnesses, and I 
will continue this discussion during the question period.
    I look forward to your testimony, and I yield back the balance of 
my time.

    Chairman Boehlert. Thank you very much, Mr. Hall. You 
demonstrate the bipartisan spirit that has always dominated the 
proceedings of this committee.
    Let me make a correction for the record. In my opening 
statement, I said that Admiral Gehman had the NASA return-to-
flight plan for a week or so. It is a day or so. I want to make 
that clear.
    Now the Chair recognizes Chairman of the Subcommittee on 
Space and Aeronautics, the distinguished gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
appreciate the fact that you have taken personal leadership and 
put so much time and energy into this to make sure that we not 
only have a full understanding of the Columbia tragedy but also 
that we have accounting and that we have the changes necessary 
to make sure that America's space program gets back on track 
and remains a leader in space exploration utilization.
    Tomorrow marks the second anniversary of the attack on the 
World Trade Center and the Pentagon. That happened roughly a 
half year into President Bush's Administration. A half-year 
after that, Mr. O'Keefe, you were appointed to head NASA. One 
half year after that, a major--another major catastrophe 
happened, the destruction of the Space Shuttle Columbia.
    The American people understand that it takes time for a new 
leader to affect change within an organization, especially the 
size and scope of the United States Government and the size and 
scope of NASA. At some point, however, there must be 
accountability.
    Well, when you add it all up, Mr. O'Keefe was the 
Administrator of NASA for roughly a year before the Columbia 
went down. He was a good choice to head the agency, and I still 
believe that. It was a good choice, because NASA needed 
accounting. And Mr. O'Keefe was affectionately dubbed, as he 
took control, the ultimate bean counter and the one who would 
make sure we understood all of the financial happenings over at 
NASA, and what was going on there.
    However, more than financial responsibility was vitally 
necessary at NASA. The Gehman Report suggests an evolution in 
attitude toward safety. Evolution that took place for over a 
decade, long before Mr. O'Keefe got there. This downward 
evolution towards safety was a major cause of the Columbia 
tragedy. I am disturbed that there still seems to be certain 
attitudes at NASA, even after the Gehman Report has pointed out 
this attitude and that the general attitude was a major cause 
of this crisis or this catastrophe. Perhaps--and it just seems 
to me to be reflected in what I see as a rush to return-to-
flight, in terms of NASA, and a rush, I might say, to return to 
policies that would keep us dependent on the Shuttle. NASA's 
recent decisions which basically nixed alternative resupply 
efforts to the Space Station seem to reflect this mindset, a 
mindset that would keep us dependent on the Shuttle even after 
the Gehman Report, even after all has been said and done. We 
end up having policies that are pushing away alternatives to 
the Shuttle and keeping us dependent on that in terms of the 
completion of Space Station and the supple of Space Station.
    Today, we examine the causes of the Columbia tragedy. We 
are looking for accountability and solutions. We need to know 
about changes in personnel, in policy, and in mindset at NASA. 
Let me state for the record that I still have, and I believe 
this committee, has faith in Mr. O'Keefe. He was Chairman--or 
Administrator for a year. Now how much he could have changed 
things in that year, I know that he personally went to all of 
the Space Shuttle launches, and we will be talking about that 
during the questions and answers, and we know that he took his 
job very seriously and continues to take his job very 
seriously. But what he does now is as important in his place in 
history in terms that he will be viewed in history as what he 
did before. And so we are looking for not only an examination 
of what you did before and what your predecessor did before, 
but also the policies that you are advocating and the 
leadership you are providing now to NASA. And again, let me 
state that I have full faith in Mr. O'Keefe and consider him to 
be--we are lucky to have a man of his caliber leading NASA.
    Finally, I think, Mr. Chairman, that we, in Congress, need 
to accept some accountability ourselves to not just always be 
pointing fingers. The fact is that all of us on this committee 
have been serving on--with this responsibility of overseeing 
NASA and for a lot longer than Mr. O'Keefe has been on his job. 
And I think that that deserves some self-introspection as well 
and some thoughtful examination by this committee as to whether 
we are doing our job.
    So with that said, I look forward to the testimony today. 
And again, I appreciate the leadership you are providing, Mr. 
Chairman.
    [The statement of Mr. Rohrabacher follows:]

         Prepared Statement of Representative Dana Rohrabacher

    Mr. Chairman, I am interested in hearing the NASA Administrator 
provide this Committee his agency's response to the Columbia Accident 
Investigation Board's recommendations, particularly as they relate to 
resuming our human space flight program. As painful as the lost of life 
can be, the risks of human space travel should not detour us from 
pursuing this worthy endeavor.
    I see little evidence that NASA fully appreciates the Board's 
findings on near-term, cargo delivery to the Space Station. For 
example, NASA's return-to-flight plan includes a new goal of having the 
International Space Station serve as a safe haven for the crew in the 
event of an emergency. But it is contingent upon the Russians' 
timetable for showing up with Progress and Soyuz vehicles to keep the 
crew alive.
    Unfortunately, alternatives for Space Station cargo resupply 
missions have gained little attention from NASA over the last few 
years. Why are we still risking lives on the Shuttle to deliver cargo 
supplies to the Space Station when there are other unmanned vehicles 
available to deliver cargo with our international partners? This 
problem is compounded by the fact NASA has repeatedly failed to develop 
a successful replacement for the Shuttle. This is now a national crisis 
resulting from NASA's failure to develop a new vehicle. They promised 
hi-tech solutions during the last decade with the X-33 and could not 
deliver it. This is why I believe NASA must seriously consider low-
tech, safe, low-cost and practical solutions for human space flight.
    Further, NASA's ability to implement the Board's recommendations 
will take money more than organizational wiring diagrams. In this 
instance, I share Chairman Boehlert's view that the Congress should not 
be in the business of rubber-stamping NASA's funding requests. NASA 
must be forthcoming in its near-term budget plans in order for this 
committee to make well-informed policy decisions. Determining the 
future of NASA is a team effort involving both the Congress and the 
Administration. We need straightforward, honest answers from NASA to 
avoid further deferring our dream of man's exploration of space.
    I look forward to today's discussion with Sean O'Keefe and the 
opportunity to learn more of his agency's plans for the future.

    Chairman Boehlert. Thank you very much, Mr. Rohrabacher.
    The Chair recognizes the Ranking Member on the Subcommittee 
on Space and Aeronautics, Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. And welcome, Admiral 
Gehman and Mr. O'Keefe.
    Let me start by reading some statements that struck me from 
a report here--the report. ``NASA must support the Space 
Shuttle Program with resources and staffing necessary to 
prevent the erosion of flight safety critical processes. The 
Committee feels strongly that the workforce augmentation must 
be realized primarily with NASA personnel rather than with 
contractor personnel. Space Shuttle maintenance and operations 
must recognize that the Shuttle is not an operational vehicle 
in the usual meaning of the term. The size and complexity of 
the Shuttle system and of NASA contractor relationship placed 
extreme importance on understanding, communication, and 
information sharing.'' Admiral Gehman, you may recognize that 
from the McDonald report that came forth in 2000. And I think 
it is probably why you have said candidly, on a variety of 
occasions, that--and you can say it for yourself, but you 
didn't plow all that much new ground in those areas, that 
McDonald laid out a good premise there.
    Then on April the 18th, 2002, Mr. Blumberg, who was the 
head of the Aerospace Safety Advisory Panel, testified before 
this panel--or this committee: ``In all my years of 
involvement, I have never seen--I have never been as worried 
for Space Shuttle safety as I am right now. All of my instincts 
suggest that the current approach is planting the seeds for 
future danger.'' And I think those statements laid a premise 
for this statement that was--that Admiral Gehman, your Board 
put in your report. ``Based on NASA's history of ignoring 
external recommendations or making improvements that atrophy 
with time, the Board has no confidence that the Space Shuttle 
can be safely operated for more than a few years based solely 
on renewed post-accident vigilance.'' The report also noted 
that ``the long-term recommendation will be internally resisted 
by the space agency.'' That is pretty rough.
    But let me say, I am not that pessimistic. As I told Mr. 
O'Keefe the other day, he has received a lifetime's worth of 
criticism and advice from the front page of most every 
newspaper in the country. And so I think that he is an able 
person who has gotten the message. And I am looking forward 
today to hearing more about how we get these benchmarks so that 
when the crowds recede and the cameras go away that we can make 
sure that the attention is still on safety and moving this 
process forward.
    And again, Mr. O'Keefe, I think we are all in this 
together. I am optimistic that you are going to--that you have 
gotten the message and that you are going to lay out a good 
plan for us. And thank you for being here today.
    Chairman Boehlert. Thank you very much. And all of the 
Members will have the authority to put their statements in the 
record at this juncture.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Nick Smith

    I'd like to thank Chairman Boehlert and Ranking Member Hall for 
holding this hearing today to discuss NASA's reaction to the Columbia 
Accident Investigation Board (CAIB) report.
    In the wake of the loss of the Space Shuttle Columbia there are a 
number of questions that need to be answered. The CAIB has done an 
admirable job of investigating the accident, pinpointing the direct 
cause, and identifying related factors, such as the ``NASA culture,'' 
that contributed to the tragedy. There are reasonable arguments why 
manned space flight should be put on hold. On this committee and as a 
nation, we need to have an honest, open discussion about whether or not 
the Shuttle program is viable and should be continued as is and whether 
there should be a greater shift to unmanned flight in terms of science 
and space exploration. I am concerned that NASA's ``Return-to-Flight'' 
plan, which sets March 11, 2004, as a goal for the next Shuttle launch, 
is an attempt to rush back to manned space flight, ignoring this 
important policy debate.
    By setting the goal of a March launch date, it almost feels like 
back to business as usual for NASA. The CAIB report cited unreasonable 
expectations for the Shuttle program, both by Congress and NASA, as one 
of the factors that detracted from attention to safety concerns. Last 
week, Admiral Gehman told the Committee that NASA has a history of 
promising more than they can deliver in order to get a program 
approved. He also said that lower level officials felt pressured to 
meet deadlines at the expense of safety.
    Administrator O'Keefe, you have said that the Shuttle will not 
return to flight until it is ``fit to fly,'' but with the target date 
for the next launch six months away I am concerned that we will end up 
not dealing with all past mistakes. A successful mission would merely 
give us a false sense of confidence in the Shuttle and create inertia 
against a thorough re-evaluation of the space program that includes a 
shift to unmanned flight.
    The American people deserve a spice program that focuses on 
producing quality and efficient scientific research. The conversation 
that needs to be taking place right now is whether or not continuing 
the Shuttle program advances this goal. Instead, Mr. O'Keefe, you seem 
to be debating that the same priority for manned flight is a forgone 
conclusion and how quickly we can resume sending astronauts into space. 
I look forward to working with my colleagues and Administrator O'Keefe 
to work on ways to create a safer, mode effective research-oriented 
space program.

    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Our nation is at a crossroads in space science and space 
exploration. Our task is not as simple as determining whether NASA can 
implement the Columbia Accident Investigation Board's recommendations 
and return-to-flight. It is much more difficult and fundamental than 
that. We need to determine whether our nation should continue human 
space exploration.
    If we decide to continue, we must decide on the extent of that 
exploration and ensure that the program has goals that clearly 
contribute to NASA's overall mission as a science agency. We must 
remember that dollar for dollar unmanned missions provide significantly 
more scientific knowledge than human space flight. A commitment to 
human space exploration will be expensive and risky--we must be 
prepared to pay the price and accept the risk.
    Deciding the fate of human space flight at NASA requires an 
extensive and open national debate on a range of subjects from NASA's 
cultural and organizational flaws to the design of a new launch 
vehicle. I am pleased that the NASA Administrator, Mr. O'Keefe, and the 
Columbia Accident Investigation Board Chairman, Admiral Gehman, are 
here today to engage in this debate.
    I know that Mr. O'Keefe recognizes the need for change at NASA; I 
look forward to hearing NASA's response to the Board's report. Make no 
mistake though, Congress must now provide the necessary leadership and 
oversight to help NASA make the right changes and emerge as a stronger 
science agency.

    [The prepared statement of Mr. Bishop follows:]

            Prepared Statement of Representative Rob Bishop

    Since the Columbia disaster, only the second Shuttle failure in 
over 22 years of operation, we have re-evaluated the importance and 
viability of human space flight and exploration. It has been a valuable 
discussion, and we must continue to define the role our nation will 
play in space exploration, but an overwhelming majority of Americans 
support our continued human presence in space--it's part of our 
heritage and vital to our future. I reject much of the recent criticism 
by ``Monday morning quarterbacks'' directed at NASA, when NASA and the 
Space Shuttle program have so greatly benefited us and this nation.
    I am proud to live 40 miles from Promontory Summit, Utah, where in 
1869 the first transcontinental railroad was completed. This 
advancement in transportation was achieved at an enormous cost of human 
lives and material resources, but was crucial for the unification and 
technological advancement it provided this country. The railroad, in 
its prime, was the most vital transportation link in America. Although 
this form of transportation has since been complemented by automobiles 
and airplanes, it still serves an important function today in 
transporting heavy cargo and people across the country. About ten miles 
from the historic Promontory Point, the motors that propel the Space 
Shuttle through our atmosphere are manufactured. The Shuttle has proved 
to be just as important and significant to travel and technological 
innovation in our time as the transcontinental railroad was over 100 
years ago.
    I fully support the development of a new human space flight launch 
vehicle that will be more reliable and more cost-effective than the 
Space Shuttle; however, the Shuttle--in the immediate future--is our 
only link to human presence in space. The Shuttle should be returned to 
service as soon as safely practical. NASA should be commended for its 
commitment to safety and willingness to comply with the safety 
recommendations of the Columbia Accident Investigation Board and to 
improve its cultural infrastructure, not criticized with the 20/20 
vision of hindsight. Our development of a new human space flight launch 
vehicle should supplement--and not immediately replace--the Space 
Shuttle that has served us so well for 22 years.

    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    Last week, Admiral Gehman, Dr. Hallock, Major General Hess, and Dr. 
Widnall testified about the Columbia Accident Investigation Board's 
(CAIB) report. Like that report, they provided candid, direct, and 
insightful testimony about Columbia's loss. Furthermore, they agreed to 
reconstitute, if asked, the CAIB in one year to review NASA's progress 
in implementing the report's recommendations and observations. This 
nation is deeply grateful for the unselfish and tireless dedication of 
the CAIB's members and staff--a remarkable example of public service.
    We now focus on moving forward. Two days ago, NASA released its 
plan to implement the CAIB's recommendations. This plan remains a work 
in progress but provides a good faith effort to returning the Shuttle 
to flight. Time will tell whether NASA meets the challenges laid down 
by the CAIB. But I know the NASA family--who lost so much on February 
1--possesses the potential to do so. I urge every one of them to 
unconditionally dedicate themselves to this effort.
    Today, NASA Administrator O'Keefe joins us. I commend him for fully 
embracing the CAIB Report--not only the words but also more importantly 
its spirit. I was with Administrator O'Keefe on that terrible February 
day and have watched his leadership during the subsequent months. At 
times, he seems like Atlas--carrying America's human space program on 
his shoulders. He too exemplifies genuine public service.
    I look forward to today's testimony and the subsequent give and 
take. Chairman Boehlert and this committee's Members provide a much 
needed forum for thoughtful discussion about achieving a rigorous and 
sustainable American human space program--a final example of public 
service.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank Administrator O'Keefe and Admiral 
Gehman for appearing before our committee to discuss NASA's response to 
the Columbia Investigation Board (CAIB) Report. In any discussion of 
the Columbia accident, we must remember to honor the seven astronauts, 
their vision and their legacy. Both our nation and our world benefit 
enormously from each mission.
    NASA just released its plan, ``NASA's Implementation Plan for 
Return-to-Flight and Beyond,'' which is NASA's response to the CAIB 
report. This report provides a start at how NASA plans to reorganize 
its programs to become flight ready.
    The CAIB report is quite critical of schedule pressure placed on 
the Shuttle program to meet a February 19, 2004 date for the launch of 
Node 2 to complete the ``core complete'' milestone. ``Core complete'' 
was not a recognized space station assembly milestone prior to this 
Administration's decision in early 2001 to cut the station program by 
eliminating the planned U.S. crew return vehicle and habitation module, 
cutting the planned crew size from 7 to 3, and cutting the planned 
research budget by 40 percent.
    In the House Science Committee hearing last week, Admiral Gehman 
stated that Shuttle program workers felt pressure because of 
requirements to work weekends and to make up a potential 45-day delay 
in the milestone by performing some safety activities in parallel 
rather than in a prescribed sequence. Even more telling was that 
Admiral Gehman believes there was a disconnect between managers and 
workers, whereby managers viewed the deadline as flexible and workers 
got a message that it was not.
    Because of this, I find it surprising that we see echoes of the 
management focused on deadlines for return-to-flight. With respect to 
the schedule for returning the Shuttle to flight, NASA management set 
an aggressive milestone of December 2003 before the CAIB report was 
even completed. As the magnitude of the Board's recommendations became 
known, NASA management then changed the date to early March 2004. After 
further criticism of a rush to return the Shuttle to flight, NASA 
stated that the schedule would be ``event driven'' and not ``schedule 
driven.'' Nevertheless, the just-released NASA return-to-flight plan 
sets March 11, 2004 as the current planning date.
    CAIB found that management goals were having a negative impact on 
the line workforce that keeps the Shuttles flying, and more 
significantly for Columbia, affecting the attitudes of Shuttle program 
managers who came to view flight problems through the lens of threats 
to the schedule rather than threats to the safety of the astronauts. I 
find it problematic that there may be similar pressure on NASA 
employees to return-to-flight by the March 2004 deadline and I am 
interested in delving further into this issue of schedule pressure.
    I am also interested in the independent organizations recommended 
by the CAIB report. I have been a fervent proponent of external review 
for the Department of Energy (DOE) civilian labs. I see many 
similarities and differences to the current system at DOE in the 
proposed CAIB recommendations and believe Congress must take a closer 
look at how the report and NASA will interpret and define independent, 
who will staff these organizations (government employees, contract 
employees, or both), and what exactly their duties will be.
    I again thank the witnesses for being with us today and providing 
testimony to our committee.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. I would like to thank you for calling this 
important hearing today, and I would also like to thank Administrator 
O'Keefe for agreeing to appear here today and Admiral Gehman for 
returning to answer our questions on this most important hearing on the 
Columbia Accident Investigation Board Report.
    Today we are brought here again to discuss the details of the 
Columbia Accident Investigation Board (CAIB) report. To protect the 
safety and integrity of the future of this country's space program, we 
must learn from the mistakes of the past. The report from this 
investigation will allow us to see what went wrong and how to prevent 
it from happening again. It is essential that we put forth a concerted 
effort to protect the safety of our astronauts.
    Unfortunately, we see from the CAIB report that there was pressure 
from the leadership that led to unsafe practices. One of the biggest 
concerns I've had with this current NASA administration has been the 
privatization and competitive sourcing of governmental functions. 
Throughout the 1990's, the Shuttle workforce has shrunk. From the 1992-
2002, NASA Shuttle workforce was reduced by more than 50 percent and 
the Shuttle contractor workforce by more than 40 percent. The Gehman 
report documents these facts as well as the fact that the diminished 
capability of the NASA Shuttle workforce was a factor in the Columbia 
accident. I find this quite alarming.
    We can no longer pass blame or hide behind ignorance when we 
discuss the safety of our astronaut core. Its time we stand up and face 
the music of the mistakes made, if not only to honor of our brave 
heroes who have passed because of our arrogance or failure to see the 
errors of our ways. That is the least we owe in their memory.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    I thank the Chairman and Ranking Member for holding this important 
hearing, and Administrator O'Keefe and Admiral Gehman for taking the 
time to join us today.
    I want to quote from an anonymous e-mail sent by a NASA employee to 
NASAWATCH regarding the Columbia accident and accountability:

    ``(W)hat is most disheartening in the aftermath of this accident, 
is that not one of those (NASA or contractor) managers has resigned.

    Mr. Gregory, who oversaw the downsizing of the safety program, and 
still believes safety is alive and well at NASA, continues to provide 
Mr. O'Keefe with technical advice. Mr. O'Connor, who did not feel he 
should interfere with the Shuttle Program on a potentially catastrophic 
safety matter, continues to occupy NASA's highest safety position. Mr. 
Readdy, who signs off on the CoFR, accepted the ``lousy'' rationale for 
continuing to fly after previous Shuttle flights were damaged by foam 
from the ET. And what about the iron fisted Major General Kostelnick, 
who steadfastly controls any communication coming from Shuttle or 
Station Program Managers?''

    ``Why are American managers so beset with ego that they cannot 
accept responsibility for their actions? How many times must we hear, 
``I serve at the pleasure of the (fill in the blank). And only they can 
fire me.'' These people are not leaders. . .''

    Another writer noted that no repercussions have been seen at USA or 
Boeing. One could add that Steve Isakowitz, NASA's CFO, was the program 
examiner who presided over cuts the Shuttle upgrades budget. I know 
that 14 or 15 people have been moved around--so I don't want to hear 
about them--but cynics within NASA those moves as program or project 
managers getting moved to save the skin of top management.
    In light of the comments CAIB members have made about the 
importance of leadership in setting a new culture at NASA, I look 
forward to hearing from the Administrator why he has not made any 
changes at the top in the wake of Columbia. I would like to know why he 
feels that his mix of leaders are the right one's to change NASA's 
culture, especially when Deputy Administrator Gregory, is actually 
quoted as saying there is no such thing as a NASA culture.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for moving so swiftly to organize this series of hearings 
to ensure that this committee does all that it can do to help America 
get back to its vital mission in space. And again I would like to 
commend Ranking Member Hall, and the Chairman and Ranking Member of the 
Space Subcommittee for their excellent leadership in that endeavor. 
Last week's hearing with Admiral Gehman and CAIB members was 
enlightening and productive. Although it is always a pleasure to see 
you, Admiral, I hope you'll understand as we turn our attention toward 
NASA today--to hear how they will proceed in the weeks, months, and 
years to come.
    Administrator O'Keefe, thank you for taking the time to be with us 
today. The Columbia Accident Investigation Board report has obviously 
set some great challenges before you. I know you have a lot of work 
ahead, but I am sure that working together, we can get this job done 
more effectively.
    Mr. Chairman, Admiral Gehman's findings must have been tough to 
hear at NASA. They were tough for all of us to hear--the overlooked 
clues, the missed opportunities. But I guess this is a time for tough 
love. I think we all share a commitment to science, and exploration, 
and to a bold mission at NASA. But, quite frankly, I for one am 
frustrated. I have sat in this room time after time over the past 
years, talking about safety, talking about the chronic under-funding of 
NASA programs, talking about the need for a vision for the future of 
mission that will capture the hearts of young engineers and scientists, 
talking about how much this program is worth to the American people.
    But my words, as those of many of my colleagues on this side of the 
aisle, never seemed to take hold. I respect the Administrator's recent 
comments, accepting responsibility for this tragedy, and vowing to 
fulfill the CAIB report recommendations. But I have a nagging fear that 
it is just lip-service. NASA does not just need some quick fixes, and 
maybe a new office with a catchy name. It needs a dramatic alteration 
in the mindset of every NASA worker, and every NASA contractor, and 
every NASA manager. They all need to be fully committed to the safety 
of NASA spacecraft and crew. That is the cultural change that Admiral 
Gehman called for, and we need it immediately.
    I am concerned that kind of dramatic change in mindset is not yet 
happening. Admiral Gehman's team has been very specific about instances 
of gross negligence in the NASA decision making chain, but as yet the 
managers who made those decisions are still in critical positions. I 
want to hear if the Administrator believes it is possible to have a new 
culture-of-safety at NASA, without holding NASA managers accountable 
for their lack of attention to safety in the past.
    Furthermore, the CAIB report has pin-pointed dwindling budgets and 
a lack of a clear vision for the mission of NASA--saying that both had 
a role in bringing down the Shuttle Columbia. And now, as NASA 
engineers need to be rising to their highest heights, getting our 
Shuttles back to work safely, and intensive study needs to be 
undertaken so that tough decisions can be made about where human space 
flight is going, and what we will need to do to get there--I am still 
not hearing a request for money, or any ideas from NASA or the 
Administration of what to do next. I hope that NASA is not trying to do 
it on the cheap, yet again. I appreciate that this process will take 
time, but I hope that soon we see a clear statement of the importance 
of the NASA, of its mission, and of what resources it will take to make 
it happen.
    Finally, this change of culture at NASA needs to be comprehensive, 
not just focussed on a handful of immediate recommendations, or on the 
Shuttle alone. Right now we have two brave astronauts up above us, 
orbiting the Earth in the multi-billion dollar International Space 
Station, the culmination of decades of dreaming and hard work. Last 
week, in response to a question I asked, Admiral Gehman suggested that 
the Space Station could also have technical problems or weaknesses that 
may have been discounted, as was the falling foam. Today I hope to hear 
that the Administrator is looking into safety of the Space Station with 
the same kind of diligence and objectivity that the CAIB used in the 
case of the Space Shuttle.
    As a Representative of Houston, I know just how talented and 
committed the people at NASA are. They have great ideas, but they must 
be heard. We need to open up channels of communication at NASA to get 
answers to the questions of the past, and to develop a bold vision for 
the future. To foster that dialogue, I have a bill with me today, that 
I will be introducing soon, to enhance the whistleblower protections 
for NASA employees. The CAIB reported that several engineers had 
recognized that the Columbia may have been fatally wounded, but ``when 
asked by investigators why they were not more vocal about their 
concerns, Debris Assessment Team members opined that by raising 
contrary points of view about Shuttle mission safety, they would be 
singled out for possible ridicule by their peers.'' This can never 
happen again. The NASA Promotion of Excellence and Safety Act of 2003, 
will ensure that legitimate safety concerns of NASA workers are heard 
and respected.
    NASA's mission is vital to our economy, and to our growth as a 
people. It is time for some bold steps forward. I look forward to the 
discussion.

    [The prepared statement of Mr. Matheson follows:]

           Prepared Statement of Representative Jim Matheson

    Thank you Mr. Chairman and Ranking Member Hall for your 
consideration.
    The Columbia Accident Investigation Board report, under the 
excellent direction of Admiral Gehman, produced 29 essential 
recommendations for NASA and the Space Shuttle program that will 
hopefully result in a safer human space flight program at NASA.
    Following the loss of the Space Shuttle Columbia earlier this year, 
Congress has naturally turned its attention to ensuring that NASA fixes 
the internal problems that led to the accident.
    I am impressed by Mr. O'Keefe's energy and hope that he will be 
able to lead NASA away from the institutional mindset that led to the 
Columbia accident. However, I remain concerned about the lack of a 
long-term focus on implementing the Gehman recommendations. NASA 
created the Stafford-Covey panel in order to direct the agency's 
return-to-flight actions, but this panel is slated to exist for only 
eight months. It is essential to the long-term viability of human space 
flight that NASA is vigilant about following through on all of the 
Gehman report's findings over the next five years.
    The present circumstances have focused our attention on the Shuttle 
program, but I hope that the passage of time does not result in a 
return to a NASA culture that compromised safety in the Shuttle 
program. In order for this nation to benefit fully from the CAIB 
findings, NASA must meet all of the Gehman Board's recommendations and 
I look forward to working with my colleagues in support of that end.
    Thank you.

    Chairman Boehlert. We will go right to our witnesses. Our 
panel today consists of the Honorable Sean O'Keefe, 
Administrator of NASA, and Admiral Harold Gehman, Chairman of 
the Columbia Accident Investigation Board.
    Gentlemen--Mr. O'Keefe, you are first. And we will not be 
arbitrary with any time limit, and then we will hear from 
Admiral Gehman.

 STATEMENT OF HONORABLE SEAN O'KEEFE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Mr. Chairman, Congressman Hall, Members of the 
Committee, thank you very much for the opportunity to appear 
before you today to discuss NASA's response to the Columbia 
Accident Investigation Board's report.
    Mr. Chairman, if you would, I have a statement that I would 
like to submit for the record and then summarize.
    Chairman Boehlert. Without objection, so ordered.
    [Statement of Mr. O'Keefe follows:]

                   Prepared Statement of Sean O'Keefe

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you here today with Admiral Gehman, who 
along with the other members of the Columbia Accident Investigation 
Board (CAIB) has selflessly performed a valuable and patriotic public 
service these past seven months.
    Shortly after the tragic loss of the Space Shuttle and its heroic 
crew, I made a solemn pledge to the families of Columbia's crew that we 
would find out what caused the loss of the Space Shuttle Columbia and 
its crew, correct what problems we find, and safely continue with the 
important work in space that motivates our astronauts and inspires 
millions throughout the world. Thanks to the CAIB's thorough report, we 
now definitively know what caused the accident. It was a combination of 
hardware, process and human failures. We also have a more complete 
understanding of the problems that must be fixed at NASA to ensure that 
Space Shuttle operations are conducted as safely as humanly possible in 
pursuit of our Nation's space exploration and research agenda.
    The CAIB report provides NASA with a very detailed roadmap for 
returning to flight safely, one that we intend to faithfully follow. I 
can assure you that we will not only implement the CAIB's 
recommendations to the best of our ability, but we are also seeking 
ways to go beyond their recommendations.
    Today's focus is on the hard lessons we've learned from the 
Columbia accident and about the hard work that lies ahead before we are 
ready to launch the Space Shuttle Atlantis for the STS-114 mission. I 
want to emphasize, as we undertake this work, we will be ever mindful 
of and appreciative of the people who have helped NASA and our entire 
country recover from that terrible first day of February.
    First and foremost, we owe enormous gratitude to the brave families 
of the Columbia crew. Through their steadfast courage and dignity they 
have provided inspiration to the Nation. A fitting memorial for the 
crew will be constructed at Arlington National Cemetery. We thank the 
Members of this committee for your strong support of the Columbia 
Orbiter Memorial Act, which President Bush signed into law on April 16, 
2003.
    One month ago, the family members demonstrated an incredible spirit 
of exploration and discovery in their own right as they joined 
astronaut Scott Parazynski in climbing to the top of the recently named 
Columbia Point, a prominent vista on Colorado's Kit Carson Mountain 
that now honors the memory of the Columbia STS-107 crew.
    We are also indebted to the over 14,000 people from the 
Environmental Protection Agency, Federal Emergency Management Agency, 
the Federal Bureau of Investigation, Defense Department, U.S. Forest 
Service, the Texas and Louisiana National Guards and many State and 
local law enforcement and emergency service units who contributed to 
the recovery of Columbia's debris. As a result of this unprecedented 
interagency and intergovernmental cooperative effort, an area in 
eastern Texas and western Louisiana, about the size of Rhode Island, 
was carefully searched, resulting in the recovery of thirty-eight 
percent of the dry weight of the orbiter, including several key parts 
from the left wing, the part of the Orbiter damaged by a foam strike 
during liftoff, and the critical Orbiter Experimental Recorder--the 
data recorder that verified and validated much of what was learned 
about the accident. We are deeply saddened to note that one of the 
helicopters searching for debris from the Shuttle Columbia crashed in 
the Angelina National Forest in east Texas on March 27, claiming the 
lives of the pilot and a Forest Service Ranger. Our thoughts and 
prayers go out to the families of the helicopter crew members.
    In support of this unprecedented operation, we received tremendous 
hospitality and support from the Texas communities of Lufkin, Hemphill, 
Nagadoches, Palestine and Corsicana, as well as the Louisiana 
communities of Shreveport and Leesville, particularly in support of 
activities at Barksdale AFB and Fort Polk. NASA vows not to forget the 
many kindnesses bestowed upon our people and the other recovery workers 
by all these communities. We will use the resources and people of our 
Education Enterprise to help nurture the spirit of discovery and 
exploration in the young people who grow up in the region, just as we 
are working to help inspire and motivate school children throughout the 
country as they embark on their studies this fall.
    Finally, we are grateful for the diligent work of the Columbia 
Accident Investigation Board members and staff. As many of you know, 
the Board has worked non-stop since it was given this important 
responsibility. Admiral Gehman has performed many tremendous acts of 
public service throughout his distinguished career, and I'm certain 
that the history books will regard his work on this report as among his 
most significant contributions to his country.
    We accept the findings of the Board and will comply with its 
recommendations. The Columbia Accident Investigation Board's report 
recommendations will be our benchmark for Return-to-Flight. Using the 
Board's recommendations as NASA's organizing principles for emerging 
from the Columbia accident as a safer, stronger and smarter 
organization, we have developed a preliminary Return-to-Flight 
Implementation Plan which details the Agency's evolving blueprint for 
returning to flight safely and reliably. Released on September 8, this 
preliminary Implementation Plan provides an outline of how NASA will 
comply with the recommendations of the Columbia Accident Investigation 
Board, and also includes other corrective actions. The Implementation 
Plan is a living document and will be updated on a regular and frequent 
basis, with input from across the entire Agency.
    Following the logic of the Board's report, the preliminary 
Implementation Plan focuses on making improvements in the following key 
areas:

        <bullet>  Technical excellence--Making specific technical 
        engineering changes that will enhance our overall technical 
        capabilities. Among these changes is the establishment of our 
        new NASA Engineering and Safety Center at the Langley Research 
        Center in Hampton, Virginia that will draw upon talent 
        throughout our Agency to take a no holds barred approach to 
        mission safety. If people in the center spot a problem or 
        potential problem during their engineering and safety 
        assessments of all our programs, they will be empowered to get 
        the entire Agency, if necessary, focused on finding and 
        implementing solutions.

        <bullet>  Management--Putting in place more effective 
        management procedures, safeguards, and decision-making 
        processes.

        <bullet>  Organizational Culture--NASA recognizes that prior to 
        the Columbia, mission cultural traits and organizational 
        practices within the Agency detrimental to safety were allowed 
        to develop. We will now work diligently to develop an 
        organizational culture that reflects the best characteristics 
        of a learning organization, one based on clear and open 
        communications throughout our Mission Teams, with a management 
        culture that empowers both dialogue and achievement.

    At the same time the CAIB was developing its report, NASA pursued 
an intensive, Agency-wide effort to identify additional actions that 
will further improve the Space Shuttle Program. We took a fresh look at 
all aspects of the Program, from technical requirements to management 
processes, and developed a set of internally-generated actions that 
complement and go well beyond the CAIB recommendations. For example, 
some of the types of activities we are focusing on include rudder speed 
brake actuator inspections and re-evaluation of catastrophic hazard 
analysis, to name a few.
    The Implementation Plan integrates the CAIB recommendations as well 
as other actions. It is the first installment in a living document that 
will be periodically updated to reflect the progress toward safe 
return-to-flight and faithful implementation of the CAIB 
recommendations.
    With respect to preliminary budget implications of the return-to-
flight efforts, on September 4, 2003, NASA submitted to the Committee 
an update to the FY 2003 Operating Plan. This update reflects 
anticipated costs of about $40 million associated with implementation 
of an initial set of actions tied to the CAIB recommendations and other 
corrective actions. NASA is determining the full spectrum of 
recommended return-to-flight hardware and process changes, as well as 
their associated costs. The Administration is also assessing the long-
term implications of the return-to-flight requirements. We will keep 
the Committee informed as decisions are made.
    We are now determined to move forward with a careful, milestone-
driven return to space flight activities, and to do so with the utmost 
concern for safety, incorporating all the lessons learned from the 
tragic events of February 1st. That's exactly what we will do.
    Our Return-to-Flight effort involves a team of space flight 
professionals, led at NASA headquarters by Dr. Michael Greenfield, 
Associate Deputy Administrator for Technical Programs and veteran 
astronaut Bill Readdy, Associate Administrator for Space Flight.
    Another veteran astronaut, Jim Halsell, who has flown on five 
Shuttle missions, will oversee the day-to-day work required for our 
return-to-flight. As the commander of an upcoming Shuttle mission, STS-
120, Jim has a personal interest in ensuring that Return-to-Flight is 
done right. I can assure you we will also rely on the advice and 
judgment of all members of the astronaut corps, the men and women who 
have the most vested interest in safe operations of the Shuttle 
program.
    We will also have the benefit of the wisdom and guidance of a 
seasoned Return-to-Flight Task Group, led by two veteran astronauts, 
Apollo commander Thomas Stafford and Space Shuttle commander Richard 
Covey. Members of the Stafford-Covey Task Group were chosen from among 
leading industry, academia and government experts. The Members of the 
Task Group have knowledge and expertise in fields relevant to safety 
and space flight, as well as experience in leadership and management of 
complex programs. The diverse membership of the Task Group will 
carefully evaluate and publicly report on the progress of our response 
to implement the CAIB's recommendations.
    There is another body that NASA will greatly rely on in the Return-
to-Flight process: this committee, and all in Congress who have a vital 
interest in how NASA performs our work on behalf of the American 
public. We very much respect and value this committee's oversight 
responsibility, and I personally look forward to working with the 
Committee in the weeks and months ahead to ensure that we do our job 
right.
    Building upon work already underway to address issues previously 
identified by the CAIB, the release of our preliminary Implementation 
Plan marks an important step in our efforts to address and fix the 
problems that led to the Columbia accident. We are about to begin a new 
chapter in NASA history, one that will be marked by a renewed 
commitment to excellence in all aspects of our work, a strengthening of 
a safety ethos throughout our organization and an enhancement of our 
technical capabilities.
    As we proceed along this path, all of us will be challenged. I am 
absolutely certain that the dedicated men and women of NASA are up to 
this challenge and we will not let the families of the Columbia 
astronauts and the American people down.
    I would also like to provide an update on the status of the 
International Space Station (ISS) and the impact from grounding the 
Space Shuttle. The Space Shuttle's return-to-flight is critical to 
complete assembly and ensure research capability for the ISS. Only the 
Shuttle can deliver the large elements, spare parts and the logistics 
required to successfully meet our research goals and international 
agreements. While the Space Shuttle fleet is grounded as a result of 
the Columbia accident, Russian Soyuz and Progress vehicles continue to 
provide assured crew and cargo access to and from the ISS.
    In the absence of Space Shuttle support, NASA and the International 
Partners are addressing contingency requirements for the ISS for the 
near- and long-term. In order to keep the Expedition 7 and future crews 
safe, we are ensuring that there are sufficient consumables, that the 
ISS can support the crew, and that there is a method for safe crew 
return available.
    The ISS Expedition 7 crew (Yuri Malenchenko and Ed Lu) continue 
their stay on-board the ISS, which began in late April 2003. The ISS 
was re-supplied with a Progress vehicle (ISS Flight 12P) launched on 
August 28 and docked to the Station on August 30, 2003. The crew is 
continuing experiments for which sufficient hardware and supplies are 
already on-board the ISS. Twenty-six science investigations are in 
process or planned for Increments 7 and 8. Operations continue to go 
well, with sufficient consumables on-board the ISS. The launch of the 
next Progress to resupply the ISS has been accelerated from January 
2004 to November 2003. I am proud that the ISS partnership has come 
together as a true partnership during this challenging time. I also 
wish to assure you that there is no schedule pressure to return the 
Space Shuttle to flight until we are confident it is safe to fly.
    The Expedition 8 crew (Commander C. Michael Foale and Flight 
Engineer Alexander Kaleri) is scheduled to accept hand-over of the ISS 
from the Expedition 7 crew following their launch on Soyuz in October, 
2003.
    In closing, I want to reiterate that the country owes Admiral 
Gehman and the entire Board a tremendous debt of gratitude for the 
service it has performed. We embrace the CAIB report and we are 
committed to implementing the recommendations and safely returning to 
flight.
    Finally, I believe it is important to note that all 13 CAIB members 
arrived at and agreed to the final conclusion of their report: ``The 
United States should continue with a Human Space Flight Program 
consistent with the resolve voiced by President George W. Bush on 
February 1, 2003: `Mankind is led into darkness beyond our world by the 
inspiration of discovery and the longing to understand. Our journey 
into space will go on.' ''
    Thank you again for the opportunity to appear before the Committee.

    Mr. O'Keefe. Over our 45 years as an agency, since NASA was 
founded in 1958, we have found, in the course of this history, 
that our time has been defined by great success and by great 
failures. In each of these defining moments, our strength and 
resolve as professionals has been tested. This is one of those 
seminal moments in our history, and it is defined by failure.
    On February 1, we pledged to the families of the Columbia 7 
that we would find the problem, fix it, and return to the 
exploration objectives that their loved ones dedicated their 
lives to. The Columbia Accident Investigation Board report 
completes the first of these commitments, and we are indebted 
to Admiral Gehman and his colleagues to their exception of 
public service and extraordinary diligence to a very difficult 
task. We asked for an unvarnished, objective, independent view, 
and we got it.
    As we begin to fulfill the second commitment to the 
families, to fix the problem, our critical first step is to 
accept the findings, to comply with the recommendations, and to 
embrace this report. There is no equivocation on that pledge. 
This report is a blueprint. It is a road map to achieving that 
second objective.
    In the course of the proceedings in this investigation, the 
Board has given us an extraordinary head start by their candor, 
their openness, and the release of findings and recommendations 
during the course of their investigation itself. They didn't 
wait until the final words were drawn on the paper of the 
report itself. They had been conducting this is a very open 
setting, and they had been communicating regularly and often.
    In the telegraph all along the way, in the course of their 
public hearings and commentary exactly where their findings 
were, and they found them and moved forward in that particular 
direction, and we have been listening. It was started, thanks 
to their good work and the manner in which they conducted it by 
developing an implementation plan. This is not something we 
developed in the last 10 days. It has been a work in progress 
as we have listened carefully to their open testimony, their 
open commentary, their written advice and recommendations to us 
so that we could begin to prepare that effort.
    And as the Chairman mentioned, on the 8th of September, we 
released a preliminary Implementation Plan in response to these 
recommendations, which we will upgrade regularly, often, amend 
it as necessary, all of the way to the point of return-to-
flight and well beyond.
    The report is divided into two primary categories: the 29 
recommendations of the Columbia Accident Investigation Board, 
and a second approach, which is to raise the bar to a standard 
higher than what has been stated in those recommendations. And 
that raise the bar input will include observations of the 
Board, other findings, commentary in the course of the Board's 
report with you, different ideas or initiatives that they have 
proposed separately, factors we have discovered during the 
course of supporting the investigation, and any other good 
ideas from the general public or anybody else who wants to 
offer it. We are trying to inventory all of those different 
approaches in order to work through each of those 
recommendations and additional ideas to make this a better, 
safer, stronger organization. We include in that category 
anything and everything that is going to improve this process 
as well as the capabilities and the hard work.
    As we work through these recommendations, we have chosen to 
implement them very thoughtfully in order to be compliant with 
the recommendations. There are several options that may be 
considered for each of those respective recommendations. We 
must continually improve and upgrade that plan to incorporate 
every aspect we find along the way in the implementation 
effort, any other observations, wherever they may come, that 
need to be addressed as we work our way through this commitment 
to fix the problem. And in doing so, there will be regular 
updates, regular amendments, regular republication of that 
Implementation Plan to assure that everyone knows exactly where 
it stands.
    The Columbia Accident Investigation Board report covers 
hardware failures and human failures and how our culture needs 
to change to mitigate against succumbing to failures of both 
kinds. We must go forward to resolve to follow this blueprint 
and do it in a way that is our very best effort to make this a 
stronger organization.
    It is important to recognize, and we do, that it will 
require all of us in the agency, not just those within the 
space flight community or any one center or any one program. It 
must involve all of us at NASA. And to those who don't get that 
message, we will continually, diligently transmit that message. 
And there is no question. Some may not have received it, but 
that is not an excuse to not keep trying to make sure it is 
received by all.
    We must recognize this is an institutional set of findings 
well beyond the scope of this accident. It has application to 
everything we do. And that is a profound set of 
recommendations. It does have applicability to everything we 
are engaged in. Again, we wanted an unvarnished assessment from 
the Gehman Board, and that is exactly what we got.
    NASA is a very different organization today than it was on 
February the 1st. Our lives are forever changed by this tragic 
event, but not nearly to the extent of the lives of the 
Columbia families. Again, we sincerely apologize for our 
failures.
    In taking inspiration from their approach, we must be as 
resolute and courageous in our efforts as they have been in 
working through this tragedy, it will be with them for the rest 
of their lives, by committing ourselves to accepting these 
findings, complying with these recommendations and embracing 
this report. We know that how we respond in the days, weeks, 
and months ahead will matter as much as what we decide to do. 
And whether it will be a lasting change that will withstand the 
years of time. And it must be an institutional change. Of that, 
there is no doubt. We must also resolve to be definitive in our 
acceptance of our failures and following through on our 
commitments to the Columbia families to fix the problem and 
return to the exploration objectives that our loved ones 
dedicated their lives to. And in that effort, we know we have 
got a lot of work ahead of us. And we accept that, and we are 
pursuing that with great diligence.
    In this period of this tragedy, in this chapter, we take 
great guidance and inspiration from the words uttered so many 
years ago by Oliver Wendell Holmes. ``Greatness is not where we 
stand but in what direction we are moving. We must sail 
sometimes with the wind and sometimes against it, but sail we 
must and not drift, nor lie at anchor.''
    Mr. Chairman, thank you for the opportunity to testify this 
morning, and I would be happy to respond to any questions you 
have, sir.
    [The Return-to-Flight Task Group Charter appears in 
Appendix 2: Additional Material for the Record.]
    Chairman Boehlert. Thank you very much, Mr. Administrator.
    Admiral Gehman.

STATEMENT OF ADMIRAL HAROLD GEHMAN, CHAIRMAN, COLUMBIA ACCIDENT 
                      INVESTIGATION BOARD.

    Admiral Gehman. Why thank you, Mr. Chairman, Mr. Hall, and 
Members of the Committee.
    I will just make two short points. The--I appreciate the 
opportunity to appear here at this second hearing. The Board's 
intent was to--was that the report we submitted would be the 
catalyst to cause changes. The Board was very direct and clear 
that we don't intend that our report be dropped in somebody's 
in basket and that our duties are finished. In furtherance of 
that goal, I am pleased to appear here and to assist in making 
sure that the changes that are necessary, the changes we feel 
are necessary, are pursued vigorously.
    The second point I would make is just to remind the Members 
of the Committee that our report is also clear that the full 
implementation of our recommendations are not completely in the 
hands of Mr. O'Keefe. Many of the recommendations are going to 
take the cooperation of NASA plus the Congress and the White 
House in order to implement. And I would like to--I just want 
to remind the Committee of that.
    I hope that during the questions and answers that I get an 
opportunity to reply to Mr. Hall and Mr. Gordon who asked two 
very provocative questions, and I will prepared to deal with 
those during the questions and answers.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much, Admiral.

                               Discussion

                           Schedule Pressure

    Mr. O'Keefe, one of the most serious concerns discussed by 
the CAIB was undue schedule pressure born of, among other 
things, an unrealistic schedule of Shuttle flights to complete 
node two of the International Space Station. In your 
preliminary schedule for returning to flight, you show four 
flights in 10 months, three flights in six months, and three--
within two months between two of the flights. Is this 
realistic? How are you determining what the pace of Shuttle 
flights can be once STS-114 is launched?
    Mr. O'Keefe. Well, thank you, Mr. Chairman. We will be 
guided by two primary objectives. The first one is we will 
return-to-flight when we have determined that based on all of 
these recommendations and all of the efforts that are necessary 
to comply with them have been met and that we are fit to fly 
and not one day before. So whatever date is published as a 
``not earlier than'' schedule. And we intend to be driven by 
those milestones and achievement of compliance with those 
individual options we may choose to implement the 
recommendations.
    The second guidepost we will use for whatever flight 
sequence occurs thereafter will be based on the optimum systems 
integration planning or how the components and modules may be 
transported and installed aboard the International Space 
Station. And that will be at a flight sequence, again, that is 
based on whatever that engineering sequence model is and will 
occur no earlier than we are fit to fly. So there will be a 
requirement each and every flight that we have met all of these 
objectives prior to doing so. And so what you see is a notional 
schedule that is intended to try to drive out what the long 
poles in the tent are and the issues are in order to achieve 
those objectives.
    Chairman Boehlert. So it is absolutely clear, in your mind, 
as I think it should be, and it is clear in our minds, as we 
want it to be, that you will be driven by milestones and not a 
calendar?
    Mr. O'Keefe. Indeed, sir.

                           One-Year Look-Back

    Chairman Boehlert. Admiral Gehman has agreed to--and we had 
a rather lengthy discussion on this last week. And let me, once 
again, praise the Admiral and the entire Columbia Accident 
Investigation Board, for the outstanding public service they 
have rendered, not just to NASA and the Federal Government, but 
to the Nation. But during our discussion, he has agreed to 
reconvene the Columbia Accident Investigation Board after a 
year. We think, on the Committee, and I feel very strongly 
about this, that a one-year look-back would be very useful. It 
is good to hear you say you embrace the recommendations and you 
are going to implement the recommendations, but we require some 
assistance in helping us to evaluate the whole process. Are you 
willing to bring the Board back to evaluate NASA's performance?
    Mr. O'Keefe. Well, having appointed the Board in the hopes 
that we would receive an unvarnished, objective opinion, and 
having received just that, this is an imposition on the time of 
Admiral Gehman and his colleagues as to their willingness and 
availability later, but by all means, if that is the desire of 
the Congress, the Committee, and yourself, and willingness on 
the part of the former Chairman of the Columbia Accident 
Investigation Board, we are always anxious for their input. It 
has been most helpful, and I think they have given us a very 
objective view.
    Chairman Boehlert. Once again, let me say, hindsight is 
always 20/20, but I think there is great admiration for the 
Board, for the diligence with which they pursued their task, 
the thoroughness with which they executed the mission, and the 
independence they displayed at all times. Admiral, would you 
care to comment on the Administrator's response to that 
question?
    Admiral Gehman. Mr. Chairman, the Board discussed this 
matter, and I am authorized to speak on their behalf and to say 
that, if asked, we will serve. And we feel that we would know 
exactly where to go and where to look. And it wouldn't take us 
very long to figure out whether or not these changes that Mr. 
O'Keefe proposes are really taken or not.
    Chairman Boehlert. Thank you so much. And that is precisely 
why I individually--or collectively, we are so interested in 
having that reconvening of the Board for that one-year look-
back at evaluation.
    Mr. O'Keefe. So ordered.

                         Operating Plan Changes

    Chairman Boehlert. Thank you very much. That is the spirit 
of cooperation we hope for, and quite frankly, expect.
    NASA submitted an update to its fiscal year 2004 operating 
plan last week. In the plan, NASA requests to transfer $40 
million from the science account to the human space flight 
account. Why are you requesting this transfer? Is it more than 
a coincidence that this is the same amount of 2003 funding NASA 
intends to spend on return-to-flight activities? And how will 
this reduction impact on the science program?
    Mr. O'Keefe. Yes, sir. Let me give you a breakdown for the 
record, but it is a very small portion of the fiscal year 2003 
costs that we anticipate will be continuing to incur through 
September 30, in other words, three weeks from now, that 
represent the expenses we have engaged in, primarily related to 
supporting the investigation as well as the costs additional to 
the amount that we have already absorbed to provide for all of 
the institutional support necessary to the Board's activities. 
A very small fraction of it, but again, we will provide all of 
the information for the record, begins to identify the costs to 
look at options to begin implementing the recommendations. It 
is a full cost estimate of what it takes for all of the folks 
institutionally within NASA to support this activity. And so we 
will provide a greater detail of that, as is contained in that.
    As far as the consequence to the science programs, it 
derives from a number of different programs that is based on 
just program execution realities that occurred there. But 
again, I will give you greater detail for that for the record 
as--and provide exactly where the consequences are, but I don't 
see it as being a case in which we are deferring science or 
eliminating any scientific program as much as execution savings 
or efforts necessary during the course of implementation to 
make that kind of resource available.
    Chairman Boehlert. We would hope that this is not a trend, 
getting into the habit of dipping into the science fund to 
finance other operations, vital though they may be.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. We want to do it right the first time 
with the other operations as well as we want to do it right all 
of the time with the science portion of the budget. And I will 
look forward to the more detailed information you are willing 
to submit for the record.
    Mr. Hall.
    Mr. O'Keefe. If I could, I am sorry, real quick, Mr. 
Chairman. I apologize. The--part of it, too, is due to the 
proposal that the President submitted in July for an additional 
$50 million to support the activities related to the 
investigation from NASA as well as the Board itself and the 
beginnings of the activities we are looking at for the options. 
That not having made it as part of the supplemental 
consideration prior to the Congress adjourning in August, we 
have had to accommodate those '03 costs within funds available, 
again, very, very mindful of your precise point, which is that 
we not defer science objectives to do so. But we endeavored to 
cover it elsewhere. That was not feasible, given the nature of 
the Congressional schedule, so as a consequence, we are working 
through what resources are available to do this.
    Chairman Boehlert. Thank you very much, Mr. O'Keefe.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    Chairman Boehlert. Mr. Hall.

                              Crew Escape

    Mr. Hall. Mr. Chairman, thank you. In continuance of my--I 
think from the very word go, my effort not to seek causation 
nearly as much or not looking for blame on what has already 
happened behind, but how to lessen our loss and how to lessen 
that thing that we talk about and we call risk, and if we can't 
lessen it down to zero, then to find an alternative to losing a 
crew. And that alternative has to be a crew escape vehicle of 
some type.
    Mr. O'Keefe, I would like to follow-up on the topic that I 
raised in my opening statement. As you know, I feel strongly, 
and I am not alone in that. This entire Committee feels 
strongly, and I am sure the President, you, and everybody under 
you feels strongly that we need to do more than we are doing 
now to protect the astronauts who fly the Space Shuttle or its 
upgrade or its replacement, whatever vehicle we have, to have 
safety as the number one factor in there and as a necessary 
part of the amount that we have raised or appropriated toward 
that cause that safety occupies its proper percent of that 
appropriation. It seems to me that it doesn't have to be as 
risky as it is. At the present time, if we lose a Shuttle, it 
is almost certain that we are going to lose the crew, and it 
just shouldn't be that way.
    As I have said in my opening statement, we need to be 
taking a serious look at what could be done to add crew escape 
systems to the Shuttle that would protect all of the crew, not 
three of them or four of them or just the Captain, but 
everybody that is aboard. And we ought to be challenging 
industry to come up with innovative approaches that could make 
such a Space Shuttle crew escape system possible and affordable 
and doable and look to them to find a way to lessen the weight 
and to lessen the costs and to work it into any future 
spacecraft we have and to be working toward making it available 
to the spacecraft we are using. As I understand it, NASA has a 
modest study underway to review previous crew escape studies. 
That is good, but it is really just not sufficient. We need the 
kind of in-depth engineering analysis and a consideration of 
design options advocated by Dr. Widnall at last week's hearing. 
And that is what we are aiming for up here when I offered my 
amendment to the NASA Appropriations Bill just two months ago 
and it was accepted unanimously. As you know, that amendment 
was adopted by the entire House without objection, so far as I 
know, supported by this good Chairman, supported by everybody 
on the Floor and voted unanimously as an amendment. It is not 
the final answer, but it ought to start us down the road to 
getting the information we need to work and to make an informed 
decision.
    Now Mr. Administrator, I guess my question is to you. Will 
you support our efforts on crew escape for the Space Shuttle, 
and are you prepared to work with us on establishing a serious 
initiative to seek the best, most innovative crew escape 
concepts industry can provide and then allow these design 
concepts to get a thorough, independent assessment----
    Mr. O'Keefe. Yes, sir.
    Mr. Hall.--by the best that you have----
    Mr. O'Keefe. Yes, sir.
    Mr. Hall.--the finest minds you have?
    Mr. O'Keefe. Yes, sir.
    Mr. Hall. And I think it is the responsible thing to do. 
And I believe your answer is going to be yes.
    Mr. O'Keefe. Yes, sir.
    Mr. Hall. I am through. Thank you.
    Chairman Boehlert. Thank you very much.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.

                                  Foam

    I would like to focus a little bit on the actual, you know, 
technical cause of this tragedy, which is, as we know, the foam 
coming off of the Shuttle and hitting the wing. When were you 
first--when did you first hear about the foam as a potential 
threat to the Shuttle as a safety problem, Mr. O'Keefe?
    Mr. O'Keefe. After the accident.
    Mr. Rohrabacher. After the----
    Mr. O'Keefe. After the accident.
    Mr. Rohrabacher. Okay. No one ever mentioned to you, no 
staff member mentioned to you before, in your one year prior 
to--as Administrator leading up to that? And how many Space 
Shuttle launches did you go to?
    Mr. O'Keefe. Six.
    Mr. Rohrabacher. Six. So you took personal--you paid 
personal attention to each one of these, and you were there at 
each one of these launches. And no one--none of your staff--no 
one on your staff ever mentioned the foam?
    Mr. O'Keefe. I have searched my recollection, and I can not 
recall a single occasion.
    Mr. Rohrabacher. Right. And Dan Goldin was, of course, the 
Administrator prior to you. For about 10 years, I guess, he was 
the Administrator. Eight years? Well, for about a decade, he 
was----
    Admiral Gehman. Nine and a half.
    Mr. Rohrabacher. Nine and a half? All right. Thank you.
    Is there any evidence? Did he ever leave anything that 
suggested that the foam was a potential problem that needed to 
be dealt with?
    Mr. O'Keefe. Not that I am aware of.
    Mr. Rohrabacher. Admiral Gehman, did----
    Admiral Gehman. Mr. Rohrabacher, the Board did a search of 
over 50 reviews and investigations into NASA, including the 
Rogers Commission, in which foam came up during the Rogers 
Commission. And all 50 reviews missed categorizing the foam as 
a danger to the Shuttle.
    Mr. Rohrabacher. Now so right up unto the--but there was an 
awareness that the foam was coming off. And Mr. O'Keefe, were 
you ever--was it mentioned that foam was coming off as a 
phenomena but not as a threat? Did anyone ever mention it?
    Mr. O'Keefe. Not that I recall.
    Mr. Rohrabacher. Shortly after the--I mean, I think within 
a matter of hours after the Columbia went down, I remember 
reading a press account that the foam had been ruled out by 
NASA. Someone in your organization said that. Do you know who 
in your organization made that statement?
    Mr. O'Keefe. Yes, sir. The policy of the agency, from the 
first day, the first moments after the accident all the way up 
until the completion of this report and the drying of the ink 
on it was that we were never going to rule out any scenario, 
never going to fall in with any particular option----
    Mr. Rohrabacher. Right.
    Mr. O'Keefe.--and yet there were always going to be some 
folks who didn't quite get the message.
    Mr. Rohrabacher. Yet there was a quote in the paper----
    Mr. O'Keefe. Yes, sir, that is quite true.
    Mr. Rohrabacher.--saying that the foam had been ruled out.
    Mr. O'Keefe. Yes, sir. That was quite true, and that was 
corrected. The individuals involved in that case were advised 
that no, the policy is we will leave every single option open 
until the Board closes off those options methodically in their 
efforts----
    Mr. Rohrabacher. So NASA people took it upon themselves to 
announce to the press that the foam had been ruled out?
    Mr. O'Keefe. There were some folks that expressed an 
opinion, and that was corrected. By our actions--sir.
    Mr. Rohrabacher. Yeah.
    Mr. O'Keefe. We have supported the Board in the effort in 
order to assure that every single option, scenario, every 
approach was run in the ground at their choosing. That is by 
our actions. The statements on the part of some individuals 
were corrected and we acted on the larger policy I just 
enunciated.
    Mr. Rohrabacher. But does that--did that not reflect the 
mindset that Admiral Gehman was--it was reported it was a major 
contributor to the fact that we have the foam ruled out shortly 
after the tragedy yet we now know the foam was the technical 
cause of this tragedy.
    Mr. O'Keefe. Well, the larger question I think you are 
raising on this specific instance is that we assume we know 
what we know while then proving what it is we know. One of the 
most powerful comments in this entire report that I have seen 
repeated several times, for a fact, is that the burden of proof 
must be shifted from prove that it is unsafe to prove that it 
is safe. And that is a--something that is going to require not 
only a management focus, a leadership objective, a set of 
processes that support that particular approach, and a complete 
twist of that particular approach, and I have taken that to 
heart.
    Mr. Rohrabacher. Yeah, I think that is called being 
proactive rather than reactive.
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher. And now I hate to do this, but I think 
that the public deserves this. You, yourself, mentioned after 
people kept asking about the foam, that people were taking--
were not--in what I took as being not taking this seriously, 
you referred to people who were looking at the foam as 
``foamologists.'' Of course, now I regret saying that, and--but 
who advised you that it was so unlikely that the foam was an 
issue that it should be taken that lightly?
    Mr. O'Keefe. My comments to that effect were during the 
course of the early weeks of this investigation, which several 
folks, journalists, sought to write about this particular 
strike as being the likely condition. And the plea in that case 
was let us keep all of the options on the table until the Board 
has closed off every element of the fault analysis, and they 
arrive at a conclusion of what they believe was the source of 
this accident. And so on that regard, it was meant to try to 
put it in perspective.
    Mr. Rohrabacher. Yeah.
    Mr. O'Keefe. And I do not regret statements made. Looking 
back, you can't correct them. So yes, that is exactly the 
terminology used. And it was intended to please--ask folks, let 
us not get a lot of exercise leaping to conclusions. Let us 
wait for the Investigation Board----
    Mr. Rohrabacher. Okay.
    Mr. O'Keefe.--to reach those findings in a deliberate way. 
And they did.
    Mr. Rohrabacher. Okay. I think that we needed that 
explanation, Mr. Chairman, because at first glance, it would 
appear that that phrase was used to belittle those who were 
thinking that foam was a--wasn't a potential, but instead, what 
you are suggesting is that you were trying to caution people to 
make a broader scope of their investigation rather than a 
focus, technical focus.
    Mr. O'Keefe. We purposely appointed 13 investigators. We 
wanted to see what those 13 investigators thought rather than 
the opinions of everybody else.
    Mr. Rohrabacher. I accept that.
    Mr. Chairman, I would--if we have a second round, I would 
like to go into questions about the future strategies for the 
Shuttle----
    Chairman Boehlert. We will have a second round.
    Mr. Rohrabacher.--which are very important.
    Chairman Boehlert. And the Chair now recognizes Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.

                   Vision and the Interagency Review

    There has been, obviously, a lot written about this 
incident. One article that I thought was particularly good was 
written by David Sanger at the New York Times. And I will 
quote. Here is how he starts: ``The bitter bottom line of the 
Columbia disaster comes down to this: NASA never absorbed the 
lessons of the Challenger explosion of 1986, and four 
successive American presidents never decided what America's 
space program should head--where America's space program should 
head after the Cold War and what it would cost in dollars and 
the risk of human life to get there.'' And so, Mr. O'Keefe, I 
was particularly pleased to read the other day about the 
interagency review within the White House of the future of 
NASA. My friend and Chairman, Dana Rohrabacher, for at least 
the five years that he has been our Chairman, and I think 
before that, has frequently criticized every Administration 
that he could get his hands on for not having this vision with 
NASA. And Admiral Gehman the other day--I wanted to write it 
down, because it was much more eloquent than I am going to say, 
but he--by paraphrasing him, he said that basically vision is 
just a dream unless you have some money behind it. So--and this 
has got to start with the White House, so I am glad that this 
process is starting. And I think it would be helpful for all of 
us to know a little more about that.
    So if you would, please, you could share with us first who 
specifically in the Administration is heading the review? Is it 
the Vice President, the Director of the Office of Science and 
Technology Policy, or someone else so we know at what level 
this is taking place? What agencies are participating and at 
what level? That is, is it at the Cabinet level, the 
Undersecretary level, or at some other level? And I know you 
have mentioned to me that there was no formal charter, but 
could you tell us what the group's stated goals are and, you 
know, what you see as the product? Do you expect that there 
will be recommendations for the President or simply options? 
What do you see as the schedule? And so far, I don't think 
Congress has been involved. Do you expect to get Congress 
involved, and how would you do that?
    Mr. O'Keefe. Well, I think, correctly cited, there is, 
indeed, an internal effort underway, I think, to examine the 
U.S. space exploration policy objectives. And this has been, 
certainly, prompted by this cathartic event, without a doubt. 
And the process is a--one that, again, is very familiar within 
the internal functioning of the Administration of inclusion of 
all of the interested interagency as well as within 
Administration participants: the President's Science Advisor, 
the Defense Department, the Commerce Department, NASA, others 
who have a specific stake in the activity, as well as those who 
would have a requirement to offer opinions, views, advice as we 
serve up a range of options that ultimately would be presented 
to the President for consideration. So that process is just a 
very standard, normal procedure of what goes----
    Mr. Gordon. Well, we know like with the--when they did 
the----
    Mr. O'Keefe. If I could conclude. I am sorry. I apologize. 
You asked a whole series of questions, and I wanted to----
    Mr. Gordon. Yeah. Okay. Good.
    Mr. O'Keefe.--respond to those. And--at your pleasure, 
though. If you would prefer----
    Mr. Gordon. No, no, no. I wanted to get to the specifics, 
so go right ahead.
    Mr. O'Keefe. Okay. So that process is serving up those 
options. And again, what the timing of that will be is based 
on, again, the maturity of that debate as we work our way 
through it. Ultimately, again, this will be offered to the 
President for his consideration and the options that may be 
available. And again, it is a timing circumstance now that 
would dovetail neatly into not only the policy deliberation 
process but also that which would pertain to the resource 
allocation, the budget process, and all of the other elements 
that would pertain. So it is an organized effort in that 
regard, again, not dissimilar to those that have been engaged 
in every other effort, internal to not only this Administration 
but others, and designed to serve up those alternatives for his 
consideration.
    Timing I would not speculate. And I think the answer to 
that one flatly is whenever the President decides. It is very 
clear, though, in the minds of all of the folks who are engaged 
in this debate, which has been intensifying in light of the--
again the focus of the Board's report as well as that 
particular concentration that it will be moving at a time in 
which it needs to be relevant for Congress's consideration. As 
we have discussed, as you mentioned in our private discussions, 
indeed, we are looking to determine how Congressional input may 
be developed here and brought into that equation. And again, 
you have offered some interesting ideas of what we may want to 
consider as questions for that, and I certainly await that 
opportunity to see the kinds of things that I can bring in 
during the course of these deliberations and make that 
possible.
    Again, if--in conclusion to this, though, my overarching 
concern is that the expectations be calibrated. As you define 
the vision requirements that has eluded us for the better part 
of three decades, indeed since the end of the Apollo program, 
have been difficult enough and I think it was best summarized 
by commentary offered by the Augustine Commission, which met 
and concluded its activities in the early '90s in which they 
determined that yes, indeed, we are unanimous in the view that 
a vision is required, but there are no two individuals who 
could agree on what that vision should be. We are attempting to 
do something that hasn't been done in quite some time. And we 
are endeavoring to do that as deliberately as we possibly can.
    Thank you for your patience.
    Mr. Gordon. Okay. If I could--but if I could be more 
specific, the questions that I asked were who heads it up. You 
know, we know that the Vice President headed up the Energy Task 
Force. I want to get an idea of at what level this is. So I 
asked, you know, who heads it up and at what level are the 
various agencies? What level are they participating?
    Mr. O'Keefe. We are certainly not in the process of 
describing in great detail exactly who the participants are in 
these efforts.
    Mr. Gordon. Can you say who heads it up?
    Mr. O'Keefe. No, sir. It is an internal deliberative 
process, one that includes all of the appropriate officials for 
the purpose of advising the President on what the options are 
for his consideration.
    Mr. Gordon. But we are going to--we are developing a vision 
for NASA and Congress doesn't even know who is on it, who heads 
it, or you know, when, sort of, the game plan on reporting 
back.
    Mr. O'Keefe. Well, again, this is----
    Mr. Gordon. So I guess this is your review.
    Mr. O'Keefe. No, sir, it is not.
    Mr. Gordon. Okay. Well----
    Chairman Boehlert. The gentleman's time has expired. We 
will have a second round.
    Mr. Gordon. Okay.
    Chairman Boehlert. We will allow you back----
    Mr. Gordon. I tried to--I would point out, I tried to----
    Chairman Boehlert. I understand.
    Mr. Gordon.--stop earlier, so I could get to the specifics, 
but we never got there----
    Chairman Boehlert. I understand----
    Mr. Gordon.--so----
    Chairman Boehlert.--and the Chair was very understanding of 
your approach, and that is why we allowed an additional two 
minutes, but we will have a second round.
    Mr. O'Keefe. My apologies to the Congressman. I was 
attempting to answer that. I apologize for being too long.
    Mr. Gordon. Well, we----
    Chairman Boehlert. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.

                  The Independent Technical Authority

    As I mentioned last week, when Mr.--Admiral Gehman was out 
testifying, I was very much in agreement with the Board's 
suggestion that responsibility and authority for decisions 
involving technical requirements and safety should rest with an 
Independent Technical Authority. I couldn't agree more with the 
conclusion and the relating recommendation. NASA needs to 
utilize independent assessment capabilities that will serve 
them throughout the life cycle of the Space Shuttle system and 
human space flight generally.
    Admiral Gehman and Dr. Widnall had a nice exchange last 
week about NAVSEA Corona's long experience with independent 
assessment. Several months ago, as I understand, NASA created 
the NASA Engineering Safety Center, NESC, at NASA's Langley 
Research Center. The NESC purportedly will serve as the 
independent safety oversight function. And I guess my question 
is to you, Mr. O'Keefe, is what is the mission of the NESC and 
what role does the NESC play in NASA's return-to-flight 
activities, one? How does the NESC play into the independent 
safety organization that the Gehman Board recommended? And 
finally, what other DOD and other governmental agencies that 
already employ independent assessment did you talk to in 
setting up this new authority?
    Mr. O'Keefe. Yes, sir. The NASA Engineering Safety Center 
was anticipating to be operational, up and running on or about 
the 1st of November. So what we announced a couple of months 
ago was our intent to recruit from around the agency 
engineering and technical staff who have the expertise to 
participate in one of the most, again, powerful parts of the 
recommendation on the Independent Technical Authority that is 
described in that recommendation is a requirement for trend 
analysis the capacity to come in and look with a fresh set of 
eyes, excuse me, at what we consider to be routine operations 
and tease out of that what really are the anomalies that ought 
to be investigated further. And so in that context, the primary 
function of this group, but not exclusively, will be to have 
that capacity among the technical engineering talent to make 
determinations and to examine the records, operational 
information and so forth, of every program we do, not just 
Shuttle but anything else we are engaged in, in order to see 
where those anomalies exist because we just flat missed them 
during the course of operational conduct.
    It also has a role that we are developing as part of its 
charter to conduct, you know, the on-site inspections to see 
that we are really living up to what we are talking about as 
opposed to just simply, you know, reading our own press 
clippings on this and believing it is true. We have got to have 
the capacity to actually conduct the capabilities to see that. 
In addition, it also will run what we--is the NASA Safety 
Reporting System, which is the anonymous system for reporting 
safety anomalies, or anything else, anybody has got a problem 
with so it is just not lost in the shuffle along the way. So 
this becomes just part of that recommendation on the 
Independent Technical Authority is covered by this particular 
initiative. By no means was it intended to be the monolithic 
organization that answered all of the elements in that 
recommendation. It covers large pieces of it. It--that covers 
the second piece of your question, which is how does it play 
into the operational activity. They will have a role in 
operational activities in, again, any program that NASA 
conducts as a means to assure that we are not just using the 
engineering talent that is attached to the program and 
therefore a potentially bias view. Another powerful observation 
made by the Board is that there becomes advocacy on the part of 
engineers and technical authority and the objectivity is lost. 
And so as a consequence, this makes sure that we have done 
that.
    And in terms of the other Defense Department models used, 
one of the reasons for setting it up at Langley is literally 
across the runway is the Navy Safety Center. And again, given 
my naval service background and history, that--in understanding 
exactly how that institution operated, there are some real 
interesting object lessons on how to do that right and a 
regular advice that we don't need to have a conference center 
required. They simply walk across the runway and can obtain 
that right on the spot. So there are a number of different 
ways. We are trying to bring best practices of how the Defense 
Department has done this business into how we set up this 
particular entity before we open its doors on November 1.
    Mr. Calvert. And finally, Admiral Gehman, does the NESC 
satisfy the Board's recommendation for the creation of an 
independent safety organization for the Space Shuttle, or did 
you have something else in mind?
    Admiral Gehman. Not intended to. No. As Mr. O'Keefe said, 
it is not intended to satisfy the requirements, and it does not 
completely, but it is a good start.
    Mr. Calvert. What would you like to see?
    Admiral Gehman. We were very careful to not prescribe what 
NASA should do to implement this, but clearly the functions 
that we want to be performed are prescribed in our report. And 
to be very brief, they are a robust engineering organization 
that owns all of the requirements and specifications to the 
Shuttle Program and all waivers to them as well as the funding 
and engineering expertise to understand why those requirements 
and specifications were written in the first place so they 
could understand why or why they should not grant a waiver. And 
so there are many ways to organize to do that, and we left that 
up to NASA.
    Chairman Boehlert. The gentleman's time has expired.
    And let me just explain. I am trying to be very arbitrary 
in sticking to the five-minute rule, at least for the initial 
round, because I want all Members to be given an opportunity to 
participate.
    Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. And Mr. O'Keefe, 
welcome.

              Management Communication Regarding Schedule

    Let me talk just a little bit about the Core Complete goal 
schedule for the International Space Station. I note that in 
the report that the Board found that the management goals were 
having a negative impact on the workforce and the workforce 
keeping the Shuttle flying. It affected the attitudes of 
managers who came to view the problems as threats to the 
schedule rather than threats to safety of the astronauts. 
Admiral Gehman testified that the workforce was aware that the 
schedule was probably unrealistic, but they--that was not 
communicated to management that there was a disconnect and a 
lack of communications. I have reviewed your Senate testimony 
concerning that issue and others. And you indicated in your 
Senate testimony that because prior flights had slipped that 
workers should have been getting the message that there was 
flexibility in the Core Complete goal.
    And I guess my first question is--first let me say that I 
was pleased to hear you answer the Chairman's question on the 
issue of return-to-flight that the number one issue will be 
safety and we will not fly until we are certain. But my 
question is, in your Senate testimony you said that the workers 
should have been getting the message when there was slippage. 
Was management getting the message? Were you getting the 
message and was your team getting the message that if, in fact, 
the goal of February 19, 2004, that if this goal was slipping, 
number one, did you recognize it? Number two, if you did 
recognize it, why didn't we modify the goal?
    Mr. O'Keefe. Um-hum. Well, indeed, the opinion on this 
point is irrelevant, because the Board has reached that 
finding. It therefore, in my judgment and all of us in the 
agency, it is fact now.
    Mr. Costello. I would take issue with that. I would say 
that it is relevant to the viewpoint of a management issue. If, 
in fact, there are problems at the worker level, if they 
believe that goals are unrealistic, I want to know if they are 
communicating that to management and, if so, what action was 
taken, not so much for the past, but for the future?
    Mr. O'Keefe. I appreciate that. Thank you, sir. I 
appreciate the clarification. Indeed, we failed to make sure 
that that message was clearly understood by every single person 
associated with the Shuttle Program. We failed to do that. We 
failed to communicate that effectively. It was a very clear 
understanding among the management team, the Shuttle Program 
management, the International Space Station Program management, 
all of the folks engaged in this that these were schedules to 
move towards the optimum systems integration schedule. And that 
is a point we have testified to and talked about lots in this 
particular Committee proceedings in the past. And so in that 
context, again, we failed to get that message out clearly that 
this was a movement in the direction of the best systems 
integration and engineering approach to achieve the deployment 
of those modules and components to International Space Station 
and that the critical feature in order to make any possible 
final configuration of Space Station even arguable was to 
achieve that node two configuration. Anything else builds off 
of that.
    And so we are trying to keep folks attended to that without 
our international partnership who wanted to talk about longer 
term goals, lots of different inputs from external oversight 
that had different opinions in that. And we wanted to stay 
concentrated on the first essential step in order to make any 
of those debates meaningful. In the process, we failed to 
communicate that point effectively. We need to do that in the 
future more effectively, and that is the start we are trying to 
make now to say these are milestone driven. When we are fit to 
fly, that is when we are going to fly.
    Mr. Costello. And that is what we are concerned about is 
the future. A couple of quick questions, brief answers so I 
don't run out of time here.
    Mr. O'Keefe. Yes, sir.
    Mr. Costello. One is how often were you briefed on the 
progress for the Core Complete and who briefed you, if I may 
ask?
    Mr. O'Keefe. We are engaged in regular program review on 
the International Space Station. And the integrated effort from 
Shuttle and Station, systems integration efforts, are roughly a 
monthly basis. It involved the program management teams from 
both programs as well as the senior folks in headquarters who 
are engaged in space flight activity.

                  Countermeasures to Schedule Pressure

    Mr. Costello. And do you--have you developed plans yet? I 
realize that the Board just completed its work, but have you 
developed plans as to how we will guard against an overly 
aggressive schedule on return-to-flight?
    Mr. O'Keefe. Well, again, it is--this is a tough one, 
because the--your observation is right on. The observation of 
the Board, as I read the words, was our focus on the schedule 
may have begun to influence the management team in the way they 
made decisions about, and it proceeds. And what we have got to 
do is just constantly remind ourselves that, indeed, these are 
milestone objectives. And in the process of doing so, we have 
to have some notional schedule. We all live by that. From the 
moment the alarm clock goes off in the morning, we are driven 
by schedules. Every Member of this committee is, I am sure, 
driven by lots of schedules that are involved in terms of what 
people expect of us. So it is--it has got to become more, as 
the Board observed, an effective management tool for kind of 
teasing out what those problems could be to achievement rather 
than being violent objectives to trying to find, you know, an 
accomplishment of some goal. And that is the shift in mentality 
that I think we have had in the management team, but we have 
got to effectively communicate to every single person turning 
the wrench on this that that is exactly what the objective is.
    Mr. Costello. Thank you.
    Mr. O'Keefe. Thank you, Congressman.
    Chairman Boehlert. The Chair recognizes Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I appreciate that.
    Chairman, I would ask unanimous consent that two articles 
be put into the record at the appropriate place. One is an 
article that appeared on September the 8th, 2003 in Space News 
entitled: ``To Convert the Shuttle.'' The author is Dr. Robert 
Zugren. The other is an expanded version of an editorial that 
appeared in the Wall Street Journal last week or the week 
before, and it is written by Homer Higgman.
    Chairman Boehlert. Without objection, so ordered.
    [The information referred to appears in Appendix 2: 
Additional Material for the Record.]

                        Shuttle Safety and Risk

    Mr. Barton. Mr. O'Keefe, I want to read to you something 
from one of these articles and get your view of it. This is the 
opening. The first sentence. ``It is now apparent that the 
Space Shuttle orbiters can not be used much longer as the 
system for transporting crews to Earth orbit. The Columbia 
disaster has made it clear that the antiquated orbiters are 
becoming increasingly unsafe. Moreover, even if the Shuttle 
could be flown safely, it is clear that using a launch vehicle 
with a takeoff thrust matching that of a Saturn 5 to transport 
half a dozen people to International Space Station makes about 
as much sense as using an aircraft carrier to tow water 
skiers.'' What is your reaction to that?
    Mr. O'Keefe. I think it is a wrong-headed view.
    Mr. Barton. You think it is a wrong-headed view? How many 
flights have there been of the orbiter that had astronauts 
aboard?
    Mr. O'Keefe. Oh, gee. Let me get a precise number for the 
record.
    Mr. Barton. Well, I think it is 113.
    Mr. O'Keefe. Yes, sir, it is--no, 113 flights. I thought 
you said the number of astronauts aboard.
    Mr. Barton. Number of flights with----
    Mr. O'Keefe. I am sorry. Yes, 113.
    Mr. Barton. Okay. And----
    Mr. O'Keefe. And there were some number of astronauts, and 
I will have to get you precise----
    Mr. Barton. I don't need to know the number. My question is 
how many times has the orbiter gone up when there were people 
on it? I think that number is 113.
    Mr. O'Keefe. Yes, sir. That is correct.
    Mr. Barton. It may be a little bit more or a little bit 
less.
    Mr. O'Keefe. That is it.
    Mr. Barton. How many catastrophic accidents have there been 
in that 113 flights?
    Mr. O'Keefe. Two.
    Mr. Barton. Two. What does that percentage turn out to be 
if you take two over 113?
    Mr. O'Keefe. It is one in 58 or 56, whatever it is.
    Mr. Barton. It is about 1.7 percent. Do you know what the 
probability of a combat death is in a fighter aircraft over 
Iraq?
    Mr. O'Keefe. No, sir, I don't.
    Mr. Barton. It is not that. It is a lot less than that. It 
is about one hundredth of that, maybe even one thousandth of 
that. Now we are putting our astronauts at risk in these 
orbiters that the technology, in some cases, is 30 years old so 
that they can fly up to the International Space Station. How 
long, if we build the Space Station--do exactly what we are 
planning to do, how long will that Space Station be useful?
    Mr. O'Keefe. The next 15 to 20 years or, you know, whatever 
period of time it is going to take----
    Mr. Barton. Right.
    Mr. O'Keefe.--for that asset to----
    Mr. Barton. Now what happens after that?
    Mr. O'Keefe. I think our longer-term objectives are to look 
at conquering the technology limitations that we currently live 
with.
    Mr. Barton. But right now, what is the next goal of the 
manned space program after the International Space Station, 
which is going to be obsolete and non-functional in the next 15 
to 20 years?
    Mr. O'Keefe. To conquer the technology limitations that we 
have right now that really limit us from going----
    Mr. Barton. But we have no goal. We are not going to the 
moon. We are not going to Mars. We are not going to a Space 
Station that is in synchronous orbit between the Earth and the 
moon. We have no goal. Isn't that true?
    Mr. O'Keefe. I beg to differ, sir. The strategic plan we 
have developed, and again, I would be delighted to go through 
this with you and make sure that we have it laid out, it is a 
stepping stone approach in order to achieve getting beyond low 
Earth orbit to be able to permit any exploration within the 
Solar System. But the two things we have got----
    Mr. Barton. My time is about to expire. Here is my point. 
Here is my point, sir, and I am not upset with you, and I am 
not upset with Admiral Gehman. But we are putting American men 
and women at great risk for their lives to fly an orbiter that 
is 30 years old, that can not be made safe, and there is 
article after article after article that says that. So my 
proposal, at the appropriate time, at least with the acceptance 
of being able to offer it, is to use these orbiters in an 
unmanned capacity, build a new space plane or a space orbiter 
that is just for people and go to the President and get the 
President to set a goal for the American people to have a real 
mission for our astronauts.
    And I don't know what that will be, but I am going to do 
everything I can within the rules of this committee and the 
House to prevent more Americans going up in the existing 
orbiters. I just think it is inherently unsafe. We have already 
lost 14 men and women, and if we keep flying them, we are going 
to lose 21 other men and women in the next 10 to 15 years.
    And with that, Mr. Chairman, I would yield back.
    Chairman Boehlert. Would you like to comment on that, Mr. 
O'Keefe?
    Mr. O'Keefe. Well, thank you, Mr. Chairman.
    Thank you for your views, sir. We certainly are anxious to 
meet with you to walk through what our vision and objectives 
are. At this point, we are basing everything we are doing at 
this stage, beginning with the strategic plan to determine how 
we can proceed, and again, what I attempted to respond to is we 
really have to conquer the technology limitations that 
currently exist on in-space propulsion, power generation 
capacity, and human endurance beyond low Earth orbit in order 
to make any Solar System exploration objectives feasible. And 
that is what we are trying to work through right now. I just 
ask that you keep an open mind on that process, and I 
appreciate the points you have raised. Positively, this is 
among the issues that we need to adjoin as part of the 
President's options that he will be considering for the purpose 
of what that broader exploration space policy objective will 
be.
    Mr. Barton. Thank you.
    Mr. O'Keefe. Thank you for that input, sir.
    Chairman Boehlert. The gentleman's time has expired, but 
Admiral Gehman, your report, the Commission's report, said the 
Shuttle was not inherently unsafe, but it is inherently risky. 
Now would you comment on that?
    Admiral Gehman. Yes, sir. The Board felt that it would be a 
pretty cheap shot to deliver to the Congress a long list of 
woes without at least editorializing on a way out of this 
dilemma. And in order to do that, we had to characterize the 
risks, which we attempted to do. But we also suggested a way 
out of this dilemma. And I might add that if we do get invited 
to come back and reconvene a year from now, in our little 
formula for addressing this very excellent question, if there 
has been no action on our little formula, we will probably 
comment on that. And our little formula is very simple. It does 
go along the lines that were proposed here. That is, the Nation 
needs to decide what it needs to do in space, not what the 
vehicle should look like. First of all, we have to decide what 
our--what we want to do in space. And NASA's vision doesn't 
count. It has got to be an agreed national vision.
    So if we are, one year from now, no further along with 
that, we will probably put that in our report, too. But we did 
opine that it--that the Shuttle can be operated for the next 
couple of years with an acceptable amount of risk. It is still 
risky, but it could be made safer, but as soon as possible, we 
need to separate the crew from the cargo, and I think that was 
the point that was made here.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. And we will get 
back to the second round. And that is why, Mr. Administrator, I 
would suggest that Mr. Barton's question, which was very 
specific, is so important, this interagency team and who is 
doing what as we are trying to get a clear vision for the 
future.
    The Chair recognizes Mr. Lampson.
    Mr. Lampson. Thank you, Mr. Chairman.

             Vision Formulation and the Interagency Process

    And I, too, believe that same thing, Mr. Chairman. I think 
that we have expressed and tried to express from this committee 
and Members of it for several years a real vision for NASA to 
develop, some place to go, something that not just gives us a 
better concept of what the purpose of NASA is. But I honestly 
believe that that will go light years in keeping the 
excitement, the enthusiasm of employees of NASA, the dreamers 
of this country who wanted to go and do things in space, giving 
them the opportunity to have the continuity of program after 
program rather than wondering when we come up with the 
technology what might we then do with that technology.
    So I think perhaps it is a matter of philosophy and which 
comes first, the chicken or the egg. I happen to be of the 
philosophy that you can achieve more technologically if you 
have some place to go and you develop the technology necessary 
to achieve those goals. And I hope that we can get about doing 
some of that. The Gehman report cites the lack of agreed--an 
agreed national vision for space--human space flight over the 
last three decades as an organizational cause of this accident. 
And I want to follow-through with some of the questions that 
were asked by Mr. Barton a few minutes and come back to some of 
the same points that were being made by Mr. Barton immediately 
before me. Are you personally aware of who is in the meetings 
on the--with the review committee?
    Mr. O'Keefe. Yes, sir. There are a variety of participants.
    Mr. Lampson. You are familiar with each and every one of 
them?
    Mr. O'Keefe. They vary.
    Mr. Lampson. From meeting to meeting?
    Mr. O'Keefe. Yes, sir.
    Mr. Lampson. Can you give me an idea of how many different 
agencies are represented in these meetings----
    Mr. O'Keefe. Sure.
    Mr. Lampson.--from time to time?
    Mr. O'Keefe. Sure. Exactly, as I have just described for 
Mr. Barton--or for Mr. Gordon a little bit earlier is the 
President's Science Advisor and his staff, the Defense 
Department, the Commerce Department, Office of Management and 
Budget. There is a range of other participants that will enter 
into that equation, as necessary, to draw on those expertise to 
look at what the longer-term exploration agenda objective----
    Mr. Lampson. Including people from the outside?
    Mr. O'Keefe. No, sir.
    Mr. Lampson. It is all within the White House?
    Mr. O'Keefe. Just strictly within the Administration. It is 
an interagency process within the Administration to work 
through these issues as a first start in order to serve this up 
for the President's consideration of our options.
    Mr. Lampson. When might the second step come?
    Mr. O'Keefe. I don't know. I will get back to you very 
shortly, though.
    Mr. Lampson. Okay. But you said some time ago in some of 
your testimony or statement some place that you wanted to 
solicit public input. At what point will the public have its 
opportunity to give its input?
    Mr. O'Keefe. We have been--there have been lots of 
different ways that those avenues have been adjoined of late. 
And again, the oversight hearings. There has been a range of 
outside witnesses who have been called.
    Mr. Lampson. Before that committee?
    Mr. O'Keefe. Before lots of Congressional committees. This 
is not a committee. It is an internal, interagency process that 
is very similar to what every Administration does. So this is 
an internal process for the purpose of advising the President 
on the options to be available.
    Mr. Lampson. Is it something like the Cheney Committee?
    Mr. O'Keefe. No, sir, it is not.
    Mr. Lampson. Let me switch a little bit. Is the group 
looking at costs and benefits of humans going beyond low Earth 
orbit or----
    Mr. O'Keefe. Yes, sir.
    Mr. Lampson.--just robots?
    Mr. O'Keefe. No, sir. I think it is looking at, again, the 
full range of U.S. space exploration policy objectives, which 
then includes the tactical questions you are raising: how do 
you perform it; what platforms, as the Admiral just observed, 
might be used? All of those questions need to be resolved after 
you have answered the first top level set of questions, and 
that is what we are really beginning at.
    Mr. Lampson. Has that committee considered the goals that 
have been set by China, to go to the moon?
    Mr. O'Keefe. I have not--I don't recall specifically 
whether it has been adjoined at any level at this juncture, but 
I have no--have a specific recollection of that point. I am 
aware of it. Certainly, that is an observation that many have 
made. It has been written about extensively----
    Mr. Lampson. In magazines and such, but it has certainly 
not been brought to the public's level of awareness that, in my 
opinion, it should. Do you have a feeling that we should push 
harder to let the public be aware of the goals that other 
nations have set to go to the moon? Is it important that others 
get there before we are? Is it--do we need to care about that?
    Mr. O'Keefe. Again, as a matter of policy, that ought to 
enter into the debate. And I, with you, agree fully that there 
ought to be a wider understanding within the general public of 
exactly what the intentions may or may not be of other national 
interests to achieve that objective.
    Mr. Lampson. Is there one person that sits in the chair of 
this committee considering these things or does it, too, change 
from time to time?
    Mr. O'Keefe. It is like every Administration does 
interagency coordination process: to pull together the options 
for the President's consideration.
    Mr. Lampson. But who is doing it? Do you do it?
    Mr. O'Keefe. I am one of the participants. There are 
others.
    Mr. Lampson. But there is no chairman?
    Mr. O'Keefe. Not particularly. No. It is more--again a 
coordination process is established as part of the interagency 
functions.
    Mr. Lampson. Okay. Let me take my 10 seconds to sum up my 
statement. I have now talked, probably 21/2 years, maybe, about 
the exploration--Space Exploration Act. You are familiar with 
that----
    Mr. O'Keefe. Yes, sir.
    Mr. Lampson.--bill that I introduced before. I will be 
reintroducing that bill today. The bill calls on NASA to 
establish a phased series of goals over the next 20 years, 
including human visits to the Earth/sun libation points and 
Earth orbit crossing asteroids, deployment of a human tended 
research and habitation facility on the moon, humanness 
expeditions to the surface of--and to moons of Mars. And as we 
work to return the Shuttle to flight, we need to move outward 
beyond low Earth orbit, and in the process, we will revitalize 
our space program. We will energize industrial and academic 
sectors of this country. We will create new opportunities for 
international cooperation. And more importantly than anything, 
I think, it will inspire young people. And I firmly believe 
that we have got to do it with what we have been talking about 
here, not the concept that you are going. And I would plead 
with you to please make that point to whatever this committee 
is, and maybe we will find out a little bit more about the 
committee as we go along.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you. The gentleman's time has 
expired.
    The Chair recognizes Dr. Bartlett for five minutes.
    Dr. Bartlett. Thank you very much.

                External Tank Foam and the Use of Freon

    In an attempt to put this accident in perspective, my 
colleague, Mr. Barton, asked about the probability of a fatal 
accident in the Shuttle Program and a possibility of a fatal 
encounter in our fighter pilots over Iraq. There are two little 
statistics I would like to get on the record to put this in 
perspective. In the roughly hour and a half since our hearing 
began, seven people have been killed on our highways, just the 
number of the astronauts, and 81 of our fellow citizens have 
died prematurely from smoking cigarettes. I wonder where the 
outrage is over this statistic?
    I would like to get something straight for the record that 
if you have only the previous--there were some questions about 
the application of the foam and that in earlier flights, and I 
don't know exactly when this was changed, that the foam blowing 
agent used chloroflurocarbons. In an attempt to reduce 
pollution, NASA then changed to HCFC-141B blowing agent, which 
resulted in increasing loss of foam due to popcorning. I am not 
sure that at that earlier hearing it was made clear that there 
are two different techniques for applying foam and that the 
agent was changed in only one of those. You might conclude from 
that earlier hearing that the probable cause of the foam coming 
off, which caused this accident, was because of the change in 
the use of this agent. Would you explain, please? I know you do 
this in your accident report, but that may not be as widely 
read as the record, and in this previous hearing, the 
implication was that if we hadn't been so concerned about the 
environment and kept on applying the foam with the 
chloroflurocarbons that we probably wouldn't have had this 
accident. Can you set the record straight?
    Admiral Gehman. Sir, I presume that that is--may I answer 
that question?
    Dr. Bartlett. Yes, sir.
    Admiral Gehman. Yeah, right. Yes, sir. You are exactly 
right. The change in blowing agent, even though it did cause, 
in the next two flights, a dramatic increase in the number of 
pieces of foam that came off, that was fixed right away and was 
immediately taken care of. And the Board attributes not at all 
the change in blowing agent to this accident. Besides that, we 
are talking about two different foam areas. The popcorning 
occurred in the vast acreage foam that goes around the tank, 
and we are talking here about the bipod ramp, the--that wedge 
shape, handmade piece of foam, which has come off only seven 
times that we know of.
    Chairman Boehlert. And Admiral, that foam was never 
changed, is that correct?
    Admiral Gehman. That foam has never been changed.
    Chairman Boehlert. Thank you.
    Admiral Gehman. It has been laid up the same way all of the 
time, so the change in blowing agent had nothing to do with 
this accident.
    Dr. Bartlett. I appreciate that explanation, because when I 
sat through that former hearing, my impression I came away with 
was that gee, we changed the application of the foam and that 
caused a whole lot more loss of foam, which is true. But it is 
a loss of popcorning, which I gather, were tiny flakes of foam, 
which really were not a risk.
    Admiral Gehman. I don't know that they are not a risk, but 
they did not cause this accident. And it--in any case, it was 
fixed. And the incidence of foam coming off was immediately 
statistically reduced back down to----
    Dr. Bartlett. What do you mean by fixed? Do we now use 
chloroflurocarbons for their application?
    Admiral Gehman. No, sir. No. Thousands of little tiny 
pinholes were drilled to the acreage foam to allow venting, to 
allow normal venting of the compressed gases.
    Dr. Bartlett. Admiral, in the grand scheme of things, the 
amount of chloroflurocarbons that would be used in these once 
in a while application of foams to the--to this craft, that 
really wouldn't amount to a--much of an impact on the 
environment, would it?
    Admiral Gehman. I have no earthly idea to know how much. 
The main reason--the testimony we received was that the main 
reason they shifted blowing agents was to the--was because of 
the lack of availability of Freon, as we used to call it. They 
just couldn't get the hundreds and hundreds and hundreds of 
tons of it that they used to need.
    Chairman Boehlert. Thank you, Dr. Bartlett.
    Dr. Bartlett. Thank you.
    Chairman Boehlert. Your time is expired, and I thank you 
very much, the very distinguished scientist that you are, for 
bringing that to our attention, because the theory advanced by 
some that this tragic accident occurred because NASA was 
required to adhere to certain environmental law. That theory 
doesn't hold water. Secondly, NASA has had repeatedly 
exemptions from EPA. And so I am so glad, Dr. Bartlett, that 
you brought that to our attention. And it means more coming 
from a distinguished scientist. Thank you very much.
    The Chair recognizes Eddie Bernice Johnson.

                             RTF Workforce

    Ms. Johnson. Thank you very much, Mr. Chairman. And I 
apologize for having to run to the Floor for resolution. I 
would like to express my appreciation for you continuing these 
hearing, and I would like to thank Administrator O'Keefe for 
agreeing to appear here today and the Admiral for returning to 
answer our questions on this most important hearing on the 
Columbia Accident Investigation Board report.
    Today, we are brought here again to discuss the accident 
and the report to protect the safety and integrity of the 
future of this country's space program. We must learn from the 
mistakes of the past. The report from this investigation will 
allow us to see what went wrong, how to prevent it from 
happening again. It is essential that we put forth concerted 
effort to protect the safety of our 
astronauts.I21Unfortunately, we see in the report that there 
was pressure from the leadership that led unsafe practices. One 
of the biggest concerns I have had with this current NASA 
administration has been the privatization and competitive 
souring of governmental functions. Throughout the '90s, the 
Shuttle workforce has shrunk. And from 1992 to 2002, NASA's 
Shuttle workforce was reduced by more than 50 percent and the 
Shuttle contractor workforce by more than 40 percent. The 
report documents these facts as well as the fact that the 
diminished capacity of the NASA Shuttle workforce as a factor 
in the Columbia accident, and I find this quite alarming.
    We can no longer pass blame or hide behind ignorance when 
we discuss safety of our astronaut corps. It is time we stand 
up and face the music of the mistakes made, if not only to 
honor our brave heroes who have passed because of our arrogance 
or failure to see the errors of our ways, that is the least 
that we owe to their memory.
    So Mr. O'Keefe, I would like to ask you how many people 
will you be hiring within NASA to enable you to meet the 
return-to-flight recommendations?
    Mr. O'Keefe. We are just beginning to develop the--an 
estimate of exactly what kind of internal hiring of U.S. 
Government public servants would be required. It will be at 
least on the order of a couple of hundred. It will be 
associated with the NASA Engineering and Safety Center that we 
announced a couple of months ago. And it will be initiating on 
the 1st of November. And then looking at all of the 
recommendations that have been made and the options we will 
choose to implement them, we will hire, as necessary, 
engineering, technical, and management staff, as appropriate, 
in order to carry out the options we may choose to go forward 
with the recommendations, on the basic assumption, though, of 
what the distribution is of what we do at NASA as a public 
service relative to contractor folks comparison. There was a 
very instructive Congressional Budget Office report that was 
released about a month ago that compared what we do within the 
Shuttle Program Office with a number of other major program 
integration efforts, systems integration efforts that go on 
across the government and have found that what we are doing is 
not substantially dissimilar in that regard.
    So Mr. Chairman, if you would, I would like to at least 
submit this CBO report for the record as an interesting----
    Chairman Boehlert. Without objection.
    [The information referred to appears in Appendix 2: 
Additional Material for the Record.]

                     Schedule Effects on Workforce

    Mr. O'Keefe.--observation that I found that--in reviewing a 
number of other comparable major programs that require systems 
integration work, we are, you know, roughly of the same order 
and magnitude of that same kind of distribution and comparison 
of public versus private functioning. But we will be looking at 
additional folks to be brought in in order to assure that 
independent engineering expertise that the Board has called for 
in the course of its commentary as well as to sure up the 
safety objectives that we need for public servants to do so.
    Ms. Johnson. Okay. As you know, the report reinforces 
Goldin's and McDonald's conclusions that the workforce was 
being severely strained by schedule pressures and by the 
inability to oversee the contractor workforce effectively and 
concludes that the balance between NASA and the contractor 
workforces have become skewed and strongly implies that NASA 
needs to beef up its workforce significantly. So once the 
Shuttle has returned to flight, how many people will NASA need 
to hire in order to assure a safe Shuttle program?
    Mr. O'Keefe. I don't know. We are going to need to 
inventory, again, each of the options that we would select for 
compliance with each of these recommendations, and that then 
will yield a number of how many people we hire.
    Ms. Johnson. How much will that augmented workforce cost on 
an annual basis? I guess if you don't know how many you are 
going to hire, you don't know that, but how much have you 
requested in the budget?
    Mr. O'Keefe. Again, the budget right now has not been 
amended or adjusted in order to reflect what we believe to be 
return-to-flight costs. When those estimates have been 
developed, we will certainly submit it expeditiously to 
Congress for your consideration.
    Chairman Boehlert. Thank you very much.
    Ms. Johnson. Thank you very much.
    Chairman Boehlert. The gentlelady's time has expired.
    The gentleman from Florida, Mr. Feeney for five minutes.
    Mr. Feeney. Thank you very much, Mr. Chairman. And we are 
grateful for both of you being here. We appreciated Admiral 
Gehman's testimony last week.

                          NASA/Navy Benchmark

    Mr. O'Keefe, you and I were together on a very sad occasion 
on February 1. We were with, amongst others, Congressman 
Weldon, from Brevard County, and of course, Majority Leader, 
Tom Delay, during a very, very sad day. I want to focus briefly 
on some conversations you and I had before that disaster, 
because the truth of the matter is that I really respected what 
you were doing and where you were going, getting the full 
accounting, not just of the accounting books and balance sheets 
for NASA but also the resources, the capabilities, and you and 
I talked about developing a long-term strategic vision. And I 
understand, while I have been busy in two other committees, 
that you have talked a great deal about that vision. And of 
course, we will be continuing to pursue that, because all of us 
are looking forward to the future.
    But I will suggest that one of the things we have also 
talked about is that there has to be a balance in terms of 
safety but also getting things accomplished. This is an 
inherently risky business. I think most people that support 
manned space flight accept the notion that this is an 
inherently imperfect process as long as human beings are going 
to be involved in it. The safest advice I gave my clients when 
I was lawyer but I had to stay out of court was to stay in bed 
every day. And the truth of the matter is, you get very little 
accomplished if you are going to be using safety as your only 
goal. And I think that Admiral Gehman and his suggestions have 
been very important in noting that we can do a lot better on 
safety with respect to technical aspects, the culture, et 
cetera, but that safety can't be the only goal or we will never 
launch men and women again into orbit.
    I am interested in the conversation you and I had before 
the disaster, and that was one of the first things you did when 
you took office was to use the benchmark study of the Navy's 
nuclear submarine program. I think you and I had talked about 
how instructive that could be in many ways, and it becomes even 
more pertinent after the disaster on February 1. I want to 
quote a letter that you sent to the Navy Secretary back on June 
13 of 2002. You said, ``NASA's Space Shuttle and International 
Space Station program managers are facing many challenges, 
including maintaining product quality and safety, accomplishing 
required performance and safety upgrades, and maintaining a 
skilled and motivated workforce in the face of budget and 
schedule pressures.''
    I think you basically encapsulated a lot of the challenges 
facing NASA that sort of, in some ways, all came to a head on 
February 1. A lot of which you had to say before the disaster 
parallel what the CAIB report is suggesting that we need to do 
to improve NASA. Six months before Columbia, something about 
NASA's safety culture caught your attention and your eye, and I 
wonder if, in the firsthand, you can share that with us, and 
secondly, I wonder if, with respect to Kennedy Space Center's 
quality assurance procedures, General Deihl, as part of his 
contribution to the CAIB report, said as follows: that NASA 
ought to ``perform an independently led, bottom-up review of 
the Kennedy Space Center quality planning requirements document 
to address the entire quality assurance program and its 
administration.'' You have been very proactive and very 
generous in accepting the critique in the Gehman report. I 
think you have accepted it in a most magnanimous and important 
fashion. I hope that everybody throughout NASA will do that, 
but I would like to note specifically with respect to General 
Deihl's recommendation, how you intend to approach that.
    Mr. O'Keefe. Yes, sir. Thank you very much. On the first 
set of issues, in terms of what were the influences that kind 
of provoked me to look towards the benchmarking within, not 
only the submarine service but also the naval reactors 
community. And I guess it kind of goes back to in vitro. A--one 
of the originals within the Navy nuclear engineering program 
spent an entire career in the submarine service as an engineer. 
And so I grew up with this around the dinner table listening to 
the kinds of concerns that that community has and the ethos 
that that community has about safety and the objectives that 
need to be accomplished there.
    When the Thresher went down in the '60s, when I was a 
little kid, I can recall very specifically an awful lot of real 
tight-lipped, tight-jawed folks around the Portsman Naval 
Shipyard, which is where we were stationed at that time. And it 
was the beginnings of what then became what is now known as the 
Sub Safe Program. And years later then, having the privilege of 
serving as Navy Secretary and working with the naval reactors 
community, submarine force again, in that capacity, I found the 
ethos of what they are engaged in and the way they diligently 
pursue these efforts for safety as well as operational 
conditions and balancing both objectives as being the closest 
comparable community to our own.
    And in that regard, I asked Admiral Skip Bowman, who is now 
the successor to Admiral Reichover's legacy as the naval 
reactors chief today, attended the very first launch I ever 
went to. He was with me there, and that was the first he had 
seen one. We compared the processes and the systems to the 
complexity of a Trident submarine, you know, and the very same 
kinds of approaches have to be taken there. And he then helped, 
along with then-Secretary Gordon England, who is on his way 
back to that capacity, to initiate, at our request, a 
benchmarking effort that, again, as you cite, in December 
released its first effort to--for that particular benchmarking 
procedure within the submarine program and then within the 
naval reactors community, most recently in July of this year. 
So an awful lot of what we have garnered from this effort that 
went on well before the accident occurred just didn't mature in 
time, clearly. And it has--but it is the same thing. We are not 
going to slow up on that effort. It is something we have got to 
redouble our efforts to implement. The cooperation and the 
assistance from the naval reactors community, from Admiral 
Bowman specifically, and from all of his principle staff has 
been exemplary. Our chief engineer today is a fellow who was--
spent an entire career in the naval reactors community and has 
been brought over as the chief engineer of NASA. So there is a 
lot of cross pollination going on here in order to assure that 
that ethos is infused.
    As it pertains to the second part of your question and the 
other observations offered by members of the Columbia Accident 
Investigation Board, we will treat that like everything else. 
There are two categories in our Implementation Plan, which very 
clearly delineate 29 recommendations that have been faithfully 
recorded by the Board, and then what we characterize as the 
raise-the-bar inputs. And in that will be all of anybody and 
everybody's inputs to include other members of the Board who 
offered supplementary views or whatever else. We are not going 
to discriminate between and among the--where the origin of 
various ideas may come from. Instead, we want to work through 
each of those and make sure there is careful consideration to 
all inputs that we receive. We want to make sure that we make 
this a stronger, safer procedure before we return-to-flight.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has----
    Mr. O'Keefe. Thank you very much. I appreciate the inquiry.
    Chairman Boehlert.--expired. The Chair recognizes Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Again, 
let me thank the Chairman and our Ranking Member for the Full 
Committee and as well our Chairman and Ranking Member for the 
Subcommittee on Space and Aeronautics for these detailed 
hearings that I find very, very effective.

                             Accountability

    Mr. O'Keefe, I want to join in the premise of the Ranking 
Member that we are not attempting to find blame for blame's 
sake. And I join him in that. But my approach has been that 
until you hold individuals accountable, until you respond to 
the very core of the problem and begin to shine a light, it 
will be difficult to correct whatever the culture might be 
represented to be. And certainly NASA has had a wonderful 
history. Needless to say, as we began the hearing last week, I 
read the names of the Columbia 7. We could read a number of 
names of individuals who sacrificed their lives in the course 
of the great mission of NASA. I think we owe all of them 
enormous debt of gratitude, and I mentioned last week that we 
hope we will get Congressional gold medals for the Columbia 7, 
but we owe them an enormous debt of gratitude by way of such 
recognition. But we know that we owe them a debt of gratitude 
by way of what we do from this day forward. So I first want to 
say to you that I think the return-to-flight effort report that 
came out certainly has a lot of strength to it.
    And I want to note, in particular, two points about 
starting the review of the several thousand waivers of Shuttle 
safety requirements to determine whether they were justified. 
And I would imagine the public would not even be aware that we 
engage of thousands of safety waivers and with no notice to the 
public as to whether they were justified or not, I am sure 
there were individuals who thought so. But certainly, in light 
of the tragedy, we would raise the question.
    The other, I think is very worthwhile, and that is, of 
course, to add cameras to the Shuttle and the International 
Space Station to try to document launch damage and use imagery 
from ground aircraft and ship-based sources. Again, a simple 
feature, a camera, that wasn't even on-board in place in 2003. 
We have had cameras around for at least a century. So I guess 
my line of questions will lead as follows. And I would like to 
engage NASA on the premise that I said not blame for blame's 
sake, but to be able to find good solutions to work with my 
colleagues and might I mind my manners and say to Admiral 
Gehman again, we will say it over and over again, and to your 
Board, a very, very effective report of which we can use as a 
very effective, if I might use the terminology, road map to get 
us where we would like to go.
    But as I have looked over some of the regulations and 
processes in NASA, I think more work needs to come. So Mr. 
O'Keefe, let me refer to some testimony that was given last 
week by one of the--by--I think it was Major General Hess. I 
asked him to give me a sense of how the military operates. They 
operate by way of finding out what happened and then 
accountability. And there is a level there where there are 
individuals who are removed. First, I would like you to give me 
a list, not by names, I can engage you one on one on that, 
positions that we now know people who have been moved. I would 
like to know what has occurred with respect, I believe, to the 
Deputy Administrator who was in charge of flight operations, if 
you will, again not calling names, but whether there has been 
any action. But I want to know the list of positions that 
individuals held that no longer are in place or that they have 
been moved as a response to the Columbia 7 tragedy.
    I also will be, as I indicated, filing a whistleblower 
protection legislation within days dealing specifically with 
NASA. I am not happy with the approach. I understand there is a 
hotline that the OIG utilizes. I will be seeking to find out 
whether the OIG received any such calls during the course of 
the Columbia 7 launch and what happened with those calls. Not 
knowing whether or not the OIG is to be a witness, Mr. 
Chairman, but I would want to call the OIG to this hearing room 
and to ask what circumstances or what actions occurred around 
Columbia 7 and whether any calls came in at that time.
    This is a question to you, Mr. O'Keefe, and I thank you for 
your presence here. On August 29, there was a message sent out 
to the NASA family. In that e-mail, you addressed a perception 
reported in the CAIB report among some employees that it is not 
safe to report problems without risking retaliation. It is 
noted that this is not something that is attributable to you, 
Mr. Chairman. It has happened in past Administrators. There is 
a fear that if you tell about problems, it may not be that you 
are immediately eliminated, but your life becomes a life of 
misery, that many of the individuals at higher positions are 
those who happen to be friends of the Administrators. And so if 
these criticisms are true, or even if they are perceived as 
true, you have a huge challenge on your hands. How can we get 
the talented technical people at NASA motivated to speak truth 
to power, terminology used by a civil rights group, within your 
organization when they see in--see it run by ``yes people'' and 
they fear for their careers? And can we assure that there is no 
way for NASA management to discover who has made a complaint to 
the NSRS system so that these employees can be protected?
    Finally, it is interesting that out of almost 300 
interviews conducted by the CAIB, no line employee ever chose 
to treat their interview as a public, unprotected event. Every 
one of them wanted secrecy. How can we break this culture? And 
when are we going to start breaking this culture? And as well, 
in noting the report on the return-to-flight, I think it was 
very admirable that Inspector--excuse me, Associate 
Administrator for Space Flight, William Ready, said--he is a 
flight engineer and a pilot, I believe. He doesn't know 
anything about this culture thing. There was a culture that 
stifled communications that somehow we have to eliminate. He 
doesn't know anything about it. We have got to get some other 
people in here to help him. Where do we go from that--from here 
on those questions?
    Mr. O'Keefe. I will attempt to respond to all of the points 
you have attempted to raise here, and I will try to be brief, 
and that will be a challenge here. But I think you have raised 
some very important questions.
    The first issue on accountability, there is no question. 
There is no doubt. Please, make no misunderstanding. The 
accountability starts with me. And I am responsible for what 
the activities are of what goes on in this agency, and I am 
personally accountable for that activity. I offered a witness 
statement to the Columbia Accident Investigation Board. It is 
not a privileged statement. It is open testimony, so it has to 
begin with me, and it has to begin with every leader in this 
organization to make that kind of change. Now to your--to one 
of the questions that you raised in the course of your 
commentary, there have----
    Ms. Jackson Lee. It goes to people that have been moved.
    Mr. O'Keefe. Yes, I was just about to get there, and I 
apologize for not getting there promptly enough. There are four 
Space Flight Center Directors. All four of them are new within 
the last year. Three out of those four are new within the last 
seven months. The Deputy Directors of those four Space Flight 
Centers, two of those four are new in the last seven months. 
Within the Shuttle Program itself, 14 of 15 of the senior 
management of the Shuttle Program are new in the last seven 
months. So the--and I will give you a fuller accounting, for 
the record, of every other move that has been made, because I 
believe this to be not just a space flight, not just a Shuttle 
Program set of issues, not just any individual center, it is 
across the entire agency. And so as a consequence, you have 
seen very significant change in the last year in the senior 
leadership at almost every position. Three-quarters of the 
leadership of this agency is different today than it was a year 
ago. And in the course, that is the leadership team, I believe, 
that is going to lead us to--from this point forward, to be 
responsive in these situations. And as a consequence of that, 
those who are not have been removed for a variety of reasons.
    They have either left the agency. They have been 
reassigned. They have been relieved, any number of different 
cases. And each is a different story, which gets to the second 
point, I believe, powerfully you made in your commentary, which 
is the last thing I want to do in the course of this is 
contribute to this retaliatory atmosphere that is asserted very 
clearly by the Columbia Accident Investigation Board's report 
and the conclusion that each of the Board members have reached, 
which is they have witnessed this same behavior themselves in 
addition to recording how they believe that acted its way 
through in the investigation, which is what prompted me to put 
out the message that you very thoughtfully read. And again, it 
is one that I am--I stand by. I think we must enforce. We must 
be serious about it. And the very clear message to all 
leadership of this agency is we can not tolerate that 
repression or suppression of any observation of safety 
concerns, difference of view. But we also have to have 
responsibility to resolve those issues and move forward. I 
think, as Congressman Feeney very thoughtfully observed, we 
have to balance those two or else we spend all of our time 
debating the question.
    So as a consequence, it works both ways. The leadership 
must set the tone for that. I believe the leadership team that 
is in place today have been put there recently, comparatively 
speaking, because they manifest that kind of characterization. 
And they will remain there until such time as they fail to 
demonstrate those characterizations as well as behaviors in the 
future.
    Finally, one approach that we will look to to try to sort 
through and be sure that anyone out there, if they don't want 
to use the OIG hotline, they don't want to use the NASA safety 
reporting system, which again permits anonymous reporting, none 
of which was recorded during the course of the operation or 
during the STS-107 flight at all. There are any number of ways 
to ensure that, and we would like to create yet another 
possibility to do that, which is anyone on any day at any time 
to observe that if they feel that they can not raise their 
point of view or if it is suppressed in that process, that we 
create a system that is so common in so many other agencies in 
order to assure that these are run to the ground and resolved. 
But first and foremost, it has to start and stop with the 
leadership mentality and attitude. And that is what I am 
committed to ensure that we infuse in this agency. I think we 
are going down that road to do so. The changes have been made 
in order to implement that. And this leadership team is up to 
that challenge.
    Chairman Boehlert. Thank you very much.
    Ms. Jackson Lee. Would you be happy to----
    Chairman Boehlert. The gentlelady's time has expired.
    Ms. Jackson Lee. Mr. Chairman, could I just get him to----
    Chairman Boehlert. The gentleman is recognized--Dr. 
Ehlers----
    Ms. Jackson Lee. Would he work with me on the whistleblower 
legislation?
    Chairman Boehlert. The gentlelady should understand, this 
is a committee of nearly 50 Members. This committee tries to be 
indulgent to every single Member. Five minutes opening 
questions. Your opening question lasted seven minutes, just the 
question. The Chair is trying to be very fair to each and every 
panel Member, but each panel Member has to be fair to other 
panel Members.
    Ms. Jackson Lee. I respect that, Mr. Chairman.
    Chairman Boehlert. The Chair now recognizes the gentleman 
from Michigan, Dr. Ehlers.
    Ms. Jackson Lee. And I have been fair to others, as I have 
listened to them go over the time. This is an important 
question, and I respect----
    Chairman Boehlert. Every Member has important questions, 
Ms. Jackson Lee.
    Ms. Jackson Lee. And I respect--and I----
    Chairman Boehlert. I would like to emphasize that.
    Ms. Jackson Lee. Correct. And I respect that aspect.
    Chairman Boehlert. Your time consumed 14 minutes, and each 
Member is allocated five minutes. There will be a second 
round----
    Ms. Jackson Lee. Well, I will look for the documentation of 
14 minutes.
    Chairman Boehlert.--and the Chair will be generous again. 
The Chair recognizes Dr. Ehlers of Michigan.
    Mr. Ehlers. I hope that interchange didn't come off my 
time.
    Chairman Boehlert. It did not.
    Mr. Ehlers. Thank you, Mr. Chairman.

                                 Vision

    And I would like to just also add to Mr. Feeney's comment: 
the only safe place is bed--staying in bed. And I should point 
out that more people die in bed than anywhere else. So he--you 
can't win.
    I apologize for having to step out for a few minutes, 
because I had to give a speech elsewhere, and I was going to 
ask you about the next space vehicle. I understand that was 
asked. While trying not to repeat this, but I am anxious to get 
past the Columbia and get--and we have a complete report on 
that. We know what went wrong. We will try to correct the 
procedures. But I would like to look down the pike. People 
talked a lot about a grand vision or a vision, and that is part 
of it. But I think we should be thinking 30 or 40 years from 
now. Where do we want to be? And in particular, I think a very 
basic decision is to what extent do we want to engage in human 
exploration of space. There are people who talk about going to 
Mars. I don't--I think that would be a very unwise decision to 
make unless we develop far better propulsion systems, far 
better life support systems. At this point, given what we know, 
it is simply not worth the dollars. And we ought to recognize 
that.
    We have the Space Station up there. We have to service it, 
but it looks like we don't even have enough money to do that. 
And we--and NASA basically, intrinsically, is a science agency. 
And we have to make sure we have the money to do the science 
that is important. And I understand that $40 million was cut 
from that program recently, and I don't know if it is going to 
be used for the Shuttle or other things, but over the years, 
NASA's total budget has gone down, but particularly its science 
budget has had difficulty.
    I--that is all preliminary to just asking you, Mr. 
Administrator, and I am very impressed with you as a person and 
I am impressed with the work you have done. I am pleased to see 
you there. But I am interested in your personal vision, how you 
plan to tackle these problems, first of all, guiding the 
American public and, therefore, the Congress in decisions we 
have to make about human space flight, because that is the 
expensive part. Secondly, what is your long-term vision of the 
science, how we should handle that, what we are--how we are 
going to allocate resources to that? So I am getting a bit at 
what you see, and I don't want you to--I will specifically say 
that neither I, nor the world, should tie you down to what you 
say right now, because you may not have had time to think 
through all of that. But what is your thinking about the 
process you are going through? And then particularly, in 
designing the next space vehicle, the last one I was totally--
the last attempt, I was totally unimpressed with. I went out to 
look at the project, came away with the idea that this was not 
going to fly. It was a waste of money, and a year later, it 
ended at, I think a total expenditure, of $1 billion, public 
and private. We need a thoughtful, careful approach. How do you 
plan to approach that?
    Mr. O'Keefe. Thank you, Congressman.
    I guess the first observation would be at the premise of 
your commentary, at the very beginning, or preface of it, I 
should say, is we want to look past Columbia. And while that is 
true in terms of looking at what these larger and broader 
exploration agenda objectives should be, I must tell you, in 
all sincerity, I can't look past this accident. There is no 
way. I can't take my eye off it for one second, because we have 
got to learn from this, institutionalize that learning, fully 
understand what the lessons from that are to assure that we 
lower the probability that this will ever, ever happen again. 
You can never eliminate the risk, but we sure can do better 
than we have done. And this is one that I don't want to even 
forget about that for a second of the day, because it is 
imperative that what we do today, tomorrow in the near-term 
must be done as safely as we possibly can, but at the same 
time, driving towards those larger objectives. So I take your 
point, but I appreciate your indulgence on the clarification of 
that issue that I have really got to deal with. It is a 
responsibility. I think it is something that is absolutely 
insurmountable. There is no way we can move past that.
    In terms of where do we want to be, well, you could put 
your finger to it right. It is--in the strategic plan that we 
have developed and the approach we are using now in order to 
try to lay out what that broader exploration policy objective 
should entail, we have got to begin with the premise, as you 
said so, I think, exactly. There are limitations on power 
generation, propulsion, and human endurance that we must 
conquer or else we are just dreaming. And so every one of those 
are the kinds of things that the Congress, this committee has 
been extremely supportive of. The House demonstrated its 
commitment on this point, I am impressed to say, at the end of 
the last--well, prior to the time before the August recess on a 
contest of exactly this point when the issue was raised on 
reducing the resources necessary. There had been budgets, part 
of the President's budget for Project Prometheus, which is 
specifically designed in order to conquer these limitations on 
in-space propulsion and power generation. If we don't move past 
where we are today on chemical propulsion and the basic way we 
will be doing business with improvements of incremental nature, 
of course, for the last three to four decades, we are never 
going to get out from underneath the limitations that are 
always going to stop us from any exploratory effort that 
requires you to get there sooner and do it in a way that 
doesn't require nearly the fraction of mass that today is a--
just inhibitor. It stops you cold, because it requires so much 
volume.
    So moving in that direction, we have put in a very 
aggressive program in that direction. Project Prometheus is 
funded to the point of being able to demonstrate that 
technology on future missions, and as a consequence, the 
support from the Congress has been absolutely unbelievable, 
very impressive, and we are deeply appreciative to you, to all 
Members, for exactly that focus.
    On the issue of human endurance, I think that is exactly 
what Station is giving us today is the capacity to understand 
what it is going to take for folks to survive this experience 
for extended periods of time. In part, it relates, as you know 
far better than I by virtue of your scientific background, an 
understanding of the human capacity in order to sustain through 
some very unusual conditions relative to what we experience 
here on Earth. And we can only discover that, really understand 
those effects, aboard International Space Station. So so much 
of what we are doing, in terms of the scientific portfolio or 
the agenda, is driven by, principally, biological and physical 
research and materials research on International Space Station. 
That is the liberation that has come from the remap exercise 
that we engaged in just last year that Dr. David Shirley, a 
nuclear physicist, and Dr. Ray Silver, a chemist, helped us get 
to with all of the disciplines necessary represented in order 
to identify where should those priorities be aboard Station for 
what the scientific objectives ought to be in order to 
understand that. And it principally turns on issues of human 
endurance and the capacity of people to withstand the unusual 
combination, the amazing combination, that only exists in that 
microgravity condition of rapid acceleration of cell growth, in 
some cases, and rapid deceleration in others. We can't explain 
that. And until we do, that question of broader exploration 
objectives, et cetera, become something that is inhibitor 
constantly, in terms of longer term human objectives. So in the 
end, those three issues. If we can conquer those technology 
limitations and the capacity of humans to endure, we can do 
this.
    Finally, on your point of exactly where the science 
priorities ought to be and how do we balance those, today, 1/3 
of the overall NASA initiatives are related to space flight 
objectives for which humans are involved. The other 2/3 focuses 
on robotic means, a number of different capabilities that, 
again represented by the strategic plan, are intended to be the 
stepping stones, the pathfinders, if you will, in order to 
determine exactly the approach we would use to conquer those 
three objectives. And so the ultimate vision or objective would 
be that we are starting with, as we begin this larger 
exploration policy vetting process that we are into now, is to 
start with this as a baseline, recognize those three primary 
limitations on any vision objective that needs to be conquered, 
redouble our efforts to be sure that we do so, and to again to 
continue to encourage the Congress to support, as it has been 
so handsomely demonstrated, that we move ahead with the budget 
proposals we have already made and that are fully financed in 
order to conquer those three objectives. That is extremely 
helpful. That is the direction we are going. And as we refine 
this particular vision, as manifested in the strategic plan, I 
think that is going to give us a greater path in that 
direction.
    Chairman Boehlert. Thank you very much, Mr. O'Keefe.
    The gentleman's time has expired. The Chair recognizes for 
five minutes, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Before I get into my 
questions, I would like to express my thanks to you, Admiral 
Gehman, for your hard work and an excellent report and great 
leadership.

                            Shuttle Upgrades

    I am a fan of the national archives. And on the outside of 
the national archives, it says, ``The past is prologue.'' And I 
think it is worth thinking about that phrase. And so I would 
like to revisit how we got here, and one of the things I think 
it is important to do is to follow the money. Administrator 
O'Keefe, if you will recall during our first House--joint House 
Senate hearing into the Columbia accident, I asked you a 
question about Shuttle safety upgrades. And to refresh your 
memory, the question was were there any Shuttle safety upgrade 
proposals, recommendations, or projects presented to you, 
either as NASA Administrator or in your former capacity at the 
OMB, that you did not support, and if so, what were they and 
why did you reach the conclusions that you did? And you said 
that you could not recall any. Recently, the Committee received 
a written response for the record that, I think, is misleading. 
And it states, in part: ``Administrator O'Keefe has not 
rejected any Shuttle upgrade proposal as NASA Administrator or 
during his tenure at OMB.
    The Administration prepared and submitted to Congress in 
November 2002 an amendment to the fiscal year 2003 budget 
request to increase the funding for upgrading the Space Shuttle 
system by approximately $660 million for the fiscal year 2004-
2008 time frame.'' The response goes on to detail several 
specific safety upgrades that were, in fact, canceled during 
this Administration, including the electric auxiliary power 
unit because of ``cost growth of technical immaturity,'' and I 
am not sure I know what that means. The Administration's 
position seems to be that safety upgrades will be funded unless 
they cost too much, in which case, they will be canceled. And I 
think this is a funny way to run a safety program, since 
canceling an expensive program does not mitigate risk, it only 
mitigates cost.
    One final issue, I think, of note, this committee, on a 
bipartisan basis, has been attempting to obtain full budget 
documentation over the past 10 years for the Shuttle Program 
and for NASA's safety program. Chairman Boehlert and Mr. Hall 
have requested in writing from you internal NASA budget 
request, NASA's request to OMB, and NASA lawyers, I understand, 
have been claiming deliberative process protection while they 
are reviewing the documents. I think it is unfortunate that 
this committee will probably not see any of these documents 
unless our Chairman is forced to issue subpoenas for them. Mr. 
O'Keefe, your earlier response to me, on the record, indicated 
that you have not rejected any Shuttle safety upgrade proposal, 
either as NASA Administrator or Deputy Director of OMB. I would 
point out, however, that the CAIB report notes that the 
Administration's fiscal year 2003 budget request for Shuttle 
upgrades was a 34 percent cut from the fiscal year 2002 planned 
level, that is on page 114 of the report. The report fails to 
note, but it is a fact, that the fiscal year 2002 level also 
represented a significant cut from the fiscal year 2001 planned 
level. In other words, by fiscal year 2003, you had made cuts 
totally hundreds of millions of dollars over five years from 
the totals approved by your predecessor, Mr. Goldin. When the 
Bush Administration canceled any hope of the Shuttle 
replacement when they terminated the X-33 program in 2001, it 
became obvious that the human space flight program was going to 
be dependent on the Shuttle for a very long time. At that very 
point, when the termination lengthened the effective life span, 
OMB cut the Shuttle upgrades budgets by hundreds of millions of 
dollar over the next five years.
    So I have four questions. First, do you dispute these 
figures showing significant cuts in the Shuttle upgrades 
program while you were at OMB and at NASA? Number two, why did 
you make these cuts? Number three, the Committee's leadership, 
on a bipartisan basis, has asked you in writing for copies of 
budget documents that would give this committee an assessment 
of how Shuttle safety budgets have been created by NASA, OMB, 
and Congress over the past 10 years. This is not a partisan 
request. And in fact, most of the time period covered is in the 
Clinton years. You have, so far, not provided us with these 
documents. Will you commit to us today that these documents 
will be provided so the Committee, on a bipartisan basis, can 
perform its constitutional oversight function? And finally, I 
find it disturbing that, as I understand it, $40 million has 
been shifted from centers who are doing basic science research, 
and my question is when will that money be returned to the 
centers?
    Thank you.
    Chairman Boehlert. The gentlelady exhausted four minutes 
and 53 seconds with that question. And we will give the 
Administrator, because of the importance of the question, some 
ample time to respond to that.
    Mr. O'Keefe. We have not, to my knowledge, nor of anything 
I have seen presented, reduced the specific upgrade requested. 
Indeed, if anything, as part of the amendment to the 
President's budget last November, attempted to, as part of the 
Service Life Extension Program, inventory all of the upgrades 
that may be candidates in approaches to taking improvements to 
the Shuttle Program in an organized way and a more 
comprehensive way as we go through this and have funded it as 
such.
    The second question was why the cuts. I don't know that we 
did. And again, I am--prepare to be corrected in that view when 
I go back and take a look at the side-by-side comparisons you 
have so thoughtfully offered here of what is involved. I have 
been looking at page 114, and I guess it doesn't jump out at me 
right away, of where this is. Today, the Shuttle upgrade budget 
is, by what has been documented in the report, a $347 million, 
which relative to what it was just at the end of the last 
decade, was 175, so that is still near doubling of that across 
the way. So--but let me get you a more precise answer to that, 
but I am looking at the same graphic, and I see that we have 
been increasing in that regard. Is--there--to my knowledge, 
there has--and again, I emphasize----
    Ms. Lofgren. It is the third paragraph on the second side.
    Mr. O'Keefe. Okay. Third paragraph on the second side. 
``Responding to NASA's concern, the Shuttle required safety 
related upgrades, the President proposed NASA's budget for '01 
proposing safety upgrades initiative. This initiative had a 
short life span.'' Is that the paragraph?
    Ms. Lofgren. No, ``A year later, the fiscal year 2003 
request contained a plan to spend 1.220 billion, a 34 percent 
reduction.

                             OMB Passbacks

    Mr. O'Keefe. I see. Okay. Excuse me. ``A year later, the 
fiscal year 2003 request contained a plan to spend--a 34 
percent reduction.'' Let me go back and see what the exact 
comparison is there, because again, as part of the '03 budget, 
if you recall the President's budget included a specific entry 
to corral up all of this into the Service Life Extension 
Program to then organize and prioritize those specific upgrades 
that would be required to increase the Shuttle safety as well 
as improve its service life performance over the time of that. 
And to the extent that we have got a disconnect here, let me 
reconcile that, and I will go back and dig into the numbers and 
see where we are.
    Yes. The third question you asked is the Committee request 
for information. I apologize. I thought, Mr. Chairman, that--
and to Mr. Hall or Mr. Gordon, that there was a specific 
understanding with the Office of Management of Budget, I am 
advised, in which they are prepared to walk through all of that 
with members of staff, with Members, whatever, that may go 
through that entire accounting in the last decade. That is 
where I left this a couple of--a few months ago, and I thought 
that had been done. I will go back and assure that that is the 
case, but my last discussion with the OMB General Counsel was a 
more than willingness to engage in that discussion----
    Chairman Boehlert. They have not yet indicated that more 
than willingness attitude toward us, and we will look forward 
to hearing from them.
    Mr. O'Keefe. I will fix that. As soon as I leave this 
hearing, I will make--the next call will be to our friends over 
there who have assured us on several occasions that they are 
prepared to sit down with staff and Members at any time to walk 
through what those comparative differences were over the course 
of the last decade of various agency submissions to the Office 
of Management and Budgets----
    Chairman Boehlert. We will be real receptive to that 
message from OMB. And I would like to ask Admiral Gehman if he 
would care to comment on this general thrust of the 
questioning.
    Admiral Gehman. The Board attempted to document as best as 
we could the fact that the Shuttle upgrade program has been 
underfunded for decades. And our point was not to point blame 
at either the White House or the Congress or at OMB or at NASA 
but to document the point that the reason why the Shuttle 
upgrade program is continuously underfunded is because of a 
lack of an agreement of how long the Shuttle is going to serve 
us. And therefore, no one can agree how to amortize billions of 
dollars of upgrades, whether we have to amortize them over five 
years or 25 years, because nobody knows how long the Shuttle is 
going to last. So that is what our point was.
    Chairman Boehlert. Thank you very much. The gentlelady's 
time has expired.
    Dr. Gingrey.
    Ms. Lofgren. Could--Mr. Chairman, I don't want to belabor 
this. There was one more question, and maybe I can get that in 
writing from the Administrator, the fourth question.
    Chairman Boehlert. By all means. You can submit it in 
writing, and the response will be in writing.
    Dr. Gingrey.

              Independent Technical Engineering Authority

    Mr. Gingrey. Thank you, Mr. Chairman. I will try to shorten 
this up a little bit for you. My colleague on this side of the 
room, the gentleman from Florida, Mr. Feeney, earlier commented 
that his advice to some of his clients, he is an attorney, is 
the only way to totally eliminate risk is, of course, don't get 
out of bed in the morning. And as a physician, when I took the 
Hippocratic Oath many years ago, I remember most vividly the 
admonishment in the first place, do no harm. And I think really 
this whole discussion, this whole hearing, the whole issue is 
about balancing achievements in the program and safety and not 
putting anyone at unnecessary risk. And I don't think we can 
overstate that or overemphasize that. I would like to ask 
Admiral Gehman to comment on this. It does seem to me that in 
the report, and in the hearing, and the questions, and--that 
the concern is that a great deal or too much complacency 
developed within NASA and not enough attention was directed to 
the unscientific Murphy's Law. And I would like for you to 
comment on that, Admiral Gehman.
    And more specifically, Administrator--Mr. O'Keefe, the 
Columbia Accident Investigation Board apparently believes in 
the past the Shuttle Program had too much unchecked authority 
to write itself waivers. And in fact, some 2,000 were written 
for the Columbia flight. Yet it now appears that NASA plans to 
have the Shuttle Program review its own waivers before 
returning to flight. My question to you is shouldn't NASA wait 
to conduct this important job until it puts in place the 
Independent Technical Engineering Authority, or some other 
oversight authority, other than the internal?
    Admiral Gehman. Yes, sir. The--you have hit on probably the 
building block or the fundamental finding of the Board, and 
that is that over the years, due to forces on NASA, some forces 
internal, some forces external, but nevertheless due to forces 
that acted on the Shuttle Program over a decade or more, the 
investments that were made were made to increase the chances of 
meeting the schedule. And other things, such as basic research 
and development, basic engineering, basic studies into aging 
aircraft, attempts to fund, for example, engineering efforts to 
reduce the number of waivers the Shuttle was flying with rather 
than just keep adding, all of those kind of overhead kind of 
programs were left unfunded. In other words, it is kind of the 
cost of doing business. And that is alarming to the Board and, 
we believe, contributory. And it is part of the cost of doing 
business in human space flight, and you have just got to pay 
those costs. And we think that we need to reverse that trend. 
Complacency is the word you used. That is not the word we would 
have chosen to use, but it clearly was a--it was a trend toward 
spending money on those kinds of things, which assured--
increased the assurance that you could meet the schedule at the 
expense of the underlying engineering and research that needed 
to be done to assure safety.
    Mr. O'Keefe. Congressman, thank you for your very 
thoughtful question on both the waivers and the independent 
technical authority. This is a really important set of issues. 
The waivers--I think, given the background that I come from, 
which again is more of a national security Defense Department 
kind of approach to what a requirement means, is more like what 
most people think the definition of requirement is. You ought 
to be required to do it. I have come to find at NASA that 
requirements mean goals, objectives. It is much like the 
processes and procedures that we use for a variety of different 
activities.
    I think what has come out of this report is a real, you 
know, scales falling from my eyes kind of event, that I have 
found, is that our procedures, the way we define things, what 
we do, the process that we engage in is a lot like the stop 
lights in Naples, Italy. They are all advisory. Follow them if 
you like; don't follow if you don't. And that is something that 
has got to stop. Our definition of what a requirement is can't 
be just this goal that we put out there and say, ``We would 
like to achieve that some day. And maybe we will and maybe we 
won't.'' It has got to be something we require that we do. And 
to the extent that there is a deviation from that requirement, 
we have got to have a clear justification to that. And again, 
that is one of the really important things that I think 
Congressman Feeney brought out in his commentary.
    There is a discipline in the way that, for example, the 
naval reactors community conducts this where there is a clear 
understanding of why something doesn't comport with precisely 
the requirements and what you are going to do to go fix it and 
how you deal with that. And that is the same ethos we have to 
adopt. We have got to get out of the mood of saying we have 
goals and objectives, but we can achieve some of them and not 
all of them on each and every flight. So we have got to go back 
and revise that. And that is--so in that context, I think that 
is more what we are talking about by doing a close-order drill 
examination of these waiver procedures now, as opposed to 
later, because it really cuts at the mindset we use here. We 
have got to reverse that to mean something that, again, I think 
is replete in this report. Prove to me it is safe. Don't put 
the burden of proof on folks to show that it is not safe. You 
have got to go to the other way to demonstrate that 
overabundance of caution.
    It cuts to the second point, I think very perceptively, 
that you raised, which is you really can't afford to pass or 
take your time figuring out how to do an important function 
that they have identified in the recommendations here, which is 
to sever the specification and control of those specifications, 
the configuration control, if you will, of what the orbiter 
looks like and what all its moving parts entail from the cost 
and schedule pressures. That is a very profound commentary 
about the organization of the way we manage ourselves as well 
as the procedures that we put in place that we sometimes kind 
of follow. And that is an important distinction is to say that 
there is--we have got to look at options soon rather than 
later, in my judgment, to sever those functions of the 
engineering specification configuration control independence 
from the cost and schedule functions. I think that is something 
that not only pertains to the Shuttle Program, it pertains to 
everything we do, every program we are involved in.
    If you have got the folks with the schedule, costs, and the 
engineering specification pressure all in the same room, then 
tradeoffs are going to get made that will always be to the 
deference of the immediacy of today's problem. The closest dog 
to the sled will always be what gets the attention rather than 
the kind of configuration control integrity that the Board 
refers to and, again, is more reminiscent of the organizational 
background I come out of within a Defense establishment that 
really always has held that as a set of principles.
    So inasmuch as that recommendation, which encompasses many, 
many things as it pertains to independent technical authority 
doesn't necessarily need to be done by one monolithic 
organization or institution. It can--those individual functions 
can be divided into different organizational efforts. But the 
paramount principle that I read that is really quite profound 
in my mind is there has to be a severability between the 
independence of the engineering function and the configuration 
control folks who really maintain the waiver authority, if you 
will, from those who are driven by the cost and schedule and 
daily operational pressures that we all live with all of the 
time.
    Chairman Boehlert. Admiral Gehman, would you care to 
comment on that?
    Admiral Gehman. No, sir. He has got it right. The basic 
building block, basic finding of this Board is that the 
morphing of the Shuttle Program over many, many years to wring 
out of it the most cost-effective, most efficient kind of an 
organizational structure was done so at the cost of basic 
engineering and safety.
    Chairman Boehlert. Should NASA wait until an independent 
authority is set up to review the waivers, or should there be 
some temporary system put in place? I mean, there are 3,000 or 
so waivers.
    Admiral Gehman. Right.
    Chairman Boehlert. Some of them are more--1,000 of them are 
more than a decade old.
    Admiral Gehman. The Board wrote in its report our attempt 
to answer that question, and that is that we are confident that 
the zeal and the diligence and the vigilance that are 
associated with the first half a dozen launches after this 
tragedy will be so intense that they will leave no stone 
unturned, but that like all big bureaucracies, over the years, 
they will migrate back into bad habits. And it is that 
migration back into bad habits is what our organizational 
changes are designed to do. So we think that--we don't have--we 
have no reason to believe that they can't review all of those 
waivers and get it right for the first couple flights.
    Mr. O'Keefe. Mr. Chairman, if I could real quick, because 
this is a very important point. And it is a difference in the 
way the Board has taken this on in terms of the--how expedient 
we need to be about making decisions about this. They have set 
it aside, I think, very thoughtfully as get a detailed plan 
together before you return to flight on how you do this. I 
don't think we can afford that. I think the approach we have 
got to come to closure on sooner rather than later because for 
the same reasons I think Admiral Gehman and your commentary 
exchange just reveals, over the course of time, the urgency 
starts to drift off. The urgency is now. People are really 
focused on this. Everybody's attention is had. So as a 
consequence, making this kind of organizational change, I 
think, is something that we do it sooner rather than later and 
make a determination on how to do that we are better off than 
saying let us study the plan as we go down the road.
    Chairman Boehlert. Well, how long is it going to take to do 
a proper review of the waivers?
    Mr. O'Keefe. Again, I think the first step is if you do the 
major step that the Board recommended, which is to have a 
severability between specification and configuration control 
from cost and schedule program management, then it will really 
mushroom from there. I think it will really snowball in its 
effect of how fast you can do it, particularly if you take 
another observation elsewhere in the report that says that the 
design, the drawings of the Shuttle itself are in lots of 
different places. I mean, the original drawings are in one 
place. The engineering notices were somewhere else. The 
engineering changes were in another location. So just the act 
of pulling all of those together then is going to have the 
effect, in this new independent technical authority, wherever 
it is assigned and whatever option we choose, is then going to 
grant a level of ownership, I think, to the engineering team 
that says, ``Now I know exactly where all of these pieces are. 
I have got to put it on some kind of computer aided design 
system. I can look at it 3-D, and I have got all of the updates 
of the engineering notices,'' and that is the equivalency of 
starting down this road seriously to examine why waivers ought 
to be granted, if at all, in any of those individual 
categories.
    Chairman Boehlert. Thank you very much.
    Mr. Matheson.
    Mr. O'Keefe. Thank you very much, Mr. Chairman. I 
appreciate your indulgence on that.
    Mr. Matheson. Thank you, Mr. Chairman.

                             Stafford/Covey

    Mr. O'Keefe and Admiral Gehman, welcome to the Committee. I 
have a question for Mr. O'Keefe. As I understand it, many of 
the Gehman recommendations are meant to be implemented in a one 
to five-year time frame. And as I also understand it, the 
Stafford/Covey return-to-flight panel, which you have created, 
is expected to function for about eight months. And I am 
wondering what mechanism you would recommend to oversee the 
longer term, the one to five-year Gehman recommendations. There 
seems to me--I will just throw out three options before you 
answer. And that is should the Aerospace Safety Advisory Panel 
assume the function or should Admiral Gehman be called back 
every year for the next five years or should a new group be 
created? Or how do you think we ought to handle that longer 
time frame?
    Mr. O'Keefe. Well, thank you. I appreciate the question.
    The first step, again, in this very immediate near-term, is 
we have assembled a group led by General Tom Stafford, a former 
Gemini and Apollo astronaut, and Dick Covey, who is the pilot 
on the return-to-flight post-Challenger in the September of '88 
effort. And they have, along with 25 other colleagues 
representing lots of different disciplines of engineering, 
technical management change, organization culture change, 
academics, industry types, you name it, are on that particular 
team to oversee, over the next two years they have been 
chartered to do, the functions that we will be doing in order 
to implement these recommendations. The intensity of their 
focus, of course, will be between now and return-to-flight. And 
Admiral Gehman has got it right. We are going to be all over 
this like a bad habit, I am sure, for the next few flights, but 
again, institutional change is what is absolutely imperative 
that we do over time.
    So in that regard, what we are looking to, again, as the 
invitation, I think, the Chairman has issued for Admiral Gehman 
and his colleagues to come back in a year and take a snapshot 
picture of where we are, we would welcome that and look forward 
to the opportunity to try to see where that progress ought to 
go. The report of the Appropriations Committee just the other 
day is now recommending that the Aerospace Safety Advisory 
Panel be revised to more akin to what was intended when the 
Congress enacted this capacity in the post-Apollo fire period, 
1968, that we go back to its roots and think about using that 
organization or that entity as a means to do it as 
reconstituted and with a new set of fresh eyes to it. So we are 
going to take that seriously, and that is an interesting 
suggestion, and I think Admiral Gehman has opined about that in 
this committee as well a week ago. So all of those, when 
combined, I think is going to provide, in addition to the 
extensive thorough oversight already provided by the Science 
Committee here as well as the Commerce Committee on the other 
side and the Appropriations Committee a continuing diligence 
that we will adhere to.
    Mr. Matheson. Let me go to a different question. A separate 
issue. The Gehman report included a section on a possible 
rescue mission for the Columbia, leaving an impression that a 
rescue might have worked. What have you and others at NASA 
concluded about whether either a repair effort or a rescue 
mission involving another orbiter may have succeeded?
    Mr. O'Keefe. I think the learned judgment on the part of 
all who participated in the exercise led by the Flight Director 
on the 107 mission, as a matter of fact, who organized it and 
responded to the Board's findings, and I prepare to be 
corrected by Admiral Gehman in terms of how that went down, 
conclude that it could have been done. It is possible, but it 
would have been very difficult. But that would, under no 
circumstances, have prevented us from doing so. I think 
anything it would have taken, and had we really focused and 
been able to concentrate on all of the facts, had we been more 
diligent, whatever, in order to understand all of the issues 
that were pertaining here, would have done anything and 
everything to have saved those folks. And I don't think there 
would have been anything spared in the process of doing it, 
even if it was a long shot.
    Admiral Gehman. May I follow up on that?
    Mr. Matheson. Yes. Please do.
    Admiral Gehman. Just briefly, because I know time is of the 
essence here, we were really trying to dispel myths. There were 
myths going around that foam can't hurt shuttles. There were 
foam--there were myths going around that we couldn't have done 
anything anyway. There were all kinds of myths going around, 
and we felt it necessary to start blowing holes in those myths. 
And whether or not this rescue mission was plausible or not, it 
is extraordinarily risky, as Mr. O'Keefe said. A whole lot of 
ifs had to end up. But our real point was to start putting 
myths in their proper place.
    Mr. Matheson. Thank you, Mr. Chairman.
    Chairman Boehlert. We add to that list of myths that we all 
acknowledge the adherence to environmental laws somehow 
contributed to the accident. Thank you very much.
    The Chair now recognizes Mr. Gutknecht.
    Mr. Gutknecht. Well, thank you, Mr. Chairman.

                            Attitude/Culture

    This has been a very interesting hearing, and I want to 
thank everybody here. Many of the questions that I would have 
asked have already been asked, but I want to acknowledge Kathy 
Sawyer from the Washington Post. And I don't know if you guys 
have seen this, and all of us have a difficult time wading 
through all of these reports. But it really, for Members who 
haven't read it, it is probably the best chronology. It 
appeared in the August 24 issue of the Washington Post. And I 
just want to give her credit. And as I read it, it was 
interesting to me that the night before I read this, there was 
a documentary, and I am not even sure which channel it was on, 
about Apollo 13. And I was just struck, especially as I read 
this, how far we had drifted from the days of Gene Kranz and 
``Failure Is Not an Option.'' And I happen to believe that one 
of the most important words in the English vocabulary is the 
word ``attitude.''
    And as I read this, and particularly the story--the thing 
that is the most haunting to me is the story of the engineers 
requesting the images. And then as it is well documented in 
your report, Admiral, there were numerous missed opportunities. 
And I am just curious, I mean--and for the Members who don't 
understand and maybe haven't followed this as closely, I mean, 
there were a number of requests, beginning on January 21 from--
as the Washington Post says a large group of Houston engineers 
responsible for troubleshooting, they asked--wanted to make a 
formal request to get some images from our spy satellites, 
which may or may not have proven anything. We don't know that. 
We will never know. But the truth of the matter is, we might 
have known very early on that there was a serious problem, and 
perhaps a hole, in that wing. And let me just--for the Members, 
let me just read what it--what the article says. And I think 
the article is actually fairly generous. It goes on to say, 
``As Columbia orbited, Manager Ham heard in phone chat that 
there had been a request for imagery and spent most of the day 
trying to track down its source.''
    Admiral, wouldn't it be fair to say that what really 
happened was she tried to quell that discussion?
    Admiral Gehman. We--I believe that our report did a really 
fine job of pinning that down quite well. And our conclusion 
was that because they had a preconceived idea, an unshakable, 
deeply held, preconceived idea that foam couldn't hurt the 
orbiter, management considered that these requests for imagery 
were stray voltage and that she wanted to know where it was 
coming from. It wasn't that she was trying to quell it; she was 
trying to figure out where it was coming from, and it was--she 
was--there was noise in the background, but she couldn't pin it 
down. Now that action about trying to pin down where it was 
coming from could be construed as intimidating. It certainly 
could be construed, but we didn't demonstrate--we didn't prove 
that.
    Mr. Gutknecht. Well, Admiral, with all due respect, no, you 
didn't prove that. Nobody can prove anything today, but it 
seems to me your report is actually pretty damning on that 
front. And I guess the real bottom line--and the question 
really is for you, Admiral. How do you change attitudes? 
Because it just reads to me like--and I think Mr. O'Keefe even 
said, you know, that this has become bureaucratized, and it is 
a job. We still use the word ``mission'', but it is much more 
of a job, it seems to me, the way I read this. And how do you 
get back to that sense of failure is not an option?
    Admiral Gehman. Yes, sir. Well, it is very difficult. And 
the Board spent many hours trying to answer that question and 
to make sure that our recommendations were couched in terms 
that would hit that problem directly on the--directly. And what 
we felt was that counting on really good people to be able to 
overcome organizational difficulties or mal-organized systems 
is a very poor way to do that. It would be better to fix the 
organization. To bet that you can have heroic, brilliant, 
fantastic people at every single position and that they can 
overcome organizational difficulties is a bad bet and that we 
need to change the organization and not pick on the people. 
That is one thing.
    The second thing is it this much more difficult issue of, 
you called it attitudes, we call it cultures. And that can only 
be fixed by leadership. It can't be fixed by--you can't 
organize yourself out of cultural problems was our view. But 
not--and not just leadership at the Administrator level. He is 
going to have to have layers and layers of leadership below him 
buy into this belief.
    Mr. Gutknecht. But Admiral, but if I could just ask you to 
kind of go through this, why do you think that the request from 
Mr. Page and Mr. Rocha and the others never got above a certain 
level?
    Admiral Gehman. Mr. Chairman, I am going to have to take a 
minute to answer this question, if that is all right.
    Chairman Boehlert. Proceed.
    Admiral Gehman. That is a--it is complex, but I believe 
that the answer to your question that there are two answers to 
your question. The first answer is all of those management 
people really did believe the commonly held knowledge that foam 
can't hurt the orbiter, and therefore, all of this e-mailing 
and all of these questions about photography and things like 
that were distractions, not relevant, waste of time, not well 
proved out. The second--which is erroneous, of course. It is 
wrong, but they--it was so widely held. And I believe that we 
have tons and tons of documented evidence in here to prove our 
points.
    The second answer to your question is a little more 
disturbing. We have, in our report, suggestions that because--I 
have got to be careful here, because I want to make sure I say 
what is in the report and not go beyond it. The flight schedule 
for the next 16 months included 10 flights. That is not 
possible. It is not physically possible to launch 10 in 16 
months. I believe that the mangers were aware of that tight 
schedule. And they were being careful not to allow 
administrative impediments. By ``administrative impediments,'' 
what I mean was hazard reports or in-flight anomalies to rise 
up, which would delay a flight readiness review. I believe 
these managers knew the future schedule and therefore, anybody 
who was bringing up problems was bringing up issues, which were 
going to have to be resolved at higher levels and would slow 
down the launch process.
    I believe the tight schedule was in the back of their 
minds. We elude to that in our report, but once again, can't 
prove it. So you have this deeply held basic understanding, 
wrong, and it is coloring the decisions.
    I am sorry for the long explanation.
    Chairman Boehlert. Thank you. And that was very--it was a 
comprehensive response, and it was illuminating. Thank you.
    Mr. O'Keefe. Mr. Chairman, would you mind if I comment very 
briefly?
    Chairman Boehlert. Mr. O'Keefe.
    Mr. O'Keefe. Thank you, sir. I am guided by what the report 
says that program managers may have begun to be influenced by 
these schedule pressures. A lot of qualifiers in that. That 
tells me we have got to strike that balance between schedule 
and safety objectives and be sure we are diligent about it all 
of the time. And we have got to build in institutionally the 
forces that create those checks and balances. And one of the 
ways to do it, I think that you have touched on it very 
eloquently at the very beginning of your commentary, was to 
reach back into that ethos that everybody relates to in this 
agency. Gene Kranz manifested.
    I have been reading more of the historical, you know, 
biographies of so many of these folks in the last few months 
than I ever imagined or anticipated I would. I just did finish 
Kranz's ``Failure Is Not an Option.'' And what I found 
impressive is the guy must have spent a ferocious amount of 
time every single day just writing up procedures, because he 
describes how in every incident he went back and rewrote the 
rules and the procedures. And that is true. We have got to 
continue to do that, and we have got to be more diligent about 
it. But then, the really important that I think comes out of 
this report is then follow them. Really mean them. Don't write 
them down just as an advisory thought. There are so many 
different procedures that we have in place that this report 
very clearly says, ``If you look at this just kind of 
clinically, should be just great to fireproof any of the 
process.'' And then you find that we conveniently follow some, 
not others, interpret it differently. It kind of takes on this 
informal process of how it goes on.
    And the thing that comes out of Kranz's book that I found 
to be very impressive is write the procedures and then follow 
them like you mean them or amend them, abolish them, or rewrite 
what is there, but mean what you have got in place until 
demonstrated otherwise. Had that been the case in this 
instance, the natural instinct on the part of engineers, flight 
directors, flight controllers, all of these folks, would have 
been more akin to the ethos he came from, which is I don't know 
the answer to this question. People are assuming they know the 
answer. Let us go prove it as fact or not. And that is what we 
want to reinstall as a mindset, and that begins with this set 
of challenges, I think, as a culture matter of saying write the 
procedures and then really follow them like you mean them or 
change them.
    Mr. Gutknecht. Thank you.
    Chairman Boehlert. Admiral Gehman, did you--okay, fine.
    Mr. O'Keefe. Thank you, Congressman.
    Chairman Boehlert. All right. The Chair is tempted to come 
in, because you raised a number of questions about scheduling, 
but I am going to finish the first round before we go to the 
second round, and I am not going to take advantage of this 
position indifference to my colleagues.
    Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman, and Mr. O'Keefe, Admiral 
Gehman. Thank you for being here again. Thank you for your 
testimony.

                              OSP and ISS

    Mr. O'Keefe, I would agree with you that I think we face a 
very unique and wonderful window of opportunity. I do believe 
the focus is on the space program like we haven't seen in 
recent memory, and it is our duty now to take advantage of it. 
And nobody wants to see manned space flight continue any more 
than me. And I think many of my colleagues on this committee 
share that belief. But I think, also, in the wake of the 
tragedy that we witnessed last February and in wake of the CAIB 
report that we have all read that we have to do so--or go 
forward with a new sense of purpose and not just sign on to 
projects and get behind projects because, well, NASA says that 
is the next step so it must be a good idea.
    We really have to look at what we are trying to accomplish. 
And of course, in saying that, I am talking about the orbital 
space plane, because from what I have read and heard, you have 
taken Admiral Gehman's recommendation that the Shuttle should 
be replaced as the ``Clarion call'' for accelerating 
development of the OSP. Is that a fair statement? Am I reading 
the reports correctly?
    Mr. O'Keefe. It certainly is an option, and it is one that 
clearly is observed in the course of the Columbia Accident 
Investigation Board report as a requirement in order to provide 
crew transfer vehicle reliability, if you will, between and to 
International Space Station.
    Mr. Bell. And that----
    Mr. O'Keefe. Accelerating it is going to be a challenging 
statement. There is no doubt about it.
    Mr. Bell. And that is what I would like to talk to you 
about just a little bit today. And let me provide a scenario 
for you and see if you could respond to it. And if it is 
confusing, I would be glad to repeat it. But if we maintain the 
International Space Station until the year 2020 and move toward 
a full station complement of six to seven crew members, and 
there is no OSP, under those circumstances, what would you 
estimate--or how many Shuttle flights would you estimate would 
be needed to service the International Space Station until 
2020?
    Mr. O'Keefe. I don't know. Let me--off the top of my head, 
I don't know. Let me get it for you for the record, though. I 
just don't recall off the top of my head.
    Mr. Bell. Okay. Well, let me just share what staff has 
learned and informed us of is that it is somewhere between 60 
to 80 flights would be needed, Shuttle flights if that--under 
that scenario. Does that strike you as unreasonable?
    Mr. O'Keefe. I have no basis to think that it is or it 
isn't.
    Mr. Bell. Okay.
    Mr. O'Keefe. I don't know.
    Mr. Bell. And if you look at a different scenario, a little 
different angle, let us say you have an orbital space plane in 
2010, how many Shuttle flights would be needed to service the 
Station until 2020? Under that scenario, do you have any idea?
    Mr. O'Keefe. I don't know. I just--again, I would be 
guessing, and it would certainly--among the things it would be, 
it would certainly be wrong.
    Mr. Bell. Well, it surprised me, too, Mr. O'Keefe, because 
staff informs that what they have been told by folks who do 
know is that you would still need 60 to 80 Shuttle flights, 
even with the OSP having been developed. So if we are looking 
toward a replacement vehicle, and if those numbers are 
accurate, how does the OSP actually replace the Shuttle? What 
is that sense of purpose?
    Mr. O'Keefe. It supplements the capacity of a cargo-
carrying asset, like Shuttle, what it is, because what we have 
designed the requirements to do is two--at least two primary 
things. The first one is to perform crew transfer vehicle 
function from the Earth's surface to the International Space 
Station on a regular routine basis that is a lot less 
constricted by the roll out time and--necessary for Shuttle. 
That takes 30 to 45 days. You have got to do something that is 
a lot more on-demand, if you will, than that.
    The second thing it has to have is an expansion of the 
launch window. There is currently no real, robust, on-board 
propulsion capacity on the Shuttle to permit a launch on almost 
any window. You have got to hit that ten-minute parameter 
during the course of a day or else you might as well forget it 
for the day, because that--unless you hit that exact orbital 
maneuver, you are never going to rendezvous with the 
International Space Station. So it has got to have some on-
orbit maneuvering capacity to do so.
    Mr. Bell. But even with that, wouldn't you still--the point 
is, wouldn't you still need the Shuttle until 2020 for the 
transport of certain supplies and to service a six or seven-
member crew?
    Mr. O'Keefe. For cargo capacity, yes, indeed. It is a--it 
is the work horse asset that will provide that capability and 
could, either autonomously or with individuals on-board, 
astronauts on-board. So there are a lot of ways to look at it. 
And there may be other approaches we could use in looking at 
cargo-carrying assets. But at least it isolates the question to 
that. And once you complete International Space Station, the 
next objective, then, is how do you get the down mass necessary 
for the science yield that comes off of it, and that doesn't 
require nearly as much mass as what the Shuttle can provide. So 
in sum, the objective behind the orbital space planes is to 
provide the crew rescue capacity, crew transfer vehicle 
capacity on a near, on-demand--near, you know--no notice launch 
capacity as well as the ability to provide that capability 
using modern technology that may inform what the next evolving 
generation of capability will be thereafter.
    Mr. Bell. And are you--are we married to the idea of 
developing the OSP, or are you willing to look at other options 
as we move forward?
    Mr. O'Keefe. We are headed down the road here, in the 
course of the last year, I think at the instruction of lots of 
external commentary, to get more precise about what it is we 
want to build. While we don't--you know, by no means do I have 
a closed mind on this. We are marching down the road towards 
trying to develop a crew transfer capability as well as the 
crew rescue requirements that will go along with that. And that 
is the primary requirement. And if we grow it beyond that to 
include a cargo asset, we get back in the same kind of design 
predicament that they were in 25 years ago when they settled on 
Shuttle and compromised on every one of those requirements by 
saying we will do all of them kind of mediocre but none of them 
in an exemplary manner. And that is what we don't want to get 
into. We would rather have a more limited asset that performs, 
in an exemplary manner, one or two of those requirements and 
then keep moving our way through this in order to assure that 
we not try to pile everything into one asset.
    Chairman Boehlert. The gentleman's time has expired.
    Admiral Gehman, did you have a point that you wish to make?
    Admiral Gehman. Well, I just will point out what the report 
said, sir, and that is that we suggest that the process that 
ought to be followed by the Government of the United States is, 
first of all, determine what you want to do. Don't design the 
vehicle. Agree on what you want to do. And what we suggest that 
concept is that you should separate the crew from the cargo. 
And if you do separate the crew from the cargo, is develop the 
requirements--the numbers come out for the same number of 
Shuttle flights because of the up mass.
    But if you put the cargo in a different category, you 
wouldn't--then you would not need the Shuttle. But if you--as 
long as you have the up mass requirement and you don't have any 
other way to get the cargo up there, you have got to keep 
flying the Shuttle. So we suggest decide on what you want to 
do. Don't design the vehicle. Decide on what you want the 
vehicle to do. And what we suggest the answer to that riddle is 
separate the crew from the cargo, design a vehicle optimized 
for crew, and some way other--some other way to get the cargo 
up there.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired, but Mr. O'Keefe, I need some clarification 
here, because I think you have added a new dimension to the 
issue. In response to Mr. Bell's question, you can send the 
Shuttle up autonomously, I think that was your word, or with 
people. You mean you can send the Shuttle up without people?
    Mr. O'Keefe. Under its present configuration, you can't, 
but there is--it is not a leap, and it is not a technology 
impossibility to design the appropriate technology into the 
Shuttle. It is not going to be a major leap to make it an 
autonomous capacity to launch it unmanned. Yes. It is 
conceivable. It is one of the options we are looking at as part 
of the Service Life Extension Program effort that was 
introduced last November. Is it the optimum one? Don't know 
yet, but it certainly is possible. It can be done. It is 
operationally not, you know, prohibited by----
    Chairman Boehlert. Well, let me suggest, the Gehman 
Commission Board got it exactly right. You have got to decide 
what you want to do, then you design the vehicle.
    Mr. O'Keefe. Oh, yes, sir. No. No.
    Chairman Boehlert. Okay.
    Mr. O'Keefe. And we are in the same pew. I mean, there is 
no doubt about it. I think exactly the discussion with Mr. Bell 
was what we decided is we want to have a crew transfer vehicle. 
We want to have the capacity to separate people from cargo, 
just exactly what the Board said. And we were down that road as 
part of our integrated space transportation plan before. One of 
the options to continue to service the cargo requirement is to 
continue to use Shuttle either autonomously or with humans. And 
there are any number of different ways that you can accomplish 
that task for cargo as a separate derivative question. But the 
first milestone was, as Admiral Gehman just articulated, the 
Board--and the report says to separate the crew from the cargo. 
Make the determination. What do you want to do? We have done 
that.
    That is what OSP is designed to do. And it is intended to 
be a crew transfer vehicle and a crew rescue capacity for 
people. Cargo assets is a separate question. And we will have 
to work through that as we go on. But we have designed the 
level one requirements, frankly, on a single sheet of paper to 
comply with a very limited number of requirements so that it is 
technologically doable.
    Chairman Boehlert. Thank you.
    Mr. Weldon.
    Mr. O'Keefe. Thank you.
    Mr. Weldon. The Russian or Soviet side was Igor Kurchatov, 
and the two of them in the end of their lives, before they 
passed, both said the same thing, and I had the privilege of 
talking to Dr. Teller earlier this year, that they only had one 
regret, that in the end, that all of their work in physics was 
not originally designed to kill people, but rather, for the 
peaceful use of nuclear energy for science. And in fact, we are 
considering legislation right now, as a part of our defense 
bill, to create the Teller-Kurchatov Alliance for Peace, which 
would do exactly that.
    So, I think it is appropriate that on this committee, we 
acknowledge one of America's great leaders who did so much for 
our freedom. The passing of Dr. Edward Teller. Mr. Chairman, I 
thank you for this hearing. I want to start by thanking both of 
our distinguished colleagues for their work. Admiral Gehman, as 
you have done throughout your career, and I have seen you many 
times on the DOD side, you have performed in an unbelievably 
outstanding fashion, and we appreciate that. Many of the 
questions have been asked. Administrator O'Keefe, I want to 
tell you I admire the work that you have been doing, and I 
think you are an outstanding leader under some very difficult, 
if not impossible conditions.
    I want to acknowledge first of all not just the purpose of 
this hearing, but your personal effort to restore the rotocraft 
research effort within NASA. That is an issue that I have been 
raising all throughout this year, both in this committee and 
the Defense Committee. You personally have taken it on within 
NASA, and I want to acknowledge the success that you have 
achieved, although it is early, and let you know that we 
appreciate that work among all of your other tasks and 
responsibilities and assignments.

                                  ASAP

    I only had two questions that I would either ask you for 
the record or to respond to, one you alluded to earlier while I 
was here, and both of these involve actions on the part of the 
other body, the Senate. One relates to the Aerospace Safety 
Advisory Panel and the recommendations of the Senate, as 
opposed to some of the calls by our colleagues for some new, 
independent entity, and what your feeling would be toward the 
Senate's proposal that we reconfigure that original advisory 
panel and perhaps reconstitute it as a way to have the kind of 
short and long-term monitoring that is no necessary, as defined 
by the report done by the Admiral. And the second is what is 
going to be the impact of the $200 million proposed cut by the 
Senate appropriators on the human space flight program, so that 
we in the House can respond to our Senate counterparts on both 
of those issues.
    I would ask you to respond either right now or for the 
record to this committee, thank you.
    Mr. O'Keefe. Well, thank you, Congressman, for your very 
thoughtful observations, and again, I appreciate your 
commentary on the rotocraft effort. We have, indeed, attempted 
to work that very hard, and I appreciate your recognition of 
it. On the two issues you have raised, the Aerospace Safety 
Advisory Panel, again I was intrigued to read the Committee 
report on that matter, that we ought to go back and look at the 
original charter and objective that was enacted in statute. The 
post-Apollo fire in 1968, by then, the sponsor of the 
legislation was then Congressman Don Rumsfeld from Illinois, 
and the proposition was to create this particular panel for the 
purpose of really having a constant, vigilant oversight, and 
therefore, shouldn't we go back to its origins and reconstitute 
it for that purpose, and that is a very compelling argument, 
one that I am really pretty struck by, because the Congress 
enacted that for a reason. We ought to make it perform the way 
it is supposed to, and clearly, the performance has been not as 
diligent as we could have received, and I think the observation 
by the Board is even if it were, we wouldn't have the 
disposition to follow it, so we have got to cover both ends of 
this particular equation.
    The second part is--and I think that is far preferable to 
creating yet another oversight function. When the reviewers 
outnumber the doers, we are in big trouble. And we are kind of 
at the point where it is a foot race, right now, and so we are 
trying to, you know, maintain absolutely all the appropriate 
oversight necessary, but let us invigorate the ones that are 
there, to assure we get the right performance.

     Effects of the Proposed $200 Million Cut to Human Space Flight

    On the $200 million cut to space flight, I just did see 
that the other day, and I can assure you that now is a time 
that is going to be incredibly difficult to accommodate 
something like that. This--the return-to-flight activity is 
going to cost something. It is going to be greater than zero. I 
don't know exactly what yet until after we make the selection 
of the options on all 29 recommendations and then make a 
determination of how much that is going to cost. So surely, it 
is going to be greater than what we have already budgeted. I 
don't think it is going to be a show stopper, there is nothing 
I have seen that looks like--just eyeballing it, it is going to 
be ghastly expensive along the way, but it sure is going to be 
more difficult if we are starting out in a hole that is $200 
million deeper. And so as a consequence, this is an 
opportunity, I think, to follow through on the report's 
recommendation, too, that Congress be a partner in this 
particular equation in helping to kind of set the baseline for 
this, and the President's budget is a baseline we think is 
properly priced for the International Space Station and for 
Shuttle to continue operations, and we would appreciate your 
support for that, and I thank you, Mr. Weldon, for your 
observations.
    Chairman Boehlert. Thank you very much. Mr. Miller.

                    Political Appointees and Bonuses

    Mr. Miller. Thank you, Mr. Chairman. Mr. O'Keefe, you have 
spoken of the changes in leadership since the Columbia 
disaster, and I am very pleased we haven't really spent a lot 
of time, because I think, as Admiral Gehman points out, the 
career NASA employees were under a great deal of pressure. I 
think Admiral Gehman mentioned or spoke of pressures, internal 
and external pressures, which I am sure translated, for those 
employees, as irreconcilable pressures from above and from 
below. But I am very concerned about the kind of forces on NASA 
that was being exerted from the top levels. By all accounts, or 
evidently, at least before this Columbia disaster, you were 
very pleased with the performance of the political appointees 
in the Administration. The year before the Columbia disaster, 
11 of the 11 political appointees in NASA got performance 
bonuses. NAS was the only agency in the Federal Government in 
which every political appointee got a performance budget. In 
fact, there has been a great deal of criticism for using those 
bonuses for political appointees at all, because they are 
intended to retain, reward and retain career Federal Government 
employees. And this is pretty remarkable for that level of 
satisfaction with the performance of those top people in an 
agency that now appears to have been mal-managed in many ways.
    First of all, are all those 11 still there? When you talked 
about the changes in management, are they there, or are some of 
them gone, and second, what were the criteria that you used to 
judge their performance that all 11 got performance bonuses?
    Mr. O'Keefe. Thank you for the question. Yes, there are 
some folks who have departed, and have withdrawn. And again, as 
you properly cite, that was more than a year ago, based on the 
prior year's activities of the individual appointees who were 
either Schedule C or specific folks that have been appointed by 
the President in these chances. I am not one of those. I am not 
eligible for any of those, and so therefore, this doesn't 
pertain to those who are appointed by the President and 
confirmed by the Senate, all right, so that we are not in that 
equation. Of the roughly dozen folks you are talking about, 
some have left. The criteria that the Chief of Staff to the 
President outlined in terms of how that needs to be complied 
with were issues that went through very specific acts, things 
that folks did in order to earn those performance awards, and 
so, in going through that 10 or 11 folks, I could walk you 
through each of them in terms of what their individual 
performance was that earned them that recognition, and would be 
happy to do that, either here or at any other time of your 
convenience.
    Mr. Miller. Five minutes is probably not enough, but I 
would certainly welcome that. But the purpose of having 
political appointees is so that an Administration can exert its 
control on the various agencies of the Federal Government. I 
understand that, I suppose that. You have got to do that to get 
control of this huge federal bureaucracy, but certainly, some 
of the pressures, some of the forces on NASA that the report 
spoke of do appear to be politically driven pressures, budget 
pressures. Representative Lofgren asked about those, about the 
failure to do the budget for the upgrades that were pointed out 
from below that bubbled up, that were needed. Also, the concern 
about outsourcing, and that was a criticism made a couple years 
before, three years before the Columbia disaster, by the Space 
Shuttle Independent Assessment Team, and then, also, was 
pointed out by the CAIB Report. The CAIB said that years of 
workforce reductions and outsources have culled from NASA's 
workforce the layers of experience and hands-on systems 
knowledge that once provided a capacity for safe oversight.
    Were those considerations, cutting budgets, outsourcing as 
much as possible, were those coming from below? Were those part 
of what you wanted your political people to be doing in NASA, 
and are you still as committed to those considerations, those 
forces, as you were?
    Mr. O'Keefe. I guess, first of all, as a statistical 
matter, we are talking about 10 or 11 folks out of an agency of 
about 18,000.
    Mr. Miller. Those are the ones that you control.
    Mr. O'Keefe. No, those are the ones who were appointed 
separately than this career civil service force appointment 
system. Several of them were appointed by the previous 
Administration, and are still with us, and are doing an 
exemplary job, so they are Schedule C appointees per se, but 
they not necessarily there because of their political focus of 
how to exert policy matter. I think that is a responsibility 
for leadership, and it is independent of the question of your 
partisan view of these question.
    The President has laid out a management agenda with five 
primary points to it. That is the understanding, the mantra, 
within every agency and department across the Federal 
Government. Those are the five that the senior management, 
whether they are career appointees, whether they are appointees 
of the President of the United States confirmed by the Senate, 
or whether they are Schedule C appointees, all of us have an 
obligation to pursue those five management goals, and so those, 
I think, are independent of the question of your partisan 
leaning, or whether or not there is an influence of that 
political agenda. There are five basic fundamental management 
things that I can think we can all agree to, are the kinds of 
things that we need to be cognizant of, and are really 
management 101 kind of objectives.
    [Material requested for the record follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Boehlert. The gentleman's time has expired. Just 
let me observe that the Gehman Report, some place in there, it 
said something to the effect that the budget didn't meet NASA's 
ambitions. Now, here is someone who has been very supportive of 
the space program and the Shuttle program. But when that 
situation occurs, it seems to me that NASA has to tailor its 
ambitions to meet the realities of the budget. That does not 
mean in any way, shape, or manner that safety is compromised or 
sacrificed. It just means it is a wake-up call, and you have 
got to deal with the everyday realities.
    Mr. O'Keefe. If I could quickly observe, Mr. Chairman, you 
know, you are right on the mark. But at the same time, and 
there is no question, that does not absolve us whatsoever from 
any obligation that we really must balance and make more 
prominent the safety objectives over the mission objectives and 
so forth. That said, I have never been associated with any 
public entity, agency, function, department, anything, in which 
all of the aspirations were satisfied with the resources that 
were allocated. That is a null set proposition. Never seen it. 
I would be delighted to see one the first time.
    Chairman Boehlert. No, no, and I know exactly what you are 
talking about. I have been around this place a few years, too, 
and I have seen some of the same things you have.
    Mr. O'Keefe. And I thank you.
    Chairman Boehlert. The chair recognizes----
    Mr. Hall. Chairman----
    Chairman Boehlert.--Mr. Hall.

                              Budget Cuts

    Mr. Hall. I know we have to hurry, because we have three 
more and we are going to be voting pretty soon, but it is my 
recollection that Vice President Gore, who was in control then 
of the space program, or had been assigned that by the 
President, told us to cut 25 percent. It has always been my 
fear of cutting, because I didn't know where to cut for fear of 
safety, but I knew there were those within NASA who knew how 
to, and Mr. Sensenbrenner and I, as my recollection went to him 
and asked Mr. Goldin to cut it the 25 percent. He could it with 
a surgeon's knife, or we would do it with a baseball bat. He 
cut it 34 percent, and didn't appear, at that time, to have 
done any definite damage to the program. It seemed like a 
pretty intelligent cut, but it turned out we have lost a 
Shuttle, and we have lost a crew, and I don't know whether you 
can tie that to that or not, but those are the hard, cold facts 
of the past, and we operated with the facts we had at that 
time, and the best information we could get from an entity that 
we approved of and that we trusted, and that is NASA, and still 
do.
    Chairman Boehlert. Thank you. We learn from the past, but 
we prepare for the future. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman, and welcome, 
gentlemen. I am glad to have you here. Let me follow up on that 
line of questioning relative to preparing for the future.

                          Supplemental Request

    Mr. O'Keefe, as you look at--as we look at the Return-to-
Flight Program and recommendations in the CAIB Report, and all 
that goes with it, and the needs to stress the safety of future 
missions and Shuttle operations and the Space Station, it is 
going to cost some money. The reprogramming that was requested 
earlier, I understand, was not granted. I think it was $1.7 
billion earlier this summer. $87 billion is what we are looking 
at in the war effort, that the supplemental appropriations will 
be presented next week. I am on the Appropriations Committee, 
and you have a history of appropriations, I know. I understand 
there won't be any request for NASA. I heard your response to 
Mr. Weldon, relative to not knowing exactly how much it is 
going to cost to return-to-flight, and implement the plan that 
is out there. Can you be more specific? I know the Senate's 
down $200 million, I mean what--it seems to me you are looking 
at bigger numbers, and should, in order to assure safety, but 
also, to meet the expectations of the mission that you have in 
mind, and that the CAIB Report has in mind.
    Mr. O'Keefe. Sir, now thank you for the question. The 
answer to how much it is really going to cost us to implement, 
on the 29 recommendations that have been made the Board, there 
are lots of different options we could choose from to be 
compliant with the recommendation. Depending on which we 
choose, that is ultimately, then, going to arithmetically give 
you the price tag at the end. So rather than start with a 
number, and then back into the answer of what the options ought 
to be, we are going to the other direction, vetting through 
what are the best options we can do, airing with the Stafford-
Covey external review group that I referred to earlier, and 
then make a determination on how much it is going to cost based 
on that. Based on everything I can see, just again, eyeballing 
it, not any scientific or really analytical, there is really 
nothing here that looks like it is going to be a major redesign 
effort, so the cost involved in those cases is probably going 
to be a longer-term thing. Institutionally, when we start this 
NASA Engineering and Safety Center, it is going to cost you not 
a whole lot to get started, because you are talking about 
initial expense for the folks assigned for a very small 
fraction of the year, and then, as time goes on, though, that 
will escalate, because you have got a full year cost associated 
with more people, all that stuff. So really, it is the out year 
tails of this, the out year costs and implications, that are 
the part we really need to be mindful of.
    The initial expense to do this, I don't think is going to 
be anything that is really going to really amaze anybody. The 
bigger cost is going to be to follow through, for example, on 
discussions this committee has had on several occasions, as 
well as what this report asserts, which is get on with a crew 
transfer vehicle capacity, sooner rather than later. That is 
not in the President's budget. What is in the President's 
budget right now is an assumption of an Orbital Space Plane 
crew transfer vehicle that will be developed and produced 
between now and 2010. This is saying step that up and get on 
with it, stop, you know, waiting around. That is going to cost, 
and it isn't going to be cheap, and whether or not that option 
is selected or not by the President is a different question, 
and I wouldn't speculate at this juncture exactly how that will 
come out.
    Mr. Nethercutt. Have you--mindful that the VA/HUD Bill is 
headed for conference, have you submitted, or do you intend to 
submit any budget requests or alternate budget requests, or 
other information that the conferees can take to the conference 
and try to help you reach those goals in the next fiscal year?
    Mr. O'Keefe. Well, there is a number of alternatives, in 
terms of avenues, you know, off-ramps that can be pursued here, 
either amendment or a supplemental or part of the '05 
submission, all of which are on the table right now, and I 
wouldn't speculate on which one the President will choose.
    Mr. Nethercutt. But my question goes to the next 30 to 45 
days.
    Mr. O'Keefe. Yeah. I don't--there is nothing there that 
will be a show stopper that says if we don't have bucks within 
the next 30 to 45 days, we can't do things. There is the '04 
Budget, again starting $200 million bucks in a hole would be a 
real big problem relative to the President's budget request, 
but it is, you know, the resources are sufficient to make the 
kind of thoughtful, you know, step by step decisions that we 
are looking at right now, and I don't see a real huge bill 
requiring emergency, urgent requirement to respond to now.
    Mr. Nethercutt. I understand. I guess what I am wanting to 
make sure is clear is you don't expect to have any 
reprogramming or new budget requests for the fiscal year coming 
up that has to be decided in the next 30 to 45 days relative to 
the conference between the House and the Senate. Am I right on 
that?
    Mr. O'Keefe. I don't think so, but you know, again, the way 
this deliberative process may come out internal to the 
Administration, it is conceivable, but I just think that is an 
unlikely prospect, but, you know, we will see. I mean, again, I 
don't want to--I just don't want to foreclose any option at the 
President's disposal at this point.
    Mr. Nethercutt. Thank you both. Thank you, Mr. Chairman.
    Mr. O'Keefe. And thank you.
    Chairman Boehlert. I am particularly interested in your 
response to that question being the appropriator that he is.
    Mr. Nethercutt. Yes indeed.
    Chairman Boehlert. The chair recognizes Mr. Nick Smith.
    Mr. Nethercutt. Thank you, sir.

                    Manned vs. Unmanned Space Flight

    Mr. Smith of Michigan. Thank you and Mr. Hall for having 
this hearing, and gentlemen, thank you for your patience 
through all these questions. I know the charge of the CAIB 
Report was look at the causes and what can we do to increase 
safety. But I want to talk about a larger policy decision in 
light of what appears to be a rush back to business as usual, 
with a possible March launching date. It seems to me that there 
are reasonable arguments why manned space flight should be, in 
effect, put on the shelf, and it seems to me this committee, 
Mr. Chairman, this nation, needs to evaluate where we go--where 
we are going, what we want to accomplish, what should be the 
role of unmanned space flight. We already know that we have the 
technology to Shuttle some of the accommodations for the Space 
Station with robotics, with unmanned flight. We know that with 
new technology, nanotechnology, microtechnology, we have the 
capacity to more efficiently explore outer space than with 
manned space flight, and so I guess part of my question is is 
by setting the goal of a March launch date, it almost feels 
like business as usual at NASA. The CAIB Report cited 
unreasonable expectations for the Shuttle program, both by 
Congress and NASA as one of the factors that detracted from the 
attention of some of the safety concerns.
    Last week, Admiral Gehman, you told us, that the committee, 
that NASA has a history of promising more than it can 
accomplish. I am very concerned about trying to charge--what 
appears to be a charging ahead to keep going with the March 
launch date. If it is successful, then there is going to be 
some kind of an impression that things are good again, and we 
can continue the program as-is.
    And Administrator O'Keefe, you have said the Shuttle will 
not return to flight until it is fit to fly, but with the 
target date for six months away, I am concerned that adequate 
consideration of that is not going to be made. So first, Mr. 
O'Keefe, you have been quite supportive of unmanned space 
flight and exploration for the accommodations that it can make, 
but don't you believe we need to more deeply discuss what our 
goals are, and what can be accommodated by manned space flight 
versus unmanned space flight, versus some of this money going 
into additional ground research. I chaired the Research 
Subcommittee, and where are going to get our best bang for the 
buck on scientific research?
    Mr. O'Keefe. Yes, sir. Now, I appreciate the question and 
thank you. Please let me reassure you there is just no question 
we are going to follow this implementation plan and assure that 
we have achieved these milestones, and when we have done so, 
when those milestones are met, that is when we are fit to fly.
    Mr. Smith of Michigan. No, but what I hear you saying, you 
are going on with space--manned space flight as usual, with the 
same kind of priorities as before.
    Mr. O'Keefe. Well, in part, in response, as we have 
discussed with--Congressman Ehlers went down a very thoughtful 
path with this as well, which is that this the means by which 
we facilitate the completion of the International Space Station 
to yield the science objectives that can only be accomplished 
in that microgravity condition. Can't duplicate that anywhere 
else. We can do it for a very short span of time, but we can't 
sustain it the way that exists as----
    Mr. Smith of Michigan. To my knowledge, there hasn't been a 
good quantitative evaluation of what can be accomplished with 
robotics and nanotechnology to accommodate a lot of this 
research that is being conducted. Testimony in my--in our 
Research Subcommittee over the past five years indicate that a 
lot of it can be more effectively, more efficiently done with 
unmanned space flight, especially for outer space exploration, 
but also for the scientific experiments that have been 
conducted.
    Having high schools design scientific experiments is not 
the kind of research. It adds excitement, but it doesn't 
accommodate the kind of research goals that I think we should 
be setting.
    Mr. O'Keefe. But that is not the dominant priority of what 
goes aboard. I mean, I take your point, and it is very well-
taken, and it is a thoughtful approach, but it--nonetheless, in 
those kinds of scientific objectives, that is again referred 
to, this is one acronym I had never heard until I went to NASA. 
It is referred to as gas can experiments. And I said what the 
hell is a gas can? Well, it is a getaway special, in other 
words, additional room, that is it, you got a spot over in the 
corner, put it in there. The primary focus of what goes aboard 
Shuttle on the way to station, utilizing that is the 
microgravity condition for biological and physical research and 
some materials research that can't be done anywhere else.
    Mr. Smith of Michigan. Well, that is what you are saying, 
but I think we need a better evaluation, a better study, 
because that is contrary to some other testimony we have heard. 
Mr. Chairman, a quick question to Admiral Gehman.
    Mr. O'Keefe. Sorry.
    Mr. Smith of Michigan. And that is----
    Chairman Boehlert. Make it quick.
    Mr. Smith of Michigan. In the 1960s with the Apollo fire, 
we set up the Advanced Safety Advisory Panel. Should that be 
changed, enhanced, if it is going to continue?
    Admiral Gehman. The answer to your question is the Board 
believes that a periodic review of NASA's implementation does 
need to be done. We don't have an opinion on what is the best 
committee to do that. We recommended that as one of several 
options.
    Chairman Boehlert. Thank you very much. Mr. Lamar Smith.

                         RTF Costs and Schedule

    Mr. Smith of Texas. Thank you, Mr. Chairman. Mr. O'Keefe, 
did I understand you correctly a few minutes ago, when you said 
you did not feel that the resumption of the Shuttle program 
would lead to greater costs this year compared to the greater 
outlying cost?
    Mr. O'Keefe. I don't see the additional cost in this fiscal 
year coming, in '04----
    Mr. Smith of Texas. Right.
    Mr. O'Keefe.--as being exorbitantly more expensive than 
what we have seen in the past. These--this is no substantial 
hardware redesign required here.
    Mr. Smith of Texas. Right. Right. But I assume that there 
were still--that there are still unanticipated costs----
    Mr. O'Keefe. Oh, yeah.
    Mr. Smith of Texas.--of making the Shuttle safer----
    Mr. O'Keefe. Yes, sir.
    Mr. Smith of Texas.--that it--okay----
    Mr. O'Keefe. Absolutely.
    Mr. Smith of Texas. Now----
    Mr. O'Keefe. That was a very narrow answer to the question 
of '04----
    Mr. Smith of Texas. Right.
    Mr. O'Keefe.--that Mr. Nethercutt's request of do we see 
anything that needs to be acted on in the next 30 to 45 days 
for this coming fiscal year----
    Mr. Smith of Texas. Right.
    Mr. O'Keefe.--and the answer is I don't see it happening--
--
    Mr. Smith of Texas. I understand.
    Mr. O'Keefe.--in that narrow time window.
    Mr. Smith of Texas. Well, given the unanticipated cost, and 
given that you haven't requested a substantial increase in the 
budget, what programs are, then, going to be cut to transfer or 
to allow for the funding of making the Space Shuttle program 
safer.
    Mr. O'Keefe. The first step has got to be to look at the 
recommendations, determine what options we choose, to 
implement----
    Mr. Smith of Texas. But you have admitted there is going to 
be additional costs. I am just wondering what other programs 
are going to have to----
    Mr. O'Keefe. Haven't identified any at this time to be the 
bill-payers.
    Mr. Smith Texas. Will there be some other programs that 
will be cut a result?
    Mr. O'Keefe. It could very well be that there is additional 
funding requested. I don't want to preclude the President's 
option on any count.
    Mr. Smith of Texas. Okay. Thanks. My next question is if 
you don't make the March deadline, and I hesitate to use that 
word deadline, which is--has a negative connotation these days, 
but if you don't make that, what is your backup plan to 
complete the Space Station and to maintain the Hubble 
Telescope?
    Mr. O'Keefe. Again, we will fly when we are fit to fly and 
the milestones are achieved. In order to achieve----
    Mr. Smith of Texas. Yeah.
    Mr. O'Keefe.--that set of recommendations before return-to-
flight. There are several different launch windows that would 
permit that, and we need to flexible enough to accommodate that 
to assure optimum safety.
    Mr. Smith of Texas. Thank you. But my question really went, 
though, if you don't make the deadline, if you don't make the 
March deadline, or a subsequent deadline, and make that open 
window, then what plans do you have to maintain the Space 
Station or the Hubble--or--either the Space Station or the 
Hubble Telescope?
    Mr. O'Keefe. Thank you, I am sorry sir. I misunderstood. 
The current activity we are engaged in to maintain the Station 
in its present configuration is the Russian Soyuz capsule, as 
well as the Russian Progress Logistics Resupply Capsules. The 
International Space Station Partnership of 16 countries have 
done an impressive job of maintaining that----
    Mr. Smith of Texas. They will continue to pick up the slack 
on----
    Mr. O'Keefe. That is the anticipation, and as recently as a 
month ago, that seems to be the disposition on the part of all 
the partners.

                                 Hubble

    Mr. Smith of Texas. And then what about the Hubble?
    Mr. O'Keefe. The next servicing mission was planned to be 
in late Fiscal Year '04, early '05, and we will have to assess 
exactly when is the earliest opportunity when we will be able 
to----
    Mr. Smith of Texas. Okay.
    Mr. O'Keefe.--to do that next servicing mission of Hubble.
    Mr. Smith of Texas. So, even if the Shuttle doesn't stay 
within that March goal, you still think you will have 
sufficient time to service the Hubble even if you don't make 
the March deadline?
    Mr. O'Keefe. We will have to see. I don't want to kid you 
on this, and I don't want to deceive you. I don't know what the 
consequences will be with all the different program impacts, as 
we move down the road for the unknowns of what it is going to 
take to implement what is necessary to do this safely. I don't 
know.
    Mr. Smith of Texas. Okay. Thank you, Mr. O'Keefe. Thank 
you, Mr. Chairman.
    Mr. O'Keefe. No, thank you, Congressman. I appreciate your 
questions.

                           Schedule Pressure

    Chairman Boehlert. Thank you very much. That completes 
round one. We are advised that momentarily we will have a 
series of votes on the floor, and that will draw the hearing to 
a logical conclusion, because it is unfair to ask you to wait 
while we go over to the floor, and some of the games we play 
over there with procedural motions and things like that, but 
let us go to round two right away.
    Mr. O'Keefe, I want to get back to a question I asked 
earlier about scheduling and the pace of schedule. The Young 
Commission determined that not more than four flights could 
occur in a year. Do you agree with that?
    Mr. O'Keefe. No, they started that as a working assumption 
of what----
    Chairman Boehlert. Yeah.
    Mr. O'Keefe.--that couldn't occur, but that was their 
working assumption of what would occur. They argued that the 
sequence of the deployment ought to be based on the systems 
integration schedule, and----
    Chairman Boehlert. And are you still assuming that four 
flights a year will occur?
    Mr. O'Keefe. It is four to five.
    Chairman Boehlert. All right, and the scheduling of four to 
five flights a year, but in the next year, we are talking about 
scheduling four flights between mid-March and mid-December. Is 
that consistent with the basic recommendation of the Young 
Commission, and how can NASA expect to function with fewer than 
two months between launches?
    Mr. O'Keefe. Well, it is consistent with the Young 
Commission, the Young Panel's view, which is to build a Space 
Station at the optimum systems integration schedule that you 
can achieve, in other words, send the modules and the 
components up when they are necessary to fit into the array 
that they ought to be. Whether or not this is an achievable 
schedule or not, we will see. We will see what is dictated by 
the implementation of each of those milestones, and we will 
adjust it accordingly in order----
    Chairman Boehlert. Well, Young was pre-Columbia and pre-
Gehman, and there are a lot of changes that are, you know, 15 
hard recommendations that we have embraced totally, you have 
embraced totally. You have got to address them.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. That is prior to return-to-flight.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. There are going to be a lot--there are a 
lot of sort of turmoil if you will, or activity is a better 
choice of word, and a lot of change going on.
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert. And you know, if we have got the 
schedule pressure that everyone is concerned about, and you 
share that concern----
    Mr. O'Keefe. Absolutely. Absolutely.
    Chairman Boehlert. As Admiral Gehman and everybody on the 
Commission acknowledge, you have to have targets, you have to 
have goals, and all that sort of thing, but undue pressure is 
something else altogether. With all this change occurring to 
address those 15 specific points, and the reorganization and 
the culture being addressed, how can you even hope to have a 
schedule that has four flights from March to December of next 
year?
    Mr. O'Keefe. We may not achieve that. What is--again, we 
are trying to reconcile is, let us get the optimum systems 
integration schedule that the Young Panel called for, because 
we have got all the material stacked up at the Kennedy Space 
Center. It is ready to go. But at the same time, not press the 
schedule to achieve that simply because we have to. We have got 
to make sure that the safety objectives, all the things, the 
findings in the report are done, and we will do this at a pace 
in which that balance is attained, and if we have to adjust 
that schedule, so be it, and the message I got from this 
discussion, as well as from the report, and several discussions 
with Admiral Gehman is, we have to make sure every person in 
this Agency, down to the guy turning the wrench, knows that 
that schedule is flexible, in order to understand what the 
safety imperatives are.
    At the same time, we have got to also look at what do we do 
to build the International Space Station. That is an imperative 
that everybody has leveled, and so, as a consequence, we are 
moving in that direction, but not at the expense of any 
schedule objective. When we can fly, that is when we will fly.
    Chairman Boehlert. I think it might be more realistic to 
make an adjustment earlier rather than later, but----
    Mr. O'Keefe. Well, Mr. Chairman, if you would--you are 
raising a very important point as to whether you do it in front 
or in back. One way you tease out or bring out the issues of 
what are impediments to attaining some set of mission 
objectives is to lay out what is the optimum systems 
integration schedule, and then have folks contest as to why you 
can't achieve it. The point that I think that the Board made is 
listen to them, and incorporate that in your scheduling 
activity. I got that message, and that is exactly what we have 
got to do, but that doesn't mean you go abandon the approach 
that says this is an optimum systems integration schedule that 
the Young Panel spent all its time working on, and then just 
throw that out and say well, we have got a launch going, 
anything we want to go in the back. But----
    Chairman Boehlert. Well, all right----
    Mr. O'Keefe.--that is not----
    Chairman Boehlert.--we could have this----
    Mr. O'Keefe.--throwing the stuff----
    Chairman Boehlert.--discussion all day long, but----
    Mr. O'Keefe. Yes, sir.
    Chairman Boehlert.--the fact of the matter is you are not 
going to snap your fingers and just develop the type of culture 
that Gehman----
    Mr. O'Keefe. That is true.
    Chairman Boehlert.--and Congress and everybody wants, and 
you yourself have acknowledged you want.
    Mr. O'Keefe. That is true.
    Chairman Boehlert. And it seems to me it would ease the 
pressure on scheduling if we were a little bit more realistic 
in looking at next year, and not scheduling four flights 
between March and December, but it is a which came first----
    Mr. O'Keefe. I got it. I got it.
    Chairman Boehlert.--the chicken or the egg type of thing.
    Mr. O'Keefe. I got the message and I appreciate that, 
Chairman.

                                 Hubble

    Chairman Boehlert. In my few remaining seconds left, let me 
ask you about the Hubble Telescope figuring into NASA's return-
to-flight plans. Will the Hubble take a back seat to the 
Station even though it is far more important to science?
    Mr. O'Keefe. I certainly hope not, and that is not our 
intention. There is going to be some challenges to the next 
Hubble servicing mission, given the fact that there is no means 
for that mission to then dock with the International Space 
Station if there is a problem, and that is one of the issues 
called out in the report. So we are going to have to work 
through that, and that is--our intention is not to sacrifice 
the continuing viable operations of Hubble for more convenient 
missions. That is not the objective at all, but we are----
    Chairman Boehlert. When do you anticipate or project the 
next Hubble launch, Hubble-dedicated launch?
    Mr. O'Keefe. Gosh, I have forgotten the date. It was 
scheduled for--before the accident, early '05, and it is--I 
have just forgotten now.
    Chairman Boehlert. Okay, but it is not one of the '04----
    Mr. O'Keefe. I don't believe so.
    Chairman Boehlert.--objective, okay.
    Mr. O'Keefe. I don't believe so.
    Chairman Boehlert. Thank you very much. Mr. Gordon.
    Mr. O'Keefe. No, thank you, Mr. Chairman.
    Mr. Gordon. Thank you, Mr. Chairman. Just a couple quick 
questions. Mr. O'Keefe, you have stated on a number of 
occasions that you want to embrace all of the recommendations 
of the Gehman Board, and one of those recommendations, as 
Admiral Gehman has pointed out today, was that we have national 
goals, more specifically, what do we want to do in space, and 
what are we prepared to pay for. Is that a goal that you hope 
to have an answer to when they come back in a year and do their 
snapshot?
    Mr. O'Keefe. Yes, sir.

                             Stafford/Covey

    Mr. Gordon. Good. Thank you. And Admiral Gehman, this 
sounds sort of, I guess, a little bit deja vu, the Return-to-
Flight Task Force is a--I think a good faith effort by Mr. 
O'Keefe to try to get, as he says, some new eyes to look on 
your recommendations in return-to-flight, but when you look at 
this, you see this is a commission that was recruited by the 
Administrator, appointed by the Administrator, reports to the 
Administrator, many have economic ties to NASA. One of the vice 
chairman, who I am sure is a very honorable person I don't 
know, and very able, but is a vice chairman of the largest 
contractor with NASA. What advice would you have for this group 
in terms of, with your experience, of you know, trying to get 
it right, as well as give the public the confidence that it is 
going to be done properly.
    Admiral Gehman. Mr. Gordon, I have, both myself and the 
Board has had several interactions with the Stafford-Covey 
Return-to-Flight Group, and we have told them in the strongest 
possible terms what our concerns are, where the pitfalls are, 
where the shortcuts might be taken, and we have found them to 
be very aggressive. They actually had--they actually came back 
at us, why didn't you do this, why didn't you do that? They 
actually had other things, so I--they are very independent, 
very aggressive. I have confidence they will do a great job, 
and my advice is just to--just watch over it, and I am 
confident in them.
    Mr. Gordon. Thank you.
    Chairman Boehlert. That it? Mr. Rohrabacher.

                     Alternative Access to Station

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I would 
like to thank you for your leadership again. I would like to 
thank your staff for the hard work that they have been putting 
in to putting this meeting together today, and I think that we 
have--this has been a very invaluable effort, and we all 
profited from it. There is some specific--something specific I 
would like to ask Mr. O'Keefe in terms of some problematic 
areas here, but let me just say that overall, if anything has 
come out of this hearing, it seems to be that there needs to be 
a vision statement by the President of the United States, and I 
would--I don't want to speak for the whole Committee here, but 
I would suggest that the message of this hearing is loud and 
clear to us that the President of the United States needs to 
act, needs to give a vision statement, needs to give some 
personal direction. I would recommend that on December 17, that 
he be down in Kitty Hawk, North Carolina, or some other venue, 
at the 100th anniversary of human flight, to give us a 
statement of the United States of America and perhaps all of 
humankind on what our goals should be for human space flight in 
the future, and I think that would be appropriate, and I think 
that this--after hearing the testimony today, everybody is 
calling out for some leadership from the White House on this, 
and I think that the 100th anniversary of manned flight would 
be a very good forum for that.
    But with that said, I would like to ask you some--a couple 
specifics. Especially--it seems disturbing to me again, we are 
talking about mindset as being a major cause for this accident. 
If anything came out of this--mindset--foam can't be a threat 
was a mindset in NASA that contributed to the factor. Then, the 
schedule should not be hurt because of something that is not a 
threat was also a mindset, and so we see how those two mindsets 
worked together to cause this tragedy. There seems to be 
another mindset at NASA, and that is we need to get back to 
flight as soon as possible, and I keep hearing even though 
safety is going to be taken into consideration, but there are 
other options. There are other options to bringing back the 
Shuttle, and Mr. O'Keefe, I understand that resupply flights 
being--bringing food and water and propellant and other things 
to the Space Station, not people, can be done by alternatives, 
by our partners, or by alternative--private sector 
alternatives, yet NASA seems to be saying that they are going 
to bring the--take the Shuttle up to help resupply the Space 
Station. What is going on here? Is this another mindset?
    Mr. O'Keefe. No, sir. I hope not. The approach that we 
are--been using since the accident, in supporting the Space 
Station, is to use the Russian Progress vehicles.
    Mr. Rohrabacher. Right.
    Mr. O'Keefe. Which incorporates, and has the capacity----
    Mr. Rohrabacher. But Mr. O'Keefe, I'm talking about your 
plan----
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher.--in the near future.
    Mr. O'Keefe. I apologize.
    Mr. Rohrabacher. Okay.
    Mr. O'Keefe. Just let me finish that last sentence.
    Mr. Rohrabacher. Yes, sir.
    Mr. O'Keefe. It has--the Progress flights can carry a small 
fraction of what Shuttle can, so the issue is not resupply, it 
is how do you use that capability for the science objectives. 
We are really maintaining right now.
    Mr. Rohrabacher. Right.
    Mr. O'Keefe. And I apologize. You were going to go on to--
--
    Mr. Rohrabacher. Well, I would suggest that the figures I 
have seen is that the Space Station can be resupplied by the 
Russians and by private sector alternatives that are out there, 
and yet, it seem to me you are telling us that the Shuttle will 
be assigned to carry supplies to the Space Station.
    Mr. O'Keefe. Let me go back and take a look at that based 
on what your findings are on what it is we could do without 
Shuttle----
    Mr. Rohrabacher. Okay.
    Mr. O'Keefe.--to maintain logistics, resupply, science, all 
the things, and by the way, get the modules up there, too.
    Mr. Rohrabacher. Right.
    Mr. O'Keefe. If we have got other alternatives to Shuttle 
to do that----
    Mr. Rohrabacher. Right. Well, I am not suggesting that. I 
am suggesting that there are certain missions for the Shuttle 
that can only be done by Shuttle, and need to be done by 
Shuttle in terms of finishing the Space Station, but those 
missions that do not need to be done by Shuttle should not be 
done by them, and it seems to me that NASA, by pressuring out, 
by actually holding off alternative access to the Station in 
terms of the private sector, and by our Space Station partners 
in Russia, have made it--are trying to maneuver a greater 
dependency on Shuttle than we need to have. Now, Mr.--Admiral 
Gehman, I asked you this at the first hearing. It is--is it not 
your finding that the Space Station should be resupplied, if 
possible, by--not by the Shuttle, but by other sources?
    Admiral Gehman. In the mid-term, yes, sir. As soon as 
possible, it should be the policy of the United States to do 
cargo by some other means.
    Mr. Rohrabacher. Okay, so let me put that on the record, 
Mr. Gehman. I would hope that as soon as possible, and that 
means if there is another alternative, it should be used, 
rather than the Shuttle. It is risky other--too risky 
otherwise. The Shuttle can be done for those things that only 
the Shuttle can do. Thank you very much, Mr. Chairman.
    Chairman Boehlert. Thank you. The gentleman's time has 
expired. Mr. Hall.

                 Interagency Working Group Participants

    Mr. Hall. Mr. Chairman, I will be brief again. I used most 
of my time to ask my question, and gave you the chance to 
answer it with a yes or a no. It took a little longer to say 
yes than it did no, and you gave me a yes, and I appreciate it. 
I wanted to ask a question from Mr. Lampson to where we can get 
this on the record. He is not here. I think you overanswered 
this question, but you didn't actually directly answer it, 
because he wanted a name or a position or something as to who 
he could talk to. A little girl went to her mama when she was 
12 years old and said Mom, I have got to ask you a question, 
where did I come from, and the mother said oh, my God, this is 
the time I have got to give an answer and took an hour to 
answer her, you know, and she said well, I just wondered, 
Johnny said he came from Chicago. So I want a straight answer, 
and if it is I came from Chicago, why give it to me, but this 
White House set up, and if it is--if you give me a General Haig 
answer, like ``I am in charge here,'' you may be the one. But 
he wants to know. He is dying to know. He is probably upstairs 
crying now because you didn't--you wouldn't tell him, or Dial-
a-Prayer, or something. I don't know what he is doing, but we--
the White House set up the interagency team, or interagency 
review, and you must have talked to somebody, so let me make it 
simple. Did you talk to the President? I know his name. I can 
give him that name.
    Mr. O'Keefe. Yes, sir. Yes, sir.
    Mr. Hall. And then he is in charge really, just really, but 
then, the Vice President----
    Mr. O'Keefe. Yes, sir.
    Mr. Hall.--is--has he been----
    Mr. O'Keefe. Yes, sir.
    Mr. Hall.--designated?
    Mr. O'Keefe. Well, he is definitely involved.
    Mr. Hall. All right, and how about Andrew Card?
    Mr. O'Keefe. Peripherally, yes.
    Mr. Hall. Karl Rove?
    Mr. O'Keefe. No.
    Mr. Hall. I will scratch him off of here. Don Evans?
    Mr. O'Keefe. No, he is--the Commerce department 
representatives are, though.
    Mr. Hall. Okay. Oh, and you know, like the former President 
put the Vice President in charge, overseeing kind of.
    Mr. O'Keefe. Yes, sir.
    Mr. Hall. Do we have anybody like that that is overseeing 
interagency review?
    Mr. O'Keefe. It is being set up through the usual policy 
operation----
    Mr. Hall. And who do you----
    Mr. O'Keefe.--there isn't----
    Mr. Hall.--no one kind of directing that are going to.
    Mr. O'Keefe. There is not a permanent chair. There is not 
someone yet. Maybe there is--will be one, maybe not. But again, 
the objective is coordinate all of those opinions, advice, and 
offer them to the President for his judgment.
    Mr. Hall. Okay, all I can tell him is that Karl Rove is not 
one of them.
    Mr. O'Keefe. Well, no, I think you can say me.
    Mr. Hall. Okay.
    Mr. O'Keefe. I am a member of that----
    Mr. Hall. Yeah.
    Mr. O'Keefe. I am a party to it. I am involved in all these 
discussions. Certainly, the President's Science Advisor, Dr. 
Jack Marburger, as well as other members of the Administration 
as necessary to offer the views to the President on where we 
ought to go with this particular process. If he wants to 
communicate with the Vice President on his--or anybody does, 
those are the kinds of things that I think we are all looking 
forward to hearing inputs on that point. I am not trying to be 
coy or cute with this, it is just not a--there is no committee, 
per se, there is not--it is the same kind of process that you 
use on this committee in consultation with your staff and other 
Members. There is nothing formalized about it. It occurs----
    Mr. Hall. There should be and there will be, won't--there 
is somebody who will finally have the final answer, the final 
say, we don't have to come to the President with everything we 
want to know about it.
    Mr. O'Keefe. It will be framed up in a set of options in 
which the President will then have an opportunity to choose 
where he wants to go.
    Mr. Gordon. All right. And you promise me you will tell my 
friend Mr. Lampson when that happens, won't you?
    Mr. O'Keefe. Yes, sir. Absolutely.
    Mr. Gordon. Back.
    Mr. O'Keefe. And you, sir. Thank you very much. And I am 
from Chicago.
    Chairman Boehlert. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I didn't say this at 
the start of my question round, but I want everybody to know, 
especially the Administrator and Admiral Gehman, I am a 
supporter of the U.S. space program, and I am specifically a 
supporter of the manned space program for the United States. So 
I am not anti-space, and I am not anti-NASA, and I am not anti-
O'Keefe, but I am anti using the Shuttle to put Americans at 
risk. If you will look back there on that wall, on that left 
corner, that gentleman's name is Olin E. Teague. He was a tank 
commander for General Patton in World War II. He came back to 
College Station at the end of the war, introduced Dwight David 
Eisenhower to about 30,000 veterans at the football stadium, 
Kyle Field, and announced that he was going to run for 
Congress, and he didn't even have an opponent. He later became 
Chairman of the Veterans Committee, he became Chairman of the 
Science Committee, and he and a guy named Lyndon Johnson were 
the two guys that kind of put the muscle behind John Kennedy's 
vision of putting a man on the Moon by the end of the 1960s. 
After he left Congress, Phil Gramm became the Congressman for 
the Sixth District, and after Phil Gramm became the Senator 
from Texas, I became the Congressman for the Sixth District, so 
I have a history in the space program, and I want it to 
continue, but I believe if we could go from John Glenn in the 
Mercury Program going around the Earth, first American to orbit 
the Earth in February of 1962 to Neil Armstrong becoming the 
first American to step foot on the Moon in July of 1969, that 
is seven years. That is seven years, where we had no 
technology, and we just had a vision. We can surely come up 
with a space plane that puts Americans into space safely and a 
way to get the cargo up to the space station in less than six 
or seven years.

                                  OSP

    Now, here is my question. If we direct you, we being the 
United States Congress and the President, if we were to direct 
NASA to build a new space plane or a crew capsule that was just 
manned-specific, no cargo other than the necessary elements for 
to protect the crew and sustain them as they go to the Space 
Station, how long would that take? If money was no object and 
we just said do it, you know, how long would that take?
    Mr. O'Keefe. Based on the inquiries of this committee over 
the course of the last several months of saying what would it 
take to accelerate the Orbital Space Plane to 2008, it is 
conceivable. It can be done.
    Mr. Barton. So you think five years.
    Mr. O'Keefe. Yes, sir.
    Mr. Barton. In a crash program, high priority, that is 
going to take you five years.
    Mr. O'Keefe. Matter of fact, the pace in which this works 
is pretty brisk, but I would hardly call it crash. It is not a 
24/7----
    Mr. Barton. I don't--maybe I shouldn't use crash.
    Mr. O'Keefe. No, no, but----
    Mr. Barton. High priority.
    Mr. O'Keefe. Yeah. Exactly. I understand your point. It is 
a very attentive program, it is going to have a lot of folks 
attached to it, and you bet, within five years, we should be 
able--if we stick to the level 1 requirements that we have 
levied, and said here are the things we want it to do, the 
working assumption is we could attain that within five years.
    Mr. Barton. All right, now, what would it take and how long 
would it take if we also directed you to retrofit the three 
remaining orbiters for cargo only, as you--I think you and the 
Admiral said, autonomous operation, how long would that take 
and what would that cost? If you were directed, not given a----
    Mr. O'Keefe. Yeah.
    Mr. Barton.--go study the dadgum thing, we just told you do 
it.
    Mr. O'Keefe. Don't know with precision, but certainly, a 
lot less time than that.
    Mr. Barton. Two years?
    Mr. O'Keefe. I don't recall, but let me get back to you for 
sure----
    Mr. Barton. Can you have your----
    Mr. O'Keefe. Absolutely.
    Mr. Barton.--experts----
    Mr. O'Keefe. I will give you a call this afternoon.
    Mr. Barton. Get the Chairman----
    Mr. O'Keefe. I will call you this afternoon.
    Mr. Barton.--an answer.
    Mr. O'Keefe. I will call you this afternoon.
    Mr. Barton. And do you know what is--do you know what--give 
me an approximate cost number.
    Mr. O'Keefe. Don't know.
    Mr. Barton. Now, if we direct you to do these things, to 
make it a high priority to build a new crew capsule, and to 
make it a high priority to convert the three orbiters to cargo 
only, would NASA be amenable if we put that in a supplemental 
spending bill, so we did it outside of the normal budget 
process, and if you were cooperating with us in your meeting 
the Gehman Report estimates and all that, you tell us what it 
is going to cost, give us a program that we sign off on, and we 
put it in a supplemental so that it doesn't come out of your 
existing budget, what is your reaction to that?
    Mr. O'Keefe. Be happy to provide whatever advice or 
commentary, costing, whatever the Committee needs on an issue 
like that. The President's budget position, the way it is----
    Chairman Boehlert. Would the gentleman yield for a second?
    Mr. Barton. Be happy to yield.
    Chairman Boehlert. Would you also include in whatever 
analysis you give what we would do with the Hubble, how we 
would service the Hubble? Admiral?
    Admiral Gehman. Sir, don't forget to include in your 
estimates that when you build a crew transport capsule, that 
you also are going to have to get some kind of propulsion 
system to get up there. And just sticking this thing on the top 
of a Delta Four is not going to do it.
    Mr. Barton. I am not the expert on how to do it, but I 
strongly believe until people like us and the President tell 
you what to do, you are going to be walking in the--you are 
going to wander around in the wilderness.
    Mr. O'Keefe. I am with you, but just in--remember there are 
there two parts to it.
    Mr. Barton. I understand that. I yield back my time.
    Mr. O'Keefe. And in fairness, again, the answer of five 
years can't be attained if you are talking about getting up 
there by a different launch system.
    Mr. Barton. Well, of course, I have--my--that caveat is a 
show stopper.
    Chairman Boehlert. Your time--you still have time.
    Mr. Barton. My premise is different than anybody on this 
panel. My premise is not one more American is going to go 
strapped in a Shuttle. You know, if I can stop it, I am going 
to stop it. I am just not--I am not going to play that game any 
more. I have watched 14 Americans get killed, and I am--I have 
had with that. But I also, since I support the space program 
and manned space component of the space program for the United 
States, I have an obligation to come up with an alternative 
that still lets us operate the Space Station, but gives us a 
new capability, and hopefully, get a new vision like President 
Kennedy gave to the American people in the 1960s, and 
Congressman Hall was very polite in his questions about who 
have we got to talk to, you got to talk to, but all those 
people that he mentioned by name are personal friends of mine, 
and I am talking to them, and I am even talking to Karl Rove, 
even though he is not on his list, and I think what 
Congressman----
    Mr. Hall. I may have missed the most important one.
    Mr. Barton. Yeah, what Laura--you didn't put Laura Bush on 
that list. And she is probably----
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Barton. So anyway. I apologize to Mr. Chairman.
    Chairman Boehlert. Ms. Jackson Lee.

                             Accountability

    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank Mr. O'Keefe and Admiral Gehman for their patience. We 
have run about 50 miles since I last saw you between meetings, 
and I thought it was very important to come back to raise a 
number of questions, and I think it is important to note that 
Members are on this Science Committee because there is a degree 
of passion and commitment, and every Member's inquiry is an 
important inquiry, and so I appreciate your patience and you 
were trying to be responsive to my inquiries, and I thank you 
for the thoroughness in which you offered it, which I would not 
have wanted to interfere with your expressing unto the best of 
your ability the answers to my questions, and so I respect you 
for that and I thank you, and would not in any way suggest that 
you should not have the opportunity to continue on your answers 
as I would likewise for my fellow colleagues on this committee.
    My work is serious here, and I think it is important that 
we try to find solutions. That is why we are here. So I have 
four questions that tie in to the original line of reasoning 
that I offered in the earlier series of questions. The first 
one that I was attempting to seek a response as we were 
concluding is to secure and enlist the collaboration of NASA on 
the issue of anti-retaliation legislation or policies, and my 
simple question to you, will you work with us on this issue of 
putting a new light, a new atmosphere into NASA with actual 
procedures, and we may engage you on legislation, but we are 
going to be very thoughtful. Would you help us with that?
    Mr. O'Keefe. Yes, ma'am.
    Ms. Jackson Lee. On the issue of individuals who were held 
accountable, you gave me who was moved. Do you have the numbers 
of individuals who were terminated, pursuant to any actions or 
inaction that might have occurred around Columbia 7, and again, 
I have said numbers versus names.
    Mr. O'Keefe. Yes, just off the top of my head, there are at 
least three who have departed the Agency.
    Ms. Jackson Lee. In their own way, as someone would say, 
not necessarily through termination.
    Mr. O'Keefe. Correct.

                               ISS Safety

    Ms. Jackson Lee. And that I will want to pursue with both 
of you, maybe in some other discussions about that structure. 
The other question is related to the International Space 
Station, and my discomfort with--and I am going to tie two 
questions into that, my discomfort with whether or not the 
Space Station is safe, whether or not, in all that we have 
done, have we included, just to be safe, embraced the Space 
Station, and I mentioned this return-to-flight issue, and I am 
not sure whether it covers the Space Station, but again, what 
struck me, start the review of the several thousand waivers of 
Shuttle safety requirements to determine whether they were 
justified, and I would like both you and Admiral Gehman to just 
refer that, even though that is not your report, Admiral 
Gehman, but I guess it is responding to your report, my last 
point is, just to follow up my good friend from Texas, he wants 
$30 billion more I last heard from him, and so he knows that I 
am very supportive of Congressman Barton's effort to secure 
more dollars that will hopefully embrace the word safety. I 
think there is no NASA without safety. There is no tribute or 
respect to those who lost their lives without safety, but the 
Orbital Space vehicle, I understand you want to put it on an 
Atlas or a Delta launch. What is the comparison of safety, it 
is my understanding that that success rate, you might tell me, 
is worse than or no better than the Shuttle, or we are not 
getting any--gaining anything by using it in that way, and I 
would like to be informed on that. If you could answer those 
questions, I would greatly appreciate it, and I will look 
forward to working with you on the anti-retaliation effort.
    Mr. O'Keefe. Thank you very much, and you as well. I mean, 
am committed to doing that. We want to be sure that there is no 
one in this Agency who feels like they can't speak up, and that 
if they do, that there is consequences for their opinion having 
been offered. It is, I think, a profound observation in this 
report that not only did the members say that they had 
investigated that behavior, but that they witnessed it 
themselves, and that is unacceptable under any circumstances, 
so we are committed to assuring that does not happen. And there 
is a lot of ways we got to go about doing it, and I want to 
work with you to find acceptable ways to do that.
    On the second issue of--it really cuts to the inquiry and 
the dialogue we had on the Independent Technical Authority on 
the waivers, which is--I think you can accomplish several 
things that the Board recommended by procedural change that we 
really have to figure out what the appropriate options are, but 
it first starts with the proposition that the Board articulated 
very forcefully with no ambiguity, which is to sever, separate, 
remove, get out of the Program Management Team, the functions 
related to specifications and configuration control from the 
program management imperatives of day in and day out cost/
schedule operational imperatives, hiring people, bringing folks 
in, getting talent. So that first step, I think we need to make 
sooner rather than later. The time is now, because focus and 
attention is on it, and we need to come to closure on a number 
of very thoughtful ways to go about achieving that objective 
organizationally, but we have got to pick one and pick one 
sooner rather than later. Then, the step becomes justify the 
waiver authorities you may be looking at, because now you have 
an organizational entity that has the capacity to push back and 
say prove to me, or demonstrate to me why such a requirement 
needs to be waived, versus telling me it is just a neat goal 
that we would like to attain in order to achieve that task.
    Lastly, on your questions about the expendable launch 
vehicle, that is the only way that anyone now knows how to get 
folks off this rock and into space. If there is another idea 
that comes up on how to achieve that, we are all ears, but it 
is the only we know of right now to make it happen, and if that 
is an unacceptable approach, we've got to move away from all 
that and give this up, and that is an acceptable answer to some 
Members, but to others, it would be viewed as just not 
feasible, because there is--until we mature some of the other 
technologies of how to do it, chemical propulsion is where we 
have been stuck for 40 years, and we are trying to get out of 
that, and I commend the Committee and the Congress for having 
stood up to the efforts to try to diminish the Project 
Prometheus efforts, which is the first serious effort to get 
out from underneath that challenge.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much, Mr. O'Keefe and 
Admiral Gehman. To show you how much influence we have over the 
House, they waited until we had the last word in this committee 
before scheduling any votes in this very busy--I wish on behalf 
of the entire Committee to salute both of you for your 
continued cooperation through this whole very difficult 
process, and for your outstanding contributions to finding out 
what went wrong, so we can fix it and get on with the program.
    Thank you all very much. The meeting is adjourned.
    [Whereupon, the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Chairman Sherwood Boehlert

Q1.  According to the Columbia Accident Investigation Board report NASA 
assigned a working group an action to resolve the foam issue after STS-
112. How far along was the assignment at the time of the Columbia 
accident? Are there any written materials that were produced as a 
result of this assignment? Who was responsible for this assignment? Are 
the individuals responsible for carrying out this assignment also 
involved in the return-to-flight efforts?

A1. The Lockheed Martin Chief Engineer was responsible for authorizing 
the preparation of a change proposal to the Space Shuttle Program 
Requirements Control Board (PRCB) following STS-112. The PRCB issued 
Action Item S062151 to determine the cause of the bipod ramp foam loss 
on STS-112 and to suggest corrective actions. At the time of Columbia, 
the Action Item team had identified the probable foam loss mechanism 
and was in the process of formulating recommendations to eliminate this 
mechanism. The work status for these corrective actions was to be 
presented to the PRCB in early February 2003. The individuals 
responsible for this action are still with the program and are involved 
in the ongoing bipod ramp redesign effort for return-to-flight.

Q2.  The Columbia Accident Investigation Board recommended that NASA 
``initiate an aggressive program to eliminate all External Tank Thermal 
Protection System debris-shedding.'' NASA's current Return-to-Flight 
plan indicates that it ``Will evaluate the potential for debris loss in 
all areas,'' but does not identify acreage foam as one of the areas for 
study despite the fact that small flakes of acreage foam are shed on 
every flight. What is NASA's current understanding of the threat posed 
by acreage foam? What analysis is that based on? Is NASA going to 
examine concepts to eliminate shedding of acreage foam? If not, please 
explain the rationale.

A2. The NASA Return-to-Flight Planning Team is overseeing parallel 
efforts that will characterize the types of debris (including External 
Tank [ET] foam) that can lead to critical damage to the Orbiter during 
launch, and the mitigation strategies necessary to prevent the 
generation of this kind of critical debris. Full-scale impact testing 
of reinforced carbon-carbon (RCC) and tile continues at the Southwest 
Research Institute in order to gather data and validate computer models 
of the vulnerability of the Orbiter's thermal protection system (TPS) 
to foam debris of various sizes, including ``acreage'' foam, and impact 
speeds. Using the results of this testing, the ET project is working to 
reduce individual foam loss mass across the entire ET down to less than 
that which will cause critical damage to the Orbiter TPS. This ET foam 
loss mitigation strategy includes the identification of additional 
testing and characterization requirements necessary to determine the 
size of flaws in the ET foam that can lead to the generation of debris 
above the critical size, improvements to the ET manufacturer's foam 
application process, and the development of nondestructive examination 
techniques to detect critical ET foam flaws.

Q3.  The Administrator was asked at the Senate Commerce Committee 
hearing on September 3rd to perform a cost-benefit study of the human 
space flight program and to deliver its findings to Congress within six 
months. What steps is NASA taking to perform this study? Will it 
include a comparative analysis of the costs and benefits of human space 
flight with those of robotic space flight?

A3. NASA recognizes that space flight continues to be an endeavor 
characterized by significant cost and risk. The Agency's goal is to 
design missions the yield the greatest possible return. To accomplish 
this goal, NASA understands the need to continuously evaluate the best 
way to use human and robot resources. This study will provide an 
important input by defining the costs and benefits associated with 
flying people in space using quantitative measures to compare humans 
and robot performance.
    To provide a fresh look at this challenging topic NASA has 
contracted with an independent external firm, the Center for Naval 
Analysis, to provide an objective cost-benefit analysis. There are many 
sociopolitical factors associated with flying humans in space that will 
be addressed in the study. However, since NASA believes that these 
factors are well documented, the study's effort will focus on a task-
based comparative analysis on options for conducting a vibrant space 
research and exploration program. The study will compare the costs and 
benefits of having humans or robots perform these tasks, as well as 
various combinations of cooperative human-robot partnerships. The study 
will also project the path of robotic technology and computational 
power to account for rapid evolution in these areas.
    NASA assembled an advisory board for this activity in October. The 
results of this comparative analysis will be ready for briefings by 
mid-March 2004 and a final public document printed by the end of March.

Q4.  NASA submitted an update to its FY 2003 Operating Plan on 
September 4, 2003. In the plan, NASA requests to transfer $40 million 
from the Science, Aeronautics, and Technology Account to the Human 
Space Flight Account. Please expand on the Administrator's testimony 
from the hearing on the reasons for this transfer; will this funding be 
used to support activities related to the Shuttle program? What 
specific activities will the funding be used for? What specific 
activities within the Science, Aeronautics, and Technology Account were 
used as the source of funds for the transfer? What is the impact on 
these activities?

A4. NASA's September 4, 2003 Operating Plan includes a reallocation of 
institutional funds between SAT and HSF, under the conduct of the two-
appropriation budget concept. This change does not reflect a transfer 
of funds to a program but rather reflects a re-allocation of 
institutional resources against those activities budgeted under the HSF 
appropriation in the HEDS Institutional Support account, including 
Space Station as well as Shuttle. During any given year, there is a 
certain amount of shifting of the civil service workforce among 
programs to best apply the agency's technical expertise where needed. 
Under the terms of the two-appropriation budget, along with the 
reallocation of direct civil service salaries, travel, research 
operations support, and general/administrative support salaries are 
also reallocated in a representative manner against the program area. 
Under the two-appropriation budget, the allocations of direct civil 
service workforce is assumed to help represent the portion of the 
center's institutional capabilities that are likely to support the 
Enterprise's programs in some manner, directly or indirectly. This 
approach will be more program specific under full cost starting in FY 
2004.
    This most recent allocation of institutional resources to HSF is 
actually a rebalancing of an over-adjustment that was made in the 
initial operating plan. The initial operating plan had projected that 
approximately $80M of institutional resources would be allocated 
against Science, Aeronautics, and Technology program activities rather 
than Human Space Flight activities as proposed in the original budget. 
However, with added attention to Human Space Flight Programs this year 
including recovery and investigation and added planning and extension 
of activities under International Space Station and Shuttle as a result 
of the accident, approximately $40 million of this original $80 
reallocation of institutional support from HSF to SAT is now being 
reallocated back against Human Space Flight activities.

Q5.  According to the Return-to-Flight plan, NASA ``will develop a plan 
to re-certify the Space Shuttle as part of the Shuttle Service Life 
Extension Program.'' Precisely what will this re-certification effort 
involve? When will NASA decide whether it intends to fly the Shuttle 
beyond 2010? What criteria will be used to make that decision? Does 
this decision assume a date for when the Orbital Space Plane will be 
available? If so, what date is assumed?

A5. On January 14, 2004, following months of interagency deliberations, 
the President unveiled a new vision for space exploration. In his 
speech that day, the President stated that the Space Shuttle will be 
retired from service in 2010. Because the Shuttle will not be flown 
beyond 2010, re-certification of the entire vehicle will not be 
required. The Space Shuttle program will continue to monitor the health 
of various components and subsystems to maintain safety and reliability 
standards.

Q6.  You have said that the Stafford-Covey Task Group will be in 
existence for two years and have implied that they will review NASA's 
Implementation of the Columbia Accident Investigation Board's 
recommendations even after return-to-flight. Yet, the members of the 
Task Group describe themselves as having a more narrow mission that 
will end one month before the launch of STS-114. What precisely is the 
assignment of the Task Group? If it is broader and longer in duration 
than STS-114, why hasn't this been communicated to the Task Group? Will 
the Task Group be reviewing NASA's plan to implement recommendations 
R7.5-1 and 7.5-2?

A6. The Return-to-Flight Task Group, chaired by former astronauts 
Thomas Stafford and Richard Covey, was formed by the NASA Administrator 
specifically to address the Space Shuttle program's Return-to-Flight 
activities for STS-114. The scope of the Task Group includes all 
Return-to-Flight activities, including the adequacy of NASA's 
reorganization strategy for the CAIB Recommendations 7.5-1, and 7.5-2. 
The two-year duration set in the charter represented NASA's 
conservative ``best guess'' as to the amount of time necessary to 
implement the CAIB Return-to-Flight recommendations at the time that 
the Task Group was commissioned. The charter allows the Administrator 
to extend or terminate the Task Group's service depending upon the 
timeframe for Return-to-Flight.

Q7.  The Columbia Accident Investigation Board emphasized the need to 
ensure independent funding for the Technical Engineering Authority and 
safety organizations. How does NASA intend to implement the funding 
independence advocated by the Board while complying with the mandate 
for full-cost accounting?

A7. The NASA Administrator has asked the Associate Administrator for 
Safety and Mission Assurance to develop and propose a solution to the 
Columbia Accident Investigation Board's recommendations 7-5.1 and 7-
5.2--the Board's recommendations that relates to the independent 
technical engineering authority and the safety organization. At this 
juncture, the Agency is still considering options for addressing this 
CAIB recommendation, so it is premature to provide an answer to this 
question. NASA's approach to establishing an Independent Technical 
Authority will be decided well before the decision to fly STS-114.

Q8.  The Space Flight Operations Contract contains provisions dealing 
with ``Fee Reduction for Catastrophic Loss.'' Those provisions require 
that the NASA Contracting Officer, in conjunction with a Board of 
Investigation, make a determination as to the cause of the loss. In his 
testimony before the Committee, Admiral Gehman stated that the Columbia 
Accident Investigation Board is not the Board of Investigation 
referenced in the SFOC. Do the other contracts on the Shuttle program 
have a similar provision? Does NASA have plans to establish a Board of 
Investigation? If not, please explain why.

A8. The Deputy Associate Administrator for International Space Station 
and Space Shuttle has established a Board of Investigation to assess 
the Space Flight Operations Contract (SFOC) catastrophic clause as it 
relates to the Columbia accident. NASA recently determined the award 
fee the United Space Alliance (USA) earned for their performance of the 
Space Flight Operations Contract (SFOC) during the rating period that 
included the Columbia accident. During this rating period, Columbia and 
its crew were lost. Also during this rating period, two Space Shuttle 
missions, STS-112 and STS-113, were successfully flown.
    NASA's SFOC Fee Determining Official (FDO) determined a fee amount 
of $36 million out of an available amount of $81 million for the fee 
period running from October 1, 2002, through March 31, 2003. This 
represents a substantial reduction in the historical award levels given 
to USA in prior fee award periods.

Q9a.  In light of the recommendations made by the Bahcall Commission, 
what is NASA's plan for future servicing missions and eventual de-
orbiting of the Hubble Space Telescope?

A9a. On January 16, 2004, NASA's Administrator met with the Hubble 
Space Telescope Project team announcing the Agency's decision to not 
pursue any additional servicing of the Hubble Space Telescope. The 
decision to cancel SM 4 was very difficult, and made only after 
considerable deliberation and consultation with safety and Shuttle 
experts. The decision was not budget driven, was based on Shuttle 
safety considerations, and NASA's intent to fully comply with the 
Columbia Accident Investigation Board (CAIB) recommendations and 
ensuring astronaut safety. HST will be operated until such a time it 
will no longer support science investigations (currently estimated to 
be 2007 or later).

Q9b.  Is a controlled de-orbit of the Hubble actually required or could 
the Hubble re-enter in an uncontrolled manner?

A9b. Uncontrolled reentry of the Telescope violates NASA's safety 
requirements.

Q9c.  What propulsion module options is NASA studying to de-orbit the 
Hubble?

A9c. NASA has reviewed most of the existing options and potential new 
designs for this mission element. It is our intent to proceed with a 
normal acquisition strategy, soliciting inputs from a wide range of 
industry and government organizations prior to deciding the best option 
to procure.

Q9d.  Could the Interim Control Module developed for the Space Station 
be modified for the Hubble de-orbit mission?

A9d. A preliminary review of the Interim Control Module, along with 
many other existing STS- and ELV-compatible propulsion stages, 
indicated that they all had excess capability for the mission 
requirements, and that the program phasing was not appropriate.

Q9e.  What assumption will be made in the Shuttle and Hubble program 
budgets with regard to future servicing missions and the de-orbiting 
mission?

A9e. On January 16, 2004, NASA's Administrator met with the Hubble 
Space Telescope Project team announcing the Agency's decision to not 
pursue any additional servicing of the Hubble Space Telescope. The 
decision to cancel SM 4 was very difficult, and made only after 
considerable deliberation and consultation with safety and Shuttle 
experts. The decision was not budget driven, was based on Shuttle 
safety considerations, and NASA's intent to fully comply with the 
Columbia Accident Investigation Board (CAIB) recommendations and 
ensuring astronaut safety. HST will be operated until such a time it 
will no longer support science investigations (currently estimated to 
be 2007 or later). Additional funding will be required for execution of 
the deorbit mission, and portions of that funding will be seen in the 
outyear proposals in the normal budget cycle. Early funding for the 
deorbit mission will come from existing budget elements.

Q9f.  How will a delay impact the budget runout for the Hubble program?

A9f. On January 16, 2004, NASA's Administrator met with the Hubble 
Space Telescope Project team announcing the Agency's decision to not 
pursue any additional servicing of the Hubble Space Telescope. The 
decision to cancel SM 4 was very difficult, and made only after 
considerable deliberation and consultation with safety and Shuttle 
experts. The decision was not budget driven, was based on Shuttle 
safety considerations, and NASA's intent to fully comply with the 
Columbia Accident Investigation Board (CAIB) recommendations and 
ensuring astronaut safety. HST will be operated until such a time it 
will no longer support science investigations (currently estimated to 
be 2007 or later).

Q10a.  The Columbia Accident Investigation Board's report compares 
NASA's safety operations with three specific examples of independent 
safety programs that strive with considerable success for accident-free 
performance: the U.S. Navy Submarine Flooding Prevention and Recovery 
(SUBSAFE), Naval Nuclear Propulsion (Naval Reactors) programs, and the 
Aerospace Corporation's Launch Verification Process.

A10a. 
General
    The key issue, regardless of organizational model or approach 
adopted, is one of establishing and maintaining safety-critical process 
discipline.
Naval Reactors (NR)
    The NR ``high reliability model'' achieves and maintains critical 
process discipline through a unique multi-faceted approach including: 
highly selective staffing, technically experienced management, 
extensive recurrent training, relatively flat organization, insistence 
on individual responsibility, long-term (``captive'') contractors, 
military discipline-oriented culture, long-term organizational 
stability, and comparative isolation from outside political/budget 
drivers.
    The Naval Reactors organization (NAVSEA 08) does not have a 
formally structured, independent safety program. Safety is implemented 
as a holistic, embedded, ingrained, ``mainstream'' activity. NAVSEA 08 
has neither a separate, distinct, in-line safety organization, nor an 
independent safety program. The NR ``high-reliability'' model provides 
an example where safety is achieved without an independent safety 
program.
    For more information on the NR safety approach see: NNBE Progress 
Report, Volume II, page 13, Section 3.1.2 Organizational Attributes, 
Embedded Safety Processes.
    (Reference: http://www.nasa.gov/pdf/
45608main<INF>-</INF>NNBE<INF>-</INF>Progress<INF>-</INF>Report2<INF>-</INF>
7-15-03.pdf)

SUBSAFE Program
    The SUBSAFE Program involves only the specific hazards of flooding 
prevention and recovery. This program is one of multiple programs 
(weapons safety, Naval Reactors, industrial operations) that constitute 
the overall submarine safety domain. A central thrust of the SUBSAFE 
Program is robust independent compliance verification. The SUBSAFE 
Program also includes requirements definition, configuration 
management, material control, and training.
    For more information on the SUBSAFE Program, see NNBE Interim 
Report, Volume I, Section 3.1, SUBSAFE Program.
    (Reference: http://www.nasa.gov/pdf/
45607main<INF>-</INF>NNBE<INF>-</INF>Interim<INF>-</INF>Report1<INF>-</INF>
12-20-02.pdf)

Aerospace Corporation
    The U.S. Air Force ``Aerospace Model'' provides another approach to 
high reliability program management. Over the long-term, this approach 
has worked relatively well as part of the USAF government/contractor 
assurance approach. Several failures in the late 1990's led to the CIA/
NRO/DOD ``Broad Area Review'' which identified numerous contractor and 
assurance agent failures that resulted in a failure of critical process 
discipline. The ``Aerospace Model'' is an approach that works, but 
should supplement, not take the place of, an active internal safety and 
quality program that establishes and maintains safety-critical process 
discipline and ultimately ensures safety and mission success.
    (Reference: Department of Defense. 2000. Broad Area Review: DOD 
Assessment of Space Launch Failures. General Lester Lyles, Vice Chief 
of Staff, USAF. Washington, D.C.)

Q10b.  Given the differences in size, complexity, and missions between 
these programs and the Shuttle program, are these organizational models 
appropriate for the Shuttle program?

A10b. The SUBSAFE and Naval Reactors programs were specifically 
selected as benchmarks for NASA Human Space Flight Programs because of 
the many similarities that exist among these three highly complex, 
tightly coupled, high reliability systems. Although none of these 
programs is a one-to-one analogy with the Shuttle program, each has 
characteristics worth emulating.

Q10c.  What issues with each of these models would need to be addressed 
prior to implementing organizational changes?

A10c. The ultimate objective is to ensure safety-critical process 
stability, capability, and control. There is no single organizational 
approach that will guarantee sustained critical process discipline. 
Rather, ``organization'' is only one of many factors that should be 
considered in formulating and implementing a revitalized approach to 
establishing critical process discipline. Establishment of specific 
safety policies, roles, responsibilities, functions, and authority must 
be appropriately coupled to the selected organizational structure.
    NASA is actively considering a wide range of ideas and elements 
from various high reliability safety programs (including NR, SUBSAFE, 
and Aerospace) for incorporation into an approach for a revitalized 
NASA safety culture and safety assurance.

Q11a.  NASA has created the NASA Engineering and Safety Center (NESC) 
at the Langley Research Center. Please provide the charter, 
organizational structure, and management plan for the NESC.

       What role will the NESC play in preparation for return-to-
flight?

A11a. The NESC is an independent organization, chartered in the wake of 
the Space Shuttle Columbia accident, which will conduct robust 
engineering testing and safety assessments of any engineering problem 
determined by the Agency as a concern, including activities associated 
with return-to-flight efforts.
    [See Appendix 2: Additional Material for the Record for the 
charter, organizational structure and management plan for the NESC.]

Q11b.  Will the NESC have any authority to direct or reject activities 
carried out by the Shuttle program?

A11b. The NESC will not have any specifically assigned authority to 
reject any decision made by the program but, based on independent 
technical analysis and assessment, will recommend to the Associate 
Administrator for Safety and Mission Assurance the rejection of any 
specific flight readiness decision by the Space Shuttle Program and 
Office of Space Flight. During a NESC inspection where a critical 
safety deficiency is identified, the NESC may issue a ``Stop Work'' 
notice on the delegated authority of the Associate Administrator for 
Safety and Mission Assurance until the program resolves the 
discrepancies to the satisfaction of the respective program board, with 
NESC member concurrence.

Q12a.  In response to Congressman Barton's question regarding how long 
it would take NASA under directions from Congress to ``build a new 
space plane or a crew capsule that was just man-specific, [and designed 
to carry] no cargo other than the necessary elements to protect the 
crew and sustain them as they go to the space station,'' you indicated 
that it would take five years.

       What is the basis for this estimate?

A12a. In July 2003 NASA announced plans to accelerate the OSP Program 
in order to achieve crew rescue as early as 2008, but no later than 
2010. To support an accelerated schedule, a number of essential near-
term and long-term milestones and management actions were identified. 
This schedule, while aggressive, appeared reasonable when compared to 
other similar programs (e.g., Gemini, Apollo, Shuttle, etc.) Important 
management actions taken included approving streamlined procurement 
processes, and initiating co-locations and reorganizations. Critical 
OSP programmatic milestones included completion of the government 
System Requirements Review, and baselining of the Level II requirements 
documents. On a monthly basis the progress was evaluated by the 
Administrator and his key management team.
    Consistent with the President's new vision for space exploration 
announced January 14, 2004, the OSP program will focus it's efforts on 
developing a new manned exploration vehicle, the Crew Exploration 
Vehicle (CEV), to travel beyond low earth orbit. NASA is also studying 
the possibility of transporting astronauts and scientists to the 
International Space Station on the CEV after the Shuttle is retired.

Q12b.  What type of vehicle does this estimate assume NASA will build 
(i.e., a winged vehicle or a capsule, a re-usable or expendable 
vehicle, etc.)?

A12b. NASA was cautious under the OSP program not to direct industry 
design solutions for meeting the safety, performance, cost and schedule 
requirements. Capsules, winged vehicles, and lifting bodies, and 
variations within each broad category, were considered candidates to 
meet the needs of the Program. Although expendable systems were not 
precluded from consideration, early data suggested that a relatively 
small fleet of re-usable vehicles minimizes life cycle costs.
    The design of the proposed Crew Exploration Vehicle has not been 
determined yet.

Q12c.  How much would it cost to develop such a vehicle within five 
years?

A12c. The initial cost estimates under the OSP Program for the Crew 
Rescue Vehicle (CRV) Initial Operating Capability (IOC) as early as FY 
2008 was $13.8 billion.
    It is important to note that this estimate included significantly 
more than the traditional development cost. In addition to development 
cost, the estimate included production, operations, facilities, launch 
services and full cost (civil service personnel, contractors services, 
other corporate and general and administrative costs).
    The President's 2005 budget will provide the necessary details to 
begin implementation of the Nation's long-term vision for space 
exploration, including the development of the CEV. As the OSP program 
transitions into the CEV program, program management will develop 
spending schedules and milestones.

Q12d.  What technologies, if any, would need to be developed before 
producing such a vehicle would be possible?

A12d. The President's national vision for space exploration announced 
on January 14, 2004 reflects the priority for human and robotic 
exploration of the solar systems and beyond. The FY 2005 budget 
supports a variety of key research and technology initiatives to enable 
the new vision. NASA will invest in new transportation systems, such as 
the Crew Exploration Vehicles (CEV), research on long-duration space 
flight's impact on human physiology, and develop/demonstrate nuclear 
power and advanced propulsion technologies and other breakthrough 
exploration systems.

Q13.  In response to Congressman Barton's question, Admiral Gehman 
stated that a crew transport vehicle would also require ``some kind of 
propulsion system'' and that existing systems, such as the Delta IV 
rocket, would be insufficient. In response, you said that using a 
``different launch system'' would make it impossible to meet the five-
year time frame. Do you believe that current propulsions systems could 
be used for a new crew vehicle? If so, why? What steps have been taken 
to man-rate existing propulsion systems? If a new propulsion system 
were needed, how many years would that add to your estimate of the time 
it would take to build a new space plane or crew capsule?

A13. Any new manned space exploration vehicle, including the proposed 
CEV, will have its entire system human rated, not any individual system 
element.

Q14.  In a recent briefing at the Johnson Space Center, Mr. Halsell 
indicated that no resources were dedicated to studying the capability 
to develop and implement a fully autonomous Shuttle. Yet, Administrator 
O'Keefe's testimony indicated that an autonomous Shuttle is one of the 
options that is being looked at. How many people has NASA assigned to 
study concepts for an autonomous Shuttle? What level of funding is 
provided for this effort? Who is assigned to lead up this effort? When 
will the study be completed? What limitations prevent the Shuttle from 
flying missions autonomously today?

A14. NASA tasked United Space Alliance, as an element of the Shuttle 
Service Life Extension Program (SLEP), to perform a study of the 
potential of developing an autonomous Space Shuttle capability once 
assembly of the International Space Station is complete. The Autonomous 
Operations Study statement of work is for $200,000 and was completed in 
November 2003. This study examined the engineering trades and rough-
order-of-magnitude associated costs that would need to be made in order 
to refit the avionics of one or more Shuttles to operate without pilot 
input, and to do so in such a way that would not increase risks to 
astronauts aboard the International Space Station or to the general 
public during launch, operations on orbit, or reentry.

Q15.  In response to Congressman Barton's question regarding ``what 
[budget] would it take and how long would it take if [Congress] also 
directed [NASA] to retrofit the three remaining orbiters for cargo 
only,'' you replied that you would call Mr. Barton that afternoon with 
an estimate of how long it would take. For the record, what were the 
answers to these questions?

A15. Safe and successful Space Station assembly requires the full 
availability of the Space Shuttle's capabilities including availability 
of the Shuttle crew to support assembly operations. The development and 
implementation of a significant modification to the Shuttle 
configuration/operation will require substantial time and resources to 
design, test, and certify. This includes significant time spent in off-
line reconfiguration of the vehicle(s). The current fleet of Shuttle 
Orbiters cannot support development of an autonomous capability until 
after ISS assembly is complete. In addition, autonomous docking of the 
Space Shuttle to the ISS is inherently risky and not a technology that 
is currently available. To that end, NASA has tasked United Space 
Alliance, as an element of the Shuttle Service Life Extension Program 
(SLEP), to perform an autonomous Shuttle study with an operational 
focus. Tasks to be performed in this study are to review, consolidate 
and summarize previous autonomous studies in the areas of:

        <bullet>  top-level requirements and types of missions/draft 
        reference missions (DRM's) that an Autonomous Shuttle will 
        perform;

        <bullet>  concept of operations;

        <bullet>  design concept/implementation trades;

        <bullet>  design concept/implementation analysis completed and 
        remaining, and;

        <bullet>  rough-order-of-magnitude cost estimate and 
        implementation schedules.

Q16a.  As a result of the Columbia Accident Investigation Board report, 
NASA has initiated a review of the waivers to the Space Station 
program's technical requirements similar to that being conducted for 
the Shuttle program. Who is assigned with leading the review of the 
Space Station program? How is the Space Station review being 
coordinated with the Space Shuttle review?

A16a. The ISS Program has a team in place that has begun a review of 
the waivers, deviations, and exceptions to ISS requirements 
documentation to assess the cumulative risk and potential impacts to 
the ISS. The team is being led by the ISS Configuration Management 
Office.
    The ISS Special Assistant for Return-to-Flight (RTF) is also the 
lead for JSC's Continuing Flight Team (CFT). This dual role provides a 
conduit for information to flow freely between the two teams.
    NASA will develop a plan to incorporate a periodic review of the 
waivers, deviations, and exceptions and the risk accepted by the 
program.
    In addition, the ISS Safety and Mission Assurance (S&MA) office 
integrates safety, reliability, and waiver aspects of the ISS Program, 
including International Partners, NASA centers, and other government 
organizations. It performs this function by direct staffing within the 
ISS Program office, Internal Technical Agreements (ITAs) with other 
centers, Letters of Delegation with other government organizations, and 
bilateral agreements with the International Partners.

Q16b.  Does NASA plan on setting up an independent Technical 
Engineering Authority for the Space Station program as well? Could this 
Independent Technical Engineering Authority be the same one as the one 
for the Space Shuttle?

A16b. The NASA Associate Administrator of the Office of Safety and 
Mission Assurance (OSMA) has the action to address the recommendation 
from the CAIB regarding the ITEA (R7.5-1). The OSMA is preparing 
alternative concepts for independent technical authority(ies) to cover 
all of NASA's Enterprises. Presently, the internal engineering and 
safety and mission assurance communities and NASA management are each 
reviewing these organizational concepts to assure a thoughtful and 
careful application of a solution in order to avoid any unintended 
consequences that may result from changes affecting organizations 
intended to have independence. NASA is looking at extending the concept 
beyond engineering, to all support organizations that deal with safety 
and reliability relevant standards. It is NASA's intent for the 
ultimately selected independent technical authority concept to apply to 
all NASA centers and programs, and not just the Space Flight centers 
and the Space Shuttle Program.

Q17.  In light of the Columbia Accident Investigation Board report, 
will NASA be reviewing the Space Flight Operations Contract or any 
other Shuttle contracts? If so, who is reviewing these contracts? What 
is the schedule for reviewing these contracts? Are any changes to any 
of these contracts necessary prior to returning to flight?

A17. Prior to the Space Shuttle Columbia accident, a NASA intra-agency 
team had begun a review of the Space Flight Operations Contract (SFOC) 
in preparation for the expiration and renegotiation of that contract in 
September 2004. That review is ongoing and will incorporate lessons 
learned from the accident and the recommendations of the CAIB. While 
other contracts besides SFOC that support the Space Shuttle program are 
also being considered during the SFOC renegotiation process, NASA does 
not expect any additional changes to existing contracts to be required 
prior to Return-to-Flight.

Q18.  Given the concerns with a lack of systems engineering that 
encompasses the entire Space Shuttle program, what is NASA doing to 
improve systems engineering, both within the government and within the 
contractor community? Is NASA considering tasking a contractor with the 
responsibility for systems engineering across the Space Shuttle 
program?

A18. The Space Shuttle Program (SSP) restructured its Shuttle 
Integration Office into a Space Shuttle Systems Engineering and 
Integration Office (SEIO). The SEIO manager now reports directly to the 
SSP manager, thereby placing the SEIO at a level in the Shuttle 
organization that establishes its authority and accountability for 
integration of all Space Shuttle elements. To sharpen the focus of the 
SEIO onto flight vehicle systems engineering and integration, the Cargo 
Integration function (and personnel) from the old Shuttle Integration 
Office are now relocated to the Mission Integration Office within SEIO. 
With this move, the number of civil service personnel performing 
analytical and element systems engineering and integration (SE&I) in 
the SEIO was increased from 16 to 36 by acquiring new personnel from 
the Johnson Space Center (JSC) Engineering and Mission Operations 
Directorates and from outside of NASA. SE&I functions at Marshall Space 
Flight Center (MSFC) and Kennedy Space Center (KSC) have been 
consolidated and placed under the direction of the Space Shuttle 
program SEIO at JSC. Critical technical panels, which are used for the 
day-to-day work of SE&I in the Space Shuttle program, are now co-
chaired by JSC and MSFC Engineering Directorate personnel to ensure 
that their activities encompass the entire span of the Shuttle program 
and that full advantage is taken of institutional strength at the two 
centers. A systems engineering and integration ``summit'' was held at 
JSC in October 2003 to discuss further strengthening SE&I activities 
throughout the Shuttle program; personnel form the Stafford-Covey Task 
Group attended this meeting and are actively following NASA's progress 
in this area. Finally, SEIO is responsible for managing the return-to-
flight (RTF) integrated schedule and writing the Systems Integration 
Plan for all changes associated with RTF. NASA has also assigned a 
member of the astronaut corps, Nancy Currie, to the Space Shuttle 
program, with responsibility for integrating the safety and mission 
assurance functions across all of the Space Shuttle projects.
    In terms of contractor responsibilities for SE&I, the United Space 
Alliance (USA) contract Statement of Work names USA as responsible for 
systems integration and significant systems engineering duties 
encompassing the Shuttle program. To further improve SE&I functions, 
USA recommended an increase of 90 people. NASA has processed a change 
request for this resource level and USA is in the process of 
implementing these personnel augmentations.
    In order to provide a continuing independent assessment of NASA's 
SE&I performance, the SEIO has initiated two processes. First, a 
``greybeard'' team consisting of personnel from inside and outside NASA 
with experience in systems engineering complex systems has been 
established, and the group will evaluate NASA's performance on a 
quarterly basis starting in December 2003. Second, NASA has contracted 
with The Aerospace Corporation to provide additional systems 
engineering skills and assessment. The Aerospace Corporation will 
assess SE&I processes in the Shuttle program using a modified Carnegie 
Mellon University Systems Engineering Institute Capability Maturity 
Model, which will allow NASA to compare its SE&I with the best in 
industry and the government. The Aerospace Corporation will also 
provide advice on strengthening SE&I in the Shuttle program and perform 
selected SE&I tasks to show how better practices can be adopted in the 
Shuttle program. This activity is already underway at JSC.
    NASA believes that these actions will deliver a world-class SE&I 
organization for the entire Shuttle program.

Q19.  What is the role of the Space Flight Leadership Council in making 
decisions regarding the implementation of the Columbia Accident 
Investigation Board recommendations? Who are the members of the Space 
Flight Leadership Council? What role do contractors play in supporting 
the Space Flight Leadership Council?

A19. The Space Flight Leadership Council (SFLC) is the primary senior-
level decision-making body for the Space Shuttle Program and is 
responsible for reviewing and implementing the CAIB recommendations. 
The SFLC is co-chaired by the Associate Administrator for Space Flight 
(Mr. William Readdy) and the Associate Deputy Administrator for 
Technical Programs (Dr. Michael Greenfield). Other members of the SFLC 
include the Associate Administrator for Safety and Mission Assurance 
(Mr. Bryan O'Conner), the Deputy Associate Administrator for the Space 
Shuttle and Space Station Programs (ex officio, Gen. Michael 
Kostelnik), and the Directors of the Johnson Space Center (Gen. 
Jefferson Howell), the Kennedy Space Center (Mr. James Kennedy), the 
Stennis Space Center (Adm. Donaldson), and the Marshall Space Flight 
Center (Mr. David King). During the regular meetings of the SFLC, Space 
Shuttle managers and engineers within both the government and the 
contracting community advise the Council on broad technical and 
organizational issues affecting the program.

Q20.  By law, NASA is permitted to appoint up to four NASA employees to 
the Aerospace Safety Advisory Panel (ASAP). However, you have said you 
want to ensure that ASAP is viewed as independent. Do you intend to 
appoint any NASA employees to ASAP?

A20. While the ASAP charter reflects the statutory option for NASA 
personnel as members, NASA has no plans to use such authority. All of 
the newly designated members of the Panel are noteworthy by their 
current and prior experience in benchmarking agency, company, and/or 
academic best practices in safety, and organization management other 
than NASA.

Questions submitted by Representative Chris Bell

Q1a.  Recent estimates from managers of the Orbital Space Plane program 
indicate that accelerating OSP's development may require as much as an 
additional $2 billion per year in NASA's budget. Even if the OSP 
eventually reduces the Shuttle flight rate to less than four per year, 
no significant savings will be generated because of the workforce 
required to support any Shuttle flight rate.

      What is your current position on how long the Shuttle will be 
needed to supply the Space Station?

A1a. The Space Shuttle is needed to complete the assembly of the Space 
Station, currently expected by 2010, depending on return-to-flight. On 
January 14, 2004, the President unveiled a new vision for space 
exploration. In this new vision, the Shuttle is planned to be retired 
in 2010, following the completion of its role in Space Station 
assembly. The Space Shuttle's unique capabilities (rendezvous, docking 
and EVA) are essential for the assembly of the remaining modules and 
components of the International Space Station. NASA will acquire cargo 
transportation as soon as practical and affordable to support missions 
to and from the International Space Station; and acquire crew 
transportation to and from the International Space Station, as 
required, after the Space Shuttle is retired from service.

Q1b.  What studies or programs are underway to provide a non-Shuttle 
method of transporting all cargo to and from the Station? Which NASA 
employee is directing these efforts?

A1b. The Aerospace Technology Enterprise (Code R) led the Alternate 
Access to Station (AAS) study with significant support from the Office 
of Space Flight (OSF). Four AAS contractors were given the complete 
U.S. portion of the ISS supply and return requirements (including mass, 
volume and science electrical power requirements) in August 2003. 
Results of the study are expected by early spring 2004. This effort is 
now under the direction of Retired RADM. Craig Steidle, the Associate 
Administrator for the new Exploration Systems office.

Q1c.  In what year, and with what capability, will the European 
Automated Transfer Vehicle provide cargo-carrying capacity to the Space 
Station?

A1c. The first flight of the Automated Transfer Vehicle (ATV) is 
currently baselined in CY 2004, but the launch date is under review. 
ATV is capable of transporting approximately 7600 kg of total cargo. 
ATV has no return cargo capability or electrical power available for 
science.

Q1d.  In what year will the OSP and non-Shuttle cargo transporter(s) 
render the Shuttle unnecessary for supporting the Space Station?

A1d. On January 14, 2004, the President unveiled a new vision for space 
exploration. In this new vision, the Shuttle is planned to be retired 
in 2010, following the completion of its role in Space Station 
assembly. The Space Shuttle's unique capabilities (rendezvous, docking 
and EVA) are essential for the assembly of the remaining modules and 
components of the International Space Station. NASA will acquire cargo 
transportation as soon as practical and affordable to support missions 
to and from the International Space Station; and acquire crew 
transportation to and from the International Space Station, as 
required, after the Space Shuttle is retired from service.

Questions submitted by Representative Rob Bishop

Q1.  What do you believe is the inherent value of human versus robotic 
space exploration?

A1. NASA's exploration strategy attempts to optimize the partnership 
between humans and robots. Both human and robotic exploration missions 
have yielded extraordinary results. Humans and machines are always 
partnered together in space exploration, sometimes remotely, as when 
scientists at a University receive data from a probe orbiting Saturn, 
and sometimes locally, as when mission specialists go to orbit in the 
Space Shuttle.
    Robotic space probes can withstand environments that exceed human 
biological tolerances and robots can repeat patterns with high 
precision. Robotic probes have traversed our solar system and traveled 
beyond the heliopause, becoming human emissaries into deep space. Human 
explorers bring on-site intelligence and creativity to the mission that 
cannot be duplicated by machines and have demonstrated the ability for 
increased science return over purely robotic space missions. A human 
being's cognitive and adaptive reasoning, rapid learning ability, and 
extraordinary dexterity are poorly mimicked by current machine 
technologies and the presence of humans in space is also an important 
source of inspiration to the people of Earth.
    When humans are present locally, they are highly effective 
participants in space exploration. They significantly improve the 
likelihood of success while accelerating the pace and increasing the 
return and benefits from investments in space activities. The human 
explorers provide enabling capabilities:
    Ambitious future missions will take place in never-before-
encountered, highly unstructured environments and in the inevitable 
``20-20 hindsight'' of new scientific questions that emerge from the 
results of ongoing investigations. Humans enable serendipity, the 
immediate exploitation of emerging previously unexpected opportunities 
for discovery.
    The human brain synthesizes an enormous set of information 
continuously and almost instantaneously in ways that no machine will be 
able to match for decades to come: integrating perception, education, 
training, and experience. Humans are able to rapidly reach sound 
decisions based on very little information. Exploration beyond low 
Earth orbit will involve time delays and reductions in bandwidth with 
increasing distance, even as communications technologies continue to 
advance dramatically. Beyond the Earth's neighborhood, these will 
amount to orders of magnitude reductions in the data and delays in time 
of response for remote human operators, compared to astronauts locally 
present. People who are present at the site of complex operations can 
decide and act much more quickly than will ever possible for remote 
observers.
    Many projected future systems are sufficiently complex and the 
environments in which they will operate sufficiently distinct from 
those here on Earth that these systems cannot be integrated and/or 
adequately tested before launch. Design or development flaws will 
emerge only in space and system failures will occur. Humans are able to 
deal more effectively with unanticipated challenges in complex 
activities.
    There are extremely important aspects to human exploration other 
than what specific task needs to be accomplished. Space exploration has 
inspired an entire generation of Americans to pursue careers in 
mathematics, science, and engineering. Moreover, U.S. leadership in 
human space flight serves as a highly visible example of how we can 
apply advanced technology toward peaceful ends and provides a uniquely 
positive legacy to future generations of what America today embodies, 
strives for, and stands for. Advances made to establish sustained human 
exploration beyond low-Earth orbit will enhance U.S. scientific and 
technological leadership and provide a vehicle for expanding peaceful 
cooperation among nations.

Q2.  You have stated that NASA's mission is not ``destination driven,'' 
but focused on developing the enabling technologies for human space 
exploration. Please explain why NASA has decided not to pursue a 
mission which is ``destination driven?''

A2. On January 14th, the President announced his vision for U.S. Space 
Exploration. The vision forms the basis of the new U.S. space 
exploration policy. This policy is the product of months of extensive 
and careful deliberations. The importance of these deliberations 
increased with the findings of the Columbia Accident Investigation 
Board, which emphasized the importance of setting clear, long-term 
goals for the Nation's human space flight program. Inputs from Members 
of this committee and other Members of Congress informed the 
Administration's deliberations. Many others contributed their ideas for 
the future of the space program. These deliberations also formed the 
basis for formulating the President's FY 2005 Budget request for NASA, 
which will be released on February 2nd. A commission will advise on 
specific issues for implementation of the policy's goals within four 
months of its first meeting.
    The fundamental goal of the new U.S. space exploration policy is to 
advance U.S. scientific, security and economic interests through a 
robust space exploration program. In support of this goal, NASA will 
implement a sustained and affordable human and robotic program to 
explore the solar system and beyond; to extend human presence across 
the solar system, starting with a human return to the Moon by the year 
2020, in preparation for human exploration of Mars and other 
destinations; to develop the innovative technologies, knowledge, and 
infrastructures both to explore and to support decisions about the 
destinations for human exploration; and to promote international and 
commercial participation in exploration to further U.S. scientific, 
security and economic interests.

Q3.  Assuming the Shuttle returns to flight next year, what is the role 
of the Space Shuttle in completing the International Space Station? How 
many Shuttle flights are required to get to U.S. Core Complete and how 
many to get to lnternationa1 Core Complete? How long will it take to 
reach these goals, once flights are resumed? How many of these Shuttle 
flights are logistics re-supply flights? Can these logistics flights be 
accomplished with any other launch vehicle?

A3. The Space Shuttle is necessary for ISS assembly due to its crew and 
cargo carrying capacity. ISS elements have been designed to take 
advantage of the Space Shuttle's large cargo capability, both in terms 
of weight and volume. In addition, visiting Space Shuttle crews have 
been trained, and have the primary responsibility for, on-orbit 
assembly and checkout of the elements they deliver.
    Shuttle-based research and logistics delivery is primarily 
accomplished using the Multi-Purpose Logistics Module (MPLM) or the 
commercial SPACEHAB modules. The delivery modules are Shuttle-unique 
cargo delivery systems that provide ground-based rack integration and 
testing prior to launch, allowing for efficient and relatively simple 
on-orbit rotation of large racks. The Russian Progress Vehicle, 
European Automated Transfer Vehicle, and the Japanese HII Transfer 
Vehicle will deliver pressurized and/or unpressurized cargo that does 
not require the environmental control available in the Space Shuttle or 
the MPLM/SPACEHAB delivery modules.
    The current plan achieves U.S. core complete approximately 17 
months after return-to-flight and International Partner elements fully 
accommodated approximately five years after return-to-flight. 
Additional flights may be necessary and could extend the timeline for 
core complete. NASA and its International Partners are evaluating the 
specific number of flights and respective manifests necessary for 
completing ISS assembly. The first return-to-flight missions, STS-114 
(LF-1) and the newly added STS-121 (ULF-1.1) will carry out key 
activities related to Shuttle return-to-flight, as well as support ISS 
logistics and utilization.

Q4.  After the completion of assembly of the International Space 
Station, what is the role of the Space Shuttle in supporting the Space 
Station or other missions? Could the ``Shuttle-C'' concept of using the 
Shuttle stack (External Tank and Solid Rocket Boosters) along with a 
cargo carrier instead of an Orbiter provide a capability to transport 
cargo to the International Space Station? Has NASA studied the Shuttle-
C concept for use with the Space Station? How much would it cost and 
how long would it take to develop the Shuttle-C concept? Could a 
Shuttle-C cargo container be made to return to Earth to meet NASA's 
down-mass requirements? If NASA has not studied the Shuttle-C concept 
to support Space Station, please explain why?

A4. The Space Shuttle is needed to complete the assembly of the Space 
Station, currently expected by 2010, depending on Return-to-Flight. On 
January 14, 2004, the President unveiled a new vision for space 
exploration. In this new vision, the Shuttle is planned to be retired 
in 2010, following the completion of its role in Space Station 
assembly. The Space Shuttle's unique capabilities (rendezvous, docking 
and EVA) are essential for the assembly of the remaining modules and 
components of the International Space Station. NASA will acquire cargo 
transportation as soon as practical and affordable to support missions 
to and from the International Space Station; and acquire crew 
transportation to and from the International Space Station, as 
required, after the Space Shuttle is retired from service.
    Following the loss of Columbia, NASA has begun reviewing its space 
transportation requirements in support of ISS, as well as the R&D 
needed to support future space exploration initiatives. This review has 
included the feasibility of adapting as much existing Space Shuttle 
infrastructure and engineering as possible in order to create heavier 
lift Shuttle derivatives like Shuttle C. While Shuttle C could 
significantly increase upmass capacity to the orbit of the Space 
Station to roughly 150,000 pounds or more (as compared to the current 
fleet's capacity of about 37,500 pounds to ISS), current heavy-lift 
Shuttle derivatives are not equipped with wings, landing gear, and 
other hardware necessary for reentry and, thus, could not supplant the 
Space Shuttle downmass capability for ISS science utilization or crew 
transfer.

Q5.  Once the Columbia Accident Investigation Board recommendations on 
the Space Shuttle have been implemented, how long does NASA plan to 
operate the Shuttle?

A5. On January 14, 2004, the President unveiled a new vision for space 
exploration. In this new vision, the Shuttle is planned to be retired 
in 2010, following the completion of its role in Space Station 
assembly. The Space Shuttle's unique capabilities (rendezvous, docking 
and EVA) are essential for the assembly of the remaining modules and 
components of the International Space Station. NASA will acquire cargo 
transportation as soon as practical and affordable to support missions 
to and from the International Space Station; and acquire crew 
transportation to and from the International Space Station, as 
required, after the Space Shuttle is retired from service.

Questions submitted by Representative Jerry F. Costello

Q1a.  The CAIB report points to schedule pressure as contributing to 
the accident and recommends that future goals be realistically tied to 
time and resources that are available to the agency. Specifically, the 
management goal of ``core complete'' by February 19, 2004, was having a 
negative impact on the line Shuttle workforce and changed the attitudes 
of managers in the program so that flight problems came to be viewed as 
threats to the schedule rather than threats to the safety of the 
astronauts. In Senate testimony you indicated that because flights had 
``slipped,'' workers and managers should have gotten the message that 
there was flexibility in the ``core complete'' goal. However, although 
the program repeatedly missing Interim checkpoints, the final goal date 
was never shifted.

      How often were you briefed on progress towards ``core complete'' 
and who briefed you?

A1a. The Administrator conducted monthly video teleconferences prior to 
the Columbia accident. These conferences included executive management 
from NASA headquarters and the field, with briefings provided by the 
International Space Station (ISS) and Space Shuttle Program (SSP) 
Managers and various project managers on specific subject areas as the 
need was identified. The principal purpose of the conferences was to 
monitor ISS program progress toward compliance with the recommendations 
of the IMCE (ISS Management and Cost Evaluation) Task Force. Progress 
toward the ``core complete'' milestone was provided at those meetings.

Q1b.  Did anyone on your staff tell you that schedule pressure to meet 
the ``core complete'' goal was leading to reductions in inspection 
requirements and testing, an increase in tasks having to be done in 
parallel, deferrals of flight controller recertifications, the need for 
a third shift, overtime, and holiday work, and other examples of 
excessive stress on the Shuttle program.

A1b. No.

Q1c.  Did any of your managers warn you that such actions and workloads 
could have a detrimental impact on Shuttle safety?

A1c. No.

Q1d.  Did anyone on your staff or among the contractors tell you that 
by December 2002 there were no more days of slippage left on the ``core 
complete'' schedule and that contractors were actually projecting a 
shuttle launch for ``core complete'' in the range of 45 days after 
February 19, 2004? When did you learn this?

A1d. The ISS and SSP Programs were in the process of evaluating 
scheduled milestone targets at the time of the Columbia accident. 
Critical path analyses were underway which looked at both ISS launch 
package progress and SSP orbiter availability. As these analyses were 
being refined, SSP orbiter processing began to emerge as the critical 
path element. When schedule margin degrades, there are multiple options 
available to management, such as: (a) shifting production priorities; 
(b) increasing workforce authorizations; or, (c) adjusting schedule 
milestone targets to reinstate acceptable margins. Such approaches must 
be evaluated in the total context of cost, schedule and technical 
impact. The ISS Program was involved in these trades at the time of the 
Columbia accident and had not yet reached a conclusion as to the most 
effective solution for recommendation to the Administrator.

Q1e.  What discussions did you have regarding the adoption of a more 
realistic date for ``core complete'' that would reflect the realities 
of Shuttle scheduling and provide more margin for safety of workers and 
managers? When and with whom did these discussions occur?

A1e. There were no specific discussions with the Administrator on this 
subject. The schedule challenges associated with ISS assembly are 
broadly recognized across the NASA and contractor workforce at all 
management levels. The ISS Program was working closely with the SSP 
Program to define and evaluate all options in a systematic manner. All 
SSP constraints were related to orbiter processing requirements that 
vary across the fleet and at no time were safety implications 
identified that would have affected the evaluations. Had the 
evaluations proceeded on a normal course without accident occurrence, 
the results would have culminated in a thoroughly substantiated 
recommendation to the Administrator when the need for final decision 
approached. The Columbia accident occurred a year in advance of the 
target date for Node 2 launch. Analyses and studies were underway at 
that time to develop the necessary data and information for 
Administrator review.

Q1f.  How will you guard against an overly aggressive schedule on 
Shuttle return-to-flight? On OSP development?

A1f. The Space Shuttle program schedule, including the date for Return-
to-Flight, will be milestone driven, not schedule driven. The Space 
Flight Leadership Council (SFLC)--co-chaired by the Associate 
Administrator for Space Flight and the Associate Deputy Administrator 
for Technical Programs--is the primary senior-level decision-making 
body responsible for Return-to-Flight issues in the Space Shuttle 
program. The SFLC holds regular meetings with Space Shuttle Program 
managers and engineers to monitor NASA's Return-to-Flight activities 
and to make decisions regarding cost and technical impacts on the 
launch schedule. During the most recent meeting of the SFLC on October 
3, 2003, the Council decided to push back the Return-to-Flight launch 
opportunity from no earlier then March-April 2004, to no earlier than 
September-October 2004. Key technical factors driving the revised 
launch schedule include the need to perform additional technical 
analysis on debris transport, reinforced carbon-carbon impact 
tolerance, integration of boom and sensors to the Space Shuttle robotic 
arm for on-orbit inspection and repair of the thermal protection 
system, and External Tank foam loss. Should these or other technical 
issues compel the SFLC to further reconsider the Return-to-Flight date 
in order to ensure the safety of the crew, the vehicle, and the general 
public, and then the Council will do so. NASA will also seek the 
participation of independent experts from outside the Agency, including 
the Stafford-Covey Task Group, Aerospace Safety Advisory Panel, the 
NASA Advisory Council, the NASA Office of the Inspector General, and 
others.
    On January 14, 2004, following months of interagency deliberations, 
the President unveiled a new vision for space exploration. Consistent 
with the President's new vision for space exploration announced January 
14, 2004, the OSP program will focus it's efforts on developing a new 
manned exploration vehicle, the Crew Exploration Vehicle (CEV), to 
travel beyond low earth orbit. As the OSP program transitions to the 
CEV program, program management will develop spending schedules and 
milestones.

Questions submitted by Representative Bart Gordon

Q1a.  The CAIB uncovered a number of serious problems with the way in 
which potential safety problems were identified and treated in the 
Space Shuttle program.

      What specific steps are you taking to ensure that there are no 
``accidents waiting to happen'' in the International Space Station 
program?

A1a. The ISS Program has been critically re-examining systems and 
processes since February 1, and in light of the CAIB report. In 
addition, The ISS Continuing Flight Team (CFT) was chartered to review 
all CAIB results for applicability to the ISS Program. This team will 
ensure that all necessary steps are taken to apply the lessons learned 
from the Columbia accident to the ongoing operation of the ISS. 
Representatives from all NASA field centers supporting human space 
flight, as well the Astronaut and Safety and Mission Assurance offices, 
are members of the team. NASA will continue to work closely with its 
International Partners and keep the lines of communication open as NASA 
implements process improvements and enhancements as a result of lessons 
learned from Columbia. The first edition of NASA's Implementation Plan 
for International Space Station (ISS) Continuing Flight has been 
provided to Congress.

Q1b.  What is your timetable for completing each of those steps?

A1b. The ISS CFT published the first edition of its report on October 
28, 2003. Similar to the Space Shuttle Return-to-Flight Implementation 
Plan, the CFT continuous improvement activity will provide updates on 
the progress of the ISS Program in subsequent revisions.

Q2a.  NASA's Return-to-Flight plan states that ``all waivers, 
deviations, and exceptions to Space Shuttle Program (SSP) requirements 
documentation will be reviewed for validity and acceptability before 
Return-to-Flight.''

      Who specifically will carry out the review? Will it be an 
independent review by individuals outside of the Shuttle program? If 
not, why not?

A2a. Each project and element (Space Shuttle Main Engine, Solid Rocket 
Booster, Orbiter, etc.) will conduct an in-depth review of each waiver, 
deviation and exception against his or her assigned systems, hardware 
and software. This review will validate the basis for each waiver, 
deviation and exception. All elements have developed plans whereby the 
engineers within that element--both civil service and contractor, along 
with Safety and Mission Assurance personnel, and Systems Engineering 
and Integration personnel--provide a first level technical review of 
each waiver, deviation, or exception. This review ensures that working-
level individuals with appropriate expertise for all Shuttle elements 
are involved in decisions regarding the technical rationale for not 
meeting the requirement, and that the process is thorough, proper, and, 
most importantly, provides the best assessment of the potential risks 
that result from the waiver.
    After this initial activity, the project manager and chief engineer 
must review that waiver package for acceptance. Then, the waiver is 
presented to Space Shuttle Program management (Deputy Program Manager) 
at the Daily Program Requirements Control Board where all the elements 
of the program, including Safety and Mission Assurance personnel, and 
the four Human Space Flight Center engineering organizations are 
represented. These reviews are quite thorough and lengthy. Since this 
effort started in May, approximately 12 percent of the waivers/
deviations/exceptions in the program have been reviewed. The current 
schedule is that this work will be completed next spring, well before 
the final Return-to-Flight reviews.
    While the Stafford-Covey Task Group is not specifically charged 
with a detailed review of all waivers, deviations, and exceptions in 
the Space Shuttle program, this independent Group (co-chaired by former 
astronauts Thomas Stafford and Richard Covey) will report on the 
progress of NASA's response to the CAIB report directly to the 
Administrator and may also make other observations on safety or 
operational readiness--including waivers, deviations, and exceptions--
that it believes appropriate. Additional oversight is provided by the 
multiple NASA Centers, contractors, and other organizations within NASA 
that are involved in the process, many of which are independent of, and 
not beholden to, the Space Shuttle program. A full and complete review 
of any concerns with the technical rationale for each waiver is 
conducted and all dissenting opinions or questions are fully heard and 
answered with technical data.
    At this time there is no specific independent technical authority 
to oversee these reviews. That reorganization topic is under review at 
NASA Headquarters. The data packages are being retained and at the 
point that an independent technical authority is established, they will 
be asked to review the decisions that are being made prior to its 
establishment.

Q2b.  NASA's return-to-flight plan states that ``all waivers, 
deviations, and exceptions to Space Shuttle Program (SSP) requirements 
documentation will be reviewed for validity and acceptability before 
return-to-flight.''

      Will there be a similar review of International Space Station 
(ISS) program waivers, deviations, and exceptions to ISS requirements 
documentation? If so, when, and who will carry out the review? If not, 
why not?

A2b. The ISS Program has a team already in place reviewing the waivers, 
deviations, and exceptions to ISS requirements documentation to assess 
the cumulative risk and potential impacts to the ISS.
    NASA will develop a plan to incorporate a periodic review of the 
waivers, deviations, and exceptions and the risk accepted by the 
program. An independent review and assessment will also be an integral 
part of this process.

Questions submitted by Representative Ralph M. Hall

 Regarding the interagency space policy review that was discussed at 
the hearing,

Q1.  Who is heading the review?

Q2.  Please list the agencies participating in the review, and identify 
which individuals are representing each agency.

Q3.  What are the terms of reference and the schedule for the review, 
including the dates of meetings that have already taken place or are 
scheduled?

Q4.  How do you intend to solicit Congressional input to the review?

A1-4. Since this activity was directed by components within the 
Executive Office of the President, any requests for additional 
information about the review should be directed to the White House.

Q5.  An October 6, 2003 story in Space News indicates that you believe 
``that the Space Station can be operated and produce sufficient science 
with far fewer than the six or seven astronauts initially planned.'' On 
other occasions, including in meetings with me, you have indicated the 
Station crew will grow beyond the current ``core complete'' complement 
of three astronauts. I am left wondering about the possible range of 
numbers that lie between ``far fewer than six'' but ``more than 
three.''

     Please state clearly your position on the number of astronauts 
that will be required to support the Space Station in configurations 
beyond ``core complete.''

A5. The Administrator's remarks as reported in Space News were taken 
out of context. He was highlighting the fact that through new 
efficiencies identified by the Program, the two-person crew on-orbit 
has been able to perform both operations and utilization activities at 
a level not previously envisaged. Nevertheless, the implication of his 
remarks that science requirements will drive the ultimate size of the 
crew on Station is consistent with what the Administrator has said 
previously. In December 2002, the ISS Partnership endorsed an ISS 
Configuration Option Path based on science priorities, rather than an 
arbitrary number of crew. This Option Path will ultimately increase the 
size of the ISS crew beyond three to meet the ISS utilization and 
resource requirements that had been re-validated in 2002. As the 
International Partners agreed in their December 2002 Joint Statement, 
the Program should undertake a ``phased growth of ISS capabilities 
(with a) significantly increased quantity of crew.''
    Upon return-to-flight of the Space Shuttle, the ISS Program plans 
to continue implementation of its original assembly sequence, which 
includes U.S. Core Complete with the launch of Node 2; this will allow 
accommodation of the remaining International Partner elements. 
Capability enhancement options to accommodate a larger crew are still 
under consideration. The Partnership is currently revising the ISS 
Program Action Plan for Selection of an ISS Configuration. This updated 
Program Action Plan will enable the Partnership to make a final 
determination of the Station's configuration by December 2004.

Questions submitted by Representative Nick Lampson

Q1.  The CAIB report leaves the clear implication that the balance 
between NASA and contractors' positions, responsibility, and expertise 
had shifted too far in the direction of the contractors.

Q1a.  How many people will you be hiring within NASA to enable you to 
meet CAIB's return-to-flight recommendations?

A1a. We are still reviewing the civil servant skill mix that will be 
required to implement the CAIB Return-to-Flight recommendations, and we 
will keep the Congress informed, as we better understand the necessary 
augmentations to our civil service skill mix.

Q1b.  Once the Shuttle has been returned to flight, how many people 
will NASA need to hire in order to assure a safe Shuttle program?

A1b. After Return-to-Flight, we expect to continue supporting a larger 
civil servant workforce to provide additional government oversight into 
the Space Shuttle program. These new civil service positions are not 
expected to come at the expense of the existing contractor workforce.

Q1c.  How much will that augmented workforce cost on an annual basis?

A1c. We will have a clearer picture of the budget impact of these 
personnel requirements once we fully understand the necessary 
augmentations to our civil service skill mix.

Q2.  Please clarify for the record the activities that have been 
underway in NASA over the past 3 years to ``contract out'' or 
``competitively realign'' parts of the in-house Shuttle workforce. 
Specifically:

Q2a.  We understand the only Shuttle positions to be contracted out 
during this period were 42 FTE's associated with the Launch Processing 
System (LPS) at Kennedy Space Center. Is that number correct?

A2a. Forty-two FTE's associated with the LPS were identified for 
competitive realignment in NASA's Competitive Sourcing Plan. Upon 
further review of the Plan, it was noted that these individuals were 
already contractor employees, not civil servants. Therefore, no in-
house Shuttle workforce activities were further contracted out in this 
case.

Q2b.  What plans are in place or were in place at the time of the 
Columbia accident to contract out or competitively realign Shuttle 
positions beyond the 42 in the LPS program? How many positions were 
involved?

A2b. At the time of the Columbia accident, NASA was still developing 
its competitive sourcing strategy for the Space Shuttle Program (SSP). 
The Columbia Accident Investigation Board (CAIB), in its final report, 
made a series of findings and recommendations regarding the 
organization and operation of the Shuttle Program, which will influence 
NASA's actions in this regard. As a matter of interest, the independent 
Shuttle competitive sourcing study led by RAND in 2002 determined that, 
when measured by the expenditure of program funding, the Shuttle 
Program is currently 92 percent outsourced.

Q2c.  At the time of the Columbia accident, how was NASA complying with 
annual performance goal #2H21, as stated in NASA budget submissions 
from fiscal years 2002-2004, to ``continue implementation of planned 
and new Shuttle privatization efforts and further efforts to safely and 
effectively transfer civil service positions and responsibilities to 
private industry''?

A2c. NASA was in the process of developing a competitive sourcing 
strategy for the Shuttle Program that was intended to be implemented as 
a follow-on to the Space Flight Operations Contract (SFOC). To assist 
in this effort, NASA was assimilating the findings and recommendations 
of a number of studies on this subject to determine an appropriate 
course of action.

Q2d.  At the time of the Columbia accident, how was NASA complying with 
OMB's evaluation of the Shuttle program, released with the fiscal year 
2004 budget, which stated ``The Administration will incorporate the 
Space Shuttle in the President's Competitive Sourcing Initiative and 
make adjustments in the Shuttle infrastructure to help mitigate cost 
growth in Shuttle operations''?

A2d. NASA was in the process of developing a competitive sourcing 
strategy for the Shuttle Program that was intended to be implemented as 
a follow-on to the Space Flight Operations Contract (SFOC). To assist 
in this effort, NASA was assimilating the findings and recommendations 
of a number of studies on this subject to determine an appropriate 
course of action.

Q2e.  Is it true that at the time of the Columbia accident, Shuttle 
Program Manager Ron Dittemore had set a goal of out-sourcing half of 
the Shuttle workforce?

A2e. In a concept of privatization of the Space Shuttle Program (SSP), 
which Mr. Dittemore authored in 2001, he observed that since 1993 the 
NASA SSP civil service workforce had been reduced by nearly one-half as 
NASA pursued privatization of the SSP through contract consolidation. 
He further observed that, if privatization were to proceed, this trend 
would continue. While there was considerable discussion and debate on 
the subject of further privatization efforts ongoing at the time of the 
Columbia accident, no firm competitive sourcing strategy (and no firm 
goals for further outsourcing) had yet been established by the SSP.

Q2f.  Have NASA's plans far contracting out or competitively realigning 
parts of the Shuttle program changed since February 1, 2003?

A2f. As noted in the response to question 1b above, the final report of 
the CAIB included several findings and recommendations regarding the 
organization and operation of the Shuttle Program. While no final 
determination has been made, implementing the CAIB recommendations will 
influence and possibly alter NASA's competitive sourcing strategy from 
the direction it was headed prior to the Columbia accident.

Q3.  The CAIB report also leaves the clear implication that the Shuttle 
program is under-funded. Many past members of the Aerospace Safety 
Advisory Committee have reached the same conclusion.

Q3a.  Once the Shuttle resumes flight, will additional resources (i.e., 
above the amounts appropriated in recent years) be required to operate 
it safely?

Q3b.  If so, how much? If not, why not?

A3a,b. NASA accepts the conclusion of the CAIB report that the Space 
Shuttle is capable of returning to flight safely. There will be 
additional costs to the Space Shuttle operations budget to implement 
some of the CAIB recommendations. Once the Shuttle returns to flight, 
the resources required for both Shuttle operations and long-term, 
strategic investments will be vetted through the normal annual budget 
process.

Questions submitted by Representative Zoe Lofgren

Q1a.  The Space Shuttle Independent Assessment Team (SIAT) report was 
issued in early 2000.

      When did you first become aware of the SIAT report at either OMB 
or NASA?

A1a. After the Columbia Accident, officials in the Office of Space 
Flight briefed me on a number of Space Shuttle studies, including the 
SIAT report.

Q1b.  Did you ever ask the SIAT chairman, Dr. Henry McDonald, to brief 
you on the findings and recommendations or the report? If so, when?

A1b. No.

Q1c.  Did you take any specific actions in response to the SIAT report? 
If so, what were they, and when?

A1c. Most of the SIAT recommendations were aimed at bringing best 
practices from other high-risk organizations into the Space Shuttle 
Program, (SSP). Prior to my arrival at NASA, the Space Shuttle program 
had begun a series of regular senior management meetings that 
specifically addressed the issues of complacency and the inherent risk 
to the SSP relative to process and procedure change. After I became 
NASA Administrator in 2002, this review process was expanded to include 
the best practices from the Navy submarine safety programs and working 
to incorporate this experience into all of NASA's programs, including 
the SSP.
    Since the Columbia Accident and the subsequent Columbia Accident 
Board recommendations, additional measures are being taken to improve 
communication and streamline the reporting process. Initial management 
changes have been put into place, such as the establishment of a new 
independent NASA Engineering and Safety Center, initiation of Mission 
Management Team training and simulations, and a reorganization of the 
Space Shuttle program to include stronger systems integration. The 
Agency will take additional actions in the future as we work with 
representatives from industry, academia, and other government 
organizations to determine how best to institutionalize ``best 
practices'' into the NASA culture.

Q2.  ``Nearly two weeks after the Columbia accident you (O'Keefe) 
testified to a joint House-Senate hearing that the foam impact on 
Columbia was like a foam beer cooler lid falling off the back of a 
pick-up truck at 50, miles per hour. The size weight (about two lbs) 
and velocity (about 500 miles per hour) of the destructive foam chunk 
were known by scores of NASA contractor employees within two days after 
the Columbia launch, as was the fact that the impact energy was orders 
of magnitude grater than that of a foam beer cooler lid traveling at 50 
miles per hour.''

Q2a.  Why nearly a month (actually two weeks) after the size and speed 
of the foam were widely known within the agency, did you so grossly 
misstate the potential foam danger in public and Congressional 
appearances?

Q2b.  Who advised you on this matter?

Q2c.  Did any agency employee ever tell you that the analogy would be 
misleading and not meaningful?

A2a,b,c. In the wake of the Columbia disaster, all of us were searching 
for the reasons as to the cause of the tragedy. With intense pressure 
from the press and public to understand what happened, there was much 
speculation and many people, myself included, tried to put some form to 
possible explanations. I do not fault any of my colleagues for 
searching and trying to provide me with scenarios of the possible and 
probable causes, especially not during the immediate weeks following 
the Columbia disaster. At that time, there were a variety of views 
among the experts about foam as a possible cause of the Columbia 
accident. NASA gave the CAIB the authority and the resources necessary 
to conduct a full, complete, and independent investigation into the 
ultimate causes behind the accident. The CAIB did so, and its final 
report provides NASA with a clear blueprint for the safe return-to-
flight of the Space Shuttle fleet.

Question submitted by Representative Dana Rohrabacher

Q1.  How quickly could NASA develop and demonstrate the capability to 
transport only cargo to the Space Station without using the Space 
Shuttle? What issues would need to be addressed to develop this 
capability? Does NASA intend to develop such a capability? If not, 
please explain. If a decision on whether or not to develop such a 
capability has not been made, what are the criteria for making this 
decision?

A1. On January 14, 2004, the President unveiled a new vision for space 
exploration. In this new vision, the Shuttle is planned to be retired 
in 2010, following the completion of its role in Space Station 
assembly. The Space Shuttle's unique capabilities (rendezvous, docking 
and EVA) are essential for the assembly of the remaining modules and 
components of the International Space Station. NASA will acquire cargo 
transportation as soon as practical and affordable to support missions 
to and from the International Space Station; and acquire crew 
transportation to and from the International Space Station, as 
required, after the Space Shuttle is retired from service.

                   Answers to Post-Hearing Questions

Responses by Admiral Harold Gehman (retired), Chairman, Columbia 
        Accident Investigation Board

Questions submitted by Chairman Sherwood Boehlert

Q1.  What recommendations do you have to strengthen the effectiveness 
of the Aerospace Safety Advisory Panel (ASAP)? Are changes to the 
statute establishing the ASAP necessary? If so, please explain.

A1. The Board did not investigate the ASAP. However, it was clear that 
the yearly report of the ASAP was not being utilized by NASA in any 
great detail.

Q2.  The Columbia Accident Investigation Board recommended that NASA 
upgrade the ascent tracking cameras and that the operational status of 
these cameras should be a Launch Commit Criteria. NASA has announced 
the intent to launch during daylight hours. Was it the Board's intent 
to limit the Shuttle to daylight launches? What issues would need to be 
addressed prior to attempting a night launch?

A2. The Board never directed NASA that the only launches could be 
accomplished during the daylight hours. We did make solid 
recommendations on making sure that proper photography was being 
recorded on launches to monitor debris hits on the Orbiter. The Board 
simply stated the requirement to have three useful views of the orbiter 
during every ascent. The Board did not address how to obtain these 
three useful views during a night launch and does not have the 
technical expertise in this area to make additional observations about 
the issues of imaging during a night launch.

Q3.  In your testimony, you stated, ``that when you build a crew 
transport capsule, that you are also going to have to get some kind of 
propulsion system to get it up there. Just sticking this thing on top 
of a Delta IV is not going to do it.'' On what basis is this conclusion 
based? Would a Delta IV or other similar vehicle satisfy the 
requirements for safety, if a crew escape system were made part of the 
crew transport capability? Would you have separate, more lenient, 
safety requirements for loss of mission than for loss of crew?

A3. The Board recommended that the Shuttle be replaced ASAP as the main 
means of getting manned space programs to orbit. Instead of just taking 
off the shelf propulsion systems to get something to orbit, NASA needs 
to look at its vision, move to the concept of operations, outline the 
requirements and capabilities (to include crew escape) and finally 
determine the platform that would meet the needs of manned space 
flight.

Question submitted by Representative Ralph M. Hall

Q1.  One of the CAIB's return-to-flight requirements is the development 
of an emergency repair capability for the ``widest possible range of 
damage to the Thermal Protection System, including both tile and 
Reinforced Carbon-Carbon.'' NASA officials now indicate that they might 
not be able to comply with that recommendation in the near-term for 
holes the size of the one that opened on Columbia's leading edge.

      Does the CRIB still stand by its recommendation that the Shuttle 
should not fly until such a repair capability is available?

A1. The Board was very clear on this issue--``. . .develop a 
practicable capability to inspect and effect emergency repairs to the 
widest possible range of damage to the TPS, including tile and RCC.. . 
.'' The Board stands by that recommendation. The Return-to-Flight group 
will need to determine if the intent of the recommendation has been 
met.

Question submitted by Representative Bart Gordon

Q1.  The CAIB report discussed at length the pressure exerted by senior 
NASA management to meet the February 19, 2004 milestone for Space 
Station ``Core Complete.'' Do you agree with the Administrator's 
explanation that there was no schedule pressure since no recent Shuttle 
mission launched on time, or do you think that the evidence shows that 
each Shuttle launch delay simply added to the schedule pressure 
perceived by the NASA workforce?

A1. Insidious scheduling pressure was evident to the Board during many 
interviews of NASA personnel by Board personnel. While this pressure 
may not have been evident at senior levels in NASA HQ, it was clear the 
SSP felt the pressure of making the Node 2 deadline from the Program 
Manager down to the shop worker at KSC. The Board found sufficient 
evidence that schedule pressure was felt at the working level.

Question submitted by Representative Nick Lampson

Q1.  In a response to a question by Mr. Barton on the potential 
availability of a replacement vehicle for crew transport, you stated:

         ``Sir, don't forget to include in your estimates that when you 
        build a crew transport capsule, that you also are going to have 
        to get some kind of propulsion system to get up there. And just 
        sticking this thing on the top of a Delta IV is not going to do 
        it.''

     Please elaborate on what you meant by ``just sticking this thing 
on the top of a Delta IV is not going to do it.'' What is your concern, 
and what do you think will need to be done to address that concern?

A1. This statement addresses a concern that the next launch vehicle is 
designed with specific set of requirements in mind for a manned space 
vehicle. While any number of solutions are possible to this problem, 
including the modification of unmanned systems for use in the manned 
space program, this can't be done without first considering the mission 
requirements of our next launch vehicle.
    The Board recommended that the Shuttle be replaced ASAP as the main 
means of getting manned space programs to orbit. Instead of just taking 
off the shelf propulsion systems to get something to orbit, NASA needs 
to look at its vision, move to the concept of operations, outline the 
requirements and capabilities (to include crew escape) and finally 
determine the platform that would meet the needs of manned space 
flight.

Questions submitted by Representative Zoe Lofgren

Q1a.  What budget documents did you receive from NASA or OMB that 
detailed upgrade requests from the Shuttle or Safety programs to the 
NASA Headquarters budget office, from NASA to OMB, pass-backs from OMB 
to NASA, or initial OMB guidance to NASA on the preparation of human 
space flight budget requests?

      How hard did the CAIB push to get these documents?

A1a. Executive privilege protects pre-decisional, NASA-executive office 
communications. We could have requested such information from NASA, but 
we were advised by NASA general counsel's office that the request would 
have been denied on the basis of executive privilege.

Q1b.  Did anyone advise you not to pursue the budget document requests? 
If so, who?

A1b. Executive privilege protects pre-decisional NASA-executive office 
communications. We could have requested such information from NASA, but 
we were advised by NASA general counsel's office that the request would 
have been denied on the basis of executive privilege.

Questions submitted by Representative Chris Bell

Q1.  Administrator O'Keefe has been quoted in the press [Space News, 9/
1/03, page 1] saying that ``the demand--the clarion call'' of your 
report is that NASA should accelerate its proposed Orbital Space Plane 
(OSP) program. However, your report states that the Board ``does not 
suggest what the next vehicle should look like.'' A Committee hearing 
held earlier this year identified serious questions about NASA's 
approach to its OSP program, including the cost uncertainty surrounding 
the OSP, the relatively low level of improvement in crew safety being 
sought in the OSP program, and whether OSP is the most appropriate 
approach to moving beyond the Shuttle.

Q1a.  Is Administrator O'Keefe making an accurate characterization of 
your report as demanding that NASA accelerate the Orbital Space Plane 
program currently being proposed to Congress?

A1a. The Board recommended that the Shuttle be replaced as the main 
means of getting man to Low Earth Orbit as soon as possible. However, 
we did not state what the solution should be--we did not tell NASA how 
to do it but what to do. This was centered on a criticism that NASA has 
been too platform centric and needed to revise its thinking by 
developing a systematic process of starting with a vision, then 
developing a concept of operations, move to a listing of requirements 
and capabilities, and then and only then do you outline what platform 
will answer the question of what the next space platform should look 
like.

Q1b.  Regarding the CAIB's finding that the U.S. should develop a 
replacement vehicle for the Shuttle's crew-carrying capability, if NASA 
develops a crew transfer vehicle to replace the crew-carrying 
capability of the Shuttle, how many flights will be required before it 
would cease being considered developmental and would become 
operational?

A1b. After 113 flights, the Board felt that the Shuttle Program was not 
operational. The Shuttle was still a research and development vehicle 
in an era of aging spacecraft, an era mankind has never experienced so 
there was still learning being gathered on every SSP flight. This 
question is well outside the technical ability of the Board to answer.

Q1c.  The CRIB has recommended that NASA have an autonomous on-orbit 
TPS inspection and repair capability on the Shuttle. Should that also 
be a requirement for any follow-on crew transfer vehicle?

A1c. The Board recommended that the Shuttle be replaced as the main 
means of getting man to Low Earth Orbit as soon as possible. However, 
we did not state what the solution should be--we did not tell NASA how 
to do it but what to do. This was centered on a criticism that NASA has 
been too platform centric and needed to revise its thinking by 
developing a systematic process of starting with a vision, then 
developing a concept of operations, move to a listing of requirements 
and capabilities, and then and only then do you outline what platform 
will answer the question of what the next space platform should look 
like.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 Stafford-Covey Task Group Biographies

Col. James C. Adamson, U.S. Army (Ret.)
CEO, Monarch Precision, LLC, Consulting firm

        <bullet>  Background: Astronaut (STS-28 & 43); President, 
        Allied Signal Systems Technical Services Corporation, which 
        later became Honeywell Technology Solutions, Inc. (retired, 
        March 2001); Chief Operating Officer United Space Alliance 
        (1995-1999). Current member, NASA Advisory Council Task Force 
        on ISS Operational Readiness.

Maj. Gen. Bill Anders, USAF Reserve (Ret.)
Retired Chair and CEO of General Dynamics Corp. (1990-1994)

        <bullet>  Background: Astronaut (Apollo 8); Executive Secretary 
        of the Aeronautics & Space Council; Chairman of the Nuclear 
        Regulatory Commission; Vice President of General Electric; U.S. 
        Ambassador to Norway; Member, National Academy of Engineering; 
        President, Heritage Flight Museum.

Dr. Walter Broadnax
President Clark University, Atlanta, Ga.

        <bullet>  Background: Just prior to coming to Clark, he was 
        Dean of the School of Public Affairs at American University in 
        Washington. Previously, he was Professor of Public Policy and 
        Management in the School of Public Affairs at the University of 
        Maryland, College Park, Md., where he also directed The Bureau 
        of Governmental Research.

RADM Walter H. Cantrell, USN (Ret.)
Aerospace Safety Advisory Panel

        <bullet>  Background: Commander, Space and Naval Warfare 
        Systems Command; Executive Director, Technology and Systems, 
        and later President of Signal Processing Systems Division at 
        Global Associates Limited; Program Director, Land Level 
        Transfer Facility, Bath Iron Works, responsible for the design 
        and construction of a $260M state-of-the-art shipbuilding 
        facility.

Dr. Kathryn Clark
Vice President for Education at TIVY, Inc.

        <bullet>  Background: Clark is also consultant in the fields of 
        space, oceans and education. She consults for the Jean-Michel 
        Cousteau Society, the National Marine Sanctuaries, and the Sea 
        World--Hubbs Institute to enhance the study of oceans and 
        marine wildlife and use the data for education and awareness of 
        the environment of the seas.

Mr. Benjamin A. Cosgrove
Senior Vice President, Boeing Commercial Airplane Group (Retired)

        <bullet>  Background: 44 years at Boeing as engineer and 
        manager associated with almost all Boeing jet aircraft 
        programs, including chief project engineer and director of 
        engineering for the 767 program. Current member, NASA Advisory 
        Council Task Force on ISS Operational Readiness.

Mr. Richard O. Covey, USAF (Ret.)
Co-Chairman, NASA Return-to-Flight Task Group
Vice President, Support Operations, Boeing Homeland Security and 
Services

        <bullet>  Background: Astronaut (STS-51l, STS-26, STS-38, STS-
        61); test pilot; held key management positions in the Astronaut 
        Office and Flight Crew Operations.

Dan L. Crippen, Ph.D.
Former Director of the Congressional Budget Office

        <bullet>  Background: Chief Counsel and Economic Policy Adviser 
        to the U.S. Senate Majority Leader; Domestic Policy Advisor and 
        Assistant to the President for Domestic Affairs; Senior Vice 
        President of the consulting firm The Duberstein Group; 
        Principal in the consulting firm Washington Counsel.

Mr. Joseph W. Cuzzupoli
Vice President and K-1 Program Manager, Kistler Aerospace Corporation

        <bullet>  Background: Aerospace engineer and manager for over 
        40 years. Vice President and Program Manager for Space Shuttle 
        Orbiter Project for Rockwell International during development 
        and served earlier as an Assistant Program Manager on Apollo. 
        Current Member, NAC Task Force on ISS Operational Readiness.

Charles C. Daniel, Ph.D.
Engineering Consultant

        <bullet>  Background: Over 35 years experience as an engineer 
        and manager in the fields of space flight vehicle design, 
        analysis, integration and test at the Marshall Space Flight 
        Center--from Saturn V to ISS. He was SRB flight operations lead 
        for STS-1 through STS-8 and Chief Engineer for Space Station. 
        Current member, NASA Advisory Council Task Force on ISS 
        Operational Readiness.

Richard Danzig, Ph.D.
A Director of National Semiconductor Corporation, Human Genome 
Sciences, and Saffron Hill Ventures

        <bullet>  Background: Former Secretary and Under Secretary of 
        the Navy. Former partner at the law firm of Latham and Watkins. 
        Current Chairman of the Board of the Center for Strategic and 
        Budgetary Assessments, Senior Fellow at the CNA Corporation, 
        and member of the NASA Advisory Council.

Dr. Amy K. Donahue
An Assistant Professor of Public Administration at the University of 
Connecticut Institute of Public Affairs

        <bullet>  Background: Under the Intergovernmental Personnel 
        Act, Donahue serves as Senior Advisor to the NASA Administrator 
        for Homeland Security. She teaches graduate courses in public 
        organizations and management, policy analysis, 
        intergovernmental relations, and research methods.

Gen. Ron Fogleman, USAF Ret.
President and Chief Operating Officer of Durango Aerospace Incorporated

        <bullet>  Background: Former Chief of Staff of the United 
        States Air Force. Managed the Air Mobility Command and served 
        as Commander and Chief, U.S. Transportation Command. Current 
        member of the NASA Advisory Council.

Col. Gary S. Geyer, USAF (Ret.)
Consultant

        <bullet>  Background: 35 years experience in space engineering 
        and program management, primarily in senior positions in the 
        government and industry. Served for 26 years with the National 
        Reconnaissance Office. Named NRO 2000 Pioneer. Vice President 
        for Lockheed Martin on major classified programs.

Maj. Gen. Ralph H. Jacobson, USAF (Ret.)
Consultant

        <bullet>  Background: USAF Assistant Deputy Chief of Staff for 
        Space Shuttle Development and Operations and later as Director 
        of Special Projects, Office of the Secretary of the Air Force. 
        President Emeritus, Charles Stark Draper Laboratory. Current 
        member, NASA Advisory Council Task Force on ISS Operational 
        Readiness.

Mr. Richard Kohrs
Chief Engineer, Kistler Aerospace Corporation

        <bullet>  Background: Over 40 years of experience in systems 
        engineering and integration of NASA Apollo, Shuttle, and Space 
        Station programs. Managed the daily engineering, processing, 
        and operations activities of the Shuttle program from 1985 
        through 1989. Director of Space Station Freedom in 1989 with 
        overall responsibility for development and operation. Prior to 
        joining Kistler in 1997, he was Director of the ANSER Center 
        for International Aerospace Cooperation.

Susan M. Livingstone
Policy & Management Consultant

        <bullet>  Background: She serves as a member of the National 
        Security Studies Board of Advisors (Maxwell School, Syracuse 
        University), is again a board member of the Procurement Round 
        Table and was appointed to NASA's Return-to-Flight Task Group 
        for safe return of Shuttle flight operations.

Mr. James D. Lloyd
Deputy Associate Administrator, Office of Safety and Mission Assurance, 
NASA

        <bullet>  Background: Extensive background in system safety 
        engineering and management for U.S. Army research and 
        development programs. Came to NASA in aftermath of Challenger 
        to help reconstitute the NASA safety and mission assurance 
        program. Recently selected as the Deputy AA for the Office of 
        Safety and Mission Assurance.

Lt. General Forrest S. McCartney, USAF (Ret.)
Consultant

        <bullet>  Background: Former Director of Kennedy Space Center 
        (1986-1992). Lockheed Martin Vice President for Launch 
        Operations, responsible for the Atlas, Titan, and Athena launch 
        operations/activities at Cape Canaveral, Florida, and 
        Vandenberg Air Force Base. USAF Program Director for several 
        major satellite programs. Current Vice Chairman, NASA Aerospace 
        Safety Advisory Panel.

Rosemary O'Leary J.D., Ph.D.
Professor of public administration & political science at the Maxwell 
School of Citizenship and Public Affairs, Syracuse University

        <bullet>  Background: An elected member of the U.S. National 
        Academy of Public Administration, she was recently a senior 
        Fulbright scholar conducting research on environmental policy 
        in Malaysia. O'Leary was professor of public and environmental 
        affairs at Indiana University and co-founder and co-director of 
        the Indiana Conflict Resolution Institute.

Mr. David Raspet
Consultant

        <bullet>  Background: Former senior manager, USAF, McDonnell-
        Douglas and Boeing. Experiences include leading the Future 
        Imaging Architecture Space Segment IPT, and working on EELV 
        Program Mission Assurance and Titan IVB-30 Readiness.

Dr. Decatur B. Rogers, P.E.
Dean, Tennessee State University College of Engineering, Technology and 
Computer Science

        <bullet>  Background: Since 1988, Dr. Rogers has served as the 
        Dean, College of Engineering, Technology and Computer Science 
        and Professor of Mechanical Engineering at Tennessee State 
        University in Nashville, Tenn. Rogers served in professorship 
        and dean positions at Florida State University, Tallahassee, 
        Fla., Prairie View A&M University, Prairie View, Texas, and 
        Federal City College, Washington.

Mr. Sy Rubenstein
Aerospace Consultant

        <bullet>  Background: Former Rockwell International and 
        McDonnell Douglas Employee. Served as President Rockwell 
        International Space Systems Division responsible for Space 
        Shuttle and Space Station activities. Former Vice President of 
        Engineering and Orbiter Chief Engineer during the development 
        and early operations of the Space Shuttle. Over 25 years of 
        experience in the design, development and operation of manned 
        space systems.

Mr. Robert Sieck
Aerospace Consultant

        <bullet>  Background: Former Director of Shuttle Processing, 
        Kennedy Space Center. Served as Launch Director for 52 Space 
        Shuttle launches and has been an engineer on aerospace projects 
        including Gemini, Apollo, and the Space Shuttle. Current member 
        of the NASA Aerospace Safety Advisory Panel.

Lt. General Thomas Stafford, USAF (Ret.)
Co-Chairman, NASA Return-to-Flight Task Group
President, Stafford, Burke & Hecker Inc., technical consulting

        <bullet>  Background: Astronaut (Gemini 6A, Gemini 9A, Apollo 
        10, CDR of the Apollo-Soyuz Test Project); Commandant of the 
        USAF Flight Test Center; Deputy Chief of Staff, Research, 
        Development and Acquisition at USAF HQ; served as a consultant 
        to the President in various capacities and to NASA for the 
        coordination of Shuttle-Mir activities. Current Chairman, NASA 
        Advisory Council Task Force on International Space Station 
        Operational Readiness.

Tom Tate
Vice president of legislative affairs for the Aerospace Industries 
Association (AIA)

        <bullet>  Background: With AIA, the trade association 
        representing the Nation's manufacturers of commercial, military 
        and business aircraft, helicopters, aircraft engines, missiles, 
        spacecraft, and related components, he directs the activities 
        of the association's Office of Legislative Affairs.

Mr. William Wegner
Consultant

        <bullet>  Background: Naval nuclear propulsion authority. 
        Deputy Director to Admiral Rickover in Nuclear Navy Program. 
        Founded Basic Energy Technology Associates and consulted in the 
        area of civilian nuclear power plant safety. Board of 
        Directors, Detroit Edison.

Mr. David Lengyel
Executive Secretary, Return-to-Flight Task Group

        <bullet>  Background: Executive Director of the Aerospace 
        Safety Advisory Panel. Former Manager of NASA's Moscow 
        Technical Liaison Office. Several years' experience with ISS, 
        Shuttle-Mir Programs. Extensive knowledge of Columbia Accident 
        Investigation Board work.
                   STAFFORD-COVEY TASK GROUP MEMBERS

Colonel James C. Adamson, U.S. Army (Ret.):
CEO, Monarch Precision, LLC, Consulting firm

    Colonel Adamson, a former astronaut, has an extensive background in 
aerodynamics as well as business management. He received his Bachelor 
of Science degree in Engineering from the U.S. Military Academy at West 
Point and his Master's degree in Aerospace Engineering from Princeton 
University. He returned to West Point as an Assistant Professor of 
Aerodynamics until selected to attend the Navy Test Pilot School at 
Patuxent River, Md. in 1979. In 1981 he became Aerodynamics Officer for 
the Space Shuttle Operational Flight Test Program at the Johnson Space 
Center's Mission Control Center. Colonel Adamson became an astronaut in 
1984 and flew two missions, one aboard Columbia (STS-28) and the second 
aboard Atlantis (STS-43).
    After retiring from NASA in 1992, he created his own consulting 
firm, Monarch Precision, and was then recruited by Lockheed as 
President/CEO of Lockheed Engineering and Sciences Company. In 1995 he 
helped create United Space Alliance and became their first Chief 
Operating Officer, where he remained until 1999. In late 1999, Colonel 
Adamson was again recruited to serve as President/CEO of Allied Signal 
Technical Services Corporation, which later became Honeywell Technology 
Solutions, Inc. Retiring from Honeywell in 2001, Colonel Adamson 
resumed part-time consulting with his own company, Monarch Precision, 
LLC. In addition to corporate board positions, he has served as a 
member of the NASA Advisory Council Task Force on Shuttle-Mir 
Rendezvous and Docking Missions and is currently a member of the NASA 
Advisory Council Task Force on International Space Station Operational 
Readiness.

Maj. Gen. Bill Anders, USAF Reserve (Ret.):

    Upon graduation in 1955, as an electrical engineer, from the United 
States Naval Academy, General Anders earned his pilot's wings in 1956. 
He received a graduate degree in nuclear engineering from the U.S. Air 
Force (USAF) Institute of Technology while concurrently graduating with 
honors in aeronautical engineering from Ohio State University. In 1963, 
he was selected for the astronaut corps. He was the Lunar Module Pilot 
of Apollo 8 and backup Command Module Pilot for Apollo 11. Among other 
successful public and private endeavors, General Anders has served as a 
Presidential appointee to the Aeronautics & Space Council, the Atomic 
Energy Commission, the Nuclear Regulatory Commission (where he was the 
first chairman), and as U.S. Ambassador to Norway.
    Subsequent to his public service, he joined the General Dynamics 
Corporation, as Chairman and Chief Executive Officer (1990-1993) and 
was awarded the National Security Industrial Association's ``CEO of the 
Year'' award.
    During his distinguished career, General Anders was the co-holder 
of several world flight records and has received numerous awards 
including the USAF, NASA, and Atomic Energy Commission's Distinguished 
Service Medals. He is a member of the National Academy of Engineering, 
the Society of Experimental Test Pilots, and the Experimental Aircraft 
Association as well as the founder and President of the Heritage Flight 
Museum.

Dr. Walter Broadnax:

    He is President of Clark Atlanta University in Atlanta. Just prior 
to coming to Clark, he was Dean of the, School of Public Affairs at 
American University in Washington. Previously, he was Professor of 
Public Policy and Management in the School of Public Affairs at the 
University of Maryland, College Park, Md., where he also directed The 
Bureau of Governmental Research. Before joining the University of 
Maryland faculty, Broadnax served as Deputy Secretary and Chief 
Operating Officer of the U.S. Department of Health and Human Services; 
President, Center for Governmental Research, Inc., in Rochester, N.Y.; 
President, New York State Civil Service Commission; Lecturer and 
Director, Innovations in State and Local Government Programs in the 
Kennedy School of Government at Harvard University; Senior Staff 
Member, The Brookings Institution; Principal Deputy Assistant Secretary 
for Planning and Evaluation, U.S. Department of Health, Education and 
Welfare; Director, Children, Youth and Adult Services, State of Kansas 
and Professor, The Federal Executive Institute, Charlottesville, Va.
    He is one of America's leading scholar-practitioners in the field 
of public policy and management. He has published widely in the field 
and served in leadership positions in various professional 
associations: American Political Science Association, American Public 
Personnel Association, Association of Public Policy and Management, 
National Association of Schools of Public Affairs and Administration, 
National Association of State Personnel Executives and the American 
Society for Public Administration.
    Broadnax received his Ph.D. from the Maxwell School at Syracuse 
University, his B.A. from Washburn University and his M.P.A from the 
University of Kansas. He is a Fellow of the National Academy of Public 
Administration and a former trustee of the Academy's Board. In March, 
he was installed as President of the American Society for Public 
Administration for (2003-2004). He is a member of the Syracuse 
University Board of Trustees, Harvard University's Taubman Center 
Advisory Board and United States Comptroller General Advisory Board. He 
has also served on several corporate and nonprofit boards of directors 
including the CNA Corporation, Keycorp Bank, Medecision Inc., Rochester 
General Hospital, Rochester United Way, the Ford Foundation/Harvard 
University Innovations in State and Local Government Program, the 
Maxwell School Advisory Board and the National Blue Ribbon Commission 
on Youth Safety and Juvenile Justice Reform in the District of 
Columbia.

RADM Walter H. Cantrell, USN (Ret.):

    Admiral Cantrell has a long history of successfully solving high 
profile, technical issues. He is frequently asked to conduct reviews of 
complex, politically sensitive programs and to make recommendations for 
corrective actions.
    He graduated from the U.S. Naval Academy in 1958 with a Bachelor of 
Science degree in Naval Science. He also received a Master's degree in 
Naval Architecture, Marine and Naval Engineering and a NavEng 
(Professional Degree) from the Massachusetts Institute of Technology in 
1965. He is a graduate of the Senior Officials in National Security 
Program, JFK School of Government at Harvard. After an extensive and 
distinguished naval career, he retired in 1995.
    He then joined Global Associates Limited as Executive Director for 
Technology and Systems. From 1996-1997 he was President of the Signal 
Processing Systems Division. Most recently, from 1997-2001, he was 
Program Director, Land Level Transfer Facility, Bath Iron Works, and 
was responsible for the design and construction of a $260M state-of-
the-art shipbuilding facility. Admiral Cantrell currently serves on 
NASA's Aerospace Safety Advisory Panel.

Dr. Kathryn Clark:

    Kathryn Clark is the Vice President for Education at TIVY, Inc., an 
exciting game that combines strategy and mathematics in a manner that 
makes learning fun. Organized competitions for the game have provided a 
strong motivation for students to improve their skills, resulting in 
increased standardized math scores. Baseball TIVY has competitions at 
professional baseball games, with competitors and their parents 
receiving free tickets to the game. Space TIVY has a National 
Tournament on Space Day at the National Air & Space Museum the 1st 
Thursday in May each year.
    Clark is also consultant in the fields of space, oceans and 
education. She consults for the Jean-Michel Cousteau Society, the 
National Marine Sanctuaries, and the Sea World--Hubbs Institute to 
enhance the study of oceans and marine wildlife and use the data for 
education and awareness of the environment of the seas.
    She recently completed a job for the Michigan Virtual High School 
to aid in the development of the Math, Science and Technology Academy. 
She worked on the vision and mission of the Academy as well as the 
development of partners as they increase the scope and reach of the 
program to a national and international scale. Clark recently resigned 
from her job as NASA's Chief Scientist for the Human Exploration & 
Development of Space Enterprise.
    Having completed a two-year term as NASA's Chief Scientist for the 
International Space Station Program, she became the HEDS Chief 
Scientist in August 2000. She was on leave from the University of 
Michigan Medical School. As Chief Scientist, Clark worked with 
scientists from all other areas of NASA to communicate research needs 
and look for possible collaboration among the science programs at NASA. 
She also assisted with education and outreach activities related to any 
human space flight endeavors, including the International Space 
Station, the Shuttle, any expendable launch vehicles intended to 
further human endeavors in space, and future missions to the Moon and 
Mars. Clark's particular interest is in ``Human Factors;'' all the 
elements necessary for the health, safety, and efficiency of crews 
involved in long duration space flight. These include training, 
interfacing with machines and robotics, biological countermeasures for 
the undesirable physical changes associated with space flight, and the 
psychological issues that may occur in response to the closed, 
dangerous environments while traveling in space or living on other 
planets.
    She received both her Master's and Doctoral degrees from the 
University of Michigan and then joined the faculty in the Department of 
Cell and Developmental Biology in 1993. She also served as the Deputy 
Director of the NASA Commercial Space Center, The Center for 
Microgravity Automation Technology from 1996-1998. CMAT provides 
imaging technology for use on the Space Station. The primary commercial 
focus of that Center is on using high fidelity imaging technology for 
science and education.
    Clark's scientific interests are focused on neuromuscular 
development and adaptation to altered environments. Experiments are 
performed at the tissue level and include immunocytochemistry and in 
situ hybridization of skeletal muscle and spinal cord grown both in 
vivo and in vitro. Clark's experience with NASA began with a 
neuromuscular development study (NIH.R1) that flew on STS-66 in 
November of 1994. These experiments were repeated and augmented 
(NIH.R2) on STS-70 in July of 1995. She was also involved in the 
Neurolab project flown on STS-90 in May of 1998 and the aforementioned 
ladybug experiment that flew on STS-93 with Commander Eileen Collins.
    Clark is the Chair of the Academic Affairs Committee of Board of 
Control of Michigan Tech University, the Chair of the Board of Visitors 
of Western Reserve Academy, and serves on the boards of The Space Day 
Foundation and Orion's Quest, both education oriented not-for-profit 
organizations.
    She is a past member of the Board of Directors of Women in 
Aerospace, is an airplane pilot and member of the 99's (the 
International Society of Women Pilots), and an avid cyclist, swimmer, 
and cross-country skier. She owns a jazz club in Ann Arbor. She is 
married to Dr. Robert Ike, a rheumatologist at the University of 
Michigan Medical School.

Mr. Benjamin A. Cosgrove:
Consultant

    Benjamin Cosgrove has a long and distinguished career as an 
engineer and manager associated with most of Boeing jet aircraft 
programs. His extensive background in aerospace stress and structures 
includes having served as a stress engineer or structural unit chief on 
the B-47, B-52, KC-135, 707, 727, 737, and 747 jetliners. He was Chief 
Engineer of the 767.
    He was honored by Aviation Week and Space Technology for his role 
in converting the Boeing 767 transport design from a three-man to a 
two-man cockpit configuration and received the Ed Wells Technical 
Management Award for addressing aging aircraft issues. He received the 
National Aeronautics Association's prestigious Wright Brothers Memorial 
Trophy in 1991 for his lifetime contributions to commercial aviation 
safety and for technical achievement. He is a member of the National 
Academy of Engineering and a fellow of both the AIAA and England's 
Royal Aeronautical Society. Having retired from his position as Senior 
Vice President of the Boeing Commercial Airplane Group in 1993 after 44 
years of service, he is now a consultant. He holds a Bachelor of 
Science degree in Aeronautical Engineering and received an honorary 
Doctorate of Engineering degree from the University of Notre Dame in 
1993. Cosgrove is a member of the NASA Advisory Committee's Task Force 
on International Space Station Operational Readiness.

Mr. Richard O. Covey, USAF (Ret.):
Co-Chair, Return-to-Flight Task Group
Vice President, Support Operations, Boeing Homeland Security and 
        Services

    Richard Covey, a veteran of four Space Shuttle flights, has over 35 
years of aerospace experience in both the private and public sectors. 
He piloted STS-26, the first flight after the Challenger accident, and 
was commander of STS-61, the acclaimed Endeavor/Hubble Space Telescope 
first service and repair mission.
    Covey is a highly decorated combat pilot and Outstanding Graduate 
of the Air Force Test Pilot School, holds a Bachelor of Science degree 
in Engineering Sciences from the USAF Academy and a Master of Science 
degree in Aeronautics and Astronautics from Purdue University.
    He served as the USAF Joint Test Force Director for F-15 electronic 
warfare systems developmental and production verification testing. 
During his distinguished 16-year career at NASA, he held key management 
positions in the Astronaut Office and Flight Crew Operations 
Directorate at JSC. Covey left NASA and retired from the Air Force in 
1994.
    In his position at Boeing, his organization provides system 
engineering, facility/system maintenance and operations, and spacecraft 
operations and launch support to commercial, Department of Defense and 
other U.S. government space and communication programs throughout the 
world. Prior to his current position, Covey was Vice President of 
Boeing's Houston Operations.
    He has been the recipient of numerous awards such as: two 
Department of Defense Distinguished Service Medals, the Department of 
Defense Superior Service Medal, the Legion of Merit, five Air Force 
Distinguished Flying Crosses, 16 Air Medals, the Air Force Meritorious 
Service Medal, the Air Force Commendation Medal, the National 
Intelligence Medal of Achievement, the NASA Distinguished Service 
Medal, the NASA Outstanding Leadership Medal, the NASA Exceptional 
Service Medal, and the Goddard and Collier Trophies for his role on 
STS-61.

Dan L. Crippen, Ph.D.:
Former Director of the Congressional Budget Office

    Dr. Dan Crippen has a strong reputation for objective and 
insightful analysis. He served, until January 3rd of this year, as the 
fifth Director of the Congressional Budget Office. His public service 
positions also include Chief Counsel and Economic Policy Adviser to the 
Senate Majority Leader (1981-1985); Deputy Assistant to the President 
for Domestic Policy (1987-1988); and Domestic Policy Advisor and 
Assistant to the President for Domestic Policy (1988-1989), where he 
advised the President on all issues relating to domestic policy, 
including the preparation and presentation of the federal budget. He 
has provided service to several national commissions, including 
membership on the National Commission on Financial Institution Reform, 
Recovery and Enforcement.
    Crippen has substantial experience in the private sector as well. 
Before joining the Congressional Budget Office, he was a principal with 
Washington Counsel, a law and consulting firm. He has also served as 
Executive Director of the Merrill Lynch International Advisory Council 
and as a founding partner and Senior Vice President of The Duberstein 
Group.
    He received a Bachelor of Arts degree from the University of South 
Dakota in 1974, a Master of Arts from Ohio State University in 1976, 
and Doctor of Philosophy degree in Public Finance from Ohio State in 
1981.

Mr. Joseph W. Cuzzupoli:
Vice President and K-1 Program Manager, Kistler Aerospace Corporation

    Joseph Cuzzupoli brings to the Task Group more than 40 years of 
aerospace engineering and managerial experience. He began his career 
with General Dynamics as Launch Director (1959-1962), and then became 
Manager of Manufacturing/Engineering and Director of Test Operations 
for Rockwell International (1962-1966). Cuzzupoli directed all 
functions in the building and testing of Apollo 6, Apollo 8, Apollo 9 
and Apollo 12 flights as Rockwell's Assistant Program Manager for the 
Apollo Program; he later was Vice President of Operations. In 1978, he 
became the Vice President and Program Manager for the Space Shuttle 
Orbiter Project and was responsible for 5000 employees in the 
development of the Shuttle.
    He left Rockwell in 1980 and consulted on various aerospace 
projects for NASA centers until 1991 when he joined American Pacific 
Corporation as Senior Vice President. In his current position at 
Kistler Aerospace (Vice President and Program Manager, 1996-present) he 
has primary responsibility for design and production of the K-1 
reusable launch vehicle. He holds a Bachelor of Science degree in 
Mechanical Engineering from the Maine Maritime Academy, a Bachelor of 
Science degree in Electrical Engineering from the University of 
Connecticut and a Certificate of Management/Business Administration 
from the University of Southern California.
    He was a member of the NASA Advisory Council's Task Force on 
Shuttle-Mir Rendezvous and Docking Missions and is a current member of 
the NASA Advisory Council's Task Force on International Space Station 
Operational Readiness.

Charles C. Daniel, Ph.D.:
Engineering Consultant

    Dr. Charles Daniel has over 35 years experience as an engineer and 
manager in the fields of space flight vehicle design, analysis, 
integration and testing; he has been involved in aerospace programs 
from Saturn V to the International Space Station. In 1968, he began his 
career at Marshall Space Flight Center where he supported Saturn 
Instrument Unit operations for Apollo 11, 12, and 13. In 1971, he 
performed avionics integration work for the Skylab program and spent 
the next decade developing avionics for the solid rocket boosters. He 
was SRB flight operations lead in that activity.
    Daniel worked as part of the original Space Station Skunk Works for 
definition of the initial space station concept and developed the 
Master engineering schedule for the Station.
    Following the Challenger accident, he led the evaluation of all 
Hazards Analyses associated with Shuttle and coordinated acceptance 
analyses associated with the modifications to the SRMs and SRBs. During 
Space Station Freedom development, he was the avionics lead and served 
as MSFC lead for Level II assembly and configuration development. Dr. 
Daniel was part of the initial group to define the concept for Russian 
participation in the Space Station Restructure activity and later 
returned to MSFC as Chief Engineer for Space Station.
    Daniel holds a Doctorate degree in Engineering and has completed 
postgraduate work at the University of California, Berkeley and MIT. He 
was a member of the NAC Task Force on Shuttle-Mir Rendezvous and 
Docking Operations and is a member of the NASA Advisory Council Task 
Force, ISS Operational Readiness.

Richard Danzig, J.D., Ph.D.:
A Director of National Semiconductor Corporation, Human Genome 
        Sciences, and Saffron Hill Ventures

    Dr. Richard Danzig, former Under Secretary of the Navy (1993-1997) 
and Secretary of the Navy (1998-2001), has vast and varied expertise in 
law, business, military and government operations, as well as national 
service. He is currently a Director of the National Semiconductor 
Corporation and a Director of Human Genome Sciences. He also serves as 
a consultant to the Department of Defense and other federal agencies 
regarding response to terrorism and is Chairman of the Board of the 
Center for Strategic and Budgetary Assessment.
    Danzig holds a J.D. degree from Yale Law School and Bachelor and 
Doctorate of Philosophy degrees from Oxford University, where he was a 
Rhodes Scholar. He served as a law clerk for U.S. Supreme Court Justice 
Byron White. In the 1970s, he was an Associate Professor of Law at 
Stanford University, a ,Prize Fellow at Harvard and a Rockefeller 
Foundation Fellow. He later served as a Deputy Assistant Secretary of 
Defense in the Office of the Secretary of Defense and then as the 
Principal Deputy Assistant Secretary of Defense for Manpower, Reserve 
Affairs, and Logistics. Between 1981 and 1993, he was a partner in the 
law firm of Latham and Watkins, co-authored a book on national service, 
and taught a law class at Georgetown University Law School. He has 
written a book, Joseph's Way, on innovation in large organizations, 
which will be published in 2004.
    During his distinguished public career at DOD, Danzig received the 
Defense Distinguished Public Service Award, the highest Department of 
Defense civilian award, three times. He is a Member of the NASA 
Advisory Council.

Dr. Amy K. Donahue, Ph.D.:

    Dr. Amy K. Donahue is Assistant Professor of Public Administration 
at the University of Connecticut Institute of Public Affairs.
    She teaches graduate courses in public organizations and 
management, policy analysis, intergovernmental relations, and research 
methods. Donahue's research focuses on the productivity of emergency 
services organizations and on the nature of citizen demand for public 
safety services. She is author of published work about the design, 
management, and finance of fire departments and other public agencies. 
Donahue serves as a consultant for local governments seeking to improve 
the structure and management of their fire and emergency services.
    Under the Intergovernmental Personnel Act, Donahue serves as Senior 
Advisor to the NASA Administrator for Homeland Security. She functions 
as NASA's liaison with the Department of Homeland Security and the 
Homeland Security Council. She also works within NASA to discern 
opportunities to contribute to homeland security efforts government-
wide, including evaluating existing projects and identifying new 
opportunities for interagency collaboration targeted at homeland 
security. She recently spent three months in the field in Texas 
managing the Columbia recovery operation.
    Previously, Donahue was a senior research associate at the Alan K. 
Campbell Public Affairs Institute at Syracuse University. She conducted 
research and analysis in support of the Government Performance Project, 
a five-year initiative funded by the Pew Charitable,Trusts to evaluate 
comprehensively performance of Federal, State, and local government 
management systems. She developed conceptual models and evaluation 
criteria, designed written survey instruments for administration to 
governments and agencies, and conducted data analysis.
    Donahue has 20 years of field experience and training in an array 
of emergency services-related fields, including managing a 911 
communications center, and working as a firefighter and emergency 
medical technician in Fairbanks, Ala., and upstate New York.
    As an officer in the U.S. Army Medical Service Corps, she spent 
four years on active duty in the 6th Infantry Division, where her 
positions included Main Support Battalion Training and Operations 
Officer, Officer-in-Charge of the division's Forward Surgical Team, and 
Chief of Mobilization, Education, Training and Security at Bassett Army 
Hospital.
    Donahue holds her Ph.D. in Public Administration and her M.P.A. 
from the Maxwell School of Citizenship and Public Affairs at Syracuse 
University, and her B.A. in Geological and Geophysical Sciences from 
Princeton University.
    She has been honored with the National Association of Schools of 
Public Affairs and Administration Dissertation Award, the Syracuse 
University Doctoral Prize, the Jon Ben Snow Graduate Fellowship in 
Nonprofit Management at Syracuse University, the Arthur F. Buddington 
Award for Excellence in the Earth Sciences at Princeton University, and 
several military awards, including the Meritorious Service Medal, three 
Army Commendation Medals, the Expert Field Medical Badge, Air Assault 
Badge, and Basic Military Parachutist Badge.

General Ron Fogleman, USAF (Ret.):
President and Chief Operating Officer of Durango Aerospace Incorporated

    General Fogleman has vast experience in air and space operations, 
expertise in long-range programming and strategic planning, and 
extensive training in fighter and mobility aircraft. He served in the 
USAF for 34 years, culminating in his appointment as Chief of Staff, 
until his retirement in 1997. Fogleman has served as a military advisor 
to the Secretary of Defense, the National Security Council and the 
President.
    Among other advisory boards, he is a member of the National Defense 
Policy Board, the NASA Advisory Council, the Jet Propulsion Laboratory 
Advisory Board, the Council on Foreign Relations, and the 
congressionally directed Commission to Assess United States National 
Security Space Management and Organization. He is chairing a National 
Research Council Committee on Aeronautics Research and Technology for 
Vision 2050: An Integrated Transportation System.
    Fogleman received a Master's Degree in Military History from the 
U.S. Air Force Academy, a Master's Degree in Political Science from 
Duke University, and graduated from the Army War College. He has been 
awarded several military decorations including: Defense Distinguished 
Service Medal with two oak leaf clusters; the Air Force Distinguished 
Service Medal with oak leaf cluster; both the Army and Navy 
Distinguished Service Medals; Silver Star; Purple Heart; Meritorious 
Service Medal; and two Distinguished Flying Crosses.

Col. Gary S. Geyer, USAF (Ret.):
Consultant

    Colonel Geyer has 35 years of experience in space engineering and 
program management, primarily in senior positions in the government and 
industry that emphasize management and system engineering. He has been 
responsible for all aspects of systems' success, including schedule, 
cost, and technical performance.
    He served for 26 years with the National Reconnaissance Office 
(NRO) and was the NRO System Program Office Director for two major 
programs, which encompassed the design, manufacture, test, launch, and 
operation of several of our nation's most important reconnaissance 
satellites. Geyer received the NRO Pioneer Award 2000 for his 
contributions as one of 46 pioneers of the NRO responsible for our 
nation's information superiority that significantly contributed to the 
end of the cold war.
    Following his career at the NRO, Geyer was Vice President for a 
major classified program at Lockheed Martin and responsible for all 
aspects of program and mission success. His other assignments have 
included Chief Engineer for another nationally vital classified program 
and Deputy for Analysis for the Titan IV program. Geyer is teaching a 
Space Design course and a System Engineering/Program Management course 
at New Mexico State University in Las Cruces, N.M. He has a Bachelor of 
Science degree in Electrical Engineering from Ohio State University, 
arid a Master's in Electrical Engineering and Aeronautical Engineering 
from the University of Southern California.

Maj. Gen. Ralph H. Jacobson, USAF (Ret.):
Consultant

    During General Jacobson's 47 years of distinguished military and 
civilian service, he has developed an expertise in aerospace program 
management, satellite operations, business, and budget management. He 
graduated from the U.S. Naval Academy in 1956, earned his pilot's wings 
in 1957, received a Master's Degree in Astronautics from the Air Force 
Institute of Technology in 1962, and a Master's Degree in Business 
Administration from The George Washington University in 1966.
    His early USAF assignments included tours as: a tactical airlift 
pilot, including a one-year assignment in Vietnam; the project officer 
for the Titan II inertial guidance system; and an action officer on the 
Air Staff in the Pentagon. Beginning in 1970; he held a series of 
assignments in the Nation's space program, which included several 
technical program management responsibilities and command 
responsibility for satellite operations.
    As a Brig. Gen., he was assigned to the Space Shuttle Program 
Office at NASA Headquarters and later became the Air Staff Officer 
responsible for budget development for the Air Force Space Program. In 
1983 he became Director of Special Projects, Office of the Secretary of 
the Air Force, from which he retired in 1987. His military decorations 
include the Defense, National Intelligence Community, and Air Force 
Distinguished Service medals and the Distinguished Flying Cross. After 
his military retirement, Jacobson became President and Chief Executive 
Officer of The Charles Stark Draper Laboratory where he served in that 
capacity until 1997.
    He is a member of many advisory groups and boards, including the 
Strategic Advisory Group, U.S. Strategic Command, Sandia National 
Security Advisory Panel, Space Studies Board of the National Research 
Council, and is a Trustee, United States Naval Academy Foundation. 
Jacobson is a fellow of the American Institute of Aeronautics and 
Astronautics as well as a Member of the NASA Advisory Council Task 
Force on ISS Operational Readiness and a former member of the NAC Task 
Force on Shuttle-Mir Operational Readiness.

Mr. Richard Kohrs:
Chief Engineer, Kistler Aerospace Corporation

    Richard Kohrs has over 40 years of experience in aerospace systems 
engineering, stress analysis, and integration. He has held senior 
management positions in major NASA programs from Apollo to the Space 
Station.
    As a member of the Apollo Spacecraft Program's Systems Engineering 
and Integration Office, he developed the Spacecraft Operations Data 
Book system that documented systems and subsystem performance, and was 
the control database for developing flight rules, crew procedures, and 
overall performance of the Apollo Spacecraft.
    After Apollo, he became Manager of System Integration for the Space 
Shuttle Program; Deputy Manager, Space Shuttle Program; and then Deputy 
Director of the Space Shuttle Program at Johnson Space Center. As 
Deputy Director, he was responsible for the daily engineering, 
processing, and operations activities of the Shuttle program and he 
developed an extensive background in Shuttle systems integration. In 
1989, he became the Director of Space Station Freedom, with overall 
responsibility for its development and operation.
    After years of public service, he left NASA to become the Director 
of the ANSER Center for International Aerospace Cooperation (1994-
1997). Kohrs joined Kistler Aerospace in 1997 as Chief Engineer. His 
primary responsibilities include vehicle integration, design 
specifications, design data books, interface control, vehicle weight, 
performance, and engineering review board matters. He received a 
Bachelor of Science degree from Washington University, St. Louis, in 
1956.

Susan Morrissey Livingstone:

    Susan Livingstone has served her nation for more than 30 years in 
both government and civic roles. From July 2001 to February 2003, she 
served as Under Secretary of the Navy. As ``COO'' to the Secretary of 
the Navy, she had a broad executive management portfolio (e.g., 
programming, planning, budgeting, business processes, organizational 
alignment), but also focused on Naval space, information technology and 
intelligence/compartmented programs; integration of Navy-Marine Corps 
capabilities; audit, IG and criminal investigative programs; and 
civilian personnel programs.
    Livingstone is a policy and management consultant and also serves 
as a member of the National Security Studies Board of Advisors (Maxwell 
School, Syracuse University), is again a board member of the 
Procurement Round Table and was appointed to NASA's Return-to-Flight 
Task Group for safe return of Shuttle flight operations.
    Prior to serving as Under Secretary of the Navy, Livingstone was 
CEO of the Association of the United States Army and deputy chairman of 
its Council of Trustees. She also served as a vice president and board 
member of the Procurement Round Table, and as a consultant and panel 
chairman to the Defense Science Board (on ``logistics 
transformation'').
    From 1993 to 1998, Livingstone served the American Red Cross HQ as 
Vice President of Health and Safety Services, Acting Senior Vice 
President for Chapter Services and as a consultant for Armed Forces 
Emergency Services.
    As Assistant Secretary of the Army for Installations, Logistics and 
Environment from 1989 to 1993, she was responsible for a wide range of 
programs including military construction, installation management, Army 
logistics programs, base realignment and closures, energy and 
environmental issues, domestic disaster relief and restoration of 
public infrastructure to the people of Kuwait following operation 
Desert Storm. She also was decision and acquisition management 
authority for the DOD chemical warfare materiel destruction program.
    From 1981 to 1989, Livingstone served at the Veterans 
Administration in a number of positions including Associate Deputy 
Administrator for Logistics and Associate Deputy Administrator for 
Management. She served as the VA's Senior Acquisition Official and also 
directed and managed the Nation's largest medical construction program. 
Prior to her Executive Branch service, she worked for more than nine 
years in the Legislative branch on the personal staffs of both a 
Senator and two congressmen.
    Livingstone graduated from the College of William and Mary in 1968 
with an A.B. degree and completed an M.A. in Political Science at the 
University of Montana in 1972. She also spent two years in postgraduate 
studies at Tufts University and the Fletcher School of Law and 
Diplomacy.
    Livingstone has received numerous awards for her community and 
national service, including the highest civilian awards from the NRO, 
VA, and the Departments of the Army and Navy. She is also is a 
recipient of the Secretary of Defense Award for Outstanding Public 
Service.

Mr. James D. Lloyd:
Deputy Associate Administrator for Safety and Mission Assurance, NASA 
        Ex-Officio Member

    James Lloyd has extensive experience in safety engineering and risk 
management, and has supported a number of Blue Ribbon panels relating 
to mishaps and safety problems throughout his career. He began his 
career after an intern-training period as a system safety engineer with 
the U.S. Army Aviation Systems Command in St. Louis.
    He transferred to its parent headquarters, the Army Materiel 
Command (AMC) in 1973 and, after serving several safety engineering 
roles was appointed as the Chief of the Program Evaluation Division in 
the Command's Safety Office, where he assured the adequacy of safety 
programs for AMC organizations.
    In 1979, he continued his career as a civilian engineer with the 
AMC Field Safety Activity in Charlestown, IN, where he directed 
worldwide safety engineering, evaluation and training support. In 1987, 
a year after the Shuttle Challenger disaster, Lloyd transferred from 
the U.S. Army to NASA to help the agency rebuild its safety mission 
assurance program. He was instrumental in fulfilling several of the 
recommendations issued by the Rogers' Commission, which had 
investigated the Challenger mishap. After the Shuttle returned to 
flight with the mission of STS-26, Lloyd moved to the Space Station 
Freedom Program Office in Reston, Va., where he served in various roles 
culminating in being appointed as the Program's Product Assurance 
Manager.
    In 1993, he became Director, Safety and Risk Management Division in 
the Office of Safety and Mission Assurance, serving as NASA's ``Safety 
Director'' and was appointed to his present position in early 2003. He 
serves also as an ex-officio member of the NAC Task Force on ISS 
Operational Readiness. Lloyd holds a Bachelor of Science degree in 
Mechanical Engineering, with honors, from Union College, Schenectady, 
N.Y., and a Master of Engineering degree in Industrial Engineering from 
Texas A&M University, College Station.

Lt. General Forrest S. McCartney, USAF (Ret.):
Vice Chairman of the Aerospace Safety Advisory Panel

    During General McCartney's distinguished USAF career, he held the 
position of Program Director for several major satellite programs, was 
Commander of the Ballistic Missile Organization (responsible for 
Minuteman and Peacekeeper development), Commander of Air Force Space 
Division and Vice Commander, Air Force Space Command.
    His military decorations and awards include the Distinguished 
Service Medal, Legion of Merit with one oak leaf cluster, Meritorious 
Service Medal and Air Force Commendation Medal with three oak leaf 
clusters. He was recipient of the General Thomas D. White Space Trophy 
in 1984 and the 1987 Military Astronautical Trophy.
    Following the Challenger accident in late 1986, McCartney was 
assigned by the USAF to NASA and served as the Director of Kennedy 
Space Center until 1992. He received numerous awards, including NASA's 
Distinguished Service Medal and Presidential Rank Award, the National 
Space Club Goddard Memorial Trophy, AIAA Von Braun Award for Excellence 
in Space Program Management.
    After 40 years of military and civil service, McCartney became a 
consultant to industry, specializing in the evaluation of hardware 
failure/flight readiness. In 1994, he joined Lockheed Martin as the 
Astronautics Vice President for Launch Operations. He retired from 
Lockheed Martin in 2001 and is currently the Vice Chairman of the NASA 
Aerospace Safety Advisory Panel.
    McCartney has a Bachelor's degree in Electrical Engineering from 
Auburn University, Master's degree in Nuclear Engineering from the USAF 
Institute of Technology, and an honorary Doctorate from the Florida 
Institute of Technology.

Rosemary O'Leary J.D., Ph.D.:

    Rosemary O'Leary is Professor of Public Administration and 
Political Science, and Coordinator of the Ph.D. Program in Public 
Administration at the Maxwell School of Citizenship and Public Affairs 
at Syracuse University. An elected member of the U.S. National Academy 
of Public Administration, she was recently a senior Fulbright scholar 
conducting research on environmental policy in Malaysia.
    Previously O'Leary was professor of public and environmental 
affairs at Indiana University and co-founder and co-director of the 
Indiana Conflict Resolution Institute. She has served as the director 
of policy and planning for a state environmental agency and has worked 
as an environmental attorney.
    She has worked as a consultant to the U.S. Department of the 
Interior, the U.S. Environmental Protection Agency, the Indiana 
Department of Environmental Management, the International City/County 
Management Association, the National Science Foundation, and the 
National Academy of Sciences.
    O'Leary is the author or editor of five books and more than 75 
articles on environmental management, environmental policy, public 
management, dispute resolution, bureaucratic politics, and law and 
public policy. She has won seven national research awards, including 
Best Book in Public and Nonprofit Management for 2000 (given by the 
Academy of Management), Best Book in Environmental Management and 
Policy for 1999 (given by the American Society for Public 
Administration), and the Mosher Award, which she won twice, for best 
article by an academician published in Public Administration Review.
    O'Leary was recently awarded the Syracuse University Chancellor's 
Citation for Exceptional Academic Achievement, the highest research 
award at the university. She has won eight teaching awards as well, 
including the national Excellence in Teaching Award given by the 
National Association of Schools of Public Affairs and Administration, 
and she was the recipient of the Distinguished Service Award given by 
the American Society for Public Administration's Section on Environment 
and Natural Resources Administration. O'Leary has served as chair of 
the Public Administration Section of the American Political Science 
Association, and as the chair of the Section on Environment and Natural 
Resources Administration of the American Society for Public 
Administration.

Mr. David Raspet:
Engineering Consultant

    David Raspet is an expert in national security space architectures, 
payloads, avionics, space electrical power development, and 
integration, in addition to his experiences as a manager in a wide 
variety of military and commercial programs. He is currently a 
consultant to the USAF EELV Program Office, where he assists in 
defining the mission assurance program and develops enhanced program 
management methods. In 2002, he was responsible for the independent 
review of Titan IVB-30 readiness and the spacecraft/launch vehicle 
integration.
    Prior public and private sector experience includes: Future 
Imagining Architecture Space Segment IPT Lead--Boeing; FIA Mission 
Payload IPT Lead, Low Altitude Demonstration System Program Director, 
Delta IV Program Director, Director of Flight Systems--McDonnell 
Douglas; Vice Director, Secretary of the Air Force Special Projects--
Air Force; Deputy Director, Launch and Support Operations--Air Force.
    Raspet received his Bachelor of Science degree in Physics from 
Mississippi State University and his Master's degree in Electro-Optical 
Engineering Physics from the Air Force Institute of Technology.

Dr. Decatur B. Rogers, P.E.:
Dean Tennessee State University College of Engineering, Technology and 
Computer Science
    Since 1988, Dr. Rogers has served as the Dean, College of 
Engineering, Technology and Computer Science and Professor of 
Mechanical Engineering at Tennessee State University in Nashville, 
Tenn. Rogers served in professorship and dean positions at Florida 
State University, Tallahassee, Fla., Prairie View A&M University, 
Prairie View, Texas, and Federal City College, Washington.
    Rogers holds a Ph.D. in Mechanical Engineering from Vanderbilt 
University; Masters' in Engineering Management and Mechanical 
Engineering from Vanderbilt University; and a Bachelor's in Mechanical 
Engineering from Tennessee State University.

Mr. Sy Rubenstein:
Aerospace Consultant

    Sy Rubenstein was a major contributor to the design, development 
and operation of the Space Shuttle and has been involved in commercial 
and government projects for more than 35 years. As an employee of 
Rockwell International, the prime contractor for the Shuttle, he was 
the Director of System Engineering, Chief Engineer, Program Manager and 
Division President during twenty years of space programs.
    He has received the NASA Public Service Medal, the NASA Medal for 
Exceptional Engineering and the AIAA Space Systems Award for his 
contributions to manned space development. Rubenstein, a leader, 
innovator and problem solver, is a fellow of the AIAA and the AAS.

Mr. Robert Sieck:
Aerospace Consultant

    Robert Sieck, the former Director of Shuttle Processing at the 
Kennedy Space Center (KSC), has an extensive background in Shuttle 
systems, testing, launch, landing and processing. He joined NASA in 
1964 as a Gemini Spacecraft Systems engineer and then served as an 
Apollo Spacecraft test team project engineer. He later became the 
Shuttle Orbiter test team project engineer, and in 1976 was named the 
Engineering Manager for the Shuttle Approach and Landing Tests at 
Dryden Flight Research Facility in California. He was the Chief Shuttle 
Project Engineer for STS-1 through STS-7 and became the first KSC 
Shuttle Flow Director in 1983. He was appointed Director, Launch and 
Landing Operations in 1984, where he served as Shuttle Launch Director 
for 11 missions.
    He served as Deputy Director of Shuttle Operations from 1992 until 
January 1995 and was responsible for assisting with the management and 
technical direction of the Shuttle program at KSC. He also retained his 
position as Shuttle Launch Director, a responsibility he had held from 
February 1984 through August 1985, and then from December 1986 to 
January 1995. He was Launch Director for STS-26R and all subsequent 
Shuttle missions through STS-63. Sieck served as Launch Director for 52 
Space Shuttle launches.
    He earned his Bachelor of Science degree in Electrical Engineering 
at the University of Virginia in 1960 and obtained additional 
postgraduate credits in mathematics, physics, meteorology, and 
management at both Texas A&M and the Florida Institute of Technology. 
He has received numerous NASA and industry commendations, including the 
NASA Exceptional Service Medal and the NASA Distinguished Service 
Medal. Sieck joined the Aerospace Safety Advisory Panel as a consultant 
in March 1999.

Lt. General Thomas Stafford, USAF (Ret.):
Co-Chair, Return-to-Flight Task Group
President, Stafford, Burke & Hacker Inc., technical consulting

    General Stafford, an honors graduate of the U.S. Naval Academy, 
joined the space program in 1962 and flew four missions during the 
Gemini and Apollo programs. He piloted Gemini 6 and Gemini 9, and 
traveled to the moon as Commander of Apollo 10. He was assigned as head 
of the astronaut group in June 1969, responsible for the selection of 
flight crews for projects Apollo and Skylab.
    In 1971, Stafford was assigned as Deputy Director of Flight Crew 
Operations at the NASA Manned Spaceflight Center. His last mission, the 
Apollo-Soyuz Test Project in 1975, achieved the first rendezvous 
between American and Soviet spacecrafts.
    He left NASA in 1975 to head the Air Force Test Flight Center at 
Edwards Air Force Base and in 1978 assumed duties as Deputy Chief of 
Staff, Research Development and Acquisition, USAF Headquarters in 
Washington. He retired from government service in 1979 and became an 
aerospace consultant.
    Stafford has served as Defense Advisor to former President Ronald 
Reagan; and headed The Synthesis Group, which was tasked with plotting 
the U.S. return to the moon and eventual journey to Mars.
    Throughout his careers in the Air Force and NASA space program, he 
has received many awards and medals including the Congressional Space 
Medal of Honor in 1993. He served on the National Research Council's 
Aeronautics and Space Engineering Board, the Committee on NASA 
Scientific and Technological Program Reviews, and the Space Policy 
Advisory Council.
    He was Chairman of the NASA Advisory Council Task Force on Shuttle-
Mir Rendezvous and Docking Missions. He is currently the Chairman of 
the NASA Advisory Council Task Force on International Space Station 
Operational Readiness.

Tom Tate:

    Tom Tate was Vice President of Legislative Affairs for the 
Aerospace Industries Association (AIA), the trade association 
representing the Nation's manufacturers of commercial, military and 
business aircraft, helicopters, aircraft engines, missiles, spacecraft, 
and related components and equipment. Joining AIA in 1988, Tate directs 
the activities of the Association's Office of Legislative Affairs, 
which monitors policy issues affecting the industry and prepares 
testimony that communicates industry's viewpoint to Congress.
    Before joining AIA, Tate served on the staff of the House of 
Representative's Committee on Science and Technology for 14 years. 
Joining the staff in 1973 as a technical consultant and counsel to the 
House Subcommittee on Space Science and Applications, he was appointed 
Deputy Staff Director of the House Subcommittee on Energy Research and 
Development in 1976. In 1978, Tate returned to the Space Subcommittee 
as Chief Counsel, and in 1981 he became Special Assistant to the 
Chairman of the Committee until joining AIA.
    Tate worked for the Space Division of Rockwell International in 
Downey, Calif., from 1962 to 1973 in various engineering and marketing 
capacities and was Director of Space Operations when he departed the 
company in 1973. He worked on numerous programs, including the Gemini 
Paraglider, Apollo, Apollo/Soyuz, and Shuttle Programs.
    Tate worked for RCA's Missile and Surface Radar Division in 
Moorestown, N.J. from 1958 to 1962 in the project office of the 
Ballistic Missile Early Warning System (BMEWS) program being built for 
the USAF. From 1957 to 1958, Tate served in the Army as an artillery 
and guided missile officer at Fort Bliss, Texas.
    Tate received a Bachelor's degree in Marketing from the University 
of Scranton in 1956 and a Law degree from Western State University 
College of Law in Fullerton, Calif., in 1970. In his final year of law 
school, his fellow students awarded him the Gold Book Award as the most 
outstanding student. In 1991, he received the Frank J. O'Hara award for 
distinguished alumni in science and technology from the University of 
Scranton.
    Tate is a member of numerous aerospace and defense associations 
including the American Institute of Aeronautics and Astronautics, the 
National Space Club, and the National Space Institute, where he serves 
as an advisor. He also served as a permanent civilian member of the 
National Aeronautics and Space Administration Senior Executive Service 
Salary and Performance Review Board.

William Wegner:
Consultant

    Wegner graduated from the U.S. Naval Academy in 1948. He 
subsequently received Masters' degrees in Naval Architecture and Marine 
Engineering from Webb Institute in New York. In 1956 he was selected by 
Admiral Hyman Rickover to join the Navy's nuclear program and was sent 
to MIT, where he received his Master's degree in Nuclear Engineering. 
After serving in a number of field positions, including that of Nuclear 
Power Superintendent at the Puget Sound Naval Shipyard, he returned to 
Washington. He served as Deputy Director to Admiral Rickover in the 
Naval Nuclear Program for 16 years and was awarded the DOD 
Distinguished Service Award and the Atomic Energy Commission's 
Distinguished Service Award.
    In 1979, he retired from government service, and formed Basic 
Energy Technology Associates with three fellow naval retirees. During 
its 10 successful years of operation, it provided technical services to 
over 25 nuclear utilities and other nuclear-related activities. He has 
served on a number of panels including the National Academy of Sciences 
that studied the safety of Department of Energy nuclear reactors. From 
1989 to 1992, he provided technical assistance to the Secretary of 
Energy on nuclear-related matters. He has provided technical services 
to over 50 nuclear facilities. Wegner served as a Director of the Board 
of Directors of Detroit Edison from 1990 until retiring in 1999.

Mr. David Lengyel:
Executive Secretary, Return-to-Flight Task Group

    Since February 2003, Lengyel has served on the administrative staff 
of the Columbia Accident Investigation Board (CAIB). Prior to this he 
was Executive Director of the Aerospace Safety Advisory Panel for 
almost two years.
    From 1999 through 2000, Lengyel served a tour of duty as the 
Manager of the Moscow Technical Liaison Office (MTLO) for the 
International Space Station Program in Russia. The MTLO interfaces with 
Russian contractors and space agency personnel to monitor and track the 
progress of Russian Segment elements, Soyuz/Progress vehicles as well 
as provide technical liaison between U.S. and Russian engineering/
mission integration personnel.
    Lengyel joined NASA in October 1993 as the third Executive Officer 
to Administrator Daniel S. Goldin. He served in several program 
operations and payloads capacities within the ISS and Shuttle-Mir 
Programs at the Johnson Space Center from 1994 to 1998. He led an 
analytical assessment of Shuttle-Mir lessons learned for application to 
the ISS.
    Prior to joining NASA, Lengyel was a senior aircrew-training 
instructor for McDonnell-Douglas in St. Louis. He conducted pilot 
training for the FA-18 Hornet and F-15 Eagle for both foreign and 
domestic customers.
    He is a Lieutenant Colonel in the Marine Corps Reserves and has 
accumulated over 2000 hours flight time in the F-4S Phantom II, OV-10 
Bronco, and FA-18 Hornet.
    Lengyel holds a Bachelor of Science degree from the U.S. Naval 
Academy, an MBA from the University of Missouri, and an MA in 
International Affairs from Washington University in St. Louis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           Table of Contents

I. Purpose

II. Charter

III. Management Plan

IV. Staffing

V. Deployment

VI. Integrated Schedule

VII. Appendix A--NESC Charter

I. Purpose

    This document will provide guidance to the NASA Engineering and 
Safety Center (NESC) Implementation Planning Team, to ensure that the 
NESC is operational by October 1, 2003.

II. Scope

    The Associate Administrator for the Office of Safety and Mission 
Assurance and the NASA Chief Engineer established the Implementation 
Planning Team. The team has participation from all NASA Field Centers, 
Headquarters, Space Shuttle Program and International Space Station 
Program.
    The Implementation Planning Team is responsible for: establishing 
the NESC Management Plan; establishing initial agreements between 
Centers and external organizations; staffing the NESC; and, 
communicating/deploying the NESC's operation plan across the Agency. 
This Implementation Plan has been prepared as a guide toward 
accomplishing these objectives and does not require formal approval.

III. Charter

    The NESC charter was created by the Associate Deputy Administrator 
for Technical Programs; NASA Chief Engineer; Associate Administrator 
for the Office of Safety and Mission Assurance, Langley Research Center 
Director and Special Assistant to the LaRC Center Director. The Charter 
was presented to, and approved by, the Executive Council on August 1, 
2003. The Charter was used to develop this Implementation Plan and will 
be used to develop the NESC Management Plan (reference Attachment A).

IV. Management Plan

    The NESC Implementation Planning Team will use the Charter, concept 
briefing and this Implementation Plan to develop a formal Management 
Plan. The Management Plan will include, as a minimum: roles and 
responsibilities of the NESC; interface of the NESC with the Centers, 
programs and other independent assessment organizations; staffing plan; 
independent reporting structure; metrics; and concept of operation.
    The Implementation Planning Team will sponsor a minimum of two 
retreats to obtain input from key stakeholders for use in the 
development of the NESC Management Plan. The first retreat will include 
those organizations that currently have the technical skills and 
specialized facilities that the NESC will require. The second retreat 
will involve the primary customers of the NESC, the Safety and Mission 
Assurance (S&MA) Directors from each Center. After receiving feedback 
from these two key groups, the Implementation Planning Team will 
finalize the Management Plan through a series of twice-weekly meetings. 
The final baseline draft will be placed under formal configuration 
control. Implementation Planning Team members will obtain approval of 
the Management Plan from each Center Director. Final approval is 
targeted for September 15, 2003 with signatures from the Associate 
Administrator for the Office of Safety and Mission Assurance and the 
NASA Chief Engineer.

V. Staffing

    The NESC will be NASA's elite engineering organization. The NESC 
will be staffed with high-grade, high-performing civil service 
scientific and engineering personnel. This workforce will be 
distributed across NASA's Centers but will be centrally managed and 
funded by the NESC, utilizing a Task Agreement, or equivalent, process. 
. It will be supplemented by partnerships from across the Nation.
    In order to attract and keep NASA's best engineers, consistent with 
the NESC charter and mission, appropriate pay and promotion 
opportunities will be offered. The NESC will require a high percentage 
of Senior Executive, Leadership or Technical (SES, SL or ST) positions. 
The following list does not reflect a detailed position-by-position 
analysis of personnel requirements, but it can be used for planning 
purposes: Director (1), Deputy Director (1), Principle Engineers (4), 
Program Chief Engineers (6), Discipline Chief Engineers (12), Business 
Manager (1), Chief Systems Engineer (1), Chief Astronaut (1), S&MA 
Liaison (1). The Implementation Planning Team will seek special 
approval from the NASA Human Resource Office, and the Excepted Service 
category may be utilized as appropriate.
    All positions will be posted internal and external to the agency in 
an effort to recruit the Nation's best engineers to the NESC. The NESC 
should be allocated a minimum of six outside hire slots, in the event 
that the best candidates for a particular position are outside of NASA. 
All senior level positions should be selected by October 1, 2003. The 
remaining positions will be filled as required based on need.
    Position descriptions and job announcements must be completed in 
the month of August for these key positions. Once these senior 
positions are selected, the remaining organization will be staffed, 
utilizing existing engineering experts across the Agency. These 
positions will be matrixed from their existing engineering organization 
through formal task agreements, as stated above. These task agreements 
will document requirements and resources and will be updated each year, 
through the POP process, to reflect the needs of the NESC.
    To ensure successful implementation of the NESC, initial operations 
will be focused on the Space Shuttle and International Space Station 
Programs and other selected programs to be determined with input from 
the centers and enterprises. The initial staffing of the NESC will be 
limited to the disciplines and skills required to support these 
programs, based on the historical precedence of problem traffic.
    A multi-Center board, chaired by the Special Assistant to the LaRC 
Center Director, will be responsible for selecting the high-grade 
positions. The board will ensure the best candidates are selected from 
across the Agency and external community. The Special Assistant to the 
LaRC Center Director will make lower-grade selections. The responsible 
Chief Engineer will make the remaining matrixed positions selections.

VI. Deployment

    The success of the NESC is contingent on the full support of NASA's 
ten field centers. The engineering expertise crucial to provide the 
best technical independent assessment resides at the field centers. For 
the NESC to attract the best and brightest, it must be recognized as 
NASA's elite engineering organization. The proposed charter clearly 
defines the role of the NESC to provide independent engineering 
technical expertise to evaluate and supplement safety and engineering 
activities for NASA programs. This represents a very challenging role 
for the Agency's best engineers.
    The NESC must also create a natural hierarchical progression for 
engineers to ensure the organization continues to be staffed with 
NASA's best engineers. This will be accomplished by offering strong 
leadership and pay and promotion opportunities commensurate with the 
challenging work required by the NESC. The proposed NESC career 
progression is depicted in Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Also key to the success of the NESC is the full participation and 
commitment by all the Centers and the programs in developing the 
implementation and management plans for the NESC. Since the engineering 
directorates at each Center are key participants, the NESC will sponsor 
a separate retreat to review and revise the plans to allow each 
Center's viewpoint to be considered. In addition there will be a 
separate retreat with the S&MA Directors from each center to receive 
their feedback on the plans as the NESC primary customers.
    NASA has been conducting a benchmarking exchange with the Naval 
Nuclear Propulsion Program (NNPP) that has an outstanding history of 
safe operation of the Navy's nuclear reactors. The NESC Implementation 
Planning Team will visit the NNPP during the month of August for 
insight and lessons learned, which will be considered in the creation 
of the NESC plans.
    The NESC will visit all NASA Centers and Enterprises with a 
briefing describing the NESC's function and operation. Active 
recruiting and marketing of the NESC must be performed by the NESC, 
Public Affairs Office, Human Resources and Engineering Organizations to 
ensure the mission of the NESC reaches all levels of our organizations. 
This needs to be an aggressive recruiting campaign through the months 
of August and September to achieve start up in October 2003 and should 
include such things as an NESC web site with access both internal and 
external to NASA, NESC articles in all of the Centers newsletters, NESC 
articles in national publications and even an NESC poster distributed 
to all Centers. The NESC Implementation Planning Team members will 
present the NESC concept briefing to key organizations at their 
respective Centers and act as a focal point for NESC information. 
Communication will be the key to attracting NASA's best engineers and 
thus ensuring the NESC's success.
    Each Center will be responsible for establishing facilities to 
house the NESC members located at their respective Centers. This 
includes office space, desks, phones, and computers, ect. In all cases, 
the NESC members should be co-located with the engineering organization 
or program they will be supporting. The NESC members should be provided 
accommodations and equipment consistent with their pay grade. 
Establishing appropriate facilities for NESC members will be essential 
to demonstrating the Center's commitment to the NESC.

VII. Integrated Schedule
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


VIII. Appendix A--NESC Charter

                              NESC Charter

1.0 PURPOSE

1.1  This charter establishes the NASA Engineering and Safety Center 
(NESC) and sets forth its functions and interfaces.

1.2  The NESC provides independent engineering technical expertise to 
evaluate and supplement safety and engineering activities for NASA 
programs. The NESC will perform independent engineering assessments, 
analysis and testing to assure technical adequacy and safety of NASA 
activities.

2.0 APPLICABILITY/SCOPE

2.1  This Charter is applicable to NASA Headquarters and all NASA 
Centers, including Component Facilities, and to prime contractors 
including the Jet Propulsion Laboratory to the extent specified in 
applicable contracts.

2.2  The scope of the term ``Safety'' as used in the title and content 
of this charter encompasses those aspects of NASA system designs and 
operations that are important to mission success and that relate to 
potential risks to the public, and to NASA and contractor flight and 
ground personnel. The scope of the term ``Engineering'' as used in the 
title and content of this charter signifies any of the professional 
technical design, manufacturing, and operational disciplines, including 
systems engineering, and the various specific engineering disciplines.

3.0 AUTHORITY

    42 U.S.C. 2473 (c) (1), Section 203 (c) (1) of the National 
Aeronautics and Space Act of 1958, as amended.

4.0 FUNCTIONS

4.1  Provides a centralized location for the management of independent 
engineering assessment supported by expert personnel, state of the art 
tools and methods for the purpose of assuring safety.

4.2  Performs independent engineering review, analysis and testing to 
uncover technical vulnerabilities and to determine the appropriate 
preventative or corrective action for NASA programs.

4.3  Performs independent safety and engineering trend analyses and 
technical risk assessments utilizing program and discipline data 
sources and state of the art tools and techniques looking for trends 
across and within programs.

4.4  Provides technical leadership and expertise in support of Agency 
engineering and safety and mission assurance audits and reviews 
(including providing recommendations certifying the adequacy of areas 
reviewed).

4.5  Facilitates and/or leads mishap investigations. Analyzes Agency 
mishap and close-call data for trends and causes and develops 
countermeasures for prevalent proximate and root causes, and 
disseminates information on analysis results.

4.6  Promotes continual improvement of engineering and safety within 
NASA by capturing, disseminating, and using knowledge gleaned both 
inside and outside the Agency.

4.7  Assesses and validates existing analytical techniques, engineering 
standards, models, simulations, and other tools for adequacy and 
capability. Enhances or corrects deficient analytical techniques and 
tools and develops advanced assessment techniques and tools.

4.8  Based on Agency Lessons Learned, performs systems engineering 
reviews of program management practices and processes. Establishes best 
practices.

4.9  Participates as appropriate in Agency engineering and system 
safety training and mentoring programs

5.0 MANAGEMENT STRUCTURE

5.1  The NESC Director will report to the Director, Langley Research 
Center.

5.2  The AA, OSMA with concurrence of the Chief Engineer will establish 
program direction that LaRC will implement through the NESC. The AA, 
OSMA; the Chief Engineer; and the Center Director, LaRC will create a 
mutually agreed on standard process for establishing, integrating, and 
implementing this program direction.

5.3  Other NASA Centers will provide technical personnel to support 
operation of the NESC as requested by the NESC Director consistent with 
program direction per 5.2.

5.4  The NESC Director will establish a suitable infrastructure to 
execute the responsibilities of this Charter, making use of resources 
at Langley, other NASA Centers, other government agencies, industry, 
and academia as appropriate.

6.0 PRINCIPLES OF OPERATION

6.1  The NESC will be staffed with high grade, civil service, high 
performing scientists, engineers and technicians who are considered 
experts in their fields. The workforce will be supplemented through 
partnerships with other federal agencies, National Laboratories, 
universities and expert consultants, as needed. Funding will be 
provided from Corporate G&A.

6.2  NESC will serve as a major Agency-wide technical resource focused 
on safety and success for Agency missions. People assigned to NESC will 
have upward mobility to other positions in the agency after rotational 
(2-5 year) assignments with the NESC.

6.3  The NESC will draw expertise from other Centers to perform its 
mission (capabilities should not be duplicated but rather leveraged). 
When NASA employees at other Centers are used to support the NESC 
because of their unique expertise, they will report to and be funded by 
the NESC for the period of time of their support.

6.4  The NESC will serve the SMA, Engineering and program/project 
communities as a value added, independent resource.

6.5  Independent assessments will be carefully chosen and managed with 
a strong focus on the customer needs. Work will be prioritized based on 
technical risk, the need for independence, and the potential for value 
added contribution.

6.6  The NESC will generally not perform its work as a substitute for 
that performed in support of specific programs and projects, but will 
generally perform work to provide improvements in broadly applicable 
technical disciplines and to independently assess and verify the 
adequacy of program and project technical work.

7.0 DURATION

    The NESC will remain in existence at the discretion of the 
Administrator.

8.0 RECORDS

    The Langley Center Director, in consultation with the NASA 
Associate Administrator for Safety and Mission Assurance and the NASA 
Chief Engineer, is responsible for the maintenance of this charter and 
all other Agency-level records associated with the NESC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           Table of Contents

I. Purpose

II. Scope

III. Roles and Responsibilities

IV. Principles of Operation

V. Organization

VI. Processes

VII. Related Documentation

I. Purpose

    This management plan documents the operation of the NASA 
Engineering and Safety Center (NESC) and represents a contract between 
the NESC and its primary customers.
    The NESC is being formed to ensure that NASA's safety and mission 
assurance (SMA) organizations will have adequate technical expertise 
and resources for independent, in-depth, technical reviews of NASA's 
programs. One of the Columbia Accident Investigation Board findings was 
that the overall safety organizations previously lacked the expertise 
and resources to adequately conduct independent technical reviews. In 
order to bring the country's outstanding technical experts to bear on 
the problems and challenges of NASA programs, the NESC will be 
comprised of the best engineering expertise from across the Agency and 
will include partnerships with expert consultants from other government 
organizations, National Laboratories, universities, and industry.

II. Scope

    The NESC will:

        1.  Perform independent in-depth technical reviews, assessments 
        and analyses of high-risk projects for SMA organizations, 
        engineering organizations and programs.

        2.  Perform independent engineering and SMA trend analysis.

        3.  Provide independent systems engineering analysis.

        4.  Facilitate or lead selected mishap investigations.

        5.  Support programs or institutions in resolving the Agency's 
        high-risk technical issues.

    The NESC will perform these functions across all major NASA 
programs and/or as directed by the Associate Administrator for Safety 
and Mission Assurance and/or NASA Chief Engineer. To ensure successful 
implementation of the NESC, initial operations will be focused on the 
Space Shuttle and International Space Station programs and other 
selected high-risk, high-visibility programs.
    Rather than relieving NASA program managers from their 
responsibility for safety, the NESC will complement the programs by 
providing an independent technical review, assessment or analysis with 
additional technical expertise, using independent funding. These 
activities will be prioritized and selected based upon a formal risk 
assessment and will encompass both NASA and contractor programs, 
processes and facilities.
    The NESC will provide an independent engineering chain-of-command 
in commissioning and conducting independent technical reviews, 
assessments and analyses. In addition, it will function as an 
independent line of communication to ensure and encourage communication 
for all NASA employees and consideration of all points of view on 
critical technical issues.

III. Roles and Responsibilities

Associate Administrator for Safety and Mission Assurance
    The Associate Administrator for Safety and Mission Assurance will 
provide policy and funding authority for the NESC. The Office of Safety 
and Mission Assurance and the SMA organizations at the Centers will be 
the primary customer, and funding source, of the NESC and can request 
the NESC to perform independent technical reviews, assessments and 
analyses, based on safety and mission success concerns. The NESC will 
report the results of these activities to the Associate Administrator 
for Safety and Mission Assurance.
NASA Chief Engineer
    The NASA Chief Engineer will, with concurrence from the Associate 
Administrator for Safety and Mission Assurance, have policy authority 
for the NESC. The NASA Chief Engineer and the engineering organizations 
at the NASA Centers will also be primary customers of the NESC. The 
NASA engineering organizations will be the primary source of 
engineering expertise that will make up the NESC. The NASA Chief 
Engineer will review and approve the lessons learned, best practices, 
and engineering policy that the NESC develops. The NASA Chief Engineer, 
in consultation with the Associate Administrator for Safety and Mission 
Assurance, can request the NESC to perform independent technical 
reviews, assessments and analyses, based on safety concerns. The NESC 
will report the results of these activities to the NASA Chief Engineer.
Director, Langley Research Center
    The NESC will be located at the Langley Research Center in Hampton, 
VA. The Center Director, Langley Research Center, will direct the 
implementation of the policy and guidance provided by the Associate 
Administrator for Safety and Mission Assurance and the NASA Chief 
Engineer. The Director, Langley Research Center, will make the required 
Langley Research Center resources and facilities available for the NESC 
to carry out its mission. The NESC will fund Center activities 
performed on behalf of the NESC. The Director, Langley Research Center, 
can request the NESC to perform independent technical reviews, 
assessments and analyses with concurrence of the Associate 
Administrator for Safety and Mission Assurance. The NESC will report 
the results of these activities to the Director, Langley Research 
Center.
Director, NASA Engineering and Safety Center
    The Director, NASA Engineering and Safety Center will implement the 
direction, policy, and guidance as provided by the Director, Langley 
Research Center, NASA Chief Engineer, and the Associate Administrator 
for Safety and Mission Assurance. The Director, NASA Engineering and 
Safety Center, will manage the resources of the NESC to perform 
independent technical reviews, assessments and analyses of NASA's major 
programs, based on safety and mission success concerns and prioritized 
by formal risk assessment. The Director, NASA Engineering and Safety 
Center, will ensure the NESC obtains, through accepted full cost 
practices, the technical capability, resources and facilities to 
conduct its activities for its customers.
Directors, NASA Centers
    The Directors of the NASA Centers will make the required resources 
and facilities at their respective Centers available for the NESC to 
complete its mission. The NESC will fund Center activities performed on 
behalf of the NESC. Directors of NASA Centers can request the NESC to 
perform independent technical reviews, assessments and analyses. The 
NESC will report the results of these activities to the respective 
Directors.

IV. Principles of Operation

    The NESC will perform independent in-depth technical reviews, 
assessments and analyses as requested by its primary customers. These 
activities will be performed across major NASA programs and NASA 
Centers. The NESC will set the example for a strong safety culture by 
providing knowledgeable leadership to perform technical reviews, 
assessments and analyses in an open environment and attacking the 
problems and issues with unequaled tenacity. By being independent, the 
NESC will be able to focus on potential or current trouble spots in 
three ways: proactive, active and reactive.
    In being proactive, the NESC will be trained in, and use, new 
techniques and tools for uncovering potential problems before they 
occur. The NESC will review trends, not only within programs but also 
across programs, to identify potential concerns before they become 
major problems. The areas to be reviewed will be based upon criticality 
and risk, regardless of whether a program has requested an independent 
review. The NESC will also perform test and analysis of issues that no 
particular program is currently working. In addition, the NESC will 
document and maintain a compilation of lessons learned, communicate 
lessons learned to all programs and Centers, and work with programs and 
Centers to incorporate lessons learned into new programs and 
activities.
    The NESC will remain active by participating in major program 
reviews and boards to gain insight into program decisions and technical 
rationale. This insight will be used to determine if an independent 
technical review, assessment or analysis of known risk areas is 
warranted. The NESC will provide the agency a second look at these 
known high-risk areas of programs and projects. In addition, the NESC 
will work technical issues in real-time with the programs as needed.
    The NESC will be reactive by independently leading, or 
facilitating, investigations of selected mishaps and close calls, as 
requested.
    The NESC will also encourage, cultivate, document, review and 
disposition dissenting opinions across the technical community. The 
NESC will set an example for the Agency in seeking out and evaluating 
differing points of view.
    In order to fulfill these functions, the NESC will establish, and 
maintain, a ``ready'' pool of critical skills from within NASA and from 
outside organizations such as other government organizations, National 
Laboratories, universities, and industry. The NESC will strive to 
develop a diverse personnel base, in order to ensure the broadest 
possible insight and perspective is maintained.
    The NESC senior leadership positions may be limited in length (two 
years with up to three one-year extensions) in order to maintain 
competencies in the both the NESC and at the Centers. In addition, a 
set of metrics will be established and maintained for the NESC to 
assess its own performance.

V. Organization

    The NESC will be a decentralized organization with a management 
office located at the Langley Research Center. To build a diverse 
organization, the NESC will draw upon expertise both internal to NASA, 
and from outside the agency. The NESC will utilize the engineering 
resources (both personnel and facilities) resident at each of ten NASA 
Centers, leveraging off each Center's areas of expertise (Figure 1). 
The NESC will procure additional engineering expertise as required, by 
contracting consultants and partnerships with other government 
organizations, National Laboratories, universities and industry. By 
involving the external community, the NESC will ensure that a broad and 
diverse perspective is maintained. The NESC will have strong technical 
representation located at each of the NASA Centers to provide insight 
into programs and projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The NESC organization will be comprised of the following offices 
(see Figure 2):

        <bullet>  Office of the Director (resident at Langley Research 
        Center)

        <bullet>  Business Management Office (resident at Langley 
        Research Center)

        <bullet>  Systems Engineering Office (resident at Langley 
        Research Center and NASA Centers)

        <bullet>  Principal Engineers Office (resident at Langley 
        Research Center)

        <bullet>  NESC Chief Engineers Office (resident at NASA 
        Centers)

        <bullet>  Discipline Chief Engineers Office (resident at NASA 
        Centers)

    The resources reporting to each Discipline Chief Engineer will be 
matrixed from across the Agency by formal task agreements. Non-NASA 
experts will also be acquired through appropriate mechanisms.
    Maintaining the technical expertise of its personnel and providing 
insight into the Agency's high-risk programs and projects is critical 
to the success of the NESC. To accomplish both of these objectives, 
NESC personnel must be co-located within the programs, projects and 
engineering organizations. In addition, NESC personnel must maintain 
positions of prominence within their parent organizations and must 
participate as formal members of the respective boards and reviews.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Office of the Director
    The Office of the Director is responsible for implementing the 
direction and policy established by the Associate Administrator for 
Safety and Mission Assurance and the NASA Chief Engineer, under the 
direction of the Director, Langley Research Center.
    The Director, NASA Engineering and Safety Center will distribute 
technical resources, as required, to perform independent in-depth 
technical assessments, reviews and analyses of NASA programs. The 
Director will chair the NESC Review Board. Through the NESC Review 
Board, the Director will approve requests for independent assessments 
and will approve the final documentation for all independent reviews, 
assessments and analyses performed by the NESC, prior to release to the 
customer. The Director, or designee, will be a non-voting member of the 
highest-level review board (such as Flight or Launch Readiness Reviews) 
for selected programs, with authority to request action from the 
program/board. The Director, NASA Engineering and Safety Center, is 
authorized to delegate authority to act on his behalf.
    The NESC Safety and Mission Assurance Liaison will be detailed to 
the NESC by the Associate Administrator for Safety and Mission 
Assurance and will serve as the NESC SMA engineering discipline expert 
and senior SMA advisor to the Director, NASA Engineering and Safety 
Center. In this capacity, the NESC Safety and Mission Assurance Liaison 
will facilitate communications and coordination among Center SMA 
organizations and NESC Chief Engineers, and will serve as a point of 
entry for Center SMA organizations to obtain access to NESC technical 
resources. The NESC Safety and Mission Assurance Liaison, through the 
Office of Safety and Mission Assurance, will be responsible for 
accessing the SMA technical and engineering discipline experts from 
across the Agency, other government organizations, universities, and 
industry (including systems safety engineering, reliability and 
maintainability engineering, quality engineering, software quality 
assurance, quality control and industrial safety) necessary to support 
NESC technical reviews, assessments, and analyses. The NESC Safety and 
Mission Assurance Liaison and will also provide the technical 
leadership of the safety and mission assurance technical resources 
supporting NESC activities. In addition, the NESC Safety and Mission 
Assurance Liaison will serve as day-to-day representative of the 
Associate Administrator for Safety and Mission Assurance. The NESC 
Safety and Mission Assurance Liaison will communicate Agency SMA policy 
interpretations to the NESC and support the selection of reviews, 
assessments, and analyses through the appropriate involvement of the 
Associate Administrator for Safety and Mission Assurance. The NESC 
Safety and Mission Assurance Liaison will serve on the NESC Review 
Board and will also represent the NESC in all Agency-level SMA boards 
and reviews.
    The Chief Astronaut will assemble and lead a ``Flight Operations'' 
Super Problem Resolution Team for all operational independent technical 
reviews, assessments or analyses involving human space flight 
operations (both aerospace and aeronautic). Depending on the nature of 
the activity, a different leader with the appropriate skills and 
experiences will be selected to lead a specific flight operations team. 
The Chief Astronaut will serve on the NESC Review Board.
    The Chief Scientist will assemble and lead a ``Flight Operations'' 
Super Problem Resolution Team for all operational independent technical 
reviews, assessments or analyses involving non-human flight operations 
(both aerospace and aeronautic). Depending on the nature of the 
activity, a different leader with the appropriate skills and 
experiences will be selected to lead a specific flight operations team. 
The Chief Scientist will serve on the NESC Review Board.
Business Management and Support Office
    The Business Management and Support Office (BMSO) is responsible 
for all the business management and administrative support for the 
NESC. Responsibilities of the BMO include:

        <bullet>  Establishing and developing partnerships and/or 
        contracts with other government agencies, National 
        Laboratories, universities and industries.

        <bullet>  Establishing, maintaining, and managing formal Task 
        Agreements with each NASA Center for the matrix support of 
        technical experts.

        <bullet>  Providing technical writers for NESC reports and 
        briefings.

        <bullet>  Performing configuration control for NESC 
        documentation and boards.

        <bullet>  Providing NESC knowledge-capture and communication of 
        lessons learned across the Agency.

        <bullet>  Establishing a training regimen for NESC personnel.

    The Manager, Business Management and Support Office will be 
responsible for establishing the NESC Operating Plan, acting as the 
Contracting Officers Technical Representative (COTR) for contracts 
established to carry out the duties of the NESC and serving as a member 
of the NESC Review Board.
Systems Engineering Office
    The Systems Engineering Office (SEO) will be responsible for 
conducting independent systems engineering reviews of NASA programs. As 
appropriate, the reviews will include independent assessment of program 
practices and processes, as well as systems engineering analysis. In 
addition, the SEO will perform independent trending of problems, 
mishaps and close calls within, and across, programs. The SEO will have 
a core membership resident at the Langley Research Center and will be 
full-time, hard-lined NESC employees. The SEO will also include 
participation of matrixed systems engineering experts from across the 
Agency and appropriate external organizations. The Manager, Systems 
Engineering Office, will be a member of the NESC Review Board.
Principal Engineers Office
    The Principal Engineers Office (PEO) will provide leadership for 
teams of discipline specialists performing independent technical 
reviews, assessments, and analyses of complex, multi-disciplinary 
systems. The Principal Engineers will reside at the Langley Research 
Center and will be full-time, hard-lined NESC employees. The Principal 
Engineers will be responsible for leading teams in the performance of 
established processes for Independent Technical Assessments, Technical 
Inspections, Technical Support, Technical Advocacy, and Mishap 
Investigations. The Principal Engineers will also be responsible for 
maintaining a catalogue of interdisciplinary tools, methods, and 
resources. Each Principal Engineer will be a member of the NESC Review 
Board.
NESC Chief Engineers Office
    The NESC Chief Engineers Office (NCEO) will provide the NESC with 
technical insight into NASA's programs. The NESC Chief Engineers Office 
is comprised of recognized experts who reside at each of the NASA 
Centers and are full-time, hard-lined NESC employees. The primary duty 
of the NESC Chief Engineers will be to evaluate technical decisions and 
rationale in order to recommend to the NESC when an independent 
technical review, assessment or analysis is warranted or requested by 
the respective programs or institutional engineering. The NESC Chief 
Engineer provides the direct insight into high-risk programs and 
projects. By residing at the Centers, the NESC Chief Engineers will be 
able to stay current on all issues and will continue to support their 
home programs, projects and/or institutions. The NESC Chief Engineer 
will utilize additional full-time, hard-lined engineering support to 
cover all the Center's high-risk programs and projects, as required. 
The NESC Chief Engineer will foster regular, open communication with 
the program's SMA and engineering communities. The NESC Chief Engineers 
will be non-voting members of their respective program's technical 
review boards, with authority to request action from the program/board. 
Each NESC Chief Engineer will be a member of the NESC Review Board.
Discipline Chief Engineers Office
    The Discipline Chief Engineers Office (DCEO) will be comprised of 
experts who will reside within their respective NASA Center's 
engineering organizations, but will be full-time, hard-lined NESC 
employees. The DCEO provides the technical leadership of the NESC 
technical resources in order to perform independent technical reviews, 
assessments and analyses. The core set of Discipline Chief Engineers 
will be established to perform the initial technical assessments on 
Space Shuttle, International Space Station, and other selected 
Programs. Additional Discipline Chief Engineers will be added as 
required to perform additional assessments as the scope of the NESC 
expands. Each Discipline Chief Engineer will be responsible for 
establishing a Super Problem Resolution Team (Super PRT) that will 
consist of the Agency's best experts in that particular discipline, 
augmented by external experts from other government organizations, 
National Laboratories, universities, and industry, as required. While 
each Discipline Chief Engineer will report to the Director, NASA 
Engineering and Safety Center, the remaining Super PRT personnel will 
be matrixed through formal Task Agreements. Non-NASA experts will also 
be acquired through appropriate mechanisms. These Super PRTs will be 
called into action depending on the skills required for a particular 
independent technical assessment.
    When not supporting NESC activities, the matrixed personnel will 
perform their normal duties within their respective engineering 
organizations. Priorities will be negotiated and established between 
the Director, NASA Engineering and Safety Center and the Directors of 
the respective engineering organizations.
    If an independent technical review, assessment or analysis involves 
a single discipline; the cognizant Discipline Chief Engineer will lead 
the activity. If an independent assessment requires the involvement of 
multiple disciplines, a Principal Engineer will lead the assessment, 
with support from the appropriate Discipline Chief Engineers.
    The Discipline Chief Engineer will maintain a catalogue of critical 
skills and facilities available for their discipline. Each Discipline 
Chief Engineer will be a member of the NESC Review Board.

VI. Processes

Insight and Requests
    The NESC will gain insight into the programs through six separate 
paths:

        1.  Direct participation of the NESC Chief Engineers in their 
        respective Center's boards and reviews. It will be imperative 
        that the NESC select and maintain a strong corps of senior 
        engineers as NESC Chief Engineers. The NESC Chief Engineers 
        will be located at the program sites and participating with the 
        programs or projects during reviews and boards to gain insight 
        into program decisions, technical rationale and problem 
        resolutions. To provide formality and discipline to this 
        insight process, the NCE will be non-voting members of the 
        programs technical boards and reviews with authority to request 
        action by the program or project. This will give the NESC Chief 
        Engineers access to program decisions and in turn will give the 
        programs access to the NESC Chief Engineer's experience.

        2.  SMA participation in the programs. SMA insight into the 
        programs has been previously defined in SMA documentation. The 
        SMA organization will now have access to the NESC technical 
        resources through the NESC Safety and Mission Assurance Liaison 
        or by direction from the Associate Administrator for Safety and 
        Mission Assurance.

        3.  Institutional engineering participation with the programs, 
        as previously defined in program documentation. The 
        institutional engineers will now have an alternate path to 
        request independent technical review through the NESC Chief 
        Engineers.

        4.  NESC systems engineering review and independent analysis 
        and trending of program problems, issues, mishaps and close 
        calls both within and across programs.

        5.  The broad technical community, through a new NESC web site 
        or the existing NASA Safety and Reporting System (NSRS) web 
        site. Hidden or underlying opportunities may be best uncovered 
        by a well-advertised, simple web site for anonymous requests, 
        which may, or may not, represent an immediate safety concern.

        6.  NASA Senior Management

    Requests for an independent technical review, assessment or 
analysis may result from any of these six insight paths. The NESC 
Review Board will review these requests as they come in for technical 
merit and prioritize them through a simple risk assessment described 
below.
Independent Technical Assessments
    Once a request for independent technical review, assessment, or 
analysis (ITA) is made, either internally or externally, a formally 
documented process will be followed. Depending on the nature of the 
review, a NESC Principal Engineer will assemble and lead a multi-
disciplined team to perform the assessment. The composition of the team 
will include the appropriate Discipline Chief Engineers, with 
appropriate representation from their respective Super Problem 
Resolution Teams, as well as SMA, flight operations, and ground 
operations, and other independent assessment organization 
representatives, as required. For example, the NESC might partner with 
the independent verification & validation (IV&V) facility for those 
activities involving flight, ground or test software. The Principal 
Engineer will develop an Independent Assessment Plan (including 
schedule for completion), present an in-briefing for the program being 
assessed, lead the assessment (including any necessary testing and 
analysis) and present an out-briefing to the program. During the 
assessment, the Principal Engineers, and their teams, will conduct 
intermediate reviews with the NESC Review Board to get a peer review of 
the activity. The Principal Engineer will also be responsible for 
completing a final written report. For those technical assessments 
involving a single discipline, the Discipline Chief Engineer will lead 
the assessment, present the briefings, and complete the final report. 
Assessments of facility or ground systems will be conducted in the same 
manner as flight system reviews.
    During the course of the assessment, the NESC may issue requests, 
non-conformance reports or other appropriate actions, which will become 
constraints to proceed beyond a selected milestone. The NESC will use 
the documentation and closure process for the respective program or 
project. The constraint will be removed with the concurrence of the 
NESC. If the issue represents a critical safety issue, the NESC may 
issue a ``Stop Work'' notice until the program resolves the 
discrepancies to the satisfaction of the respective program board, with 
NESC member concurrence.
Technical Inspections
    Based on insight into the programs gained by the NESC, as 
previously described, the NESC may perform Technical Inspections (TI) 
to evaluate the technical adequacy of a particular area within program, 
even if a problem has not yet been detected. Examples of these 
potential inspection areas include: math models, analytical tools, 
manufacturing procedures, test procedures, vehicle processing, 
troubleshooting techniques, manufacturing tooling, ground support 
equipment, or special test equipment. As with the Independent Technical 
Assessments, a Principal Engineer would assemble and lead a multi-
discipline team to perform Technical Inspections. The composition of 
the team will include the appropriate Discipline Chief Engineers, with 
representation from their respective Super Problem Resolution Teams, as 
well as SMA, flight operations, ground operations and other independent 
assessment organizations representatives as required. Technical 
Inspections would be performed on short notice to the program, in order 
to ensure a real-time evaluation. Although there would not be an in-
briefing, there would be an out-briefing to the program or Center. The 
NESC will allow programs and projects the opportunity to correct any 
identified technical inadequacies prior to publishing the final report.
    During the course of the inspection, the NESC may issue requests, 
non-conformance reports or other appropriate actions, which will become 
constraints to proceed beyond a selected milestone. The NESC will use 
the documentation and closure process for the respective program or 
project. The constraint will be removed with the concurrence of the 
NESC. If the issue represents a critical safety issue, the NESC may 
issue a ``Stop Work'' notice until the program resolves the 
discrepancies to the satisfaction of the respective program board, with 
NESC member concurrence.
Technical Support
    On limited occasions a program or NASA Center may be confronted 
with a problem that is so complex that it would warrant assembling all 
the resources available to the Agency to resolve the problem in a 
timely manner. In this case the NESC, with approval from the Associate 
Administrator for Safety and Mission Assurance and NASA Chief Engineer, 
could be used as direct technical support to a program or NASA Center 
foregoing the role of independence. The requesting program or NASA 
Center would then fund those resources, and would utilize an outside 
team for an independent review of the activity. In this case the 
program could request specific Super Problem Resolutions Team support, 
with or without the NESC playing a leadership role. Use of NESC 
resources in this manner should be extremely rare to avoid diluting the 
primary charter of the NESC of providing independent technical 
assessments.
    Alternately, the NESC will make its catalog of resources, 
(personnel and facilities) and network of experts, available to 
programs and NASA Centers. In this case, the requesting programs can 
seek assistance directly; through appropriate contracting channels and/
or agreements. The NESC would remain independent of the activity and 
any individuals called upon by the requesting program or NASA Center 
would not be available to perform an independent technical assessment 
on the same issue.
Technical Advocacy
    The NESC will provide technical advocacy to SMA organizations, 
institutional engineering, program and projects as deemed necessary. 
This advocacy may include, but is not limited to, the endorsement of: 
suggested additional testing, maintaining critical skills or 
facilities, or programs fulfilling in-line functions. In addition, the 
NESC will promote the positive actions taken by individuals, programs 
or projects to correct identified technical inadequacies.
Independent Technical Assessment, Technical Inspection, or Technical 
        Support Selection and Prioritization
    Critical skills will always be a limited resource. Therefore the 
NESC must focus its critical skills on those issues with the highest 
risk. The prioritization of NESC activities will be accomplished 
through a consistent formal risk assessment, based on likelihood and 
consequence. In addition, a checklist of questions will be used when 
determining likelihood and consequence, in order to provide consistency 
and to uncover the less obvious risks. This approach, as illustrated in 
Figure 3, is currently being used in most programs and projects and is 
described in Agency polices.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


NESC Review Board
    The Director, NASA Engineering and Safety Center will Chair the 
NESC Review Board. Membership will include the Deputy Director, NESC 
Chief Engineers, Principal Engineers, Discipline Chief Engineers, NESC 
Chief Astronaut, NESC Chief Scientist, Manager, Systems Engineering 
Office, Manager, Business Management and Support Office, NESC SMA 
Liaison and NASA Chief Engineer's Office.
    The NESC Review Board will: review and approve all requests based 
on selection and prioritization process; provide peer reviews of on-
going assessments; ensure the consistency and technical adequacy of all 
reviews, prior to release to the customer; determine if any follow-on 
activity is required after the review, and provide direction for use of 
all resources including critical skills, facilities, testing, and 
analysis.
Knowledge Capture and Communication
    The NESC will capture and communicate knowledge through five 
complementary processes: periodic reports; lessons learned; training; 
annual workshops, and a web site.
    Periodic Reports: Beginning on October 1, 2004, and recurring at 
the beginning of each fiscal year, an annual report will be delivered 
to the Associate Administrator for Safety and Mission Assurance. The 
annual report will summarize the activities for the preceding year and 
will establish goals and metrics for the coming year. In addition, an 
internal reporting system will include quarterly reports from the 
Discipline Chief Engineers and NESC Chief Engineers, with emphasis on 
progress against the metrics of that year, for analysis by the NESC 
Review Board.
    Lessons Learned: One of the principal missions of the NESC is to 
bring system and order to the effective retention and utilization of 
lessons learned. To that end, three of the other processes in this 
section--training, annual workshops and web site--will, as their 
principal purpose, document and disseminate the results of NESC 
investigations, reviews and other activities.
    Training: NESC personnel will receive training to promote and 
establish innovative techniques to proactively uncover potential 
problems and issues in NASA's programs and projects. The NESC will 
utilize existing tools for traditional purposes, such as maintaining 
and enhancing specific discipline skills. Selected NESC members will 
receive formal training for independent assessments and mishap 
investigations. The NESC will also advocate improved training programs 
specifically engineered to affect System Safety Awareness in the 
workforce, including technical safety training based on NASA successes 
and failures (e.g. Lunar Landings, Space Shuttle flights, ISS 
construction, Apollo 1 fire, Apollo 13 hardware failure and response, 
the loss of crews and orbiters on, Challenger and Columbia flights,). 
Training resources available from other government organizations will 
be surveyed for application to the NESC.
    Annual Workshops: The NESC will sponsor an annual workshop to 
discuss processes for proactively identifying and solving engineering 
problems before they occur. While serving to publicize and record the 
accomplishments of the NESC, through papers and proceedings that 
document significant NESC activities, the workshop will also feature 
invited lectures and papers from non-traditional fields. In concert 
with the NESC training activities, the workshop will initiate and 
perpetuate the proactive identification of potential problems before 
they occur.
    Web site: In addition to the functions described in other sections 
of this plan, the NESC Website will provide a central repository and a 
tool for disseminating the periodic reports, lessons learned, training 
modules, and workshop proceedings outlined above.
Mishap Investigation
    The NESC may be requested to lead or support selected Agency mishap 
investigations. As such, Principal Engineers, and other key NESC 
employees, will be formally trained in mishap investigation. The 
Principal Engineers will lead most of the investigations that are 
conducted by the NESC. Mishap investigations will be performed in 
accordance with Agency policy and procedures.
Dissenting Opinions
    The NESC will cultivate an environment that encourages and seeks 
out dissenting opinions. In order to encourage this open environment, 
and to solicit alternative perspectives, the NESC will establish a 
disciplined process for addressing dissenting opinions. As a matter of 
practice, each independent technical review, assessment and analysis 
will seek out dissenting opinions for review and evaluation. These 
dissenting opinions will also be documented and dispositioned in each 
report and/or briefing.
Awards
    The NESC will establish NESC Awards, given periodically for 
outstanding technical achievement during independent technical reviews, 
assessments or analyses. In addition, the NESC will utilize existing 
Agency awards to reward and encourage the safety culture that the NESC 
is trying to cultivate.
Internal NESC Reviews
    Initially, it is anticipated that the Stafford-Covey Return-to-
Flight Task Group will review the NESC organizational and 
implementation concepts to ensure proper independence and 
implementation. The NESC will be subject to periodic reviews by an 
external organization to ensure proper independence is being 
maintained. In addition, the NESC will develop a set of metrics that 
will be used to monitor the organizations progress and effectiveness.

VII. Related Documentation

NESC Charter

NESC Implementation Plan

NPG 8621--Mishap Investigations Procedure and Guidance

NPG 8000.4--Risk Management Procedure and Guideline

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Not Culture But Perhaps a Cult

Wall Street Journal, August 30, 2003, Op. Ed. on NASA and the Shuttle 
by Homer Hickam

    At the end of the movie ``October Sky'' which was based on my 
memoir Rocket Boys, there is a dramatic launch of the Space Shuttle. 
The director of the film wanted to show the transition from my small 
amateur rockets in West Virginia to the huge professional rockets of 
NASA as a metaphor for my own transition from coal-town boy to big-time 
space engineer. The scene works wonderfully. When I was at the Venice 
Film Festival, the audience rose to their feet after this scene and 
applauded me while tears streamed down their faces. When I go to the 
Cape and watch the Shuttle being launched, I still get a lump in my 
throat watching it soar aloft. Even though I no longer work for NASA, 
its thunder affirms my dreams for space flight. Still, when I put 
emotion aside, I cannot ignore my engineering training. That training 
and my knowledge as a twenty-year veteran of the space agency (and also 
a Vietnam veteran) has led me to conclude that the Space Shuttle 
Program may well be NASA's Vietnam. A generation of engineers and 
managers have exhausted themselves trying to make it work and they just 
can't. But why not? I believe it is because the Shuttle's engineering 
design, just as Vietnam's political design, is inherently flawed.
    Much has been made over the report produced by the Columbia 
Accident Investigation Board (CAIB). I have since read newspaper 
articles that called the report ``scathing.'' Hardly. Its polite 
recommendations probably had Shuttle managers who made poor decisions 
dancing down their office hallways with relief. Essentially, it gave 
them a pass by proclaiming ``culture'' made them do it. It is an echo 
of the Rand Commission's study on the Shuttle Program produced almost 
exactly one year ago which also wrung its hands over the NASA culture, 
though with a different conclusion (turn the whole thing over to 
contractors).
    I do not believe there is a NASA culture other than a willingness 
by its engineers to work their butts off to keep us in space. It might 
be said, however, that there is a Shuttle cult. It is practiced like a 
religion by space policy makers who simply cannot imagine an American 
space agency without the Shuttle. Well, I can and it is a space agency 
which can actually fly people and cargoes into orbit without everybody 
involved being terrified of imminent death and destruction every time 
the Shuttle lifts off the pad.
    With some important reservations, the CAIB recommended to keep the 
Shuttles flying but with more inspections, more bureaucracy (an outside 
safety agency to keep an eye on everybody involved), and more money. 
But I think piling on more inspections and people and dollars won't 
make the Shuttle any safer. Neither will the safety sensitivity 
training that will be probably be dumped on top of already overworked 
and disillusioned NASA engineers. My God, they've already dedicated 
their lives, their very souls, to keep the Shuttle flying safely! The 
truth is no amount of arm-waving and worrying about ``culture'' can fix 
a flawed design. Every engineer knows a design that tries to bypass the 
realities of physics, chemistry, and strengths of materials by applying 
complexity will fail eventually no matter how much attention is given 
to it.
    Take a look at the Shuttle stack and what do you see? A fragile 
space plane sitting on the back of a huge propellant tank between two 
massive solid rocket boosters. The tank holds liquid oxygen and 
hydrogen and towers above the space plane. It is the foam off this tank 
that hit Columbia and knocked a hole in her wing. But why is there foam 
at all? Because without it, ice would form on the super-cooled tank and 
hit the space plane. But why would ice or foam hit it in the first 
place? Because of where the space plane sits. But why does it sit 
there? Because the Shuttle Main Engines (SME's) need to come back to 
Earth and therefore must be attached to the space plane to be returned. 
And why do the SME's need to be returned? So that they can be reused. 
And why do they have to be reused? Because, theoretically, it's cheaper 
to refurbish them than build new ones. Therefore, the space plane we 
think of as the Shuttle has to sit right in the middle of all the 
turmoil of launch because we once believed it would be cheaper to bring 
back those engines and rebuild them than to build new ones. That has 
not proved to be the case--far from it--but it has left us with a crew 
sitting in the most vulnerable position possible in terms of 
engineering design and safety. Simply put, had that space plane been on 
top of the stack, the destruction of Columbia would not have occurred 
because its wings would have been out of the line of fire. Challenger 
would probably not have happened, either. Had the space plane been 
above the explosion, it likely would have been able to punch out and 
glide back home.
    The flawed design of the Shuttle is all in its history and it's 
more than the way the stack is assembled. For instance, the Shuttle 
uses hydrogen fuel, the most difficult, cranky fuel there is. Hydrogen 
is the smallest atom in the universe and leaks through molecule-sized 
pinholes. When it gathers in an enclosed space (such as under the 
Shuttle stack on the pad), it's a bomb waiting to go off. Hydrogen 
leakages grounded the Shuttles for three months before Columbia was 
launched and scares a lot of NASA engineers to death. So why do they 
use hydrogen and all its cranky plumbing? Because the Shuttle's 
original designers had to wring the last ounce of performance out of it 
to haul those mains into orbit along with the heavy payloads that the 
Air Force demanded at the time (the Air Force long ago gave up on the 
Shuttle). And what about those solid rocket boosters, unstoppable once 
lit? They leave the crews with no choice but to hang on until they've 
wound down even if their space plane is being torn apart. They were 
added not because they were the best boosters around but because they 
were relatively cheap. If his engineers had brought my father something 
to dig coal as flawed in its suppositions as well as its design as the 
Shuttle, he would have chased them out of his coal mine.
    The odd thing is that the Shuttle was designed by great engineers. 
The problem is they were forced to fit their designs to fit what has 
proved to be an impossible concept, a chemically-propelled rocket ship 
that would carry humans and heavy payloads into orbit routinely, then 
land to be refurbished and sent aloft again within days. They also had 
to do it on the cheap. It was inevitable that a flawed design would be 
the result. In my second memoir, The Coalwood Way, I wrote about me 
always complaining about the past until Roy Lee, a fellow Rocket Boy, 
tells me to stop it because ``You can't beat history.'' And he was 
right even though, as I wrote, ``It placed my heart in the icy vise of 
truth where hearts tend to suffer.'' The heart of every NASA engineer 
suffers today in this icy truth: the Space Shuttle is an inherently 
flawed design and will destroy American human space flight if we don't 
get it behind us. It's nearly done it already.
    So what should be done? Let's get practical. We can't just shut the 
thing down instantly. History's got us by the throat. We need the 
Shuttle to finish the Space Station and to also keep the Russians and 
Chinese from dominating space. I for one am not willing to see that 
occur while we dither. Human space flight is important to this country. 
But I think the Shuttle is as safe as you're going to get it pretty 
much with what is in place today. Let's fire the managers responsible 
for Columbia (they are not difficult to identify) so as to warn the 
next crop they'd best be competent, put the toughest engineers we can 
find to be in charge of the program, fly the thing eight to ten more 
times over the next four years to finish the space station and meet our 
international obligations. Then let's close the program down in a 
controlled fashion and replace it with proven expendable launchers and 
a shiny new space plane. And, this time, put it on top.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
